<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                        APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman

C. W. BILL YOUNG, Florida        DAVID R. OBEY, Wisconsin
HENRY BONILLA, Texas             LOUIS STOKES, Ohio
ERNEST J. ISTOOK, Jr., Oklahoma  STENY H. HOYER, Maryland
DAN MILLER, Florida              NANCY PELOSI, California
JAY DICKEY, Arkansas             NITA M. LOWEY, New York
ROGER F. WICKER, Mississippi     ROSA L. DeLAURO, Connecticut
ANNE M. NORTHUP, Kentucky        

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  S. Anthony McCann, Robert L. Knisely, Carol Murphy, Michael K. Myers,
                and Francine Salvador, Subcommittee Staff
                                ________

                                 PART 5

                         DEPARTMENT OF EDUCATION
                                                                   Page
 GAO Statement for the Record on the Department of Education......    1
 Secretary of Education...........................................   15
 Elementary and Secondary Education, Bilingual Education..........  151
 Howard University................................................  253
 Special Institutions for Persons with Disabilities...............  299
     American Printing House for the Blind
     Gallaudet University
     National Technical Institute for the Deaf
 Special Education and Rehabilitative Services....................  385
 Vocational and Adult Education...................................  437
 Educational Research and Improvement.............................  477
 Office of the Inspector General..................................  521
 Postsecondary Education..........................................  555
 Office for Civil Rights..........................................  647
 Inspectors General Panel, Management Panel--Year 2000 Compliance.  687
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-490                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director





[Pages 1 - 13--The official Committee record contains additional material here.]






DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                         Wednesday, March 25, 1998.

                         SECRETARY OF EDUCATION

                               WITNESSES

RICHARD W. RILEY, SECRETARY
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We begin our hearings today on the budget of the Department 
of Education. We are most pleased to welcome Secretary Richard 
Riley, the Secretary of the Department of Education.
    Secretary Riley, it is very good to see you, and we would 
ask that you proceed with your opening statement. Then we will 
dialogue a bit.

                   Secretary Riley's Opening Remarks

    Secretary Riley. Thank you, Mr. Chairman and members of the 
subcommittee.
    I have with me Tom Skelly, my budget director, who, of 
course, has been with our Department or its predecessor for 
well over 20 years, and I am so proud of the work he has done.
    I am submitting my testimony for the record, if I might, 
and will make a brief statement.

             SCHOOL VIOLENCE--JONESBORO, ARKANSAS SHOOTING

    Mr. Chairman, I want to begin by expressing the shock that 
all of us feel. I know I speak for all of us, all of you on the 
committee and all of us here, about the tragic death of the 
four young people and their heroic teacher at Westside Middle 
School In Jonesboro, Arkansas, yesterday. My heart certainly 
goes out to the families, as I know all of you share that 
concern, and to the friends of the victims. Our prayers are 
with them.
    I know Congressman Dickey, you and I have discussed it, and 
it is especially close to you, being from Arkansas, though not 
from your district.
    This is unfortunately the fifth act of violence to occur in 
our Nation's schools in the last year and a half that has 
resulted in multiple victims. The violence in Pearl, 
Mississippi, and Paducah, Kentucky, is all too fresh in our 
memory.

                  SCHOOL VIOLENCE--NATIONAL STATISTICS

    This type of violence is something new and very disturbing. 
Between 1992 and 1994, there were 105 murders and suicides in 
our Nation's schools. 81 were murders, 19 were suicides, and 5 
were unintentional firearms deaths, with a total of 105. Only 2 
of these 81 acts of murder involved multiple victims. We now 
have had 5 incidents with multiple victims in a year and a 
half.
    I think we should be very cautious in jumping to any 
conclusions about our Nation's schools based on these isolated 
incidents. I do not think that we should speculate from these 
random acts of violence. We should do all we can to learn from 
them. That is why I have asked my experts on school violence to 
follow up with the President's request to work with the 
Attorney General, to look at all five of these recent incidents 
of violence involving multiple victims to discern whether there 
are any positive steps that we could take to prevent this kind 
of tragedy.
    For example, did any of the young people who committed 
these multiple acts of violence give any early warning signs 
that were ignored or dismissed? Are there any patterns in terms 
of these young people feeling isolated from their peers or 
families that led them to kill fellow students, and a teacher 
in this case? Are we taking away the lessons of this incredible 
tragedy? As we look at it, it is important to remember that 90 
percent of our public schools recently reported no incidents of 
violent crime.

                      SURVEY OF SCHOOL PRINCIPALS

    Last week, President Clinton and the Attorney General 
released a survey of school principals that told us that 10 
percent of our Nation's public schools reported some form of 
violent crime to the police last year. Of course, any act of 
violent crime is cause of concern and is too much, and this is 
why we have been working hard during the last 5 years to 
support schools in their efforts to curtail violence.

                          GUN-FREE SCHOOLS ACT

    The Gun-Free Schools Act that Congress passed at the 
request of the President in 1994 is one example of this ongoing 
effort. Several thousand young people have been expelled for 
bringing guns to school as a result of this legislation, and we 
will have new data in late May on the progress that has been 
achieved.

                       PREVENTING SCHOOL VIOLENCE

    I also think we need to step back and take a fresh look at 
what we are doing in terms of preventing school violence. We 
need to reflect on both the practical steps that we take 
immediately and look at the larger picture. Almost all schools 
have zero-tolerance policies for drugs and guns, but it may 
well be that some schools allow themselves to be lulled into a 
false sense of security. Violence, they assume, only happens in 
other schools or in big cities where gangs exist. Well, that is 
a very false assumption since guns are everywhere. The one 
thing we have to understand about that is that guns and young 
children simply do not mix.

                           DISCONNECTED YOUTH

    I am also troubled by the disconnection that seems to haunt 
some of our young people. That is something that I have said 
before, but it needs saying again. We seem to be drifting 
toward a new concept of childhood which says that a child can 
be brought into the world and allowed to fend for himself or 
herself. There is a disconnection that I think demands our 
attention.
    As a Nation, we really do need to slow down and tune into 
our children. Too many of them, even from good families that 
have all the trappings of middle-class America, are growing up 
disconnected, and they are not anchored to an adult or a family 
or a parent who can get them through the rocky times of life.
    When we see children killing children, can we say that we 
have listened to them with all due care? Violence is a language 
of sound that always captures our attention, but it is always 
too late. Whether we like it or not, America needs to look into 
the mirror and recognize that our culture seems to glorify 
violence. From television to movies to comic books to video 
games, violence is too often part of the daily life of the 
American child.
    As we think through this terrible tragedy, as we do, I urge 
all Americans to support our Nation's schools. This is not a 
time to walk away from our schools and throw up our hands and 
say that nothing can be done. When communities come together, 
parents, the faith community, business, just plain people, when 
they all come together, we rally around our schools and good 
things begin to happen.
    Children need connections. They need teachers and 
principals, but the teachers and principals cannot do it alone. 
The families, the entire community, has to be part of all of 
this connection, this connecting up for children.
    I heard on a radio program this morning a young student who 
was there in Paducah, Kentucky. They asked him, as we are all 
perplexed, what to do and where are we on these random acts, 
and his simple response, I thought, was rather profound. This 
young student, who was there at that incident, with all the 
sadness there, he said simply that the community needs to come 
together, and I think that is a pretty good description of what 
we are all trying to say, this connection, this community 
spirit.

                    FISCAL YEAR 1999 BUDGET REQUEST

    Let me now make three observations or a couple, really, 
primarily about the budget, very quickly, and then we willget 
on into questions, Mr. Chairman. I appreciate you letting me make that 
statement. I thought it needed to be said.
    My first observation is that the budget request before you 
continues our commitment to safety in our Nation's schools. We 
included funding to expand our After-School programs, to reach 
4,000 schools. We are requesting $50,000,000 to get many more 
well-trained drug counselors into middle schools. We are also 
seeking your support for the High Hopes Program that will 
connect 2,500 middle schools to colleges and universities. 
Young people who make good choices early on discover a purpose 
in life and then move forward. Young people in the middle-
school years are making first choices about their future, 
everything from going to college, to experimenting with sex, 
with drugs, with tobacco. This is a very important time for our 
children to tune in and for us to tune into them, to listen to 
them, to give them the connections that I spoke of at their 
early time in their middle years.

                         fy 1999 budget themes

    A second observation is that the President's overall budget 
request both on the discretionary and mandatory side is timely, 
I think, and needed. It would reduce class size, help build or 
modernize 5,000 school buildings, improve teacher quality, 
bring technology to many more classrooms, and give all 
Americans the financial support and information that they need 
to go to college.
    I cannot emphasize enough the fact that many of our schools 
are either overcrowded or are wearing out. They are crowded. 
They are outdated, in need of repair, and we need to build a 
lot more of them.

                  comprehensive school reform program

    Finally, I want to thank the chairman and Congressman Obey 
for your continued leadership in helping us to create new 
models to turn around failing schools. This budget, as you will 
note, includes a $30,000,000 increase in the Title I 
Comprehensive School Reform program that was launched last 
year, thanks to your initiative. Your leadership, and this 
increase will allow us to support 3,500 schools in their effort 
to accelerate change. I believe this program has great 
potential. I assure you that it has the strong support of the 
President.

                      education opportunity zones

    We also urge the Congress to approve $200,000,000 for our 
Education Opportunity Zones proposal, which would complement 
the Comprehensive School Reform program by joining forces with 
50 of the most at-risk school districts around the Nation. We 
want to help them put in place tough and district-wide reforms 
that adopt a no-nonsense approach to getting these school 
systems back on track.
    I think I will conclude there, Mr. Chairman, and go ahead 
and get into questions. I appreciate you letting me make that 
statement.
    [The prepared statement and biological sketch of Secretary 
Richard Riley follow:]


[Pages 19 - 28--The official Committee record contains additional material here.]



                             youth violence

    Mr. Porter. Thank you, Mr. Secretary.
    Let me say that the school violence that occurred in 
Arkansas yesterday and the previous terrible and tragic 
incidents that we have seen are of obviously great concern to 
Congress and to the members of this subcommittee.
    You said that you think we are becoming disconnected. I 
submit that I think we have been disconnected in our country 
since the 1960's, and, finally, we are beginning to recognize 
the value of family and trying to bring our families back 
together again and keeping them connected. I agree with you 
that the disconnection that you were talking about is certainly 
a cause for these kinds of tragedies occurring.
    Let me also say that you are exactly right that violence 
pervades much of our culture, whether it is on our TV sets or 
in our movies or on our news. It seems that the people that do 
marketing in our country have determined that we have an 
inordinate fixation on violence and feed us all that we seem to 
want, and more, in our society. Somehow we have to get in a 
free society some balance between the freedom of speech and the 
responsibility for some of the incidents that I think are based 
in much of our culture.
    Finally, let me say that these, I think, in each instance 
were gun crimes, and the ready availability of guns in America 
is clearly a part of this problem, even the ready availability 
in some of our States of guns to minors.

          school violence--targeting funds to problem schools

    You said in your opening statements that many of our 
schools have no violence at all. I think you said 90 percent, 
did you not?
    Secretary Riley. Serious violence.
    Mr. Porter. That 90 percent of our schools have no serious 
violence; that 43 percent of our schools have no crime 
whatsoever. Yet, our programs, to address violence in our 
schools, go to all of our schools. It seems to me that one of 
the things we might consider doing, because we spend a great 
deal of money in this area, is to target the money where it is 
most needed.
    I think we are past the era where we need to pass out funds 
to every single school district in America for this program or 
that or every constituency in America in order to get the votes 
to pass them. What we have got to do is put resources where the 
problems are and aim to solve those problems, or at least to 
alleviate the worst aspect of them.
    I would like to ask that your Department work with the 
subcommittee to try to do some targeting that will make the 
expenditure of funds much more meaningful and get to the 
problems and attempt to solve them. I think that has been a 
problem within the policy we have of addressing issues like 
this. It remains unresolved and ought to be addressed very, 
very forcefully, and I would like to work with you in order to 
do that.
    Secretary Riley. Well, Mr. Chairman, we certainly would 
welcome that opportunity, and I think that is called for, but I 
would point out that these last three incidents, these multiple 
killings which have been so tragic, have been in schools where 
probably none of us would have anticipated any difficulties 
whatsoever.
    In the heavy urban areas, on a percentage basis, you have 
more violence occuring than you do in the rural areas 
generally, but these random acts that are so hard to deal with 
in terms of public policy, really happen in different kinds of 
places. These three that have been so tragic over the past 
period of time really have been in schools that have been 
relatively violence-free and safe and would not be anticipated 
to be troublesome.

                  school violence--national statistics

    Mr. Porter. Perhaps you could provide for the record some 
of the statistics that deal with that issue where violence has 
occurred in our schools, whether it is in inner cities, 
suburban areas, or rural areas. That would provide us, I think, 
some guidance.
    I am certain you cannot anticipate every act of violence, 
but, certainly, the acts of violence occur more frequently in 
some areas than in others. It seems to me, once again, that 
some degree of looking at where the problems are and trying to 
address them in a targeted way makes a lot more sense.
    Secretary Riley. We will do that, and we have some verynew, 
very good information that I will supply to you, and then we can all 
work on it together. I think that makes good sense.
    [The information follows:]


[Pages 31 - 32--The official Committee record contains additional material here.]



               regulatory burden--impact on college costs

    Mr. Porter. Mr. Secretary, let me talk about higher 
education for a moment. Terry Hartle, the vice president of the 
American Council on Education, hardly part of the vast right-
wing conspiracy, recently wrote a strong criticism of the 
regulatory burden imposed by State and Federal governments on 
higher education.
    In the Chronicle of Higher Education, he cites the 
president of Stanford University who indicates that 12.5 cents 
of every tuition dollar goes to support compliance with Federal 
and State regulations, and the amount increases each year.
    To quote from Dr. Hartle, ``The panoply of Federal 
regulations applicable to colleges includes those dealings with 
Medicare, Medicaid, occupational safety, control of hazardous 
substances, clean air and water, intercollegiate athletics, 
wages and salaries, equal opportunity, affirmative action and 
gender equity, graduate rates, campus crimes, student financial 
aid, access for the disabled, confidentiality of student and 
patient records, care of humans and animals in research, 
indirect research costs, historic preservation, and conflicts 
of interest,'' and that is just a sample. The preliminary list 
of regulations affecting higher education filled three single-
spaced pages.
    Two questions, Mr. Secretary. Isn't it true that most of 
the increases we have provided for Pell grants, work-study, and 
other student aid has gone to tuition increases caused in part 
by regulations cited by Dr. Hardle?
    Dr. Hardle also indicates that the Department does not take 
seriously its mandate to negotiate rules in order to understand 
their impact. Sadly, he states, the agency regards the 
requirements to negotiate as a legal hoop to jump through, 
rather than as an opportunity to minimize the regulatory burden 
while still reaching its public policy goals.
    What is your comment on this indictment from an 
organization that historically has been one of your strongest 
supporters?

                         regulations reduction

    Secretary Riley. Well, I think that is an observation that 
calls for an analysis, and I would say that most of the 
regulations in the higher education field are related to 
statutory laws.
    We have worked hard to try to simplify and reduce 
regulations since we have been here. Over 2,000 pages of 
regulations have been reinvented, simplified or eliminated. Our 
paperwork burden has been trimmed by 10 percent, translating 
into 5,400,000 fewer hours for students, schools and others. So 
we are sensitive to the issue that you mention.
    We are trying to make some changes. Of course, one thing is 
we did not put SPREs in, as you recall. That was a very 
important debate that we had. SPREs would have meant a lot more 
regulations. However, there was some good justification for 
that.
    Some of the regulations, for example, regulations 
concerning defaults in student loans are necessary. If we had 
no regulations for default reduction, if the Congress was not 
serious, if we were not serious about that, the default rate 
would not be anywhere as positive as it is. As you know, the 
default rate has come from 22 percent down to below 11 percent. 
That is regulations. That reduction in loan defaults is a 
result of tightening up on those matters.
    We are looking at other ways to relax the stringent 
regulations. Of course, when you have money involved, you do 
have to have certain regulations. We are looking at a 
performance-based approach in terms of oversight in our student 
financial aid. So I think some of our approaches will help.

                            electronic FAFSA

    Another thing, Mr. Chairman, that we have done is we put 
the big higher education application for student loans, the 
FAFSA, on line, to create the electronic FAFSAs. The FAFSA is 
the big form we send out, and we have made it available via the 
Internet. A large portion of those are coming in 
electronically, saving an enormous amount of paperwork. So we 
would like to move further in those directions, and we are 
trying to do that.

          student aid increases--impact on access and tuition

    Mr. Porter. There is a tangential question about tuition 
absorbing all of the increases in aid that we make in higher 
education. In other words, could you tell the subcommittee, 
based on recent increases, for example, in Pell grants, whether 
we are getting greater access to higher education through that 
process or whether it is simply being absorbed in tuition 
increases and really not increasing the number of students who 
can access higher education?
    Secretary Riley. Well, I think I can certainly safely say 
that the significant increases in Pell that have occurred over 
the last several years--and this subcommittee has been very 
actively involved in that--have made an enormous difference. I 
do think that most colleges and universities now are really 
being very cautious and careful about tuition increases. 
However, there was a period of years where they were enormous, 
and I am very hopeful that our increases in student aid are 
really increases for the student and nothing else.
    I think everybody is watching that now, too. I think when 
we do things like create the HOPE scholarship, and provide 
increases in Pell, all of us are concerned--and we had those 
same questions last year; namely, is that going to mean 
inflation of tuition? I think as far as our observation at this 
point, it has not. I do not think that it will. There are 
always some legitimate increases for the effect of inflation 
and other reasons, but I do believe that the students are 
getting a significant benefit from those things that we have 
all done together, and I am very, very pleased for that.
    Mr. Porter. Well, historically, the rate of increase in 
tuition has been far greater than inflation, and a lot of the 
increases in programs have been absorbed with tuition 
increases. Obviously, I am happy to hear that you think that 
that has leveled off and that it really is getting more access 
for students, which is what we obviously intended for the money 
to do.
    Mr. Obey for an opening statement, and then your questions.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Secretary, I apologize for being late. I have been busy 
screwing up a few other things before I got here.
    Secretary Riley. I know the feeling. Go ahead.

               opening remarks of ranking minority member

    Mr. Obey. I am happy to welcome you here, even though it is 
belatedly. As you know, I regard you as one of the very best 
members of the President's Cabinet. I must say I have been 
increasingly distressed by what I see as the increased 
politization of education in this country and the increased 
tendency to approach education from a political theology 
standpoint rather than from the standpoint of simply what 
works. I admire the fact that you have been able to resist that 
in the way you have conducted your business.
    I also appreciate that the President's budget makes quite 
clear that his priority is to put education first above all 
other issues.
    I wish I could say the same thing was happening in the 
Congress. If we take a look at what is happening with the 
highway bill, that pork-laden monstrosity which is working its 
way through this place, it is an incredible budget-buster to 
the tune of over $25,000,000,000 in the Senate and 
$30,000,000,000 here. When you couple that with the Senate 
action and the budget resolution, it is quite clear that the 
intention of the Congress apparently is to put concrete ahead 
of kids, and I hope that the President will continue to resist 
that.
    We see some other priorities as well that seem to be placed 
ahead of kids these days, but I hope you will pursue your 
initiatives because I think they can make a big difference for 
the kids we are supposed to care about.
    Let me also say that last year, in spite of everything, we 
had a good bipartisan year in dealing with the appropriations 
process, and I hope that we can continue that this year. That 
is the only way that we get good things done, and that is the 
only way that anybody looks good. I know that is your desire as 
well.

           impact of budget resolution on education programs

    I would like to ask you a few questions about the budget 
that appears to be developing. The budget resolution reported 
out by the Senate majority last week provided for programs 
funded by this committee at less than a freeze level, about 
$1,000,000,000 in budget authority less than current services, 
and $1,600,000,000 less than the President's budget.
    I would simply like to get your comments on the impact of 
those budget reductions. If the Budget Committee in the House 
were to follow suit and follow the similar strategy, what 
education priorities do you think would be put in jeopardy?
    Secretary Riley. Of course, the basic items that we propose 
to be funded, the pressing national needs that the President 
has attempted to propose in a sound sensible way, would be 
affected. The Class-Size Reduction Initiative, which, of 
course, would go with the tobacco settlement, and I know there 
is some controversy on that, but that was his proposal as a way 
to fund it, the School Construction Initiative, of course, the 
Education Opportunity Zones. The other measures, After-School 
Learning Centers and so forth, we think are very critical 
national priorities that might be affected. As you know, we 
have tried to reduce programs where we could. We have 
recommended termination of some 64 programs since we have been 
here to try to make those budget decisions make some sense, to 
really key in on those national priorities.
    That is my initial reaction. Do you have any specific----
    Mr. Obey. Well, I am simply concerned about what the Senate 
budget resolution, if adopted by this side, could mean not only 
for the President's Class-Size Reduction and his School 
Construction Initiatives, but also the squeeze that it might 
place on Title I, Eisenhower teacher training, Pell grants, and 
the like.
    Secretary Riley. I have not reviewed that, but let me ask 
Tom Skelly to respond. If you would, Tom?
    Mr. Skelly. Mr. Obey, if we assume that there was a freeze 
on education funding coming before this subcommittee, you would 
not have the $392,000,000 increase in Title I that the 
President proposed. You would not have the increase of $100 in 
the Pell grant maximum grant, which is going to cost us 
approximately $300,000,000. You would not have an increase of 
$160,000,000 in the After-School Learning Center program.
    As the Secretary said, you also would not have any of the 
new initiatives proposed, like the Education Opportunity Zones, 
which will serve urban and rural areas. So there will be a 
number of critical national needs that you would not be funding 
if you were not allowed to increase spending on education 
discretionary programs.

          estimated effect of fy 1999 senate budget resolution

    Mr. Obey. I would appreciate it if you would take a closer 
look at the Senate budget resolution and either submit for the 
record or give me a memo on what you see being squeezed out 
potentially in the educational area, if that proposal is 
pursued.
    Secretary Riley. We will do that.
    [The information follows:]


[Pages 37 - 41--The official Committee record contains additional material here.]



                    class size reduction initiative

    Mr. Obey. With respect to your initiative on Small Class 
Size, I know that it is not technically before this committee, 
but I just have one comment and one question. In my own State, 
our State legislature has pursued on a bipartisan basis, with 
the State Superintendent of Public Instruction, a program 
called Project SAGE, which is Student Achievement Guarantee in 
Education. It is, as is the President's initiative, an effort 
to get additional teachers into the classroom in the first 3 
grades.
    While the evaluation of that program has only been 
preliminary, it appears that students who are the beneficiaries 
of a smaller class size, indeed, are performing better than 
their counterparts who are not.
    I would hope that you would press that vigorously. I think 
it is really important. I would simply ask you because this 
concern has been raised, how would your Class Size Initiative 
avoid some of the problems that are being encountered in 
California's Smaller Class Initiative? Because their experience 
apparently in some instances has been negative. Whereas, in 
Wisconsin, it appears to have been quite positive.
    Secretary Riley. I think it is very important if you 
attempt to reduce class size. Now, understand our proposal is 
just grades one, two, and three, and it is for teachers tohave 
special expertise in reading, but it is not a 1-year deal. That is 
where you really get into a problem. It takes time to recruit teachers, 
to develop teachers, to prepare them. Our proposal is a 7-year 
proposal, and it does involve at least 10 percent of the funds which 
would be spent for those purposes.
    Then it impacts construction, and, of course, we have a 
proposal on construction because we think that is important. If 
you have smaller classrooms, you need more space. You have this 
enlarged enrollment, all of these impact on the construction 
side of things.
    So we have, we think, a balanced approach of smaller 
classrooms over a 7-year period and the enhanced incentive for 
new construction and for modernizing construction, all of which 
we think complement the general idea.
    Now, some States are working to decrease class size, like 
California and like your proposal there. I would point out that 
our proposal, Congressman, is very flexible, and while we talk 
about grades one, two, and three, of course, if your State or 
California has a classroom size down to 18 for grades one, two, 
and three, they can either reduce class size further in those 
grades, and, usually, 15 to 18 is very valuable, very helpful, 
where you can have independent help for students, or they could 
go up to grade four or down to kindergarten. They have lots of 
flexibility to work the program within those parameters.
    So, by being flexible and by having a time frame of 7 years 
and encouraging recruitment and so forth and by construction, 
we think that we have in a complementary way headed off some of 
the problems.

               comprehensive school reform demonstrations

    Mr. Obey. The last question is on comprehensive school 
reform, which this committee initiated last year, on a 
bipartisan basis. I am curious to know what response you have 
gotten to date from States and what kind of response you think 
the States, in turn, are getting from local school districts.
    We just had a very successful 2-day outreach effort run by 
the State Superintendent of Public Instruction in Wisconsin and 
had a massive response. At one site, we had well over 200 
people show up from different school districts, at another site 
almost 300, to try to determine for themselves which models 
they were interested in pursing or modifying. I am curious as 
to how that initiative has been responded to so far.
    Secretary Riley. Well, I think the response is very 
significant. In the first year, of course, people have to 
become aware of these opportunities. We have tried to do all we 
could to make them aware, and the response, then, is very 
exciting to me.
    It is amazing, when you have a failing school or a school 
that is not performing like you would like for it to perform, 
what a great option this is for the school. As you know, the 
approach is a school-based approach, with the opportunity to 
have design teams come in and help the local people to decide 
how they want to reform and improve and get more involved in 
their own school. It is just the right thing to do. When people 
get into that, it makes the school the center of the 
community's activity, and it brings the best people in America 
to advise local people on how they themselves can best reform 
and improve their schools, working with the principal, the 
teachers, and all involved.
    So my reaction to that is that our response has been very, 
very strong, and it is getting stronger by the day. It is 
exciting to me to see schools that are involved in self-
improvement. What a difference that makes.
    I said in my statement earlier that I appreciated that very 
much.
    Mr. Obey. All right. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Obey.
    Mr. Dickey.
    Mr. Dickey. Thank you, Mr. Chairman.

                  school violence--jonesboro, arkansas

    Before my time starts, may I say something about the 
Arkansas situation?
    Mr. Porter. You may.
    Mr. Dickey. Secretary Riley, I appreciate very much your 
comments about Arkansas. I happen to know one of the teachers 
there. She is an advisor to my Education Council, and I know we 
are all in a state of shock. I appreciate what you said about 
the community. I do not think we can take the responsibility 
nor the guilt of what is happening or what happened in Arkansas 
or the other States and other schools, but we need to direct it 
toward the families. I am convinced that what is in the hearts 
of our kids is what the problem is. We must do something about 
it. So I appreciate your comments.

         early childhood development--mississippi delta region

    What progress, Secretary Riley, has the Department made 
toward implementing the Early Childhood Development Project for 
children with disabilities in the Mississippi Delta region?
    Secretary Riley. Well, Senator Bumpers, of course, brought 
that question up when I testified in the Senate and has written 
me, too. I know it is something that you are concerned with.
    It is my understanding that the subcommittee put in some 
$600,000 yesterday as a direct appropriation. As you know, the 
program is set up as a competitive program, and we had to 
handle it as a competitive program. Certainly, if you all carry 
through with that, it would take care of that part of it.
    They are really requesting--in Senator Bumper's letter and 
I am sure it's your opinion, too, more funds than that, and I 
have a very good feeling about the project. I think it is a 
fine proposal, but it is under our Special Education and 
Rehabilitation Services Office. It is a competition, and I do 
not know whether the $600,000 is sufficient for them to 
function, but we would certainly welcome a further competition 
and would offer any kind of technical assistance we could to 
the applicant, but the request was larger than the normal 
applications of that kind. That is why we were having trouble 
with it.
    So, frankly, if you all wanted it funded and made it very 
clear, then that makes it clear to us. So I do not disagree 
with that action.
    Mr. Dickey. Secretary Riley, I want to ask you further 
about that. What you have done is you have required us to 
earmark it or specify it. If that is what makes it through this 
bill, then you will do it.
    The Mississippi Delta region, of course, includes Arkansas, 
and it is one of the most impoverished areas in the Nation. I 
am worried, as I think Senator Bumpers--although I have not 
talked to him directly--is worried, that you might not have a 
priority, that this might not be a priority in your system, and 
that is why we have--you have asked us to earmark it.
    What I am saying is that I do not think we should be 
directing the education policies, anyway, but this committee 
should not be telling you what to do. Now you have almost 
prompted us into doing it. Why is that? Do you have some doubts 
about the effectiveness of this project?
    Secretary Riley. Well, it is my understanding that in the 
competition that we have announced, average grants will be 
about $150,000 a year. That is just the nature of this 
particular competition. Of course, $150,000 a year from what 
you and Senator Bumpers and others have told me is not near 
enough to fund this project. But we also expect to have another 
competition in personnel preparation to which they could apply, 
I guess in addition to this $600,000.
    So I think if you provide the $600,000 this year, then we 
would certainly have another competition that they could apply 
to that would provide more money, and we could help you with 
technical assistance. I think we could work together to try to 
get up to the $1,800,000 if we enable them to get the other 
funds under the other program. I would welcome trying to work 
with you all to do that. We think it is a good program, and I 
do not want to say anything but that.
    Mr. Dickey. Maybe I am not understanding something here.
    In fiscal year 1998, the House and the Senate reports, and 
the statement of managers of the conference committee, all said 
that $1,800,000 was to be spent. Now, was it spent or not?
    [The information follows:]

        Funding for Easter Seal Project in the Mississippi Delta

    At the time of the hearing, the Department had plans for 
using all Special Education National Activities funds available 
for fiscal year 1998, including $1,800,000 mentioned in the 
Appropriation Report Language. However, a subsequently enacted 
supplemental specified that $600,000 of these funds must be 
used for support of the Early Childhood Development Project of 
the National Easter Seal Society for the Mississippi Delta 
Region. The Department's plans were revised to reflect funding 
for this specific project and funding for planned awards will 
be reduced accordingly.

    Mr. Skelly. The competition we have, Mr. Dickey, under that 
section will be, as the Secretary said, for average grants, of 
about $150,000 each.
    We will have another competition in the personnel 
preparation area which will provide for larger grants, as large 
as $600,000, and we are doing that.
    Mr. Dickey. When will this be done?
    Mr. Skelly. After meeting with staff and members on both 
sides, we are thinking about----
    Mr. Dickey. Mr. Skelly, did you spend the $1,800,000? Are 
you in the process of doing it?
    Mr. Skelly. We are still in the process of----
    Mr. Dickey. You are not holding any back?
    Mr. Skelly. No, sir.
    Mr. Dickey. Well, I just want you to know that we think in 
Arkansas this is important.
    Secretary Riley. Yes. We do, too.
    Mr. Dickey. And we would like to have more than $600,000, 
and I will be trying to get as much as I can earmarked if that 
is what we have to do.

                       national voluntary testing

    I am interested in finding out the status of the national 
testing debate that took up so much of our subcommittee's time 
at the end of the last session. What sort of steps has the 
Department taken to develop these proposed national tests?
    Secretary Riley. Well, the national test, has been moved 
under NAGB [National Assessment Governing Board], and NAGB 
then, as I understand it, is proceeding to develop the test in 
accordance with everybody's understanding. The 1999 request 
from FIE, which is under our research wing, is about 
$15,000,000 for the continued development of the voluntary 
national test, fourth grade reading and eighth grade math, and 
the evaluation that is following with that.
    So that is still in process. The NAGB reauthorization is 
coming up right now, this year, and, of course, that is when 
you would be involved in deciding the future of what NAGB 
should do and not do. So that will be before you this year.
    Mr. Dickey. There has been no national testing that has 
taken place in the last year?
    Secretary Riley. There has been national testing, but it is 
sample testing that we have always done, the NAEP [National 
Assessment of Educational Progress] test, but individual tests, 
no.
    Mr. Dickey. How much sampling?
    Secretary Riley. Sampling, we have always done lots of 
that, as you know. We do that in different grades, in different 
courses, and I can give you a complete breakdown of all that, 
but that has been done for years. Of course, that was one of 
our arguments about having the individual tests. It is that we 
were taking the NAEP sample test and making it where an 
individual could take it, so the parents and the teacher could 
know if a child could handle the very basics of reading and 
math in those critical ages.
    Mr. Dickey. I am going to submit the rest of my questions 
for the record, but I had one last one.

                         federal trio programs

    Secretary Riley. Okay.
    Mr. Dickey. I have historically been very supportive of the 
Federal TRIO programs. I have been informed that recent 
evaluations commissioned by your Department have indicated that 
the intensity of TRIO programs has eroded, and this erosion 
affects the quality and impact of services. Can you tell me 
what you plan to do to reverse this erosion?
    Secretary Riley. Well, we are constantly evaluating all of 
the programs, and in those evaluations, we have good things and 
other observations to make.
    The TRIO programs generally work very, very well, and you 
do have to constantly be attentive to ensure they continue to 
work well, and we are constantly watching that as we work with 
TRIO. We have recommended an increase in TRIO for the 1999 
budget. We strongly support what they are doing, and we think 
they are doing a very, very good job, but we do constantly have 
to be careful to make sure the TRIO programs do what we want 
them to do in terms of making progress.
    Mr. Dickey. Thank you, Secretary Riley. It is good to see 
you.
    Secretary Riley. Good to see you.
    Mr. Porter. Thank you, Mr. Dickey.
    The Chair would advise the members of the subcommittee that 
we are currently operating under the 8-minute rule, and I have 
asked the Secretary if considering the delay in our starting if 
he could stay later. He has assured me that he can. So we will 
plan for a second round.
    Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman. I want to 
join you and my colleagues in welcoming Secretary Riley here 
this afternoon and thank him for his great leadership on behalf 
of the children of America.
    It is clear, you are one leader who is sending a very 
consistent message to the children. We tell them that education 
is important, and, yet, we neglect their needs in terms of 
education. We send them to school in buildings that are 
environmental hazards and have them in overcrowded classrooms 
in many instances, but your message is clear. Education is 
important, and we are going to reduce the size of your class 
with school construction and supplying more qualified teachers, 
so that we can have schools where teachers can teach, children 
can learn, and parents can participate. Parents participating, 
I think, has been the theme of our chairman's questions earlier 
about what happened in Arkansas yesterday.

                  school violence--jonesboro, arkansas

    I earlier today extended my condolences to my colleague, 
Mr. Dickey, and my colleague, Mr. Barry, who represents 
Jonesboro. Let us hope that of the shots that rang out in 
Arkansas, one of them will be a shot heard around the country 
that we absolutely have to change the atmosphere in which young 
children could be killing other children with guns.
    So many times here, people tell us guns do not kill people, 
people do. Well, who is responsible when the person who kills a 
person is 11 years old or 13 years old? Certainly, right now 
our hearts and our prayers are with the parents of the children 
and the teacher who very courageously, as you mentioned, tried 
to save the lives of even more children; but after the first 
few days of this, we have to look to some parental 
responsibility. How did these children have access to this 
arsenal of weapons that they used on other children?
    I am so pleased that President Clinton last week focused on 
this issue, following up on some other unfortunate incidents in 
our country, but as I said before, hopefully this shot will be 
the one heard around the country that puts an end to it forever 
more.
    It is a tragedy beyond comprehension when our children are 
killing each other. Children should not have to be afraid to go 
to school, and I commend you and the Clinton administration for 
the initiatives that you have already taken and now are even 
more important.

                     bilingual education rescission

    Mr. Secretary, as far as the budget is concerned, I was 
very disappointed yesterday that the full Appropriations 
Committee voted to rescind $75,000,000 from FY 1998 
appropriations for bilingual education to fund the supplemental 
appropriations. Although the issue of bilingual education is 
currently being hotly debated, especially in my State of 
California, cutting funding for bilingual education does a 
great disservice to students who need it to learn English 
quickly and well in order to achieve high standards.
    What will be the impact of this $75,000,000 rescission?
    Secretary Riley. Well, it would be very serious, and I was 
really somewhat perplexed by the decision yesterday to rescind 
the $75,000,000 from bilingual education funding.
    Bilingual education was one of those issues in last year's 
bipartisan budget agreement that was supposed to be agreed to, 
and it was in that protected zone in that agreement. That, we 
felt was part of the agreement, and I think it was.
    The decision comes here, though, in the middle of the year 
when we are just finishing a review of hundreds of grant 
applications, and if this cut stands, then we would be forced 
to cancel 73 of the 671 projects that are scheduled to receive 
awards next month. Those people are planning on that funding, 
and that is part of an ongoing program. It would affect some 
142,000 students. I urge the Congress to step back from that 
decision. I do not think that bilingual education should become 
a political football right in the middle of the year like that. 
I think that if there are issues to be decided, they should be 
decided in the right course of time.
    This rescission would cut teacher training, for example. 
Bilingual teacher training is vastly needed out there. That is 
a very important part of serving LEP children, limited English 
proficient children, to ensure they have the kind of education 
under the law they are entitled to have, are supposed to have, 
and should have.
    It would lower $25,000,000 in teacher development, teacher 
training, down to $5,000,000, $25,000,000 to $5,000,000, and 
that would be a real mistake.
    These are competitive grants programs, and we never have 
near enough money to cover the demands that are out there, just 
a small piece of the demands.

                      local flexibility of choice

    This year, it is the same. I think school districts really 
ought to have the option to choose a bilingual program that 
suits their specific needs. Kids are different. In some areas, 
one thing works well. In some other areas, other things work 
well, but we think that the local school district ought to have 
the option to choose those things in bilingual education, and 
when they do, to have funds cut off in this fashion would be 
very troublesome for them and for education in those areas.
    Ms. Pelosi. I appreciate your putting that impact on the 
record.

                             unz initiative

    Unfortunately, in California, we have an initiative on the 
ballot called the UNZ Initiative, which will eliminate the 
right to native language instruction and mandate a one-size-
fits-all approach to teaching English and to limited English 
proficient students.
    If that initiative passes or if the school board decides to 
exercise its State-authorized flexibility to deny the provision 
of native language instruction, will the Department of 
Education still authorize local education agencies to use Title 
I or Title VII funds to provide native language instruction or 
support services?
    Secretary Riley. We are now looking at the UNZ Initiative. 
The administration is not ready yet to make its judgment on it, 
but will be relatively soon. You are asking about the impact.
    I will say this. Probably, a fourth of the applications in 
the competition we get from California would qualify under the 
UNZ provision at this time, and a lot of people do not realize 
that, but the programs vary. We are very careful about 
evaluating the applications and making sure they are doing what 
they say they are going to do in this competition.
    So we certainly would comply with the law whatever that is, 
but certain numbers would qualify under the present competition 
that comes in.
    Ms. Pelosi. Do we know what percentage that is?
    Secretary Riley. It is about 25 percent.
    Ms. Pelosi. Oh, about 25 applied to that. Okay, thank you.
    The President's--was that a beachhead, or is that too late?
    Mr. Porter. Well, you are getting awfully good at starting 
on the sentence, with one second left. No, go ahead.
    Ms. Pelosi. Well, I will make this a quick one. Thank you, 
Mr. Chairman.

                    interagency research initiative

    The President's budget includes new funding for an 
Interagency Research Initiative. Can you describe the types of 
research activities that will be included? Can you tell us why 
such funding was not proposed within the existing programs, 
such as that of the research centers and regional education 
laboratories?
    Mr. Skelly. Ms. Pelosi, the $50,000,000 initiative would be 
an interagency effort between the Department of Education and 
the National Science Foundation and National Institute of Child 
Development, and would focus on things like development of the 
brain and the way young people get ready to go to school.
    The program would be authorized under existing legislation, 
but we felt it was important to give focus to it, and that is 
why it is requested as a separate initiative.
    Ms. Pelosi. I appreciate that. Thank you very much, and 
thank you again for your leadership, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Pelosi.
    Mrs. Northup.
    Mrs. Northup. Thank you.

               divergent approaches to educational change

    Welcome, Secretary Riley. First of all, I want to thank you 
for the strong interest that you all have in education. I do 
believe that the Department of Education is very dedicated to 
our children and to education. I also believe there are a lot 
of ideas out there, and I am always so sorry--and I do not 
direct this at you--that we seem to get into wars--maybe it is 
because of the passion we have for our children--about anybody 
that thinks differently about what works and what does not work 
is anti-education.
    I really feel that over the course of raising six children, 
some that have learning disabilities, and being on the House 
Education Committee in Frankfurt, Kentucky, for 9 years, that 
my ideas evolved. They changed. Some of the things we did, did 
not work. Some of the things, I think, people thought were 
crazy when they suggested it. It turned out to be more right 
than I originally thought they were. It just seems a shame to 
me that we are so quick to decide that there is only one way to 
be right.
    Certainly, within this Congress, there are some differences 
about what is the best way to improve education. It is 
important that we do not say about those people that disagree 
with us that they are anti-education and are wrong. We do not 
know what is right, as a matter of fact. We have not figured it 
out yet.
    I am convinced in this country, we would spend any amount 
of dollars possible and come up with any program possible if we 
really knew that it would solve the challenges that we have in 
education.
    With that said, I have to put in my point that I really 
believe, and several times here today you have said, school 
districts should be free to choose, and how important it is 
that parents and communities be involved. It worries me that we 
are moving pretty dramatically in this budget to a federalized 
sort of view of what education would look like; that we will 
further constrain local communities, parents, teachers, those 
people in that community, in that school, from exercising their 
best judgment, and being able to support what is their view of 
how to improve their child's school.

          class size reduction and teacher training initiative

    In particular, let me raise the question of teachers and 
the fact of the 100,000 new teachers in the schools. You 
pointed out that some States have already moved to pretty 
substantially appropriate more money for more teachers in those 
classrooms. So are we saying that they can take their block 
grant and maybe invest where they have not invested, like in 
technology? No. We are saying that they can go to fourth grade, 
they can move it down even lower, but they still only can spend 
it the way the Federal Government says they can spend it, and 
that is on teachers.
    This does not pay the full price of the teachers. It pays, 
as I figure it, maybe half, maybe less for each new teacher you 
put in the classroom. So you are not only failing to recognize 
that, say, Indiana that has already invested in new teachers 
that they would have to only take their money to further hire 
more new teachers, but that they would have to match it with 
more of their individual money in order to get that money. So 
they are either going to be Indiana taxpayers that pay their 
taxes and derive no benefit from this enormous increase, or 
they are going to spend it in a way that less meets their 
needs. That is not the only area, but that is sort of the most 
glaring new example.
    Secretary Riley. Well, generally, your remarks, as you have 
observed, I agree with, and I do strongly feel, and as you have 
heard me say before, that local school districts and States 
ought to control how we teach and what we teach and all of 
that.
    I do think there is a very important Federal role to 
support the education in this country and to try to then,yes, 
have some purpose for the funds we send down, but then to leave the 
general ideas about how they teach and the control of teaching on the 
State and local level.
    So what my general idea is about the Federal role is that 
it is a role in support, as a partner, but not in control. As 
you indicate, when you have a general purpose, some might call 
that control. Construction, for example, we would propose then 
to have the bonds for construction, modernization, for repair, 
for new buildings. Those decisions are local, but it would have 
to be in the general area of construction.
    On classroom size, the average size in America today is 
about 22 pupils per teacher for K through grades one, two, and 
three and what our proposal would do, then, is to bring that 
average down to about 18.
    Now, you are right in that all States are different, and 
you can make that argument, certainly. In California, where 
they pushed it down to like 20, that is their big California 
initiative, and, I mean, it is a major undertaking and it has 
been difficult, but I think it has worked a whole lot better 
than it has the problems. That is a State decision.
    This would help them get it on down to 18 or 17 or to move 
into another grade or whatever. The design would have to 
generally address the purpose of getting fewer pupils per 
teacher, but be very flexible in how they do it.

               CLASS SIZE INITIATIVE MATCHING REQUIREMENT

    Mrs. Northup. What percentage of the cost of each teacher 
would you expect that this would cover?
    Secretary Riley. It is a match.
    Mrs. Northup. It is a match.
    Secretary Riley. He said 50 to 100 percent.
    Mrs. Northup. I thought it was 90 to 50--50 to 90. I do not 
think it is 100.
    And is that salary, or does that include their benefits?
    Mr. Skelly. That is a rough estimate, with benefits, also. 
It varies by district.
    Mrs. Northup. I mean, are we going to set those salary 
rates? In other words, are we going to pay more for a teacher 
in California because their pay scale is different than maybe a 
teacher in Indiana because of their pay scale?
    Secretary Riley. The Title I formula is how it goes down to 
the State, and then the State handles the division within the 
State. There are certain protections for those large poor 
areas.
    Mrs. Northup. Am I right? Does it start at 90 percent and 
then go down to 50 percent? So the teacher that Kentucky hires 
today is going to start at 90 percent. It will not be too much, 
but in 5 years, they are going to pay 50 percent. No? I thought 
it was on a decreasing basis over the 5 years.
    Mr. Skelly. The money actually builds up over 7 years. We 
do not get to the 100,000 teachers until----
    Mrs. Northup. Right.
    Mr. Skelly [continuing]. 2005, and it would step up. I 
think it would still vary by State how they use the money they 
are getting, their share of the money on the Title I formula. 
So a poor State, maybe it can afford to get more teachers for 
the amount of money.
    Mrs. Northup. Again, I just want to point out that there 
seems to be the effect, and I get the complaint all the time 
from the superintendents, that what they get is a little bit of 
money, but then it forces them to spend more money. It takes 
less choice away from them, gives them less ability to focus on 
what are the unique needs this particular school has.
    Maybe some of them need tutoring services. Maybe other ones 
need extended day programs. Maybe other ones need to extend the 
school year by 3 weeks. In many schools, that would be a big 
help, and what we are doing is taking those choices away from 
us.

               COMPREHENSIVE SCHOOL REFORM DEMONSTRATIONS

    I want to point out another particular example before I run 
out of time. Is the comprehensive school reform that we passed 
last year--I heard, Mr. Chairman, you and our ranking committee 
members, stand on the floor and say over and over that this is 
going to come from each school; that they are going to look at 
the model that means the most for them, but it has been--the 
guidelines have been written so that the States would have the 
ability to decide how to weigh the applications that come in. 
Clearly, from what Mr. Obey said, there is not nearly enough 
money for everybody that applies. They can provide weight based 
on certain models. So you almost ensure that whoever is 
applying for this has to apply for the model the State chooses, 
rather than what that group of parents, that group of teachers, 
and that community believes is essentially needed for that 
community. So you take away the very thing we talked about as 
being the major example.
    Secretary Riley. Well, our guidance that goes out to them 
makes it clear that they can have locally developed models; 
that they are eligible for support.
    Mrs. Northup. But it also says----
    Secretary Riley. It does, and let me finish because you are 
right about that. They do say they must integrate the nine 
components of the comprehensive reform program in a coherent 
way with well-researched and well-documented designs, but it 
does permit them to have locally developed models.
    Mrs. Northup. Mr. Secretary, I am actually talking about 
page 11 on those guidelines, where it says that the State is 
allowed to weigh the applications on a certain model that the 
State identifies as a choice. If I have to compete, I am going 
to be 1 to 10 schools that is going to get it. You know what 
that almost says is I will not have enough points if I do not 
go----
    Mr. Porter. Will the gentlelady yield on that?
    Mrs. Northup. Sure.
    Mr. Porter. It was our intention, Mr. Secretary, that 
although the money goes to the States, that the community, the 
school district--not the school district--the schools----
    Mrs. Northup. Right.
    Mr. Porter [continuing]. Get to choose what model they felt 
was best for their institution, and if the regulations are 
written otherwise, we would say those are not in accordance 
with my understanding, at least, of what the comprehensive 
school reform was intended to do for the individual school.
    Secretary Riley. I will take a look at that, Mr. Chairman. 
I am informed that it is in the report language, generally 
referenced as the nine components, but I will look at that and 
see. It is our thinking that our guidance is consistent with 
the statutory provision and the report language.
    Mr. Porter. Could I suggest, perhaps, that you and I and 
Mrs. Northup and Mr. Obey get together on this and see----
    Secretary Riley. Absolutely.
    Mr. Porter [continuing]. That we are tracking in the same 
direction?
    Secretary Riley. Sure. We will do that.
    Mrs. Northup. Thank you.
    Mr. Porter. Thank you.
    Secretary Riley. We will do that.
    Mr. Porter. Thank you, Mrs. Northup.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much, Mr. Chairman, and I join 
my colleagues, Mr. Secretary, in welcoming you and thanking you 
for your extraordinary leadership for our Nation's children.

             SCHOOL VIOLENCE--FINDING LESSONS AND REMEDIES

    I do want to say that I share the views of my colleagues in 
expressing our shock and the fact that we are all deeply 
saddened with the tragedy in Arkansas, but I am very concerned 
that if we look at this as a freak incident that just happened 
there, we will not look for appropriate remedies.
    In fact, if I recall, when a similar tragedy occurred in 
Scotland, after a period of soul-searching, there was a ban on 
handguns. Given the proliferation of violence in our society, I 
feel very strongly that we similarly have to take decisive 
action. Unless we take this action, children will continue to 
die, whether it is in Arkansas, in New York, or another city.
    When we look at what is happening in our schools, unless we 
recognize this and take this action, I am concerned that we are 
just fooling ourselves, frankly.
    I saw a recent study, a survey actually, comparing life and 
school for a youngster to what it was like in the 1950's. I 
remember going to school, and this study listed the 10 most 
serious infractions, pushing another child, getting out of 
line, chewing bubble gum, spitting at another child. It is a 
little different today, and I think we have to recognize it and 
take that action that is necessary.
    With regard to stopping the violence and working with law 
enforcement officials, it is not the job of the Education 
Department to enforce safety in our Nation's streets, but out 
of necessity, the Department has found itself in the position 
of enforcing safety in our Nation's schools. Could you explain 
to us how you are working with the Department of Justice 
cooperatively, jointly, and with local law enforcement 
officials to address the increased gun violence in our schools, 
and are the schools really equipped to deal with gun violence?

                      VIOLENCE PREVENTION PROGRAMS

    Secretary Riley. Well, of course, we are working hard to 
enforce the zero-tolerance policy for drugs and weapons, and I 
do think that has had an effect in a large way.
    The Gun-Free Schools Act has had a positive impact, I 
think, in expelling young people who have brought guns to 
school, and we will have new data available very soon on that.
    The President announced last week a $17,000,000 program 
from the COPS program that is now available to help schools 
improve their safety policies. We want a four-fold expansion of 
our After-School program to keep young people connected and 
safe and out of harm's way. I do think that the After-School 
program is so effective. As we all know, that is when so many 
of the youth crimes occur and youth victimization. So that is 
another thing that we are pushing for, the expansion of the 
After-School programs.
    Two of our programs, Safe and Drug Free Schools and 
Communities, and Character Education, both support peer 
mediation and conflict resolution. Those kinds of efforts 
probably, perhaps, do more good than all of the other things 
put together, if you can really have young people think about 
conflict and methods of resolution.

                   ANTI-VIOLENCE TELEVISION MESSAGES

    I am glad to see that during this basketball season that 
they have had these ``squash it'' ads on TV; that if you are in 
a violent situation and someone is challenging you and having 
some well-known sports figure say squash it and walk away and 
that is what takes strength--if we could have young people 
really seeing their role models that are great sports figures 
saying that is what you should do, I think those kind of things 
can make a big difference.
    I think our society, though, has somehow got to stop 
glorifying violence. You see it every time you turn on the 
television, or in what you read and in everything you see about 
you--you see violence in the theater or wherever. I do not know 
exactly how to cope with that, but, certainly, parents and 
grandparents and neighbors need to make sure they do their 
part, and not think that teachers and principals out here in 
the school can really be the only parties to make violence not 
occur. That is, generally, some of the main things that we are 
doing, and I feel hopeful that some of it is making a real 
difference.
    Ms. Lowey. I appreciate your response because I feel so 
strongly that all the problems of our society converge on our 
schools, and then the school is supposed to solve them all. I 
agree with my colleague, we have to think long and hard about 
what we can do to enforce policies, to provide programs that 
help families, that strengthen families, that support families, 
and you have provided an excellent segue.

                         AFTER-SCHOOL PROGRAMS

    As you know, I have been a strong advocate of community 
schools and, After-School programs. This committee last year 
provided $40,000,000, and I am optimistic that we will provide 
the $200,000,000 that the President requested in this year's 
budget. It certainly is a positive response to the crime and 
violence that you see on the TVs, in the movie theaters, 
glorifying teenage sex, and if we can provide constructive 
programs after school, this certainly makes a lot of sense to 
me.
    I also believe that the extended learning time will improve 
the children's academic skills. So this is also very important.
    I understand that the deadline has now passed to apply for 
these grants. Could you share with the committee the level of 
interest expressed in the $40,000,000?
    Secretary Riley. Well, we had enough money to fund around 
400 programs, and we had around 16,000 people inquiring about 
it. Of course, people realized, right quick-like, that it was 
just a small number that were going to be able to receive 
funds. We had around 2,000-plus applications. I mean, there is 
an enormous interest in real constructive, meaningful After-
School programs.
    What parents want, as you know, and I appreciate that, they 
want their children to have the opportunity to have academic 
work and supervised athletics and computer activity and arts 
and music in the afternoons, things that they would enjoy 
doing, but certainly strong activities with academics. Where 
those things are out there and where they are working actively, 
it certainly makes a big difference. I strongly agree with you 
that After-School programs, we should really move in that 
direction.
    Ms. Lowey. I just want to emphasize--because my colleague, 
Steny Hoyer, could not be here today, but he has been a strong 
advocate, as I have, of comprehensive or full-service schools. 
These are buildings that can serve the entire community, and we 
should be using them. After-School programs are a veryimportant 
part, as far as I am concerned, of the youngsters learning.
    In fact, that is a good segue to another area. I was 
delighted to see, Mr. Secretary, that Senator Lauch Faircloth 
introduced a school construction amendment--I see my time is 
up--and I am hoping that we can get strong bipartisan support 
for this. I think, as we work to rebuild our schools, making 
sure they are safe, making sure they are adequate, we can then 
expand the many uses that really will help strengthen a 
youngster's education.
    I thank you, Mr. Chairman, and I thank you, Mr. Secretary.
    Mr. Porter. Thank you, Mrs. Lowey.
    Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    It is wonderful to see you again today, Secretary Riley, 
and thank you so much for the work that you do. Bless you for 
the work that you do.

                school violence--urban and rural problem

    We have all in our own way expressed our feelings and are 
troubled by the violence in Arkansas. Our prayers are certainly 
with the families. This is hard to understand. How do you 
account for an 11-year-old and a 13-year-old deliberately 
bringing children out and then shooting them? It is hard to 
understand.
    I got a article today from my district, from New Haven. A 
gun-toting city boy, 13, nabbed on a bus, found with a 
semiautomatic rifle. He did not get to the school, but there 
was a tip that this youngster had a gun and they got him in 
time before something happened.
    Not too long ago, in a rural part of my district, a high 
school in a suburban area, a youngster with a knife stabbed two 
or three kids. So it is a city, it is a New Haven issue, it is 
a rural issue. So the violence is there. It may be a small 
part, but it is there.
    What troubles me is that violence begets violence. If you 
have an atmosphere in which kids are in school and they feel 
threatened, then they are going to respond to those threats.

                   school violence--finding solutions

    I spoke with my colleague, Marian Barry, who represents the 
Jonesboro area. The Yale child study, as you know, has a 
portion of what they do that works with children who are 
victims of violence and who witness violence. Dr. Steve Marins 
is right now on his way to Arkansas. He has been called in by 
the Justice Department to go down and join the team down there 
to try to work with the kids and with their families.
    You talked about peer mediation, conflict resolution. I 
think we have to have a portion of what we are doing in 
education today, and we need to take a look at resources for 
conflict resolution, before we deal with the environments and 
the circumstances.
    We tried to address these issues through an anti-crime 
youth council in my district. We had about 125 kids brought 
together, specifically talking about school violence, how they 
deal with each other. It was interesting to listen to the kids, 
especially when they spoke about what to do if you know that 
somebody has a gun or a knife. What is your obligation? What is 
your responsibility as another student to say something? And 
each of them came from diverse areas.
    One young woman said, a young white woman--she says, 
``Everybody in my school looks like me. There is not anything 
diverse about my school. We knew this kid had a knife, and 
nobody said anything. The result was that he wound up stabbing 
someone. We were at fault,'' but they are scared. They are 
scared in terms of ratting out someone and being stigmatized 
with that. This is a problem which we have to grapple with in 
our schools or the environment because that is where it plays 
out.
    Mrs. Lowey is right. There is violence in every part of the 
society that gets played out for our youngsters in schools, and 
we need to take the time. We need to deal with the resources to 
figure out how to get kids to interact with one another, learn 
to respect one another, learn to respect the diversity and find 
out what is going on in their lives that is causing some of 
these problems. I think that has got to be a part of what we 
deal with here.
    I did not mean to make a speech, but it really is--it is so 
troubling to watch some of this, and to see the pressure that 
our youngsters, our kids are under in some of these 
circumstances, and we need to help them work it through.

                   whole school reform demonstrations

    I want to just ask--because there have been questions asked 
about the whole school reform, and Jim Comer, as you know, has 
been dealing with this issue for a long time. When looking at 
this whole school reform and who is allowed to do what, when 
you are putting that material together, as quickly as you can, 
who is taking advantage of this opportunity and what the 
particulars are, I, too, would like to get information of how 
whole school reform is working.

                         after-school programs

    In terms of After-School programs, do we have any idea of 
how this is going to work yet or how it is going to proceed, 
who is eligible, who makes the determination for the 
programming or anything like that?
    Secretary Riley. Well, it is primarily, of course, a 
school-based program, and they have options, of course, of 
contracting with others. A percentage of it, 10 percent, is 
proposed to be set aside for community-based organizations. It 
is basically a school program, and we think that is really 
important. The school facilities are there, as you pointed out. 
That is a place that we are really trying to move, towards a 
center of the community where families go and people are 
involved in their school.
    The idea is emphasizing those things that I mentioned--and 
we have talked to parents. We visit schools all around the 
country, and those are the things they want. They want the 
computers. They want music and the arts. They want supervised 
athletics or sports or dancing or whatever, along with 
academics. As long as you keep those kinds of things as the 
focal point, they seem to work very, very well.
    The important thing is really getting these young people 
engaged and thinking well of themselves rather than, as I said 
in my statement, being disconnected. After-School programs can 
go a long way to do that. After you get out of the regular 
school routine, you have those kind of school-driven After-
School experiences we are trying to emphasize with this 
program; you all approved the $40,000,000 last year and we have 
requested $200,000,000 this year. We have emphasized, as you 
know, middle school, which we think is so important. You have 
After-School programs going on in a lot of elementary schools 
now. In some cases, it is done very well. In some cases, it is 
not.

           mott foundation support for after-school programs

    One thing that is interesting, in response to your 
question: the Mott Foundation came in from Flint, Michigan, and 
they have committed $55,000,000 to make sure that applications 
were well thought out, and then that theimplementation is done 
properly. They have had meetings around the country, and there are 
overflow crowds. People want to learn how to do it right. They are 
going to have an After-School program. It is not just spending time 
there. It is not that. I am so pleased. Here is a private foundation 
giving $10,000,000 a year for 5 years-plus, and the purpose of the 
money is to make sure the programs do, as you point out, what they are 
supposed to do, and that is to engage young people, to help them 
academically and to help them grow.
    So we feel very good about that. When Mott had these 
announcements, I mean, the interest was just overwhelming. 
There are so many people who want to come in and find out about 
these programs. So I think it is on a very good track.
    Mr. Porter. Thank you, Ms. DeLauro.
    Ms. DeLauro. Well, in the urban setting, if you will, for 
dealing with conflict resolution and peer mediation, as I said, 
you can include that as a way in which to deal with some of 
this, rather than the emphasis being on the metal detectors. 
And I am not saying that we do not have to have those. We do, 
obviously, but the hardware of it, rather than those kinds of 
things which get at the whole issue, the self-esteem and self-
confidence and how you make people understand diversity among 
the students and respect for each other, that is----
    Secretary Riley. I think that is a big part of it, and, of 
course, our Safe and Drug-Free Schools program that you all 
funded and that we have requested for funds for again this year 
as an increase. These programs really deal directly with that 
issue during school, and certainly after school, too.
    Mr. Porter. Thank you, Ms. DeLauro.
    Mr. Bonilla.
    Mr. Bonilla. Thank you, Mr. Chairman.
    Secretary Riley, it is good to see you.
    Secretary Riley. Thank you, sir.
    Mr. Bonilla. Mr. Skelly, as well, is always front and 
center with a smile on his face, I see. It is always good to 
see you, too, Mr. Skelly.
    Mr. Skelly. Thank you.

                parental responsibility and involvement

    Mr. Bonilla. I want to start out, Mr. Secretary. I know 
there has been a lot of comment today about the Arkansas 
tragedy, and oftentimes people in public office stand up and 
say, well, we need to do more at our level. Quite frankly, I 
think there is a void that exists at the local level. There is 
a school district, for example, not in my district, but near my 
district, near the Mexican border in South Texas, where they 
had a drug counselor come in recently. I met this counselor 
because he came to my daughter's school and we talked to him at 
that point. He said he went to do a seminar for parents one 
night, for example, and this is just a microcosmic example of 
what I think the problem is. Some people--cynics had said do 
not bother to come here, we are not going to have any parents 
show up, they are not concerned about the drug situation, and 
there is a drug problem in this school district.
    At 7 o'clock that night, the counselor shows up with the 
principal, the assistant principal. By 8:30 that night, there 
is still just the counselor, the principal, and the assistant 
principal. No one showed up.
    I do not know what it is in this day and age where parents 
somehow think that someone else has taken responsibility for 
their kids and whether it is in terms of their health care, 
their education, their car seats, their after-school care, and 
somehow they do not have to worry about it. I do not know what 
has caused this culture to exist in so many homes.
    Quite frankly, Mr. Secretary, I am not here to tell you I 
know the answer, but I do not know if you have a suggestion on 
how we can get a better connect with teachers and parents and 
kids to all work together to keep an eye on their kids. I think 
that is the void that exists out there that is leading us down 
this road to tragedy.
    Secretary Riley. Well, you put your finger on a very 
serious part of these kinds of tragedies.
    One thing about the drug counselors, we have recommended 
that for middle schools, that they really get some active 
programs going, in terms of getting middle school parents and 
students active and interested in the drug situation. General 
McCaffrey thinks that is a very important thing for the middle 
schools. So I hope that comes to pass, and I do believe that is 
going to be an active program there.
    As you know, I spend as much time on parent involvement 
issues as anything, and our special partnership for parents 
which has grown to be several thousand members--it started out 
with 45. We now have practically all of the denominations, for 
example, and corporations and community-based organizations, 
and so forth, involved in this partnership. They have come out 
with some very, very interesting things. We have a network, 
then, that feeds back out into these groups.

                employer support for parent involvement

    For example, one of the areas is dealing with employers and 
how employers can have policies to enable parents to spend more 
time with their children in school or to go to teachers 
meetings and those kinds of things.
    Mr. Bonilla. Could I stop you for one second, Mr. 
Secretary? Because that time factor, in my view, is something 
that the parent has to decide whether their employer--well, the 
employer can be a hindrance, but in 99 percent of the cases in 
this country, I am seeing mothers flooding the malls, spending 
hours on end looking for Beanie Babies, and I see the people 
concerned that are at the box office worrying about ``Titanic'' 
tickets. Then they go home and watch Jerry Springer. Then they 
are saying they do not have time to go to the drug counselor. 
So I am not convinced--that is why I stopped you on that 
point--that there is some need somewhere else to bring more 
time in the day for a parent to do it. As you know, a parent 
who cares is going to get it done.
    Secretary Riley. Well, I think that is a good point that 
you make, and everybody is different. Times are different. An 
awful lot of parents, both of them, work, some early in the 
morning until 7:00 or 8:00 in the evenings, and I think that is 
right common throughout the country although, that is not 
everybody.
    The problem is, though, having lunch with your child, for 
example, which a lot of people think is very important, to 
start getting these connections, for the parent to meet the 
teacher, know the principal, know the other parents of the 
children, and some of those things that happen in the middle of 
the day. You do need some cooperation and some sensitivity on 
the part of the employer to help with it.
    Most employers are very willing to do that. I think they 
realize that an employee that wants to spend time with their 
children in school is generally a good employee.
    Mr. Bonilla. I think that, generally, you do see the 
employers that are cooperative. It is a rare thing and a bad 
thing when an employer says, ``No, we cannot let you do that.'' 
Most of them are interested in doing that.
    I need to move on because the clock is ticking. I want to 
make a comment here, just a concern, because I want to move 
onto bilingual education.

             funding new initiatives versus proven programs

    I am just concerned about one of the priorities in 
administration spending on new initiatives in education. They 
may be good ideas in some cases, but my concern is to not 
forget--and I know you alluded to TRIO, for example--some of 
the programs you are proposing increases in are good, but my 
concern is some of these programs need additional help. I just 
want to emphasize, let us not forget the ones that are working, 
like TRIO, that are having a great impact on communities out 
there, just so we can fund some new programs that are unproven 
yet.
    So I just want to make that comment, and because we are 
running out of time, unless you feel compelled to say anything 
about that----
    Secretary Riley. No, I understand that, and I generally 
agree with you that those things that are working--and, of 
course, we do recommend an increase in TRIO, as you know.
    Mr. Bonilla. I know you do. I just would like to see a 
little more emphasis in some of these programs like TRIO, and I 
appreciate your comment.

                  bilingual education funding increase

    I want to talk about bilingual education because that has 
come up lately, not only with the appropriations package we 
dealt with yesterday, but in some communities, Spanish-speaking 
communities in particular. A lot of parents are rejecting the 
program in this day and age. It has attracted quite a bit of 
controversy.
    The administration is proposing to increase a bilingual 
education program, once again, and I have supported 
transitional programs historically on this committee. I do not 
have a problem with that, but as you noted on page 4 of your 
testimony, the biggest increase lies in the doubling of the 
bilingual educational professional development account.

                  effectiveness of bilingual education

    My question is: Do you believe that the current bilingual 
program is working, and what real results do you have to show 
the subcommittee on how the current bilingual education program 
is working?
    Secretary Riley. Well, I dealt with that a few minutes ago, 
and I think it was before you were here, Congressman, but in 
answer to your question, I think when you have good bilingual 
teachers--and that is why we are so interested in helping with 
professional development and to really prepare teachers--and 
Spanish, of course, is a predominant one, but there are others, 
as you well know, in Asian languages and so forth.
    When you have good bilingual teachers that really are 
educated in how to handle bilingualism and diverse student 
bodies and so forth, in my judgment bilingual education clearly 
works and works well.

                   local choice in bilingual programs

    Now, you can have bilingual teachers and programs that do 
not work well, just like you can have everything else that does 
not work well. Children are different. Teachers are different. 
Communities are different. The big thing, we think, is to have 
local people in the local community have the choice of whether 
or not they want to make bilingual education available or not, 
and available for some students and not for others.
    I have all kinds of interesting ideas that come to me. One 
young bilingual teacher told me in California recently that he 
thought that for students who were born in America that not 
much bilingual time is necessary and should not be, and for 
those who emigrated into this country, they should have lots of 
time to move into it. So you have all kinds of different ideas, 
people who really want to help LEP children learn English. The 
whole purpose is to learn English, as you well know.

                   national academy of sciences study

    Now, the recent study on reading that just came out, the 
National Academy of Sciences, really made it very clear that a 
young person who thinks in Spanish really can learn in Spanish 
and read in Spanish, and that helps them, then, be able to 
transfer over into English, that there is some real advantage 
from a research standpoint to mastering their first language, 
in a sense, as they move into the other language.
    You have different research. You have different ideas. I 
think local teachers, local people should have those kinds of 
options, and that we should help them make their choices as 
successful as possible.
    Mr. Bonilla. I know my time is up, and in the spirit of 
what you just said, I just want to ask you that in the closing 
time to please look seriously at an effort that Congressman Tom 
DeLay is undertaking right now to turn bilingual education 
decisions entirely over to local districts, perhaps in the form 
of block grants that we could help them fund, but in light of 
the fact that we have Eastern Europeans, we have Asians, and 
Hispanics, and people from all over the world that have 
different dialects and languages all over the country, I think 
your comments about giving that control back locally to the 
districts is one that is the spirit of the Tom DeLay 
initiative, and it is something that is not finalized yet, the 
bill, but I think it is something to please take a good look 
at.
    Thank you, Secretary.
    Secretary Riley. Good. Thank you.
    Mr. Bonilla. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Bonilla.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Secretary, let me take just a moment to concur with all 
of the accolades that have been accorded you by my colleagues 
relevant to your outstanding leadership in the field of 
education. I think all of us are proud of the job you do, and 
it is always a pleasure to welcome you to our subcommittee.
    Secretary Riley. Well, Congressman, I thank you. I would 
say in all sincerity we are going to miss you around here, too, 
and you have done a wonderful job. We are all grateful for 
that.
    Mr. Stokes. Thank you very much.

               third international math and science study

    Mr. Secretary, let me start out by asking a little bit of 
what you see as we peer into the year 2000 and beyond, the new 
century, the new millennium.
    In your formal statement before us, you talk a little bit 
about the Third International Math and Science Study, of which 
U.S. twelfth-graders out-perform their counterparts in only 2 
of the 21 participating countries in math and science. We know 
already that the next century will be the most highly 
technicological society known to mankind. However, when you 
look at the results, of this international testin the context 
of the situation that exists within our inner-city schools, 
particularly those schools with high concentrations of minority youth, 
there is further cause for concern. If the more affluent students in 
this country, those who are taking the Third International Math and 
Science tests are doing poorly, then you know that the high 
concentration of minority youth in our inner-city schools are 
experiencing even greater difficulties when it comes to passing State 
proficiency tests and other similar exams.
    Many schools are still under court-ordered desegregation. 
These same schools are plagued with the full range of problems 
related to the lack of money provided for elementary and 
secondary education over the years.
    Talk to us a little bit about how this country is going to 
compete in this highly technical society in the year 2000 and 
beyond.
    Secretary Riley. Well, Congressman, let me speak to the 
TIMSS study, the Third International Math and Science Study.
    Mr. Stokes. Sure.

                 american student performance on timss

    Secretary Riley. As you well know, in the fourth grade, we 
did very, very well. We were second only to Korea in science in 
all of the countries tested, and this does not just include top 
students. This is all students. This is students in the inner 
city and in the rural areas and rich and poor students alike.
    So it is a real scientific coverage. It is a sample test, 
but it is a scientific coverage of American children and all of 
the other countries. In the fourth grade in math, we were way 
above average. So, in fourth grade, we are way up there, and I 
think that is very interesting.
    The standards that we have talked about and worked for, I 
think, are really having a strong effect in those early years, 
and that is when you can really get in there early and work 
with young people, but all of our fourth-graders are very high 
in the world in math and science. That is important.
    In the eighth grade, then, we begin to fall off, and as you 
well know, we are then average in eighth grade, just barely 
above average in science and barely below average in math.
    In the twelfth grade, we drop on down. While we were better 
than only two countries in the study, we were part of a group 
of countries that are close in that range, but there is no 
question that twelfth grade was down.

              role of expectations in student achievement

    Why is that? Well, the TIMSS study indicates that along 
about the middle school years, we do not really have the 
expectation of our children that other countries do. What our 
children are taking in math and science in about the eighth 
grade, children in a lot of these countries are taking in the 
seventh grade, even though over the last 10 or 12 years, we 
have pulled up almost a grade level in math and science. We do 
a whole lot better now than we would have done 11, 12, 13 years 
ago. However, everybody else is pulling up. Everybody sees the 
point that you make in the question, that for jobs of the 
future--of the new millennium, all of that math and science is 
going to be very critical.
    So the TIMSS study says along about the eighth grade and 
seventh grade, where 100 percent of the kids in Japan take 
algebra in the eighth grade, only 20 percent of our kids take 
algebra, that is beginning to increase, and should increase to 
100 percent. Then, going into high school, a lot of our 
teachers are teaching out of field in math and science, and 55 
percent of our physics teachers are teaching out of field.

                     teachers teaching out of field

    You ask somebody--I did the other day--somebody from Europe 
about how many teachers they had teaching out of field in 
science. They said, ``I do not know what you are talking about. 
We do not have any teachers teaching out of field.'' So we have 
got to prepare teachers better. We have got to track more young 
people to teaching in math and science and get those teachers 
in there teaching in their field, for example, people who 
finished in math should be teaching math and so forth.

                 need tougher courses earlier in school

    Then, our students just are not taking those tough courses 
like they are in other countries, and that really shows up in 
the twelfth grade. If they have not had calculus, if they have 
not had trigonometry, and, of course, algebra and geometry they 
are not prepared. They should have these courses in school 
early. By the twelfth grade they should have taken physics and 
chemistry and trig and calculus. Our kids are just as smart. We 
show that in the fourth grade, and we need to then make sure 
the systems that are out there will expect more from children, 
have teachers who are better prepared. It is not the teacher's 
fault because they just put a body in there to have a class.
    So I think we know kind of what we need to do, and we need 
to proceed to get about doing it, and we will have a wonderful 
entry into the new millennium.

                  charter schools and voucher systems

    Mr. Stokes. As a follow-up, let me ask you this. As you 
know, I represent Cleveland, Ohio, one of our major American 
cities and one of the cities which has a high concentration of 
public school students. There is a new movement, across the 
country, in support of education vouchers. Along with it, of 
course, is also the entity known as charter schools.
    Has the Department of Education conducted any studies of 
charter schools and the voucher systems to ascertain what 
impact, if any, they are having on the inner-city schools and 
the public school systems?
    Secretary Riley. Well, a number of studies have taken place 
and are taking place. Really, both of those two concepts are 
probably too new to get any real significant longitudinal 
information out of them, and it is usually mixed.
    The fact is, as I was talking about taking tough courses a 
minute ago, I do not care if you are in a voucher system or the 
private school or in a parochial school or in a public school, 
if you have taken calculus, you do right well in calculus, and 
if you have not taken it, then you do not do as well as 
somebody who has taken it. So it is a lot more important what 
kind of counseling and advice is given to the student and what 
opportunities there are within the school than probably these 
other matters.
    As you know, I have never felt that vouchers were a good 
idea. I really think when you have a failing school, you should 
get in there and use the Porter and Obey concept to try to 
reform the school, to do what you can to make it better. If you 
cannot, and you try and do all of those constructive things, 
then close it down and start over again.
    Charter schools are within the public school system. We 
think that is a very good option for public schools to have; 
but they are no panacea. They might be wonderful or they might 
be poor. So it is very important for the school board to be 
very careful about the charter and who has the charter and so 
forth. They are performance-based, based on results rather than 
regulations, and it frees them up a lot to try different and 
new things, and it encourages a lot ofinnovative and creative 
thought and competition within the public school system.
    So we think those are local decisions. They are not our 
decisions, but we think the charter school is a good option for 
school boards to have. We think vouchers, by carving off a few 
students to go off to some school that is a private school, 
does nothing to improve the failing schools, and it is a non-
solution to that problem. I do not think it is a good idea, and 
that is my position.
    Mr. Stokes. I appreciate your candid assessment of that.
    My time has expired, and I appreciate your responses.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes.

                    federal investment in education

    Mr. Secretary, when I became a member of this subcommittee, 
Terrel Bell was the Secretary of Education, and shortly after 
that, Secretary Bell issued a Nation-at-Risk and warned about a 
rising tide of mediocrity in our education system.
    It has been almost 10 years since George Bush declared 
himself to be the education President and convened a summit at 
Charlottesville that produced goals for improving education by 
the year 2000, including that 90 percent of students would 
graduate from high school. Students would leaves grades 4, 8, 
and 12, with a demonstrated competence in basic subjects, and 
the United States would be first in the world in math and 
science.
    You described a minute ago, in response to Mr. Stokes' 
question, that we certainly have not achieved that last goal, 
although there is some hope that improvement might be coming, 
and I wondered if you can tell us where we are after overall 
spending for education has gone up significantly in this 
country. It has gone up in per-pupil expenditures. It has gone 
up in real terms. It has gone up in every measurable way, and, 
yet, we seem to be a long way from where we had hoped to be at 
this point in time, and a lot of people wonder whether we are 
getting any value for the money that we spend in terms of 
results for our students.
    Secretary Riley. I think, Mr. Chairman, that those with 
public responsibilities need to be able to respond to those 
questions. They are very legitimate questions and should be 
asked.

                higher expectations and standards needed

    By the same token, we have to look at education as 
something that is very large and very difficult to measure in 
terms of a particular child compared to the whole mass of 
students out there.
    Some children just do wonderfully well, as you well know, 
and soar through the system. I think we need to have higher 
expectations of all children. I think that is one of the 
critical needs out there, and I am talking about early 
expectations. We can't wait until the child is in the eighth 
and ninth grade and then all of a sudden tell them, ``Well, you 
are going to fail. You cannot move forward,'' whatever. I am 
talking about young children who need to realize that they have 
got to get serious about their education.
    I do not favor social promotion. I think they ought to be 
informed. If they have not learned the material, they need to 
learn it before they move forward. We need to have higher 
standards. We need to be more serious about higher standards.
    I think when you look at our money that we spend and we 
analyze those things an awful lot, that the preparation of 
teachers is so important. I think we really do need in the 
reauthorization of higher education that we are involved in 
right now, Title V dealing with teachers--I think that is one 
area that we need to provide as much help for as we can.
    When you look at where our money goes, the great portion of 
our money, of course, goes to special needs like disadvantaged 
children, disabled children, and so forth, and young children. 
If you look at Title I, for example, I think around 70 percent 
of Title I money goes to elementary school children. If you 
look at other programs, the Federal investment, when you think 
about it, is primarily for young children, and some, of course, 
for students in high school, but mostly young children.
    Then you look at what is happening in the TIMSS test, for 
example, that I just discussed with the Congressman. We are 
doing very well, fourth grade. So I think we can make an 
argument. You can take those arguments and work them any way 
you want to, but I think you can make a very legitimate 
argument that while the Federal dollars are going down to the 
States and the local school districts and they have the control 
of education, that these are support systems that our dollars 
certainly are going into an area where we are doing better.
    We need to improve a lot, and we need to continually 
evaluate that. As you know, I am very strong on assessment and 
to really know how we are doing and to let people know if they 
are doing poorly and to do something about it. That is the 
reform effort, why I like it so much, that you all have come 
forward with.
    So I think you can make a pretty good argument, though, 
that where we are putting our dollars, we can show some real 
improvement is taking place, but not enough. We need enormous 
improvement in middle school and high school and certainly 
across the board. We are not improving fast enough anywhere.

          top-down versus bottom-up education funding approach

    Mr. Porter. Mr. Secretary, there are a lot of people, and I 
am not one of them, that believe that through one measure or 
another, whether it is special savings accounts for education 
or education vouchers or the like, that we should really kind 
of pull out of public education and put our resources in 
another place.
    In my area, public education is wonderful, as you know.
    Secretary Riley. Yes.
    Mr. Porter. Our students, for the most part, do outstanding 
work, but there are many people that think just the opposite 
and that we should move in the opposite direction. I do not 
think we are going to do that.
    You mentioned a minute ago that we have been spending our 
money--the traditional Federal programs had been for the 
disadvantaged, that is, economically disadvantaged, for the 
disabled, for minorities, for federally impacted schools, and 
in some cases for national priorities like math and science, 
but this administration has changed direction a bit on those 
kinds of things, staying with those, but adding some that have 
broad application such as school construction, national 
testing, smaller class sizes, after-school hours, education 
technology, and others that are much broader in application.
    There is this raging national debate that goes on as to 
whether it should be top-down or bottom-up. Can you tell us in 
your opinion what is wrong with bottom-up? What is wrong with 
simply giving more flexibility to local schools to use the 
money in the best ways that they see fit, or should we 
emphasize these top-down approaches that we think galvanize 
support nationally for education, but may not really be very 
effective?
    Secretary Riley. Well, Mr. Chairman, I think that, 
generally speaking, you have to have both.
    I think to look at the block grant issue, which is purely 
giving money down with no instructions basically and letting 
all that feed up from the bottom, there are a lot of reasons I 
think that is not a good idea, and I will be glad to discuss 
those, among them being the fact that over half of the States 
now have challenges to their tax structure--in terms of equity 
financing--in the State courts. So you are having numerous 
issues worked out in the States about the unfairness, the 
inequitable financing of education, which is a very real issue 
in many, many States, if not most States.
    I think it is a very complicated problem, then, to dump 
more Federal money onto those questionable, inequitable 
systems, with undefined funds. It would make it more of a 
complication than it is now. It makes it more inequitable 
instead of less.

                  federal targeting of education funds

    The Federal dollars--and you know the GAO study that just 
came out and indicated that the Federal dollars are targeted 
dollars for basically poor, disadvantaged young people. That 
has an enormous impact on helping with all of this inequity 
that the courts are looking at, and I think it has a very good 
impact on that. GAO said it was something like 5 to 1 in terms 
of the differences between Federal targeting for poor kids and 
State targeting. That was GAO's observation.
    Then, if you put block grant dollars down on that system, I 
think you, again, are shifting away from that targeting, which 
is not advisable.
    I think you should target in a national way, for the good 
of the country, but leave the decision-making of how kids learn 
and all of that to the local level. I think, also, you should 
target the purpose of that money, the Federal resources that 
are sent down, in a broad sense.
    So, if you have funds going down for professional 
development, as in the Eisenhower program, which is very 
important, something that you and I both support--in terms of 
the corporate world, they say the most important money they 
spend is professional development. That is the first thing 
often cut out of school budgets. The Federal Government's help 
in targeting education funds in this country, I think, is very 
helpful, and it really is what TIMSS says we need more than 
anything else.
    To lump all that together and to send it down, some States 
would put it to professional development. Some would put it to 
standards or whatever. The problem with that is accountability, 
how do you measure whether the funds are effectively being 
used. Is anything good coming from it? Are teachers being 
helped by professional development? If you have block grant 
funds, people taxed on one level, and then very little to no 
accountability which is the nature of block grants, then you 
have unidentified gains in terms of specific purposes that the 
Congress and the President want to see the country develop.
    So there are a number of reasons that I do not like that 
just pure, old general revenue-sharing kind of thing. I do not 
think that worked, and I do not think it is good for education 
to have the Federal role be simply to send dollars down.

                     flexibility in federal funding

    By the same token, I think it is a real mistake for the 
Federal Government to send prescripted dollars down in such a 
way that the local people have no decision-making, no 
flexibility. As you know, we cut out, for example, in K-
through-12 two-thirds of our regulations. We have gone there 
and enormously lifted regulations out and modified others, and 
we have a waiver procedure that we try very hard to promote--
any local district that wants a waiver from Title I or some 
Federal program, we try to make it fit their region. We try 
very hard to make that work, and we very rarely turn down a 
legitimate waiver. We do not turn down any.
    In EdFlex, we have 12 States now that can provide the 
waivers themselves. We want to expand that to all 50 States. So 
the States can have waivers, but we think that they should be 
for a specific purpose, they should be targeted. We provide all 
of the flexibility that we can within those broad parameters.

                           special education

    Mr. Porter. One of the problems is that we tell the States 
they have to spend money in certain areas and that we are going 
to provide it and then we do not, like special education, where 
you have got a lot of money that the States could put toward 
school construction, reduced class sizes, more teachers, and 
the like, it is by Federal mandate having to be spent for 
special education, and the Federal Government is not providing 
anywhere near the share that it had promised.
    So we have kind of caught the schools in the middle. They 
have lost their flexibility by reason of Federal mandates that 
are unfunded, and they have to spend the funds that they would 
otherwise spend on the things the Federal Government is now 
suggesting they spend on for special ed.
    Secretary Riley. Well, I think that is a very legitimate 
issue, and you had been involved, and others, in increasing 
funding for IDEA, and increased it some 64 percent over the 
last 2 years, which is a very dramatic increase. I think that 
is fine.
    We, this year, had some increases that are very targeted in 
IDEA dealing with young children and also reform programs, but 
then we have tried to identify other programs in the regular 
classroom that benefit special ed children--80 percent of them 
spend over 40 percent of their time in a regular classroom.
    Those small classrooms, in the first, second, and third 
grades, with less pupils per teacher, with teachers with 
expertise in reading, can do more to help special ed kids than 
anything else. If we can get those classroom sizes down in the 
general classroom, I think it impacts disabled children in a 
significant way.
    So the education of disabled children is not, in my 
observation, a Federal mandate. The State constitutions require 
all States to educate all children in those States, and the 
courts have clearly said that a disabled child must be educated 
according to their disability and so forth. So those are State 
responsibilities.
    The Federal Government then comes in with IDEA and says you 
take these funds; of course, there are regulations on how to 
use the funds, but the obligation to educate those children is 
really a State obligation and not a Federal obligation.
    Mr. Porter. Thank you, Mr. Secretary.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Secretary, I am going to give a bad imitation. Do you 
know what this is?
    Secretary Riley. Yes.

                    block grants and accountability

    Mr. Obey. This is an imitation of a governor cutting a 
ribbon.
    Do you know what this is? This is the second most famous 
posture of governors. They've got their hand out. They want 
money. They would like us to raise taxes at the Federal level, 
ship it back to them in a pretty pink envelope, with no 
description of how they are supposed to use the money so they 
can run the programs as they see, and clip ribbons all over the 
place. Meanwhile, we have to take the heat for non-performance 
wherever non-performance exists. That is my definition of a 
block grant.
    Now, I certainly do not like overly prescriptive approaches 
by the Federal Government, but I did not come here to be my 
governor's tax collector or any other governor's tax collector. 
I came here to help use the ability of the Federal Government 
to target resources where they are needed the most, hopefully 
in a way that will raise performance for students and raise the 
quality of the work force we have in this society.
    I have got some school boards in my district who are 
terrific, and I have some who are brain-dead, just like there 
are members of Congress who are terrific and members of 
Congress who are brain-dead. So I do not want to leave all of 
the choices about education to local school boards as we sing 
Hosanna after Hosanna to the God of Local Control. I have other 
Gods besides Local Control.
    Secretary Riley. I am glad that is not a question you are 
asking.
    Mr. Obey. I just want you to understand there is a 
different opinion about the glories of block grants. That is 
the only point I am trying to make.

               COMPREHENSIVE SCHOOL REFORM DEMONSTRATIONS

    Now let me just get to a point I wanted to get to. I 
understand Mrs. Northup raised some questions with you about 
the Department's guidelines that were issued for the new 
comprehensive school reform program. I have reviewed these 
guidelines. In fact, I was crazy enough to be looking at them 
again last night. I think that you have done a pretty good job 
of putting them together.
    I would like to address the concern raised by Mrs. Northup 
and also raise one of my own. When you look at the language on 
page 10 of your guidelines, it says this: ``An SEA should 
consider giving competitive preference to comprehensive school 
reform programs that include effective research-based 
externally developed models. Given that model developers may 
have limited capacity to provide technical assistance, SEAs are 
encouraged to work with model developers to ensure that 
priority is given to schools with the greatest need for 
reform.'' Then it goes on to say, because the legislation 
expressly permits locally-developed programs, that it would be 
impermissible for an SEA to establish an absolute priority 
under which schools seeking to implement locally-developed 
programs would be automatically precluded from receiving CSRD 
support.
    I think that is about right in the balance that it strikes. 
I have one concern about it, which I will raise with you in 
just a second. My concern is that--I might as well get that 
first. My concern is that when you say priority is given to 
schools with the greatest need for reform, I hope that is not 
going to be interpreted by the Department as meaning that even 
if the likelihood of success in those schools is low, because 
of our interest in reforming the worst of Title I schools, that 
funding will be shoved into those schools, even though other 
schools might have a better opportunity to actually produce 
results because they have a better team or a better plan. So it 
is not big argument with the language that you have here, but I 
think that just because a school is in greatest need of reform, 
it does not necessarily mean that that school has a good 
capacity to actually perform.
    I think the State ought to determine which school receives 
funding on the basis of the quality of application and the 
quality of the plan, not just education needs.
    Secretary Riley. That is a very good point.
    Mr. Obey. But having said that, I want to say, I am 
sensitive to Mrs. Northup's concern that the States not provide 
sole funding for the models that we listed in the report last 
year. I would be very uncomfortable if we discovered that 
States were not approving other models that might be just as 
good. So I understand her concern on that point.
    Having said that, I would say that I think your language 
appears to strike the right balance because of the second 
paragraph, which states that SEAs should not establish an 
absolute priority for those models.
    I think, frankly, that because of the limited number of 
people associated with those models, this will be self-limiting 
because I do not think they have enough people to get to as 
many schools as they would like. I would guess that simply 
because of that fact, States will be approving many grants that 
are locally generated and are not fully reflective of the 
approaches that those models would take.
    I am willing to work with you, Chairman Porter, Mrs. 
Northup, or anybody else, so that after these applications are 
in and they are underway, we can take a look at what the 
results have been and see whether there are any adjustments 
that are needed, either in the guidelines or in the program 
itself, because I think we are all trying to aim at the same 
thing. We just have to be prepared to talk it out with one 
another.
    Secretary Riley. I thank you very much, and we would 
welcome that. So I will have my staff people who are here 
todeal with that, and they will follow through with it.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Obey.

                            Closing Remarks

    Mr. Secretary, we thank you for your excellent statement 
and your very candid answers to our questions. I think you have 
about the toughest job of all because you are held accountable 
for all of our education in our country, and in many areas, you 
just do not have the kind of control that allows you to do that 
kind of job that is needed. So it is a very tough job, and we 
appreciate the fine work that you do on behalf of America's 
kids.
    Secretary Riley. I thank you so much, Mr. Chairman.
    Mr. Porter. Thank you.
    The subcommittee stands in recess until 10:00 a.m., 
tomorrow.
    [The following questions were submitted to be answered for 
the record:]


[Pages 71 - 149--The official Committee record contains additional material here.]



                                          Thursday, March 26, 1998.

       ELEMENTARY AND SECONDARY EDUCATION AND BILINGUAL EDUCATION

                               WITNESSES

GERALD N. TIROZZI, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION
DELIA POMPA, DIRECTOR, OFFICE OF BILINGUAL EDUCATION AND MINORITY 
    LANGUAGES AFFAIRS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
THOMAS CORWIN, DIRECTOR, ELEMENTARY, SECONDARY, AND VOCATIONAL ANALYSIS 
    DIVISION, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We continue our hearings this morning with the Department 
of Education's budget for fiscal year 1999. We're pleased to 
welcome Dr. Gerald Tirozzi, the Assistant Secretary for 
Elementary and Secondary Education, together with Delia Pompa, 
the Director of the Office of Bilingual and Minority Education 
Affairs. We thank you both for appearing this morning. I 
apologize to both of you for starting later than the appointed 
hour. I was delayed, unfortunately.
    Dr. Tirozzi, you've got Tom Corwin here and we know Tom, 
and we know Tom Skelly, so you don't have to introduce them. So 
if you would please proceed with your statement, and then, Ms. 
Pompa, will you proceed with your statement, and then we'll 
have questions.

                Opening Statement of Dr. Gerald Tirozzi

    Mr. Tirozzi. Thank you very much, Chairman Porter. It's a 
pleasure for us to be here and to have this opportunity to 
testify before the entire committee. You have a copy of my 
statement for the record, and I'm going to divert somewhat from 
that and just offer some general comments about the budget for 
the Office of Elementary and Secondary Education.
    I think it's fair to represent that when you look at 
elementary and secondary education within the context of the 
Department of Education, all of our programs are important, but 
of course elementary and secondary education is really the core 
because it is preschool and K-12 education and it is so 
important to the total umbrella of education across this 
country.
    As we've developed our programs, and as we've looked at 
different initiatives, and as we've tried to put the pieces 
together, we've tried very hard to build on appropriate 
research that is out there, including the NAEP research, and 
the recent TIMSS report. Last week, for example, the report 
that came out on reading supports a number of things I feel 
that we have been doing and will continue to do.
    I also want to represent as I offer my testimony that I 
come before you as a person who has been in public education 
for approximately 38 years. I don't offer this for any personal 
aggrandizement but to make a particular point that, hopefully, 
adds a level of additional credibility to my testimony. Having 
been a teacher, a guidance counselor, a school principal, a 
superintendent of a school district, a commissioner of 
education, and having experience in higher education as a 
professor and as a college president, I would sincerely hope, 
as I said, this gives credibility to my testimony.
    Also, I consider it a great honor to work for Richard 
Riley, our Secretary of Education, for whom I have the greatest 
respect as a man of great conviction and integrity and who is 
one of the reasons I'm here. He believes so strongly that all 
children can learn at high levels.

                             budget request

    Our overall budget request before you is for approximately 
$12 billion in discretionary funding, which is about a 7.2 
percent increase in that area. In addition, the President is 
asking for an additional $1.1 billion in mandatory spending to 
reduce class size, and approximately $22 billion in bond 
authority to build and renovate schools.
    I want very much to have you consider this total budget in 
a holistic way, respecting the fact that schools alone, as 
important as schools are and the mission we have is so very 
important, cannot meet all of the needs of children. We really 
need to understand that schools are a microcosm of society. 
What happens in society comes into schools. What happens in the 
homes and the communities impacts on what happens in schools. 
That tragic, tragic incident in the Arkansas middle school just 
the other day is really a reflection of a total society; it's a 
reflection on a community, upon parents; it's a reflection on 
societal values, it's a reflection of the students' view on 
television, and I could go on.
    The point is, as schools move to educate children, and as 
Congress provides dollars and support, we need to look at the 
total child if we're going to be successful. So in presenting 
this budget to you, I ask that we consider the total child, we 
look at all issues impacting on children.

                         principles of the IASA

    I'm pleased to say that as I have revisited the guiding 
principles of the Improving America's Schools Act [IASA], which 
was a major part of the reauthorization of Elementary and 
Secondary Education Act [ESEA] in 1994, those guiding 
principles are very, very important today. Based on my own 
experience, I would just like to say that if you want to talk 
very specifically about the keys to successful schooling in our 
country, you really have to look at some of those guiding 
principles and understand the importance of them and the 
importance of staying the course. I think we want to continue 
to make adjustments. I think we need some mid-course 
corrections, but staying the course to me is so important.
    I would also ask that as you consider our proposal, I would 
say the same for Delia's or any other office we're 
representing, that you need to understand that the pieces and 
strategies of reform are interconnected. We need to measure the 
total effectiveness in terms of the impact on student 
achievement. The key for me is the interconnectiveness; not 
just the Federal programs, but what the State is doing with its 
money, what the local school districts are doing with theirs. I 
think our share is 7 percent; 93 percent is at the State and 
local level. Ours is a very important share but we also have to 
be concerned and understand the importance of the other 93 
percent.

                        standards and alignment

    If you want to look at successful models across this 
country, if you want to improve America's public schools, you 
have to start with that first principle in ESEA which is 
standards and alignment. States must have in place and 
districts must have in place high standards for students and 
these must be aligned with curriculum, with programs, with 
instruction, with professional development.
    Goals 2000, of course, has been a major vehicle by which we 
have provided significant dollars to States to help them 
develop their own standards and raise their expectations. Title 
I, through the legislation, makes it very clear that all States 
are to have in place challenging content, challenging 
performance standards. And I reiterate, it's their standards, 
not ours, developed at their local communities.
    I'm also pleased to represent to you about one-half of the 
States in this country, as of June of this year, will have in 
place their own challenging content and performance standards, 
and a significant percentage are well on their way to aligned 
assessment. So I think we've really struck a major blow there 
for equity across the country.

                           teaching-learning

    The second major principle is teaching-learning. As you 
examine this budget, I would ask that you please understand 
this really is the mission of what we're about, what States 
should be about, what local school boards should be held 
accountable for--teaching-learning. I always use that as a 
hyphenated expression because I feel the hyphen is a powerful 
connection. Of course, Title I is the major vehicle we're 
trying to use to help school districts with teaching-learning. 
It is in two-thirds of the elementary schools in this country. 
This year it's approximately an $8 billion program.
    In addition, this year you're looking at our Comprehensive 
School Reform Demonstrations program which, at the local school 
level, is asking districts to really look at comprehensive 
research-based models. In the Eisenhower Professional 
Development program, we're providing dollars to provide 
professional development for teachers in the important areas of 
math and science, trying to build, of course, on the TIMSS 
results. I think the President's commitment to trying to reduce 
class size is a major part of improving basic skills 
acquisition for all of our students, and we can talk about that 
later. I'm sure we will.
    America Reads extends the day, extends the week, extends 
the school year, and, again, uses tutors, uses reading 
teachers, calls on professional development. The importance of 
technology, which is embedded in our budget, really speaks to 
the issue of teaching-learning. We can't very well look at the 
next century, the next millennium without understanding the 
importance of technology.
    School construction--it's very difficult to teach in a 
school where the conditions are not conducive to learning. If 
paint is falling off the walls, if the bathrooms are leaking, 
if rooftops are coming down, it's very difficult, if not 
impossible. In addition, we need so many more classrooms across 
this country.
    Safe and Drug-Free Schools, that program in and of itself, 
while small, is sending a clear message that we need to do 
something.
    As you carefully analyze our budget, please note that we've 
set aside about $125 million of that request for a major 
discretionary grant competition that districts would have to 
apply for based on the principles of effectiveness. It's not 
the program of the day anymore, but programs that work. The 
extended day that the President is recommending where schools 
should be open in the afternoon and the evenings in a variety 
of ways not only impacts on student learning but can also help 
us with the issue of violence in our schools by giving children 
more of a safe environment.

                     flexibility and accountability

    Flexibility and accountability permeate this request and 
everything we've done. Two-thirds of all of our regulations 
have been removed from elementary and secondary education. 
Charter schools is one of our fastest growing programs, where 
we allow greater flexibility in turn for accountability. We 
have a waiver board. We've had more than 500 requests for 
waivers from school districts. We have 12 ed-flex States. The 
President is recommending consideration be given to all 50 
States having that opportunity.
    And our school-wide programs in Title I, again, build on 
the principle of we will trade off flexibility for greater 
accountability. We've gone from 3,200 Title I school-wide 
programs to 17,000 this year. So I think we're making headway 
there.

                              partnerships

    The concept of partnerships, going back to my earlier 
opening remarks, we're not going to be successful unless we 
have good partnerships with families, with parents, with 
States, with districts, with business, with industry, with 
corporations, with the colleges, with the universities.

                          targeting and equity

    And last, but not least, and I'm trying to build on the 
principles of ESEA--targeting and equity. There is something 
dramatically wrong with our role if we aren't continuing to 
make a significant effort to ensure that our dollars go where 
we have the greatest need in this country. Of course, all of 
our major formula grant programs are driven by equity. Title I 
would be a classic example. We're dealing with special 
populations under Migrant and Indian Education. And a new 
proposal you're considering, the Educational Opportunities 
Zones, would drive dollars to somewhere in the neighborhood of 
40, 50, or 60 districts in urban and rural America, really 
allowing them to be involved in what we call systemic reform.
    The goal we have in all of this, and I'm concluding on this 
point, our goal is to ensure that our dollars, to the extent 
possible, with cooperation from States and districts, get down 
into the classroom and drive instruction. I was very pleased to 
see the report that we are delivering to Congress, the 
Faircloth Report, which clearly points out that approximately 
84 percent of the dollars do, in fact, get to instruction and 
only 4 percent of Title I dollars, for example, go to 
administration. So the money is getting into the classrooms.
    So I think we have before us, as you examine these 
principles and as you review this budget request, an agenda and 
a commitment to implement a coherent, substantive vision for 
America's schools. I think what the President keeps saying, 
what Secretary Riley keeps stressing, and one of the reasons I 
continue to believe so strongly in this agenda, is that it's 
focused on all children learning at high levels.
    I'll stop there. Thank you.
    [The statement follows:]


[Pages 156 - 163--The official Committee record contains additional material here.]



    Mr. Porter. Ms. Pompa.

                    Opening Statement of Delia Pompa

    Ms. Pompa. Thank you. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to testify before 
you today on the fiscal year 1999 budget request for Bilingual, 
Immigrant, and Foreign Language Education.
    For fiscal year 1999, the Department requests a total of 
$387 million for these programs. My written statement, which I 
would like submitted for the record, includes a detailed 
explanation of our request.
    The continuing growth in the Nation's limited English 
proficient student population warrants a significant increase 
in program funding. There are now over 3.2 million students in 
our Nation reported as limited English proficient. Additional 
funding for the program is also warranted because the program 
is working. Why? Because it is built on a foundation of local 
flexibility, research-driven design, and qualified teachers.
    Every school district receiving Federal bilingual education 
funding is different--different students, different needs, 
different resources available to them, and, most importantly, 
different ideas from educators about how best to educate the 
students in their charge. This is particularly true for school 
districts that enroll large numbers of limited English 
proficient students. However, all our grantees are required to 
focus on a quality curriculum linked to State and National 
standards.

                         diversity of projects

    The Federal Bilingual Education Program is designed to give 
schools the freedom that they need to tailor local programs to 
their needs while also giving them the tools they require so 
that each school district does not have to reinvent the wheel. 
It is a local school district's decision, and ultimately it is 
they who choose how they wish to educate their limited English 
proficient students.
    The diversity of approaches employed by our grantees is 
quite impressive. For example, the University of St. Thomas in 
Houston works with the Houston Independent School District and 
the Shell Oil Foundation to develop and implement a dual 
language instructional program for grades kindergarten through 
five, which provides in-service training for classroom teachers 
and instructional staff as well as implementing family 
education and outreach programs.
    Project Mindframes is a project that serves approximately 
250 limited English proficient students in grades six through 
nine in New York City. This program targets math and science 
using the ``inquiry approach''. The integration of the World 
Wide Web into projects is an important feature of this project 
for manipulating materials and teaching key concepts for 
problem-solving and research.
    Still another project, the Educational, Economic, Social, 
and Political Mainstream Project serves approximately 236 
limited English proficient students in grades four through 
seven in nine schools in Biloxi, Mississippi. The project 
implements career awareness activities in all project schools. 
The project will also extend the school year through an 
intensive English summer school. The academic program will 
educate limited English proficient children to the same 
rigorous standards for academic performance expected of all 
students in the Biloxi public schools.

                       two-way bilingual programs

    One of the most promising approaches being used in a 
growing number of schools with limited English proficient 
students uses a strategy called Two-Way Bilingual. This 
strategy groups native English speaking students and non-
English speaking students in a single classroom. Instruction is 
provided through two languages; for example, English-Russian, 
English-Chinese, or English-Spanish. Two-way programs are 
particularly promising because they help all participating 
students become bilingual. The strategy underscores the value 
of bilingual education to a growing number of native English 
speaking American parents who want their children to learn more 
than one language.
    According to the Center for Applied Linguistics, which 
maintains a national registry of two-way programs, the number 
of identified two-way bilingual programs increased by 680 
percent between 1987 and 1997. Programs now exist in at least 
21 States, according to the Center.

                            needs of schools

    It is immediately clear after one talks with principals, 
teachers, and administrators, and in my 22 years as an educator 
I have talked to hundreds, if not thousands, of school 
personnel, that school districts with limited English 
proficient students ask the same questions over and over again: 
How do I find qualified teachers? Where do I secure appropriate 
curriculum materials? Why do limited English proficient 
students succeed in particular educational environments?

                   natonal academy of sciences report

    In 1997, the National Academy of Sciences issued a report, 
``Improving Schooling for Language Minority Children.'' The 
report described the sound research basis that should be 
expected of all bilingual education programs. A research-based 
program begins with a supportive school-wide commitment and 
adds customized learning environments addressing the needs of 
limited English proficient students. The research points to a 
balance between focusing on basic English language skills and 
the ability to use the English language within and across the 
content areas. Acquiring proficiency in a second language 
necessary to succeed in today's school with an emphasis on high 
standards is a complex process, more complex than simply 
learning to speak a second language.

                            teacher shortage

    Finally, bilingual education programs work when they have 
qualified teachers. However, there is such a shortage of teachers 
qualified to serve limited English proficient students. In one State 
alone, California, there is a shortage of over 20,000 bilingual or ESL 
teachers. If we want our schools to fully serve limited English 
proficient students taught by qualified teachers who understand their 
unique needs, we must expand training opportunities and increase the 
supply of bilingual education and ESL teachers.
    The shortage of bilingual teachers is a problem, national 
in scope, deserving a coordinated systemic response. For this 
reason, the Department is asking for a large funding increase 
for teacher training of bilingual education and ESL teachers. 
If you talk to administrators with limited English proficient 
students in their schools, the shortage of qualified teachers 
is always their number one issue. The funds we are requesting, 
which would train 4,000 teachers per year, will give them the 
help they need.

                         program effectiveness

    Finally, how do we know our programs are working? Using the 
funds provided by this subcommittee last year, our office has 
initiated several research and evaluation projects to assess 
the performance of our grantees and the students they serve. 
Let me pause here to thank the subcommittee for providing these 
funds because they are critical in giving us the data we need 
to improve. I am pleased to report that students in the Federal 
Bilingual Education program are learning English. Based on the 
preliminary data received from fiscal year 1997 evaluations, 
most of the projects reviewed so far showed increases by at 
least 75 percent of the student groups or grade levels in oral 
and written proficiency. Most of these projects use 
commercially available tests to measure language proficiency.
    I must emphasize that limited English proficient students 
are just like native English speaking students. They need math, 
they need science, they need computers, they need social 
studies; all the traditional academic subjects by which we 
usually judge schools and students. Thus, I am also pleased to 
report that students in the Federal Bilingual Education Program 
are learning their academic subjects. About one-half of the 
projects reviewed so far showed increases by at least 75 
percent of the student groups or grade levels for reading, 
math, and/or language arts. Most of these projects use 
commercially available norm-referenced tests or State-produced 
criterion-referenced tests to measure achievement. Most of 
these tests were also in English.

                           exemplary projects

    Of course, there is no better testament to the success of 
our program than profiles of individual schools. Ysleta 
Independent School District in Texas has implemented a two-way 
dual language immersion program combining the best of bilingual 
education for language minority students and for language 
majority students. Each student is tracked over time. Ysleta 
has been demonstrating impressive gains in student performance. 
The intent is to create a cadre of well-educated, college-
bound, fluently bilingual students. Project data show that the 
gap between limited English proficient and non-limited English 
proficient students is clearly narrowing in grades three to 
five.
    Limited English proficient students do catch up with their 
non-limited English proficient peers. The results through grade 
five are a result of applying a more research-based bilingual 
program in the last five years with Title VII dollars. This 
study, with its ability to track individual students over time, 
by program, will become the model longitudinal study in 
bilingual education.
    Another project, Eagle Rock Junior-Senior High in the Los 
Angeles United School District focuses on school-wide projects 
to incorporate a study of finance and economics as a means to 
assist limited English proficient students in developing high 
levels of achievement in English, mathematics, and foreign 
language. Eagle Rock students scored higher than the average 
Los Angeles school in reading, mathematics, and language using 
the Stanford 9 test. The number enrolled in algebra has 
doubled, and an increase of 63 percent of 11th graders in the 
program took the PSAT. In addition, there has been a 94 percent 
increase in the number of teachers receiving their 
certification, and 162 percent increase in attendance from the 
community at monthly school meetings.
    It is gratifying to tell you about programs that are 
working. These examples build on what we know about good 
bilingual education programs. They have well-trained, qualified 
teachers, their curricula are built around high standards with 
appropriate assessment, and the programs are evaluated and held 
accountable for student learning. That seems to be the key. 
They don't quibble about what program or how long, they concern 
themselves with whether students are learning and do what needs 
to be done.
    Thank you for your time. I'd be pleased to answer any 
questions you have.
    [The statement follows:]


[Pages 168 - 172--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Dr. Tirozzi and Ms. Pompa.

                           local flexibility

    Ms. Pompa, am I correct that you can have an ESL program in 
Chicago and an ESL program in Los Angeles and they will not 
necessarily be at all the same thing, that the local 
communities have a great deal of latitude in structuring the 
programs?
    Ms. Pompa. Yes, sir, you are quite correct.
    Mr. Porter. We've heard some testimony in the past that ESL 
is terrible and isn't working, and we have the Chairman of our 
full Committee telling us that in Louisiana ESL is absolutely 
wonderful and is getting kids into English very quickly.
    It is hard to know then exactly what we need to do. It is 
clear what Congress wants you to do. Congress wants you to get 
kids who are not English proficient as English proficient as 
possible as quickly as possible. Yet, we have a lot of programs 
that aren't doing that.

                        situation in california

    What I would like you to address is the situation in 
California where you've got overwhelmingly from the Hispanic 
American community very strong criticism of the program there 
by parents claiming that it doesn't get their kids into English 
proficiency very quickly. Is that the fault of the Federal 
Government, or is it the fault of the local school districts? 
Who is falling down on the job here?
    Ms. Pompa. That's a big set of questions. Let me begin by 
telling you that we totally agree with you that we want children to 
become English proficient as soon as possible.
    I have some familiarity with the programs in California and 
I will address your question from the facts I have. We have not 
taken a position on the initiative overall. So I will address 
what we know about what is happening in California with our 
Federal programs.
    We have some wonderful evaluations from projects such as 
the project in San Francisco that shows us that children who 
are in bilingual education are out-performing their peers once 
they exit the program. We also have data that indicate that on 
average students in well-implemented bilingual programs are 
exiting these programs within an average of four to five years. 
So children are learning English. Some of the programs I 
described to you I think are good examples of children learning 
English and, beyond that, children mastering academic subjects, 
which is quite important.

                     children are learning english

    The perception by some that children aren't learning 
English is a perception that we're working very hard to 
conquer. Parents of these children want them to learn English, 
their teachers want them to learn English, and we in the 
Federal Government want them to learn English. The process of 
learning a second language is a slow process. For anybody here 
who has taken a foreign language course, even after you've 
taken two or three years and have traveled to the country where 
that language is spoken, you know that mastering that language, 
beyond ordering in a restaurant, and being able to function in 
it proficiently, is very difficult. These students are going 
through the very same process while they are attempting to 
learn to read and learning the content areas.
    So, in conclusion, your question is, are we doing the wrong 
thing in California? I would say that there are bilingual 
programs there that are not being well-implemented, just as 
there are reading programs, and math programs that aren't being 
well-implemented. We are working hard to ensure that all 
programs reach high standards, that all programs teach their 
children English, and that all programs have the tools that 
they need--qualified teachers and appropriate curriculum.

                           greater oversight

    Mr. Porter. It seems to me that a great deal more oversight 
as to what actually is being done in the schools with the 
bilingual money would make a great deal of sense. I'm not sure 
whether I brought this up the last time we talked, but in 
Chicago there was bilingual money used to bring in people from 
Puerto Rico who would lecture the students on why Puerto Rico 
should be an independent Nation.
    Ms. Pompa. I believe you did bring that up last time, yes.
    Mr. Porter. That's unbelievable that something like that 
could happen. It seems to me that what you need to do is to 
have a great deal more oversight on what actually is going on 
and how this money is actually being used and pull up short 
anybody that is misusing it except for the purposes that we 
agree are the purposes for which the money is being spent.
    Now, let me add one other thing. The subcommittee included 
language in our bill that said the Department of Education 
should only support instructional programs which ensure that 
students completely master English in a timely fashion, a 
period of three to five years, while meeting rigorous 
achievement standards in the academic content areas.

                         performance standards

    If that is a good standard, and I think you agree with it, 
why wouldn't that standard find its way into your results act 
objectives? For example, why wouldn't you set a standard that 
says within three years 70 percent of students entering 
bilingual education programs will graduate to regular classes, 
within four years, 80 percent, and within five years, 95 
percent or 100 percent of students will have graduated from 
bilingual programs as a results standard that you set for your 
work within the Federal Government. It seems to me that if 
that's what we are aiming at, that ought to very much be a part 
of your mission and it ought to be the first goal that you see 
is carried out in each of these school districts.
    Ms. Pompa. We agree that that is a goal for us. And if you 
will inspect our performance indicators, our most important one 
is the acquisition of English by students. The specificity of 
setting targets by years is something we're examining. There is 
research on both sides that indicates that this is or is not a 
good goal. Most educators and researchers would argue that 
setting a specific time limit for all limited English 
proficient students is not warranted by the research, 
especially within those timeframes. There are many, many 
circumstances that control how long it takes the child to 
learn----
    Mr. Porter. I agree on an individual child basis; that's 
true. But why can't you set percentages at least as reasonable 
goals for the program?
    Ms. Pompa. We have attempted not to set those kinds of 
percentages for programs and not to get too close to mandating 
curriculum. We are examining the possibility of looking more 
closely at setting goals that would be tied to numbers, but we 
have not come to that conclusion yet.
    Mr. Porter. Well, I would strongly recommend that you look 
at the goals that you set under the results act with these 
kinds of standards in mind. I don't see the subcommittee having 
a great willingness to provide extra funds without getting 
better results. It seems to me that this is an area where we 
ought to be able to measure results quite easily.

                          capital expenditures

    Let me talk to Dr. Tirozzi for a moment about capital 
expenditures. When a recent study called ``When Money 
Matters,'' by Harold Wiglensky, was published by the 
Educational Testing Service it employed national data to 
attempt to determine the impact of different kinds of 
educational spending on student achievement. A study of fourth 
and eighth grades found that capital spending had no 
relationship to achievement. To quote the author, it said, 
``Increases in capital outlays do not appear to raise 
achievement.''
    According to the CBO, the Federal tax subsidy for public 
school construction is about $1.4 billion a year under current 
law. Why should we provide additional funds when there is no 
empirical evidence that increasing capital funding improves 
achievement? And can you cite any empirical data that indicate 
that capital spending does increase achievement? And what 
specific numerical improvements in student achievement do you 
foresee if the funding is approved and how will you measure it?
    Mr. Tirozzi. First, there is some empirical data. We can 
provide your office with the appropriate citations and the 
information if you would like to see it. I, personally, would 
prefer to answer the question in a very objective, logical way, 
having been in schools for 38 years.
    I am hard pressed to understand how we can expect children 
to learn in conditions which in many cases are absolutely 
deplorable. Ron Edmonds, who was a great proponent of 
instructionally effective schools and who in the early 1970s 
talked about effective schools, included as one of his five or 
six guiding principles that children had to be in a safe and 
orderly environment. And within that, he defined the context of 
the school, the physical environment of the school.
    Mr. Porter. Dr. Tirozzi, let's agree that this is a problem 
that should be addressed.
    Mr. Tirozzi. Absolutely.

           flexibility to spend federal funds on construction

    Mr. Porter. Let's also agree that the spending on education 
over the last 10 or 15 years has gone up substantially both in 
nominal terms and in real terms. In public expenditures, all 
standards, we've spent more and more money. Somebody along the 
line let our schools deteriorate in a lot of areas. That money 
was spent on something else, not on maintaining the physical 
facilities where kids learn.
    Now we have a national problem; that is, it exists in a lot 
of different places. The question is, how do we address that? 
If we gave a great deal more flexibility to the Federal funding 
that we provide that the Administration proposes that we raise 
more substantially, won't that give schools enough room in 
order to provide for construction if that is what they need at 
their local level, if they haven't kept up? In other words, if 
we give them more money, can't they spend that on construction?
    Mr. Tirozzi. The way our programs are presently structured, 
they are specific to individual----
    Mr. Porter. I realize that. Let's give them more 
flexibility.
    Mr. Tirozzi. I'm all for flexibility and I tried to outline 
that in my opening comments. Something, for example, with all 
due respect, you just said to Delia having to do with the 
potential misuse of money, if we're going to just give money to 
districts and say do whatever you want, I don't know how anyone 
is ever going to have a conversation with this Congress or any 
Congress about accountability for the dollars if you have no 
idea how that money is being spent.
    I would agree with you, there's no question in my mind that 
States and local school districts have a responsibility to 
renovate their schools. I think in many communities they have 
made the effort. I think, however, if you look at where we have 
the most significant problems, in the urban schools and poor 
rural districts, if you look at the myriad responsibilities 
that schools have taken on in the last couple of decades, it's 
awesome in terms of what we expect schools to do. And, yes, 
while dollars have increased, so have the programs and the 
levels of responsibilities.
    We're doing all kinds of things in schools. School 
districts in many cases have been hard-pressed to find the 
dollars to get into maintenance types of issues. I can only 
tell you, Mr. Porter, having in the last several weeks gone 
around and seen situations--I was in Philadelphia where I've 
actually seen a wall moved away. The wind was literally coming 
in the room. In the same building in the boiler room the water 
is almost up to the top of the boiler. Within six months or a 
year, if that's not repaired, you're going to replace a whole 
boiler system. These are conditions that have to be addressed.
    Again, I think schools are trying very hard to use their 
dollars in a very appropriate way. I also need to point out 
quite candidly that 80 percent of the public do not have 
children in schools and 25 percent of the public belong to the 
American Association of Retired Persons. I give you those 
statistics to give you a sense, but it is getting harder and 
harder to generate support for schools to spend the dollars we 
need in a number of areas.

                          data on construction

    Mr. Porter. Do you have any statistics comparing the number 
of construction bond issues over the last 10 or 15 years with 
prior periods to show that there wasn't local support for 
construction?
    Mr. Tirozzi. Yes, I think that we've done some work.
    Mr. Corwin. Unfortunately, the data that the Bureau of the 
Census and the private sector collect aren't great on that. But 
we can send up what we have. Census collects it, not very 
frequently, and the private sector surveys we've found are 
marred by insufficient response. But we can provide something.
    [The information follows:]

               School Construction Expenditures and Debt

    According to the Bureau of the Census, the total level of 
indebtedness of public elementary and secondary school systems 
increased from $37 billion in 1979-80 to $87 billion in 1993-
94. Capital outlays for construction increased from $5 billion 
in 1979-80 to $14 billion in 1993-95. These figures have not 
been adjusted for inflation.

                      bond issues for contruction

    Mr. Porter. Is it your position, Dr. Tirozzi, that the 
failure of maintenance and construction is a failure of local 
taxpayers to approve bond issues, or were the school boards 
simply using the money for other purposes and letting their 
responsibilities go?
    Mr. Tirozzi. I think the former statement is correct. I 
think it has been difficult in many communities to raise 
dollars for bonds. But, at the same time, I don't think it is 
because any school board does it intentionally. As I tried to 
say, there are so many other pressures on the school budget for 
staffing, for equipment, for technology, for supplies, for 
instruction, for contractual obligations. I don't think they do 
it intentionally, I just think they set priorities and we could 
argue about what those priorities are.

                    deferred maintenance of schools

    Mr. Porter. Well, they've done a very poor job, obviously, 
for one reason or another in maintaining the physical plant. 
The deficit is huge. It is estimated at $112 billion, which is 
a huge amount of money for even the Federal Government to 
imagine.
    Of course, the Administration has for some time been urging 
the Federal Government to undertake this as our responsibility 
instead of the responsibility of local school districts and 
States. We have argued that this is something that should have 
been done by the States and by the school districts and the 
Federal Government should not go into a new area of broad 
responsibility for education that has traditionally been reserved to 
State and local school districts. I guess we're going to continue to 
try to work through this. Obviously, no one denies the need.
    Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. I am pleased to join 
you in welcoming Mr. Tirozzi and Ms. Pompa, and thank them very 
much for their excellent presentations and for the work that 
they do.
    It is always impressive to hear you. I know that 
Congresswoman DeLauro sings your praises all year round, Mr. 
Tirozzi. So thank you for being here and for making us so 
proud.
    I wanted to talk about the maintenance issue and I may come 
back to that because I want to do so when the Chairman is in 
the room.

                Proposed Bilingual Education Rescission

    So I'll move on to bilingual education for the moment. As 
you know, unfortunately, the supplemental appropriations bill 
has an $75 million cut in bilingual education. Can you talk to 
us about what the impact of that will be? I did ask that 
question of Secretary Riley yesterday and I wanted to ask you 
directly.
    Ms. Pompa. The immediate impact of that rescission would be 
that we would be able to fund no new programs this year. We are 
currently reviewing proposals for new grants. We have 397 
proposals in one category and 249 in another and none of those 
would be funded. As it is, we would not be able to fund more 
than a fourth of them.
    In terms of real dollars, we would have an 11 percent 
reduction in services directly to schools, an 80 percent 
reduction in professional development and teacher training, and 
a 50 percent reduction in our support services. On top of that, 
we would have about a 20 percent reduction in the funds that go 
to immigrant students.

                           Bilingual Studies

    Ms. Pelosi. Listening to your back and forth with the 
Chairman, I wanted to talk about the Thomas and Collier 1996 
study that found that students who received the early exit 
bilingual programs where academic instruction takes place half 
a day in each language and transition to English only within 
two or three years and ESL instruction were much less likely to 
ever reach the 50th percentile in English reading than students 
who were in the late exit bilingual programs or the two-way 
bilingual programs that you described. Could you comment 
further on that?
    Ms. Pompa. I would say, first of all, that this is one of 
many research studies we are beginning to see that address the 
issue of how long students need to be instructed in a 
supportive environment that leads them to learn English. Beyond 
that, I would also like to say that what we're finding in 
looking at our programs that work is that people don't need to 
think about how long does it take or exactly what programs 
should be working.
    We know that there are many different kinds of programs 
that work with these students. What works is if you focus first 
on whether students are learning, and when you focus on that 
you make decisions about what language and how long it takes 
based on what individual student needs are. And teachers make 
those professional judgements because they are qualified and 
trained teachers.
    A National Academy of Sciences panel on research in 
bilingual education advised us to get away from those big 
studies that ask the questions how long and what kinds of 
programs, and to start asking questions about are children 
learning and what is working in a particular community rather 
than trying to set a standard nationwide for all students.

                    Evaluation of Bilingual Programs

    Ms. Pelosi. To that end, your goal I'm sure, is that these 
children learn English well in order to be fully integrated 
into all aspects of the community and school. What is the 
Department doing to evaluate bilingual programs to ensure that 
children meet this goal?
    Ms. Pompa. Actually, based on the last reauthorization, we 
have a requirement in our program that grantees turn in 
evaluations to us biennially. Included in these evaluations are 
data on how well children are learning English, data on how 
well they're learning to read, how well they're learning math 
and language arts, and also data on retention in those school 
districts and how well they're integrating their programs into 
State and national standards.

                           Bilingual Teachers

    Ms. Pelosi. The Secretary yesterday talked about the 
importance of quality bilingual teachers. I think we can 
probably, in the interest of time, stipulate that this is a 
place where we have to place appropriate emphasis.
    Ms. Pompa. Yes.
    Ms. Pelosi. I appreciate your giving us some examples of 
some of the bilingual programs that have been so successful, 
even to the point of having those students be ahead of other 
students. That's very impressive.

               Voter Approval of School Bond Initiatives

    Mr. Chairman, I was just moving to the school construction 
issue. I was pleased to hear you say that you agree that this 
is a problem that needed to be addressed in terms of school 
construction. I think, as I've said over and over again in this 
committee, that the children understand more than we think. If 
we tell them education is important, then we have to make it 
important and that means to have them enter a facility that is 
suitable for learning and not a place that they are afraid to 
go for a variety of reasons.
    The Chairman had asked the question about what evidence 
there is about school bonds versus the lack of maintenance in 
the schools. I wanted to take a moment to talk about our 
California experience, Mr. Chairman. In 1978, Proposition 13 
was passed in our State. It proved conclusively that no 
maintenance is the most expensive maintenance, because it was a 
debilitating blow to the ability of the State of California to 
meet the needs of our children.
    Secondly, and this is more apropos of your question in 
relationship to school bond issues, I was chair of the 
California Democratic Party for a long time and in the early 
1980s where we saw a phenomenon in our State. It was the 
expiration of the GI Housing Loans. So people had homes all 
over the country and had bought their homes with the GI Bill in 
the early 1950s maybe, now they had paid off their loan and 
they moved to California. They had passed through there going 
to the war in the Pacific, they loved it, and they retired 
there. They had very little interest in school bond issues. We 
saw a direct impact on our ability to pass school bonds to the 
extent that our senior population, our retirement population 
was growing in our State. I say that in kindness and in 
friendship, and we welcome that population, but it had a 
political consequence.
    Mr. Porter. If the gentlelady would yield.
    Ms. Pelosi. Please, Mr. Chairman.
    Mr. Porter. We know that our entire population is aging, 
but we thought the Californians weren't doing that. [Laughter.]
    Mr. Hoyer. With all due respect, the Californians thought 
they weren't doing that. [Laughter.]
    Ms. Pelosi. Now we get into a cultural war here. 
[Laughter.]
    In any event, it was a fact of life for us. As I say, we 
studied the demographics very carefully for a range of issues, 
including a high priority given to our ability to pass school 
bond issues. And the areas where there was a higher 
concentration of seniors, for example, even people would 
migrate from L.A. and San Francisco to some of the lower cost 
regions in California, and then in those counties it became 
difficult to pass school bond issues. So, again, as I said, we 
were faced with the no maintenance is the most expensive 
maintenance and now we're faced with what we are today. That is 
a little bit about our experience there.
    But I would say, Mr. Chairman, further, that it is self-
evident that we will improve education if we have school 
construction because smaller classroom size demands that we 
have more classrooms, therefore more construction; and also 
having more of our classrooms brought up to date, whether it is 
technologically or environmentally, in every respect. So, I 
commend the Administration for the school modernization 
initiative. We certainly use the tax code in many ways and 
these tax free bonds to benefit our children are a most 
appropriate use of it.
    I guess I used my time talking about California. In any 
event, I hope we have another round.
    Mr. Porter. We didn't charge you for my interruption 
though.
    Ms. Pelosi. Thank you, Mr. Chairman. You're always so 
generous. Thank you.
    Mr. Porter. Thank you, Ms. Pelosi.
    Mrs. Northup.

                    States With Prevailing Wage Laws

    Mrs. Northup. Thank you, Mr. Chairman.
    I would like to follow-up on the school construction 
program and ask you a couple of questions about that. First of 
all, do you know how many States apply prevailing wage 
legislation to construction of schools in their State?
    Mr. Corwin. Mrs. Northup, I believe it is approximately 30 
States that have a prevailing wage law; sometimes localities 
have them as well.
    Mrs. Northup. Some of them have prevailing wage but they 
exempt out schools or local buildings. Do you know how many of 
those actually apply to schools?
    Mr. Corwin. I don't know that off hand.
    Mrs. Northup. For example, for years in Kentucky prevailing 
wage applied to building projects exempting schools. So that 
would be important to know.
    My question is, if a school could prove by bidding 
procedures that the actual money that they would gain through 
the tax benefits that you offered would actually not off-set 
the increase in cost and the prevailing wage cost, what would 
you advise that State to do?

                      Applicability of Davis-Bacon

    Mr. Corwin. I think what is important to realize here is, 
because the current proposal would be on the tax side, Davis-
Bacon would not apply. Using the bonding authority that we 
would provide would not increase costs at all compared to if 
they just built the schools using their own funds.
    Mrs. Northup. So you would not object if we actually wrote 
that provision in? Because the Budget Committee has looked at 
this and says that the Davis-Bacon laws would apply.
    Mr. Corwin. I'm surprised to hear that. The Treasury 
Department and our own lawyers don't believe it would apply.

                          Building Regulations

    Mrs. Northup. Okay. Let me ask you a couple of things about 
what regulations you would anticipate, if any, would go with 
those. For example, would you have square footage requirements, 
would you have technology requirements, or would there be no 
requirements other than you would just off-set the tax?
    Mr. Tirozzi. The way the legislation is being developed, we 
would ask every State to submit an application to ensure that 
they had a plan to renovate schools, build schools. We are not, 
to the best of my mind anyway, going to get involved in square 
footage or design or anything like that.
    The key for us is that we want to make certain they are 
supplementing, not supplanting. This has to be seen as new 
money, not if a bond has already been floated and they're 
prepared and this money would come in and fund that. That 
would, I think, be terrible.

               State Equalization and School Construction

    Mrs. Northup. So many States have understood that school 
districts have differing resources. In fact, in Kentucky as in 
many other States, we were found unconstitutional. I think 
there are a lot of States that have been found that. And since 
that time, there is an equalization so that schools in poorer 
areas are supplemented by the overall State general revenues. 
So why would you provide unequal benefits understanding that 
States already have equalizing funds?
    Would you allow those States to sort of undo those 
equalizing mechanisms? For example, if Kentucky has to 
subsidize, as we do, the building of schools (something that I 
very much support by the way) we actually make sure that every 
student in, say, Appalachia has the exact amount of dollars 
that we spend in our highest income districts. So now would we 
now bring construction dollars into those poorer districts and 
then not have to subsidize them at a State level, or would 
those districts actually be extraordinarily benefitted?
    Mr. Tirozzi. I think the way that I would answer it, and 
I'll give you an example I'm familiar with, Connecticut, where 
the way their school construction formula has been in place, I 
believe the poorest communities can get up to 80 percent for 
the cost of construction, I believe the richer communities can 
get up to 30 or 40 percent. So it is equalized.
    But having said that, the very fact that the State--and, by 
the way, even in Connecticut there is a court case that tells 
the State it has to equalize. I should add parenthetically 
there are still about 20 States in this country that have court 
cases on equalization pending. The courts have recognized and 
the States hopefully have recognized that you have to be 
unequal in order to be equal, you have to provide more dollars 
to the districts where they have the greatest needs.
    I think in the case of the Federal funds the principle of 
equity and targeting, as I mentioned earlier, would apply. 
Also, based on every survey I've seen and conditions I've 
personally seen, we still have the largest percentage of our 
problems in the urban and in the poor rural districts of 
America where I think it would be very fair to say they need 
more dollars. Our money would not in any way take away from whatever 
the State formula is. It would be a supplement to that.

              spending priorities and school construction

    Mrs. Northup. I guess my concern, and as I spoke to 
Secretary Riley, is that States make investments in different 
ways. It would be fair to argue that there are some States that 
have crumbling school buildings because they have invested 
their money elsewhere in education. There are some schools that 
have floundering technological programs because they have 
invested in classroom size and school buildings.
    So it strikes me that if you happen to be the State that is 
the most backward or the least aggressive in funding what the 
Federal Government thinks is important, then you score a home 
run on this budget. But if you happen to be a State where you 
have already invested in lower class sizes and have already 
invested in school buildings in an equalized manner, you tend 
to be a loser here because you're going to get the dollars 
where you least need them and you're going to have to spend 
more dollars, by the way, in order to realize these Federal 
benefits.
    Everybody can use more teachers, but you're going to have 
to invest money in teachers to get the 100,000 teachers. You're 
going to have to invest money in schools in order to get the 
tax cut. Maybe that's not where your most essential need is.

                leveraging of school construction funds

    Mr. Tirozzi. I think the last point you made, the goal of 
this is to put money out there so it can leverage a lot more 
money to renovate buildings and put up buildings where you need 
more facilities.
    Mrs. Northup. Sort of. When you talk about leveraging, it 
sort of reminds me of when I come home from the store and say 
to my husband ``I saved you $40,'' and he says ``Where's the 
$40?'' and I say, ``Well, I had to spend $200 to save it.'' The 
point is that you are saying to these schools you're going to 
have to spend more money on teachers, even though that's where 
your investment already has been and maybe what you need is 
technology. There are a lot of needs, and I sort of feel that 
the school construction, the teachers, all of those sort of 
fall into that classification.

   need for funds for class size and school construction initiatives

    Mr. Tirozzi. I would just like to posit or suggest that I 
firmly believe one of the roles and responsibilities of the 
Federal Government is, especially where you know there are 
identified needs, to at least provide some incentive or some 
support to help districts and States address those needs.
    I'm sure, if you want to have a further conversation on 
reduced class size in grades 1, 2, and 3, I'm just totally 
convinced that's a major vehicle by which we can improve 
student learning and help kids read at grade level by the end 
of grade 3. If we're looking at construction, as Mr. Porter 
asked me earlier, I think a safe and conducive learning 
environment is absolutely essential to student achievement.
    Those are two critical areas. They are major policy 
decisions the President has made which I personally support 
very much, the Secretary supports very much. The bottom line 
for districts and States is they don't have to accept the money 
if they don't want to move in those areas. They can just make 
other decisions with their own dollars.
    Mrs. Northup. Thank you. I know that my time is up. I do 
want to thank you for coming by my office to discuss 
comprehensive school reform. I am sorry we had a series of 
votes that required you to meet with my staff, as wonderful as 
I think they are. But I am so sorry that I missed that and hope 
we'll have a chance to talk further.
    Mr. Tirozzi. I understand. We'd be glad to follow up on 
that if you'd like.
    Mrs. Northup. Thank you.
    Mr. Porter. Thank you, Mrs. Northup.
    Mr. Obey.

                       hmong and laotian refugees

    Mr. Obey. Thank you, Mr. Chairman. I don't really have any 
questions. I just want to make a few observations about 
bilingual education.
    My hometown 30 years ago was the most lily-white community 
under 50,000 in the United States. We had two blacks, we had 
two Chinese families, and we had some Native Americans and that 
was it. Today, over 25 percent of the students in our 
elementary grades are Hmong. We've had a huge influx of Hmong, 
not because of any decision made by the city government or the 
local school board, or by the county government or even the 
State of Wisconsin. We have those kids because the Federal 
Government made a decision that, because the Hmong had done our 
dirty work in Laos and suffered the loss of their country 
because of it, we in good conscience needed to provide a safe 
haven for those folks. So they were allowed to come into the 
United States.
    Since they've come, they've largely been, in my view, 
abandoned by the Federal Government. We have token efforts to 
deal with the problems of refugees in job training and in 
education and all the rest. But I think the Federal Government 
has essentially bugged out on its responsibilities. And as a 
result, the local communities, who never had one whit to say 
about whether we were going into Vietnam, or whether we were 
getting out, or what other secret wars we were going to be 
involved in, they got stuck with the financial consequences. I 
think that's wrong.

                      need for federal assistance

    That's why I think that the action taken by this committee 
two days ago in further cutting back bilingual education is 
especially wrong when you consider the reduction in the 
capability of the Federal Government to deal with the problems 
like that were that bill to actually be enacted.
    All I want to do here this morning is to simply say that we 
have a lot of arguments in this Congress about what ought to 
happen with immigrants, and I'm not going to rehash them this 
morning, but with the case of refugees we have a very different 
situation. There, it is the Federal Government itself that has 
made the decision that there are good public policy reasons for 
having large numbers of these folks come into the country. We 
made that decision with respect to Russian Jewish immigrants. 
We made the decision with respect to Hmong. We made the 
decision with respect to a good many other groups.
    It seems to me that, unless we want to engender a very 
nasty backlash in communities around the country, what the Feds 
need to do is to recognize that if they made a foreign policy 
decision, then they need to follow-up on the consequences of 
that locally and provide the funding. I think the Federal 
Government, rather than cutting back on bilingual education, 
ought to be strengthening it. I think certainly with respect to 
refugee populations the Federal Government needs to do far more 
than it does today.

                          bilingual education

    Some people will say bilingual education doesn't work, we 
ought to have different immersion techniques. I've got to tell 
you I tried that, too. When we had the Immigration Reform bill 
up last year or two years ago, I offered an amendment in the 
Rules Committee that would have allowed the Federal Government 
to use a very different technique for dealing with some of 
these refugee populations. One of them was pioneered by Catholic 
Charities in Chicago, another in the State of Washington. We tried to 
get support for that in the Rules Committee and that effort was shut 
off at the direct instruction of the Republican House Leadership. I had 
the votes in that committee until they went in and told the committee 
to turn around and vote the other way.
    So I'm not too sympathetic to folks who say we shouldn't be 
funding bilingual education in the traditional ways, but that 
we should be instead moving to these immersion programs, 
because when I tried to do that I was cut off at the pass by 
the very people who are putting out that rhetoric.

                         opposition to cutbacks

    So I just wanted to express my hope that the Administration 
will continue to be very firm in resisting cutbacks like that. 
Regardless of what this Congress chooses to believe is the 
correct immigration policy, the fact is that local governments 
should not be forced to bear the financial burden for decisions 
made by the Federal Government.
    And if the Federal Government is going to take credit with 
all of the ethnic groups in this country who want to see their 
families brought into this country, and if politicians are 
going to put out press releases saying how wonderful it is we 
let more of them into the country, then, by God, we also ought 
to be putting out press releases explaining that we're willing 
to pay for it. It burns me from time to time when you see 
people squawking about bureaucrats screwing up programs. In 
this case, it ain't the bureaucrats who screwed up our ability 
to deal with this, it's the Congress--lock, stock, and barrel. 
And that isn't just true since the Republicans have been in 
control, that's been true with this Congress for a long time 
when it comes to this issue.
    So, end of speech. Thank you for the time, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Obey. I would advise the members 
of the subcommittee that we are proceeding currently under the 
eight minute rule and that we will now recognize in order of 
arrival the remaining members of the subcommittee for 
questions.
    Mrs. Lowey.

                          school construction

    Mrs. Lowey. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I just want to make a statement on 
school construction as well because I personally am very 
pleased that the President is making school modernization a 
priority. I, frankly, am hopeful that this year we can finally 
pass a bill and, in fact, I was delighted that Senator 
Faircloth is offering an amendment in the Senate to provide $5 
billion for school modernization.
    However, since the President's proposal, which I've 
introduced with Congressman Rangel, will not come before this 
committee because it will come out of mandatory spending, it is 
really not an issue before this committee. I am hoping Senator 
Faircloth's proposal will pass as well. However, I feel very 
strongly, or shall we say we can be cautiously optimistic, that 
the current proposal before Ways and Means Committee can pass 
in this session.

      partnership with state and local governments on construction

    I just want to clarify a few points to my colleagues who 
were discussing the school modernization proposal. First of 
all, the Administration's proposal will not make school 
modernization a Federal responsibility. I want to make that 
very clear. The bulk of the financing will still come from 
State and local governments. What the President's proposal will 
do is make it easier for local school districts to win approval 
as they float their bonds since the cost will be reduced 
dramatically. I want to make that very clear to my colleague, 
Mrs. Northup, and the others who spoke about school 
construction, that it is still a State and local 
responsibility.
    Our being a partner on this issue will just encourage and 
make it easier for State and local governments to move their 
bonds. Certainly, the Federal Government has been a partner in 
so many other areas, whether it's building highways or whether 
it's building prisons. And, in fact, if a school district has 
not been able to pass these bonds because of the cost, because 
of their senior population, for whatever reason, I think we 
have a major responsibility to educate our kids and we can't 
accept the fact that some of our school buildings are 
crumbling.
    I'm not interested in going back. I think we have to move 
forward. I have visited schools where there is plastic holding 
up the roof of those buildings. Now, there may have been some 
improprieties in the past. We have to move forward and exert 
whatever influence we can to make sure that these programs are 
handled well and there is appropriate oversight. But, again, 
the Federal government is being a partner because it is our 
responsibility in 1998 to be sure that our kids are not going 
to these school buildings.
    Do you know I visited a school with Secretary Riley just a 
couple of weeks ago and the infrastructure in this school was 
so bad they couldn't install computers; they had to have wires 
coming out of the windows. And there was vandalism in the 
community so the wires were clipped. Well, the kids don't have 
computers, they can't have access to the Internet. Who are we 
kidding? These kids have got to learn how to use those 
computers. It is part of any child's education today. So, 
again, the Federal Government has been a partner.
    Second, in my judgment this proposal will help schools meet 
Federal mandates such as ADA, such as asbestos removal because 
it will make it less costly to float these bonds. We can be a 
partner.
    Third, in terms of distribution of these funds, the formula 
that is in place is based upon need. It is the Title I formula 
that will determine which States will get these funds, not 
according to what they have spent or what they haven't spent.
    So, I just want to thank you again because I think this 
proposal is very important.

                         after-school programs

    Another area where I applaud the Administration is the 
after-school programs. Steny Hoyer has really been a leader in 
making our school buildings comprehensive and providing 
services that would ensure that the schools become the center 
of the community. And keeping them open after school till 7:00 
or somewhere around that time where the schools would be 
providing mentoring, teaching academic instruction, computer 
instruction I think is essential. We talked yesterday with 
Secretary Riley about the shocking tragedy in Arkansas. 
Frankly, if the kids were doing constructive things in their 
classroom, the incidents around the country that occur after 
school we believe could be minimized.
    I understand that you received 2,000 applications for the 
new After-School Learning Initiative but were only able to fund 
40 communities. Could you share with us, one, how you explain 
the level of interest? And could you give us some examples of 
the promising programs you are able to fund?
    Mr. Tirozzi. I had the pleasure the last several weeks to 
participate in a couple of sessions where people who are 
interested in the after-school program came together--in a bidders 
conference, if you will. I went to one where they were scheduled to 
have 300 or 400 people. I believe there were 700 people in the 
audience. Around the country thousands of people have shown up at these 
meetings to gain more information about the after-school programs. 
There's a huge interest in extending the school day, in extending the 
week, and the year.
    In fairness, as we discussed earlier, schools have so many 
other pressures and ``priorities'' that they need support and 
assistance in this area. We see a number of models developing 
across the country. One that I'm very close to is the School of 
the 21st Century which Ed Zigler at Yale is promoting, where 
the school becomes a major vehicle to provide child care, day 
care, ``wrap-around'' services, for example. There are models 
we could point out where in the extended day the youngsters 
have advanced use of technology, and availability of tutors and 
resources.
    I also want to build on a point you made about the link 
with the issue of violence. I think you all know the FBI 
statistics which clearly point out the highest incidents of 
violence are generally between the hours of 3:00 p.m. and 6:00 
p.m., the phone wires are the busiest at 3:00 to 3:30 because 
parents are calling home to see if children get home safely. We 
have about 5 million ``latch key'' children in this country 
right now.
    New York City has done some good things with keeping 
schools open; in New Haven, Connecticut, they talk about the 
family campus concept. I think there are a number of models we 
could talk about, but I think the real key is what the 
potential is. First and foremost, I think what the President is 
talking about is extending learning so that the school day is 
extended in a variety of ways. Also, the school becomes a base 
for the community. You can coordinate social services, health 
services, and so on.
    There is a tremendous potential here to link the schools 
with literacy programs, with welfare reform, for example. We 
have a number of parents who themselves have to become literate 
before they're going to get into the workforce. There is almost 
no end to which we can have a discussion and debate and, 
hopefully, make a national commitment to extend the day.
    I would also think, because we're all responsible 
taxpayers, it's just sad commentary to say that our major 
capital investment in this country closes down at 2:30 
everyday, weekends and all summer. It makes no sense. You would 
never run a corporation that way in this country. We have to 
think more about schools being responsible.
    Mrs. Lowey. Thank you. I believe my time has expired.
    Mr. Tirozzi. Sorry.
    Mrs. Lowey. No, I thank you.
    Mr. Porter. Thank you, Mrs. Lowey.
    Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Let me just say thank you to you, Mr. Secretary, and you, 
Ms. Pompa, for your testimony and really for your dedication to 
educating our children. I just might add that I do know the 
Secretary. We've been friends for a long time. He's a 
colleague, a mentor, particularly in the area of education. I 
had the opportunity to work with him for a number of years. He 
had an extraordinary career starting as a guidance counselor 
and high school teacher, middle school teacher, as I said, 
guidance counselor, school principal, district director, 
superintendent of schools, State Commissioner of Education, 
president of Wheelock College, and now we have your integrity 
and your commitment and your vision available to this country 
and us here. For that, I am grateful and very, very proud.
    I might also add in terms of the issue of community 
schools, after-school education, the Secretary I believe wrote 
his doctoral thesis on the Community School in New Haven. 
Connecticut had one of the very first community schools in this 
country in the Community School in which the Secretary was the 
principal and I was a substitute school teacher.
    Mr. Tirozzi. We're not going to talk about that.
    Ms. DeLauro. No, we're not going to talk about that.
    [Laughter.]

                      comprehensive school reform

    Ms. DeLauro. Nevertheless, there's been reference made to 
the Comprehensive School Reform Program. There again with 
regard to the City of New Haven, it is where Dr. James Comer 
developed this whole school reform approach. It has been 
instrumental in improving education for kids in hundreds of 
schools across the country.
    What I would like to get some information from the 
Secretary on is can you update us on what progress is being 
made in terms of the whole school reform approach. We 
appropriated $145 million for that effort in the last session. 
How much flexibility do schools have in determining what kind 
of a model to implement? How many schools are going to benefit 
from this program with the $30 million increase that you're 
requesting?
    Mr. Tirozzi. First, I would like to commend the Chairman, 
Mr. Porter, and Mr. Obey for fashioning this program. I think, 
without question, it is long overdue. What it really calls for 
is for districts, for schools, if you will, to compete at the 
State level to implement--and here are the key words, the 
operative words--comprehensive, research-based programs. As a 
matter of fact, the House report goes so far as to name 17 
different models, and the Comer model is one, to give districts 
examples.
    Without question, local control, local support, and school-
based management are very important. Regrettably and 
unfortunately, we have a lot of schools out there that I would 
say practice the program du jour; whatever is popular that day 
or week. There are a number of models out there that are making 
a difference in schools. We can talk about the Modern Red 
School House, Bob Slavin's work, Jim Comer, Hank Levin, a lot 
of people. What we're looking for is for schools to really 
implement research-based comprehensive models.
    We're working very cooperatively right now with one of our 
regional laboratories and the Eduction Commission of the States 
(ECS). They are developing a broad catalog, if you will, of a 
number of models that have the potential to make a difference 
in schools. It will not be an all inclusive document. It will 
be continually updated.
    At the State level, there are nine criteria identified in 
the bill that districts and schools will have to adhere to. 
They can piece together different models. As a matter of fact, 
they can even develop their own model. The secret to developing 
their own model, to your example of the school in New Haven, 
they would have to prove that the model is based on research 
and has somehow been evaluated so it can make a difference.
    I would say, Ms. DeLauro, that it is very fair for me to 
represent to this august panel that we've had tremendous 
response from around the country for this. We already have our 
guidance out and we have the applications out. We're optimistic 
that a significant number of States are going to be able to 
take advantage of this and be up and running this year, I mean 
in September, and the rest will probably be on board within the 
year.
    So a lot is happening. It's early for me to say this, but I 
would add that as we go down the road in another year or so and 
talk to you about reauthorization of ESEA, and believe it or 
not, it's coming again, I think this type of a model may very 
well be a harbinger of something we have to look at in Title I, 
in school-wide reform, in terms of how this can inform what 
we're doing in school-wide programs. I think it has huge 
implications for the country. And I really respect the fact 
that it's based on research and based on the comprehensive 
nature.
    Ms. DeLauro. Isn't it a fact that within some of the models 
that are out there and their success that what some of the 
pieces, and sometimes you don't get all those pieces in, just 
the short titles of open schools reform, comprehensive school 
reform, that you're dealing with parents, community, 
environment, standards, and looking at how all of that is 
raised, a decrease in violence.
    Mr. Tirozzi. Yes. Yes.
    Ms. DeLauro. That is the purpose of it. So that it is an 
opportunity to take a look at the number of problems that we 
are experiencing in our schools today and the way in which to 
try to attack that in a comprehensive way. And there is success 
on all of those measures in some of the models that you have 
outlined.
    Mr. Tirozzi. Yes. That's a very good observation. I 
probably should have said it myself. What I think makes this 
legislation even more powerful is it doesn't just say show us 
an achievement model, a reading program that works, but show us 
a comprehensive model that meets these nine criteria. It 
impacts on the family, on parents, on professional development 
of teachers, on curriculum. Jim Comer has a great program, it 
needs a curriculum piece. So we say, fine, use the Comer model, 
build in a curriculum piece. There are other models that have 
excellent pieces, they need greater parental involvement or 
professional development, other vehicles.
    You weren't here for my opening statement, but it builds on 
my opening statement which said that for successful school 
reform to take place you really need a connectivity between and 
among a number of pieces. You have to deal with the whole 
community. You can't just deal with the classroom and the 
student. I think this legislation has that potential.
    Ms. DeLauro. I think it might be a good idea for this 
committee, Mr. Chairman, with some of the models that are out 
there and the people who may represent some of these districts, 
to visit or look at some of these schools, or at least bringing 
some of these folks here to get some sense and idea of what 
these efforts are about and how they in fact are working.
    The Comer model is not only working in the State of 
Connecticut, it's in North Carolina, it's in a number of 
places. We're watching the measures that are outlined there 
really improve. Particularly, increasing parental involvement 
in schools, which we're all concerned about. But it might be a 
good idea, because it is not widespread and Members may or may 
not know that these kinds of schools exist in their districts.
    Mr. Porter. If the gentlelady would yield.
    Ms. DeLauro. I would be happy to yield.
    Mr. Porter. Both Mr. Obey and myself have met several times 
with Drs. Comer and Slavin. However, if there is interest in 
the subcommittee, and I'll poll the subcommittee on this, we 
would be happy to invite them here and have a special hearing.
    Ms. DeLauro. Yes.

                               even start

    I wanted to ask a question about the Even Start Program, 
providing educational services for low income children from 
birth to age seven. We've learned a lot. We have a lot of data, 
a lot of information about how children develop, how their 
brains are developing, what's happening in the first three 
years. How is that information being integrated into the Even 
Start Program? Do you find that you have been able to meet the 
need that exists for the program? Is Even Start successful in 
the sense that it is improving children's literacy and school 
readiness?
    Mr. Tirozzi. The early looks at Even Start do point out 
that there are times when students who participate in Even 
Start, do, in fact, do better. We're finding more parents 
getting involved in literacy programs, a slightly higher 
percentage are passing the GEDs. So we're beginning to see 
that. I think one of the very important aspects of Even Start 
is it doesn't only deal with the child, it's a total family 
literacy concept.
    Our sense is it is a program that truly does make sense. It 
links very nicely, of course, to Title I and what happens in 
the primary grades. Head Start is something else that has to be 
inextricably linked with this whole transition.
    Something else that is in our budget right now is a program 
that will look for a greater connection. it's the new 
Transition to School demonstration program in our budget, to 
look for a greater relationship between the preschool and 
what's happening in elementary school. All too often in early 
childhood programs across this country, including Head Start 
and Even Start, there is a real disconnect between schools and 
those programs. It's as though the children didn't exist until 
they came into the school. We need to improve those connections 
because you're right on the brain research, and also in that 
major reading report that came out last week, one of the first 
recommendations is that we have to get involved with students 
birth to five. That's going to become a bigger issue over time 
for this country. If we don't do that, especially with poorer 
kids, we're going to keep falling further and further behind.
    So Even Start is really a beacon of hope. It's still a 
relatively small program. I think over time this country has to 
show even greater commitment to the preschool years and to 
really building on what the brain research and everything else 
is telling us, and, as you said earlier, the whole commitment 
of family and parenting. Parents are the child's first teacher 
and we really need to get them more involved in the education 
of their children.
    Ms. DeLauro. Thank you very much, Mr. Secretary.
    Mr. Tirozzi. Thank you. Good to see you.
    Mr. Porter. Thank you very much, Ms. DeLauro.
    Mr. Hoyer.
    Mr. Hoyer. Dr. Tirozzi, thank you very much for your 
comments. I was going to ask you how you got this job, until I 
heard about your substitute teacher. [Laughter.]

                          full-service schools

    Doctor, Mrs. Lowey talked about my involvement in what I 
used to call coordinated services but now call full-service 
schools after Joy Dryfoos' book. What I have tried to do is 
encourage the Federal Government to make its own services more 
comprehensive.
    You just talked about the treatment we give to Head Start 
and to kindergarten and first grade where the integration and 
communication between Head Start and the public school may not 
be great. There was a big war on this. That war still continues 
between the educators and the social service community as to 
how these programs ought to be integrated.
    As you may know, I was a strong proponent of co-location. I 
continue to be a strong proponent of co-location. You made the 
observation that we spend an awful lot of capital money on a 
school building and we use it a relatively short period of 
time. In most elementary schools throughout the country it is 
not comprehensive, either from a social services standpoint, a 
health service standpoint, or an adult family services 
standpoint.
    What are we doing at the Federal level to turn that around? 
And what I am getting at is that I don't think we are doing 
enough, and I've talked about that, as you know, to Secretary 
Riley, Secretary Shalala, and Secretary Reich. I need to talk 
to Secretary Herman, Secretary Cuomo, Secretary Slater, and 
Secretary Glickman.
    Our schools continue to be discrete institutions for the 
most part. There are examples you can cite and some are very, 
very successful. But what are we doing at the Federal level to 
make sure that those five or six Departments, all of which 
impact the welfare of children, to bring them together so that 
a local provider will have an incentive to create a 
comprehensive school delivery system from zero age to the 12th 
grade?
    Mr. Tirozzi. Let me say Joy Dryfoos is a really great 
person. The concept of really looking at schools, in and of 
themselves, as full-service centers, really trying to 
coordinate resources--it's very interesting. In the 1960s at 
the Conte Community School where I was, we had health service 
in that building, we had medical services, we had dental 
services, we even had boccie courts for senior citizens, we had 
a clothing store. It was a total community and it really 
functioned as a community.
    I think the idea of schools developing as community centers 
makes consummate sense. I would like to think the $200 million 
proposal helps us move in that direction. I would like to think 
the Mott Foundation, in cooperation with the Federal 
Government--they're going to provide $55 million for technical 
assistance--will help.
    One of the real issues in terms of full service is the 
dilemma you have in terms of different people coming to the 
table and agreeing to give up some of their turf, if I may be 
very blunt. You need a strong mayor who will really sit down 
with providers, you need strong governors who are going to 
demand that the integration takes place. At the Federal level, 
in fairness and I say this in hopefully a complementary way, it 
is hard enough within the Department of Education to coordinate 
everything we're doing, let alone reach out to all the other 
agencies.

                       interagency collaboration

    But I do want you to know that we have a couple of very 
interesting crosscutting efforts going on right now. As a 
matter of fact, coincidentally, this afternoon I'm chairing a 
meeting in my office with a group from Justice, from 
Agriculture, from Health, and several other agencies----
    Mr. Hoyer. I should have added Justice to my list.
    Mr. Tirozzi. Yes. Janet Reno started this, she called 
Secretary Riley and had this idea; I met with her, and so we're 
now meeting on a regular basis. What we're trying to figure out 
is a way to maybe identify five, six, or seven major cities and 
see how we can go in--I'm not saying any new money--but just go 
in in terms of having meetings at the local level to talk about 
how we could do a better job of coordinating major Federal 
resources that are available to help that particular location 
move ahead. So I think some interesting conversations are 
beginning.
    Mr. Hoyer. Doctor, I have been frustrated. I have been 
talking about this for at least six or seven years. My concept 
has been that you have a funnel at the top with these eight 
agencies that we talked about, you have got an LEA at the 
bottom here who wants Sally Smith, age three, to be educated 
and wants her family to be functional. We would like her mom or 
dad to be employed, et cetera, et cetera. For the local LEA to 
access those seven or eight departments is a very difficult 
job. I put a half a million dollars in this bill four years ago 
to try to work on how we could get that done.
    Frankly, what we did was we looked more at what the locals 
could do rather than at what the Federal Government could do. 
And what we said the locals could do is create consortia so 
that you could bring Head Start, Even Start, health programs, 
and job service programs together. But we really didn't look at 
what you and the Department of Agriculture, the Department of 
Transportation, and the Department of Justice could do to say 
to the LEA, ``Mrs. Jones, you've got a program down there to do 
for Sally Smith exactly what we want to do on a broad spectrum. 
But you accomplish all these objectives by getting the 
resources necessary to provide all those services.'' We have 
not done that yet and the local person still is very frustrated 
on how to access these programs.
    My premise is we do not necessarily need to talk about more 
money. For instance, Head Start wants to build facilities now. 
We authorized this in the reauthorization of Head Start. I was 
an opponent of it because it seems to me kind of silly to spend 
capital money to build a Head Start facility and to spend 
capital money to build a kindergarten-1st grade room when you 
are going to articulate those together. We all are preaching on 
this committee more than asking you questions. But we are not 
doing enough, Doctor. I continue to talk about this, I have 
talked to the President about it. It makes sense.
    Mr. Tirozzi. I agree.
    Mr. Hoyer. Everybody agrees it makes sense. But we all 
understand the turf battles at the local level, the turf 
battles at the national level between different groups, andthe 
turf battles between the States and the Federal Government, who think 
they know better than the States and are concerned that some States 
won't do the job.
    I think we need to demand accountability at the end of this 
funnel. We'll let you do for Sally Smith, but two years from 
now what we invested, we expect returned. We're not doing 
enough to make it happen. It's very consistent with the Vice 
President's concept of doing more with less and reinventing the 
way we deliver these services.

                         reinventing government

    Mr. Tirozzi. I was going to add I think one of the answers, 
something you just said, is what Mr. Gore has been talking 
about, reinventing Government. And in fairness, I think 
reinventing Government at the very least is an incremental 
process, it's not overnight. But I think he has been talking an 
awful lot about the whole idea of integrating services across 
Government.
    I can't speak for any other department. I know the 
Secretary is very interested in integrated services. He and I 
have talked about that. Just one quick example. We've had 
excellent conversations with the Agriculture Department because 
there's a real need, if we do extend the time children are in 
schools, to consider how we're going to extend the School Lunch 
Program to provide snacks for kids. Kids are kids, they're not 
going to stay in school until 6:00 at night and not eat 
something. Schools don't have the money to just do that. So 
we're talking about supporting each other's budget in terms of 
your funnel idea. Yes, yes.
    So I would like to suggest some things are happening, and I 
would agree, not necessarily to the extent that you'd like to 
see it happen. I can tell you I had the same frustration you 
have but at the State level. I had the same frustration when I 
was a local superintendent. It is very hard to get people from 
different agencies to come together and agree to share 
resources, if I may be that candid. It's very hard. 
Unfortunately, these turf wars that take place involve the 
games that adults play at the expense often of children.
    But I think the concept of reinventing Government, if we 
stay at that task and we expand it even further to what you're 
talking about, has great potential at the Federal level. Maybe 
we will become what we should be. We should be a model in terms 
of what we want States and districts to do.
    Mr. Hoyer. Thank you, Dr. Tirozzi. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Hoyer.
    Secretary Tirozzi and Director Pompa, I apologize, I have 
to go to a meeting with the Speaker of the House. I want to 
express my appreciation for your testimony and your very candid 
answers to our questions today. I will ask Mr. Bonilla to take 
the chair.
    Mr. Bonilla [assumes chair]. Thank you, Mr. Chairman.

                  effectiveness of bilingual education

    Ms. Pompa, I asked the Secretary yesterday, and I didn't 
press him on it, I asked him about the effectiveness of 
bilingual education and he gave a very positive answer about 
bilingual education but didn't really provide, and we didn't 
have the time to really get into it to any great length, the 
subcommittee with real proof that what we are doing now is 
actually working.
    In that regard, my question is, what real results do you 
have to show the subcommittee on how the current Bilingual 
Education Program is working? On page 3 of your testimony, you 
state that Census data suggest that language minority students 
were more proficient in English in 1990 than in 1980. That data 
is more than eight years old now. And I heard your comments 
talking about how positive the outcome is for bilingual 
education students, but what I'm concerned about I guess is the 
real data and if there is really more than just a feeling or an 
evaluation of a few studies here and there?
    Ms. Pompa. Certainly. You're right, that Census data is 
quite old. That's what we had at the time the testimony was 
being written for submission.
    As you probably know from the 1994 reauthorization of Title 
VII, we require biannual evaluations. We got the first 
evaluations in at the end of January and we have been analyzing 
those. Our preliminary data from those evaluations, and we have 
not finished the analysis, this is just preliminary data, is 
that our students look like they are learning English. We have 
indications that in over 75 percent of the groups or grades the 
children are increasing in their language proficiency. The same 
is true for the academic scores in language arts, reading, and 
math, that for these projects we've begun to evaluate the 
students, again over 75 percent of them, are making progress in 
these subjects. For the other 25 percent, the results are mixed 
but in no cases are the kids showing negative results.
    We think these are good indicators. We are just beginning 
to be able to look at these data. The funds that you provided 
under research have helped us analyze this. That's one of the 
reasons we requested continuing support from you on our 
research and support services.
    These changes often, unfortunately, take a long time to 
document because you have to have the mechanisms in place. I do 
think we now have the mechanisms in place with the changed law 
and with the data we're able to collect. I hope next time I 
come before you I'll have even more data to report to you.

                      bilingual education studies

    Mr. Bonilla. I appreciate that very much. In regard to some 
of the studies that have recently come out that are saying that 
bilingual education programs are not getting the job done, one 
of them was from the University of Maryland and New Mexico 
State University. I know you know about it. Historically, over 
the years you have had an incredible retention for some of 
these reports that go out.
    Ms. Pompa. I've got to read my press.
    Mr. Bonilla. My point is I'm very impressed by how well 
briefed you are when you appear before us on a regular basis 
year after year.
    Ms. Pompa. Thank you.
    Mr. Bonilla. Anyway, this one showed that bilingual 
education handicaps Hispanic children, severely limiting their 
earnings potential when they enter the job market. The study 
showed that, on average, first generation Hispanic students who 
went through the Bilingual Education Program over the past two 
decades are now earning about 50 percent less than their peers 
who received an English only education. Also, you referenced 
the National Academy of Sciences earlier, and in two separate 
reports they have criticized the quality of previous bilingual 
education research sponsored by your office and the Department 
of Education.
    So tell me how the Department, I know you touched on this a 
minute ago, how do you track students who are graduating from 
these programs to see how they're doing later in their 
educational or professional career? Because these figures from 
this study from the University of Maryland and New Mexico State 
are somewhat alarming.

                         validity of the study

    Ms. Pompa. They are alarming and we were quite alarmed when 
we saw the article in the newspaper. So we went back and looked 
at the study. Folks in our evaluation section, our research 
section actually went back and read the study and looked at the 
sources that the researchers were using.
    Unfortunately, the researchers were using data that don't 
truly represent students in bilingual education. In other 
words, they were comparing apples to oranges. So when you look 
at how they analyzed the data regarding these students, they 
were making some statements that you couldn't make from the 
data they had. They were talking about students in bilingual 
education when, in fact, the data they had suggested the 
students might be or could be in bilingual education. It was 
not really a true measure of whether kids were in bilingual 
education. Also, they were comparing those students with 
another data set and this comparison was not valid 
statistically. So we feel that study is unsound. But we were 
quite concerned when we saw it.
    In terms of what we're doing to track these students when 
they graduate from high school, unfortunately, we haven't 
mounted any studies that give us the ability to track the 
students once they leave high school. We have to rely on census 
data and on our large surveys that are done out of the National 
Center for Education Statistics. We have, now that we have 
these research funds, been able to give the National Center for 
Education Statistics funding that will allow them to focus on 
limited English proficient students and track them in the high 
school and beyond in the National Educational Longitudinal 
Survey in a different way. But we don't have that data 
currently or that capability.

                   national academy of sciences study

    Your other question was about the National Academy of 
Sciences studies where they criticized some of the research 
studies that were, indeed, funded by the Department of 
Education. We agree with that criticism from the perspective 
that in the past people have tried to do what we call these 
``horse race'' studies of looking at programs across the board 
and saying does this approach works better than this approach. 
And you're painting a broad picture of thousands of different 
approaches that are labelled as one kind of approach.
    The National Academy of Sciences recommended that, instead 
of doing those sorts of studies, we look at individual schools 
and what difference we were making for limited English 
proficient students, what's working for them, and what 
commonalities there are in programs that are working and 
helping students learn English and achieve to very high levels. 
And those are the kinds of studies we are beginning to mount 
and look at more carefully.
    Mr. Bonilla. Somehow I knew you were going to know about 
that Maryland and New Mexico State study. You have never failed 
to have been well-versed on something that I've brought up here 
so far in the years that I've been on the subcommittee.
    Ms. Pompa. Thank you.

                            evaluation plan

    Mr. Bonilla. On page 4 of your testimony, you request funds 
for studies and evaluations to chart progress towards showing 
performance results. What types of studies and evaluations 
specifically is your office planning, and what goals do you 
hope to accomplish with these studies? Will this research be 
conducted in accordance with what the NAS has referred to 
earlier?
    Again, I realize it is very hard to track sometimes and to 
keep track of how programs are being used in different areas 
because they are all different. The Secretary referenced the 
local control of programs, and we all support that, the 
Secretary referenced that in his testimony. So I know that you 
sometimes can't provide a succinct answer to some of these 
questions. But give me your best thoughts on what your goals 
are for evaluating these programs.
    Ms. Pompa. Our goals are to evaluate the very indicator 
that Congressman Porter talked about, which was whether 
children are learning English, and then follow that evaluation 
looking at whether children are making academic progress. That 
is what is most important to us.
    The kinds of evaluation studies we're mounting are looking 
at the evaluation data that are coming in directly from the 
school districts, analyzing what they are telling us is 
happening with their students with regard to English 
proficiency and with regard to academic proficiency. So the 
studies are analyses of all these evaluation reports that give 
us a picture across the country of how Title VII-funded 
bilingual education programs are working and supporting 
children as they learn English and as they reach high 
standards.

                         quantifiable standards

    A second aspect of our evaluation studies is to begin to 
develop a database for what we should expect children to be 
able to do. One of the questions earlier had to do with why 
don't you just set standards or percentages each year. 
Unfortunately, we have not been in the business of evaluating 
achievement for bilingual students or limited English 
proficient students long enough to have the database developed, 
or haven't focused our energies in looking at what is the 
difference in the achievement of English speaking students and 
the achievement of limited English proficient children--will 
they progress at the same rate, what difference does language 
make, what difference does the education of the parent make, 
all those other factors.
    So we're trying to create a baseline. We have something 
called the Expected Gain Study that will set a base for how we 
expect children to progress through the curriculum in learning 
English and in achieving to high standards.

             new report by the national academy of sciences

    There are other evaluation studies we are undertaking 
looking at reading, for example. The National Academy of 
Sciences has just issued a report last week looking at reading 
difficulties in young children and one of their findings was 
that children who speak a language other than English, if they 
have adequately prepared teachers and good curriculum 
materials, should be taught to read in their primary language. 
If they don't, we should spend our efforts teaching them 
English before we try to teach them to read in English. These 
kinds of studies need to be replicated to make sure that that's 
the case for children of all language backgrounds and in 
different communities. So that's another kind of study we're 
mounting.

                        professional development

    We're also looking at the professional development program 
with the evaluation funds to make sure that we're getting 
quality teachers, to find out what kind of money school 
districts are putting into these programs, what effect it is 
having, where the needs continue to be, and how effective we're 
being in training these teachers.
    Mr. Bonilla. Good luck in that. That's a lot of evaluating 
to undertake in, again, sometimes the very vague fields that 
you're working with.
    Ms. Pompa. Thank you.

                 need for greater local responsibility

    Mr. Bonilla. Before I yield to Mr. Stokes, I just want 
tomake a comment, because we've all expressed concern about education 
here this morning, and the Secretary earlier got into the schools that 
are crumbling, and we see that happening everywhere.
    Unfortunately, I went to a school in a district that 
continues to be one of the poorer performers in South Texas. 
When I started high school in the South San Antonio Independent 
School District all the teachers quit that year and I was never 
even required to read a single book in my four years of high 
school. The school board, because of all of the horrible 
political fighting, created such an atmosphere that teachers 
that had wisdom, experience, and were interested in continuing 
in their great profession just said I don't want any part of 
this.
    A couple of years ago, the references were publicized 
greatly in the San Antonio market about how the school board 
members were physically attacking each other in elections. 
There were arrests made, investigations, and they are still in 
the newspaper for yet other scandals.
    It is so unfortunate and sad that parents who run for these 
school boards and are in charge of budgets, principals, and 
curriculum have heady problems and causes that they get into it 
with each other and meanwhile the student's curriculum suffers, 
buildings start to crumble, bond issues aren't pushed 
appropriately.
    Quite frankly, and I know you're trying to do all you can, 
I don't know what the answer is. If you can't get it inside the 
heads of these parents that the kids are suffering, it is one 
of the most unfortunate tragedies that exist in this day and 
age. I know that you recognize that and I recognize that. I 
wish there was some magic we could produce up here by 
appropriating another billion dollars for something that we 
thought would make a difference. But, quite frankly, 
unfortunately, in my old school district today, if we gave them 
another $3 million to do something, I don't think they would do 
the right thing. They have proven over the years that they are 
so small-minded that they are more concerned about their 
pettiness than about the kids.
    Again, I have no solution but I just express the 
frustration I know a lot of you feel as well in your work.
    At this time, I would be happy to yield to my friend, Mr. 
Stokes.
    Mr. Stokes. Thank you very much, Mr. Chairman.
    Secretary Tirozzi, nice to see you again.

                  african-american student population

    Mr. Tirozzi. Good to see you again, Mr. Stokes.
    Mr. Stokes. I have read the testimony of both you and 
Director Pompa. In the testimony given to us by both of you, 
you provide us with extensive detailed information how your 
budget will directly affect the Hispanic population, it talks 
of your bilingual education aspects of the budget, limited 
English speaking, and so forth, all of which is fine and I 
think that's very important.
    But noticeably absent from your testimony is any reference 
to the African-American segment of the student population. I 
would think, considering that this is 12 percent of the total 
U.S. population, that there must be some unique problems 
relative to that particular segment of the student population, 
unless they are now considered to be on an equal basis with the 
majority population. Perhaps you can address this for me.
    Mr. Tirozzi. I think in fairness, Delia can speak to this 
better than I can. We highlight the bilingual population 
because I think there we're talking about a number of issues, 
one, of course, being language and language acquisition.
    I think when we talk about the African-American students, I 
have always preferred never to get into a debate or make 
exceptions or excuses because youngsters are from different 
types of ethnic backgrounds. I think one of the problems, Mr. 
Stokes, with our schools is when you start disaggregating data 
that way, for many people--unfortunately, regrettably--it 
becomes a self-fulfilling prophecy.

                        poverty and achievement

    To me, the greatest correlate we can talk about to do with 
student achievement is the issue of poorness, the issue of 
poverty. Wherever that seems to exist, regardless of color of 
skin, it is a unique and difficult problem for children, 
whether it's rural America, or urban America. In our cities, 
for example, if you look at our program, and I used that 
guiding principle early on--targeting and equity--a significant 
percentage of our funds, look at Title I, goes directly into 
our core cities. Some 7 percent of the districts in America, 7 
percent, receive about 65 percent of all the Title I funds. So 
it is targeted, and our large, poor urban districts, in 
particular, are getting those dollars. And in those districts, 
as you said, the largest percentage of our students are still 
African-American students.
    So rather than discussing the issue in the context of 
ethnic background or race, we would rather talk about it very 
distinctly in terms of the issue of poverty and what it means 
for students. I think that, and only that, is the reason that 
you don't see it in my statement. But in fairness, when we 
present our data, any of our testing data, we always 
disaggregate male/female, black/white/Hispanic. We do that all 
the time. But in terms of this kind of a testimony, I just 
personally didn't feel that was appropriate or necessary. I 
hope I've answered you.
    I don't know if Delia wants to address that differently.
    Mr. Stokes. Director Pompa.

                       language minority students

    Ms. Pompa. Because of the charge of my office, we focus on 
language minority students and there aren't a lot of African-
American students who benefit directly from the bilingual 
education programs that we oversee. However, the number of 
African heritage language minority children is growing. When we 
look at the Caribbean Islands, including Puerto Rico, and the 
numbers of students who are of African heritage and also are 
language minority, that's one way we're beginning to deal with 
the issue.

                       two-way bilingual programs

    Another way is the two-way bilingual programs I described 
earlier, where you've got children that are both language 
minority and language majority who are learning two languages. 
In a growing number of cases, the language majority children 
are African-Americans, so they are also benefitting from some 
of these projects. We don't have data on that because we 
haven't collected it that way.
    The issues cross in many, many ways, as Dr. Tirozzi pointed 
out. Language minority children tend to be over-represented in 
high poverty schools as do African-American children. We 
believe the changes we make in our office for language minority 
students benefit other children living in poverty.

                            school vouchers

    Mr. Stokes. Let me ask you about the new debate going on 
relative to school vouchers. Both here in the Congress and in 
many State legislatures, there many groups who contend that the 
utilization of vouchers is something that will help children 
who are relegated to publicschools, which are not up to par, et 
cetera, et cetera. However, there are those of us who are concerned 
about the fact that the utilization of vouchers may eventually destroy 
the public school system as we know it today. Do you have any wisdom 
you can share with us on this subject?
    Mr. Tirozzi. I take the very strong position, as does the 
President and the Secretary, that we are unalterably opposed to 
vouchers to private and parochial schools. I think it takes 
much needed public school money and it puts it in the private 
sector. I absolutely respect what private and parochial schools 
do. I think they have a very rightful and responsible place in 
our society, but I don't think we have any responsibility to 
fund them. It is a private, parochial decision.
    Also, candidly, private and parochial schools can select 
the students they want and they can return the students they 
don't want. They can make decisions if they want to accept 
youngsters with special needs or disabilities, and so on. We 
don't do that in public schools, nor should we. Public schools 
are for all of the children of all of the people.
    Just last week I personally reacted to a commentary by a 
columnist I have the greatest respect and admiration for, Mr. 
Raspberry, who tried to talk about vouchers as related to the 
Titanic and the fact that maybe it is a fairer situation if we 
allow some of the students on the lifeboats to escape the 
Titanic. My comeback on that is I think that's the wrong way to 
come at the issue. If we're going to forever be wed to a 
lifeboat mentality, we'll never repair the Titanic. The idea is 
how do we fix urban schools, how do we make them better.
    By the way, there's another reason I have to be unalterably 
opposed. In this country only about 10 percent of the total 
student population is in private and parochial schools, so 
there's not enough room, even if. As a matter of fact, that 
article, when Mr. Raspberry wrote it he was talking about 
Washington, D.C. and vouchers. The figure I looked at and the 
amount of money they would make available would only serve, I 
believe, 2 percent of the kids in Washington, D.C. And, quite 
candidly, you probably would siphon off the number of kids 
whose parents understood how the system worked and took their 
children and came forth.
    And I think you're right in your perception; my concern 
would be that public schools would become the schools of last 
resort. I think if that happens, pardon me, shame on America, I 
think it becomes a huge issue for this country and that's not 
what our democratic system is about. So that's where I'm coming 
from.

           third international math and sciences test (timss)

    Mr. Stokes. I appreciate that. I had some discussion 
yesterday with Secretary Riley regarding the Third 
International Math and Science Test on which 12th grade 
students in our nation did very poorly in terms of 
international competition. One of the factors that we learned 
from his testimony yesterday is that only 28 percent of the 
math and science teachers, who are qualified to teach in that 
area, have actually studied in that area. Does your budget 
address this situation in any way?
    Mr. Tirozzi. There are a couple of proposals in the 
reauthorization of Higher Education which will afford 
scholarship money, if you will, to perspective teachers who 
will teach underserved populations largely in cites and poor 
rural districts. There is money in the Higher Education 
Reauthorization Act that begins to look at that and to address 
that. So, in some respects, the answer to your question is, 
yes. But I would say, in fairness, when you look at the reality 
that we're going to need 2 million teachers across this country 
over the next 10 years, we have to do a lot more.
    I do want to step back and say, as I tried to say earlier 
in my comments, this is not an issue only for the Federal 
Government. This is an issue for States and local communities. 
Part of that issue resonates to the reality that we're going to 
have to figure out a way to pay teachers commensurate with 
their responsibility. I don't know how easy it's going to be in 
this country to recruit the brightest minds into teaching 
science and math when business and industry offer so much more.
    At the same time, I agree with standards, that we have to 
raise the standards for the profession. There is something 
wrong with a profession that lets 55 percent of the physics 
teachers who have not majored or minored in physics teach. 
That's like going to a doctor who has a major in medicine; it 
just doesn't make sense.
    We could send you a lot more information on the Higher 
Education reauthorization. There is money in there to help 
begin to move in this direction. But I guess what I'm pointing 
out is this is an issue that far transcends what the Federal 
Government can do. We need State and local cooperation.

                           teachers' salaries

    Mr. Stokes. I quite agree. One of the things that I really 
have very basic trouble with is that, in a country that can 
afford to pay people to run up and down a court with a 
basketball in their hands millions of dollars, we can't pay 
someone teaching our children $30,000 a year. There's something 
drastically wrong in that type of a society.
    Mr. Tirozzi. Just to build on that, Mr. Stokes. Ed Zigler 
at Yale, a preeminent authority on early childhood education, 
points out in his speeches that in this country we pay 
zookeepers more than we pay childcare providers. There is 
really something drastically wrong with what we're doing in 
this country when we admire animals more than children.
    Mr. Stokes. My time has expired. Thank you very much, Mr. 
Secretary. Thank you, Mr. Chairman.
    Mr. Bonilla. Mr. Stokes, thank you.
    Secretary Tirozzi and Ms. Pompa, we want to thank you for 
being here today. On behalf of the Chairman, I offer that 
gratitude as well. He, of course, is still detained in another 
meeting he has with the Speaker. We look forward to working 
with you on the issues that are important to what you're 
working on.
    Mr. Tirozzi. Thank you very much.
    Mr. Bonilla. Thank you again.
    At this time, I will adjourn the committee. We will stand 
in recess until 2:00 p.m. this afternoon.
    [The following questions were submitted to be answered for 
the record:]


[Pages 203 - 252--The official Committee record contains additional material here.]



                                          Thursday, March 26, 1998.

                           HOWARD UNIVERSITY

                               WITNESSES

H. PATRICK SWYGERT, PRESIDENT, HOWARD UNIVERSITY
ANTOINE GARIBALDI, PROVOST, HOWARD UNIVERSITY
THOMAS ELZEY, VICE PRESIDENT, BUSINESS AND FISCAL AFFAIRS, TREASURER, 
    HOWARD UNIVERSITY
FLOYD MALVEAUX, VICE PRESIDENT, HEALTH AFFAIRS
ROBERT DAVIDSON, DIRECTOR, POSTSECONDARY ANALYSIS DIVISION, BUDGET 
    SERVICES, DEPARTMENT OF EDUCATION

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    The hearings on the Department of Education continue. We're 
pleased to welcome Mr. Patrick Swygert, the President of Howard 
University, this afternoon.
    Mr. Swygert, this is your third appearance before the 
subcommittee. This is the second appearance since the adoption 
of the strategic plan that you instituted for Howard. We're 
very anxious to hear how that plan is being implemented and 
what problems you've faced, and what problems you've overcome, 
as well.
    So why don't you proceed with your statement, and then 
we'll go to questions.

                           Opening Statement

    Mr. Swygert. Mr. Chairman, thank you very much, and good 
afternoon, sir.
    It's my privilege to be here, my privilege as well to greet 
Congressman Stokes, who like yourself, Mr. Chairman, is a great 
and dear friend of Howard University.
    Mr. Chairman, it is once again my honor to appear before 
you to discuss the fiscal year 1999 budget request for Howard 
University. With me today are Dr. Antoine Garibaldi, the 
University Provost; Dr. Floyd Malveaux, Vice President for 
Health Affairs; and Mr. Thomas Elzey, Vice President of 
Business and Fiscal Affairs.
    I'm also joined by Dr. Hassan Minor, Vice President for 
Government Affairs; and Ms. Madeline Lawson, who's serving in 
our University Advancement Office. And I'm very pleased today 
to re-introduce you to Mr. Bertram Lee, a distinguished member 
of our Board of Trustees. The Chairman of our Board of 
Trustees, Mr. Frank Savage, is not with us today. Business 
requires that he be in South Africa. He extends his deepest 
regards to each member of the committee, and to you, Mr. 
Chairman.
    We also have with us today a dear friend of the University, 
Mr. Robert Davidson from the Department of Education. We expect 
his colleague, Dr. Claudio Prieto, to join us shortly.
    Mr. Chairman, I have distributed two documents to the 
committee that are intended to provide you with an authentic 
overview of the University in a number of important areas. 
Taken together, they delineate the progress achieved since our 
last appearance before this committee, and they identify as 
well the challenges that remain.
    The first of these documents, Mr. Chairman, is ``FACTS 
1998'', which provides the Congress with a snapshot of the 
University. The committee is well aware that Howard University 
is the only Carnegie Level 1 Research university serving a 
predominantly African-American population. This year, I have 
added the name of each full-time faculty member to the fact 
book, and have included the university from which they received 
their highest degree.
    I am also pleased to report that the faculty who teach at 
Howard University represent a broad cross-section of America, 
and have earned advanced degrees from 74 of the 88 Carnegie 
Level 1 Research universities in the Nation.
    The second document is entitled ``Special Reports for the 
United States Congress'', and contains first a status report on 
the Strategic Framework for Action; second, the fiscal year 
1999 Analytical Abstract; and third, the Howard University 
Government Performance and Results Act report.
    As you will recall, Mr. Chairman, the strategic plan for 
the University calls for achievement in four strategic areas; 
one, strengthening academic programs; two, promoting excellence 
in teaching and research; three, increasing private support; 
and four, enhancing national and community service. As you can 
see from the two-page summary at the end of the Report, after 
only 18 months, I am very pleased to report that we have 
successfully implemented the consolidation of the schools and 
colleges, and have either completed or accelerated our schedule 
in the overwhelming majority of our measurable objectives in 
each of the four strategic areas.
    The second report presents an analysis of the state of the 
University in selected areas. As former Congressman Jack Kemp, 
and now a University Trustee, stated before this Committee, 
Howard University was created by the Congress to be a national 
university serving a national need. One hundred and thirty-one 
years later, we maintain fidelity to that mission.
    As the first exhibit in the Analytical Abstract 
demonstrates, Howard students, like our faculty, come from 
every corner of the Nation and from all 50 States. Howard 
University is also fully accredited by the Middle States 
Association of Colleges and Schools. Exhibit 2 shows the 26 
different agencies, in addition to Middle States, that have 
also accredited Schools and Colleges of the University.
    Exhibit 3 illustrates the performance of entering freshmen 
compared to all African-American students and to all test 
takers. It shows that test scores for Howard students continue 
to be 150 points higher than the national average for African-
Americans, and virtually identical to the national average of 
all test takers.
    And Mr. Chairman and Mr. Stokes, if you recall, last year 
we talked about this. And my goal is seeing to it that the 
Howard line exceeds the national line, the top line. And I 
think we're moving in that direction. And I'm confident that 
we'll be able to do so shortly.
    Exhibit 4 shows that the number of advanced degrees awarded 
by the University increased last year by 4 percent. Howard 
continues to lead the Nation in producing African-American 
graduates at all degree levels.
    Exhibit 5 shows that, while overall employment remains 
constant at the University, there was a slight increase in 
Howard University Hospital employees to address the special 
needs of providing first-rate health care in an increasingly 
complex academic teaching environment. And let me add, Mr. 
Chairman and Mr. Stokes, unlike last year when we were looking 
at a possible operating deficit for the Hospital, the Hospital 
finished last year with a very modest, but I think important to 
note, operating surplus.
    Although the dollar amount of research declined somewhat 
within the past fiscal year, it should be noted that the number 
of research awards remains virtually the same. We fully 
anticipate that research productivity will grow as we continue 
to provide first-rate technological resources to the research 
faculty. These resources will be found in the laboratories and 
other facilities of the projected Interdisciplinary Science 
Center, and in the financial support provided by the Fund for 
Academic Excellence for inquiries and explorations into issues 
and areas that hold promise for future significance.
    Three of the most exciting projects that the University 
hopes to begin or expand on are: the Interdisciplinary Science 
Center, the School of Science and Mathematics, and the Africa 
Technology Project. First, the Interdisciplinary Science Center 
would upgrade university facilities in basic science and 
engineering, as well as provide a robust foundation for 
substantive research in emerging fields.
    The School of Science and Mathematics, a university-based 
regional school located in the Howard University campus area 
that provides cognitive ability among children in the 
Washington Metropolitan area, is another goal of the 
University. The school would also provide much-needed support 
to area teachers through summer institutes, science kits, 
curriculum development workshops and other programs designed to 
interest students in studying science and technology.
    The Africa Technology Project, a national HBCU initiative 
based in Howard University's Ralph Bunche International Affairs 
Center, is designed to use emerging information technology to 
create a virtual network to foster educational and economic 
opportunity through African-American partnerships in sub-
saharan Africa. And I do hope, Mr. Chairman, that your time 
will permit us to discuss this in a little bit of detail.
    Exhibit 10 is a portrayal of changes in the endowment of 
the University since 1982. During that period, the endowment 
has grown from $17.8 million to $176 million. The curve 
reflects an increase of about 10 percent within the last year.
    Exhibit 11 demonstrates conclusively that the University 
serves a national constituency whose alumni reside in all of 
the 50 States. Eighteen States have more than 500 Howard 
University alumni. Thirteen have more than 1,000 and five have 
more than 2,000 living alumni.
    For 131 years, Howard University has been a major avenue of 
post-secondary access and opportunity for many, many Americans. 
It has taken the under-prepared, under-funded, high potential 
student and produced more successful, prominent, professional, 
tax-paying citizens than any other university of similar size 
and complexity. The University, since its founding, has awarded 
more than 86,000 degrees.
    The final report provides an encouraging glimpse of how 
well Howard University is complying with the Government 
Performance and Results Act of 1993. In all performance 
indicators, Mr. Chairman, the University is reporting a stop 
light status of green, indicating bench marks have been clearly 
defined and outcomes are on target. And here, Mr. Chairman, I 
want to again acknowledge our colleagues from the Department of 
Education, Assistant Secretary Longanecker and his colleagues, 
for helping us in the development of these benchmarks.
    Finally, I want to thank the members of this Committee 
publicly for their investment in Howard University. Your 
support enables the University to provide a comprehensive, high 
quality curriculum that makes it possible for students with 
ability, who come from families of limited means, to become 
contributing, productive participants in the mainstream of 
American society.
    Mr. Chairman, this concludes my Opening Statement. I'd be 
happy to answer any questions the committee may have, and I 
thank you for the opportunity to appear before you today, and 
for your patience.
    [The written statement of Dr. Patrick Swygert follows:]


[Pages 257 - 265--The official Committee record contains additional material here.]



    Mr. Porter. Dr. Swygert, thank you very much for your fine 
opening statement.
    Mr. Stokes is the ranking member on another subcommittee 
and has responsibilities there, and I'm going to call on him 
first for any questions he may have.
    Mr. Stokes. Thank you very much, Mr. Chairman. Appreciate 
that accommodation.
    Mr. Swygert, it's a pleasure to welcome you back before our 
subcommittee. I enjoyed your presentation. It was quite 
informative and well presented.
    Let me take this opportunity to also welcome Dr. Bertram 
Lee, an old friend, to our hearing. This is the first time I've 
had the pleasure to welcome him here, and I wouldn't pass up 
that opportunity to do so.

                            Merit Pay System

    Mr. President, during last year's hearing you discussed the 
University's new merit pay system. The system has now been in 
place for a year. Are you seeing any measurable progress, and 
what impact is it having on the University's productivity?
    Mr. Swygert. Mr. Stokes, thank you so much for that 
question. We are very pleased with the way in which merit pay 
is being implemented. As you recall, last year we indicated to 
the committee that we would initiate merit pay both for faculty 
and for staff. We've done so.
    This indeed is the second year of merit pay, and this is 
the first full year of implementation for both faculty and 
staff. And though we've had some bumps in the road, we have 
tried to learn from past experience. I think it's been very 
well received.
    We've distributed the resources in a way in which 69 
percent of salary adjustments went to academic support and 31 
percent went to administrative support, which is, I think, a 
fair distribution of the resources. We are moving toward a 
system, Congressman Stokes, of 100 percent merit pay. We hope 
that in doing so, coupled with other opportunities for 
advancement for our employees, including more liberal 
opportunities to take courses during the academic day for 
faculty and staff, that we will help in making a major cultural 
shift in terms of how employees relate to their 
responsibilities at the University.
    We're working closely with the faculty, with the Faculty 
Senate and other faculty, with the Staff Association at the 
University, and we're very, very pleased with the results so 
far.

                     Human Genome Research Project

    Mr. Stokes. Mr. Swygert, a few days ago, we had testimony 
here from the National Institute of Human Genome Research at 
the National Institutes of Health. They testified about its 
genome research initiative with Howard University.
    What specifically is required to establish a first rate 
human genome project?
    Mr. Swygert. Congressman Stokes, I very much appreciate the 
opportunity to respond to that question. As you indicate, we 
have worked very closely through a team led by Dr. Floyd 
Malveaux, who's here today, and more specifically by Dr. 
Georgia Dunston and her colleagues at the medical school, on 
the human genome project and Howard University.
    We believe to establish a program at Howard, a world class 
program, which would require approximately $100 million over 
the next five years. We have already made a substantial record 
in human genome research. Indeed, I believe Dr. Collins has 
indicated to the Committee his satisfaction, indeed, his 
enthusiasm, for the work taking place at Howard University. 
We're proud of that.
    We're proud, Congressman Stokes, that the investment that 
you and Congressman Porter made in Howard University research a 
number of years ago is truly bearing fruit through the work of 
Dr. Dunston and her colleagues, and the recognition it's now 
receiving.
    More specifically, in addition to this $100 million 
investment over five years, we have evidence already of the 
commitment and the confidence of NIH. As you know, we have a 
program at Howard University in human genome research which is 
working and looking at basic diseases, the diseases of prostate 
cancer and diabetes, working with colleagues in West Africa. 
There are four sites in West Africa that are working with 
Howard University and our project to see whether or not there 
is some gene resonance in this question of this extraordinary 
incidence of prostate cancer and diabetes in the African-
American community. It is a very exciting, very important 
research project.
    Mr. Stokes. What is your estimate of the cost of 
establishing a world class Howard University Center for Human 
Genome Research?
    Mr. Swygert. We believe with an approximately $100 million 
investment over the next five years, we can put together a 
world class program. We have the ground to place the building, 
we've discussed with Dr. Francis Collins the construction of a 
new building on campus. We've described a site for him and his 
colleagues at the NIH. We have the core faculty and scientific 
investigators in place.
    We would certainly have to do more recruitment on that end, 
and we recognize that, and we're prepared to do so. But we 
believe it's eminently doable and eminently feasible, and I 
believe NIH endorses that position.

                            Faculty Salaries

    Mr. Stokes. During last year's hearing, you talked about 
the disparity between Howard University faculty salaries and 
those of your peer institutions. This committee assisted the 
University in its efforts to begin to address this issue.
    What steps do you plan to take to resolve this disparity?
    Mr. Swygert. We again thank the committee for looking 
favorably upon this issue. We have made a tremendous amountof 
progress in the past year.
    Indeed, Congressman Stokes, I hope that within the next few 
weeks, no more than three weeks, we'll be able to announce a 
program to get at, in a significant way, this salary 
compression of our faculty salaries versus our peer group's, a 
compression that over time has had the effect of significantly 
reducing our ability to recruit and retain the best and 
brightest faculty.
    We'll have the program available for review by the Congress 
and implementation will begin within the next three weeks.

                               Endowment

    Mr. Stokes. You testified last year that the market value 
of the University's endowment fund had increased since June 
1996. Can you provide an update as to what extent the endowment 
fund has changed since you last testified before the 
subcommittee?
    Mr. Swygert. Our endowment as of February 28th, 1998, 
currently stands at $235.2 million. That's the market value or 
an increase of 7.9 percent. We are very, very pleased with the 
management of our endowment. We're also the beneficiaries, as 
is the case with our colleague institutions, of a very robust 
stock market, and we very much appreciate the role of Congress 
in providing for an environment in which the stock market can 
perform and continues to perform so handsomely.
    As a beneficiary, we've tried to take full advantage of it. 
We have expert counsel and expert advice available to us. Our 
Vice President for Business and Finance, Mr. Tom Elzey, and our 
special Board committee on investments, formerly chaired by 
Chairman Frank Savage, now chaired by Mr. Dennis Hightower, has 
worked very, very hard, indeed assiduously, to ensure the best 
return on our endowment.

                        Ledroit Park Initiative

    Mr. Stokes. Part of the discussion last year centered 
around the University's role in providing community services 
within the surrounding neighborhoods. I'm sure you're aware of 
the publicity, both locally and nationally, that your joint 
venture with Fannie Mae, known as the LeDroit Park Initiative, 
has received. What specifically are the goals and objectives of 
this initiative?
    Mr. Swygert. Congressman Stokes, LeDroit Park, as you know, 
is one of the most important communities, from an historical 
perspective, in the Nation's capital. LeDroit Park was first 
established as a close-in suburb of downtown Washington. It was 
initially peopled by some of the leading personalities in the 
Nation's capital, and shortly was peopled by some of the 
leading African-American personalities, including Paul Lawrence 
Dunbar and others.
    Over a period of years, some parts of the community fell 
into disrepair, although it remains, as it is today, an 
important, viable, indeed outstanding community. The first 
elected mayor of the District of Columbia, the Honorable Walter 
Washington, is a resident of LeDroit Park, as one example of 
some of the kinds of people who remain in LeDroit Park.
    Howard University, over the years, acquired a number of 
properties, 45 in number, that today exist in various states of 
disrepair. We made a commitment to the Committee and to 
ourselves and to our community that we would do the best we 
could to convert these otherwise derelict properties into 
viable residences for members of the Howard University 
community.
    With Fannie Mae and its Chairman, Jim Johnson, and its Vice 
Chairman, Jamie Gorelick, as our partners, we have begun the 
process of doing so. Fannie Mae has helped us pre-qualify 
owner-occupiers of the property, who will be members of the 
University community. They have assisted us with identifying 
architects and builders and putting the finances together to 
make acquisition of these properties by our employees possible.
    Indeed, we have made so much progress to date that I am 
prepared today to say to the committee that we expect the first 
owner-occupiers of these properties to move into the properties 
by the end of this year, or the early part of 1999.
    Mr. Stokes. I'd better check my time.
    Mr. Porter. We're not keeping time.
    Mr. Stokes. Thank you very much, Mr. Chairman, that is very 
generous of you. I appreciate it.

                     Strategic Framework For Action

    Mr. President, you've provided the subcommittee with 
several very important documents, your Strategic Framework for 
Action, Howard University magazine, with the very distinguished 
General Colin Powell on it, and then Howard University's 
Saluting our Literacy.
    Let me ask you about the University's strategic plan. Can 
you update the committee with regard to the progress that you 
have made in implementing the University's strategic plan?
    Mr. Swygert. Yes, sir. When we introduced the plan to the 
Committee last year, we spoke about the plan's implementation 
being a phased process. The first phase we spoke about had to 
do with approval by the Board of Trustees and the 
reorganization of the schools and colleges. That phase is now 
complete, or soon will be completed.
    The Trustees, and again I want to acknowledge the presence 
of one of our most distinguished Trustees, Mr. Bertram Lee, 
who's with us today, approved the plan and gave us the go-ahead 
to begin the process of implementation. The first phase of 
implementation was the reorganization of our previously 
existing 17 schools and colleges into 12 schools and colleges.
    We indicated to the Committee at the time that that 
probably would be greeted with some anxiety on campus and might 
be subject to some reaction on campus. Indeed, that's precisely 
what happened. But we have survived, I think. Indeed, the 
demonstrations on campus and the reaction gave us an 
opportunity to further explain what we were trying to 
accomplish with the reorganization.
    We now have 12 schools and colleges where 17 previously 
existed. The Provost, Dr. Antoine Garibaldi, has been charged 
with the responsibility to continue that phase of the 
implementation.
    Phase two--and as I did last year, I'm taking this 
opportunity to share with the committee, and indeed alert the 
committee to what I anticipate will be another reaction on 
campus--will begin a searching and serious examination of 
faculty work load policy; will include even greater 
implementation of merit pay; and will include review of all 
academic programs at the University.
    We believe as a mature research University we need to 
continuously evaluate and assess the academic programs at the 
University. And that's really what phase two is about. And just 
as we have a reaction to the reorganization of the schools and 
colleges, I anticipate another reaction when we begin this 
examination of work load policy, and when we begin this 
examination of program review and full implementation of merit 
pay.

                  district of columbia public schools

    Mr. Stokes. Dr. Swygert, there appears to be a unique 
opportunity for the University to play in strengthening both 
the public school system in the District of Columbia and 
enhancing the city's welfare to work activities. Can you tell 
us about the University's involvement in providing the District 
of Columbia with assistance in each of these critical quality 
of life areas?
    Mr. Swygert. Mr. Stokes, thank you very much for giving me 
that opportunity. I don't think there's anything quite as 
important to me as a professional--and I'm sure it's a 
significant area of interest to the members of this committee--
than the whole question of public education, particularly 
public education in the urban communities of the United States.
    At Howard University, through our School of Education, 
through all our programs, we have charged ourselves with re-
examining how it is that Howard University is relating, both 
nationally, of course, and more specifically locally with the 
D.C. public schools. In that regard, I will be meeting next 
week, I have a scheduled appointment next week, with Dr. Arlene 
Ackerman, who is the new Deputy Superintendent of Schools here 
in the District of Columbia. She's new to Washington, and she's 
just come in from Seattle, Washington, and I will talk to her 
about ongoing relationships.
    We think that one initiative we've put before the Committee 
for funding--our School for Science and Math--will speak to one 
of the issues we believe requires attention here in the 
District of Columbia. My vision of the School of Science and 
Math is not simply another magnet school for the best and the 
brightest children here in the District of Columbia. It's an 
opportunity for children of potential in the District of 
Columbia to have an experience with some of the best and 
brightest faculty both within the school district and at our 
university, and to introduce them to the opportunities that 
exist in science and mathematics.
    And also to create and then transport emerging pedagogy and 
methodologies to improve and enhance science and math education 
throughout the District of Columbia and its schools, which is 
something that we believe is a need and which is something that 
we are capable of at least partly addressing that need.
    Further, we have begun and will continue a more aggressive 
posture relative to the schools in and about Howard University 
itself. It seems to me, Congressman Stokes, and I know this is 
a sentiment you share, the mark of a great institution is not 
simply how it defines itself, but how it's defined by those 
around and about it. I believe that Howard University's 
greatness ultimately will be measured by how it affects not 
only the lives of its students and its faculty, but the lives 
of the hundreds of thousands of men and women who form our 
community as well.
    I believe that it's appropriate for an institution to reach 
out, and we're trying in many, many ways to reach out. The 
natural point of reference, of course, is the local schools, 
whether it be tutorial programs, whether it be sharing of our 
resources, computers, giving students access to summer programs 
on campus or otherwise. And we're about the business of doing 
that, sir.

            kudos for president swygert and chairman porter

    Mr. Stokes. Just before I yield back my time to Chairman 
Porter, let me just take a moment and say that I appreciate 
very much the kind of leadership that you have brought to 
Howard University.
    Mr. Swygert. Thank you, sir.
    Mr. Stokes. During the more than 20 years that I've sat on 
this subcommittee, it's been my responsibility to try and get 
the appropriate appropriation for this University. Howard 
University is considered to be the flagship of African-American 
graduate education. You're the leader. And of course, over the 
years, Howard has had its ups and also had its downs.
    You came into the presidency at a unique period in Howard's 
history, and you have brought to the University a type of 
strategic planning and a type of vision that I think will 
enable it to continue along that road that you spoke of in 
terms of achieving and living up to its stature of greatness in 
American education.
    In that respect, I want to take just a moment to publicly 
acknowledge my appreciation for the type of support that I've 
always received from Chairman Porter on this Subcommittee with 
reference to Howard. The appropriation that you've received 
each year has been because of the Chairman's responsiveness to 
my concerns and to the testimony that's received here.
    But even before becoming Chairman of the Subcommittee, and 
after becoming Chairman, he's always been very considerate and 
committed to what Howard University stands for. I want to 
express my appreciation for that, and for the accommodation 
you've given to me here today, Mr. Chairman.
    Mr. Porter. Mr. Stokes, thank you.
    Mr. Swygert. Thank you, sir.
    Mr. Porter. Those are very kind and generous comments. I 
certainly appreciate them, and I do consider myself a good 
friend of Howard. We think Howard's a very, very important 
institution under the jurisdiction of the Subcommittee.
    President Swygert, let me say, this book is very helpful. 
So is the layout of the strategic plan.
    Mr. Swygert. Mr. Chairman, I hope you found the listing of 
the individual faculty members helpful as well. It's quite 
instructive when one takes a look. You can get a sense of the 
depth and breadth of the men and women on our faculty.
    Mr. Porter. Absolutely. I had the same thought when I 
looked at it. I certainly agree with you.

                       university research grants

    Let me ask about research grants. You indicated in the 
presentation, and as you probably realize, we always focus on 
the worrisome things instead of the wonderful things. But there 
was a slight decrease in the total dollar value, I believe, for 
this past year.
    Mr. Swygert. Yes, sir.
    Mr. Porter. My question is, many of these research awards 
are multi-year, are they not?
    Mr. Swygert. Yes, sir.
    Mr. Porter. And my question is, has there been a drop also 
in new research awards?
    Mr. Swygert. No, we've actually seen a modest increase year 
to date in the number of new applications. I don't believe 
we've seen a decrease in the absolute number of awards, but 
we've seen an absolute decrease in the amounts of the awards.
    There is another factor at work here, and that is that we 
have been the beneficiary, if you look at 1994-1995, then 1995-
1996, of some substantial awards during that period. We've seen 
this dip in the last year. And I expect that arrow to take a 
northern trajectory when we report again next year, if not much 
sooner.
    In this regard, I would also share with the Committee that 
we are searching for a new Associate Vice President 
forResearch. This is not to suggest that the current Associate Vice 
President for Research is somehow accountable for this decline. But we 
have operated with an interim Vice President, and we are searching for 
a permanent individual whom we believe will provide appropriate 
resources as well.
    In intramural research and private sector-funded research 
as well, part of the dynamic has to do with generation of 
applications in and of itself and the resources needed to do 
that. I'm prepared to commit to you today that you're going to 
see a difference, and that line will be going in a different 
direction and a very positive direction this time next year. 
We're going to provide the resources to make that happen.
    Mr. Porter. And I might say to you that Dr. Francis 
Collins, in his testimony for the National Human Genome 
Research Institute, testified about Dr. Dunston's work. I think 
if we can get NIH the kinds of resources they ought to have, 
that ought to be very helpful in funding the very important 
research that is being conducted under her direction.
    Mr. Swygert. That's one of the reasons for my confidence, 
Mr. Chairman, in making that statement, sir.

                request for dorms and salary compression

    Mr. Porter. President Swygert, let's start off with some 
housekeeping before we get into more substantive matters. Last 
year, we discussed two initiatives not included in Howard's 
budget request, moving undergraduates out of Meridian Hill and 
faculty salary compression. You testified that these two 
initiatives could be completed for $13.5 million, that is $8.5 
million for the dorms and $5 million for salary compression.
    On the basis of your testimony, the subcommittee added $14 
million to the Howard request and then negotiated with the 
Senate to retain the full amount in the conference report. We 
understand that the $5 million is an ongoing cost for the 
University and should be included in your base. But the $8.5 
million for the dorms is a one-time cost with potential 
offsets, depending on the disposition of the Meridian property.
    Just looking at the budget request, it is level, $210 
million for fiscal year 1999, the same as fiscal year 1998. But 
because fiscal year 1998 included the one-time $8.5 million 
dorm renovation funding, the fiscal year 1999 request actually 
represents an increase for the University operations of $8.5 
million.
    The operating plan submitted by the Department does not 
indicate any departure from the plan you outlined in the 
hearing. Is the University allocating the $14 million increase 
for fiscal year 1998 as follows: $5 million for salary 
compression for associate professors and $8.5 million for dorm 
renovations?
    Mr. Swygert. Yes, we are, Mr. Chairman. As we indicated 
last year, we indicated that within the next several weeks 
we'll have a plan for the salary compression issue. Although we 
may move the compression issue from associates, we may try to 
touch some of our assistant professors as well.
    In terms of the capital improvements in Truth and Crandall 
Hall, we have retained Turner Construction Company, which is 
preparing the appropriate documentation for that ongoing 
project as well.
    As to Meridian Hill, Mr. Chairman, we had indicated some 
time ago that the University was in the process of disposing of 
that property. That representation was made several years ago. 
When I became president, I asked staff to take another look at 
that property and whether or not it made sense to dispose of 
that property or whether or not it had some continued vitality 
and use as a residence hall.
    We have made a decision to hold on to that property. As you 
know, Mr. Chairman, the Metro work will be completed, I 
understand, within the next year, placing a Metro stop 
relatively close to that property. Secondly, we have made some 
targeted investments, new roof, new windows and air 
conditioning on that property.
    We now are housing 668 or so, I believe, residents in that 
property. So Meridian Hill, which had been viewed almost as a 
derelict property, through some targeted investments, we 
believe, is now a quite viable resource for the University.
    And as we are finding in terms of our recruitment, more and 
more of our parents and more of our students are seeking on-
campus or near-campus university-managed residences. So those 
dollars certainly continue to be needed, and we will continue 
to have a need for residences and support of residences.
    Mr. Porter. So the $8.5 million will go for that purpose?
    Mr. Swygert. Yes, sir.
    Mr. Porter. Although you will have no offset, because 
you're retaining Meridian Hill.
    Mr. Swygert. Yes, sir.
    Mr. Porter. Would you provide a table for the record for 
each of the two initiatives, indicating the amounts and 
purposes for which the total funding is allocated?
    Mr. Swygert. Yes, sir.
    [The information follows:]


[Pages 274 - 275--The official Committee record contains additional material here.]



                               endowment

    Mr. Porter. President Swygert, I've taken the position that 
when we appropriate funding to Howard University, it ought to 
be able to spend it according to its best judgment, without 
micromanaging with legislative earmarks. For instance, we have 
not, as the Administration requests, earmarked minimum amounts 
for the endowment.
    In fiscal year 1997, you used this flexibility and 
dedicated no funds to the endowment in order to upgrade library 
facilities that were critical to accreditation. Lastyear, 
however, in response to my question as to how funds would be allocated 
if we did not earmark endowment funds, you testified, ``We fully intend 
to match the $3.5 million in endowment funding based on specific 
requests to donors for matching contributions, and as the University 
sees appropriate for other contributions, whether there is a specific 
requirement to do so or not.''
    Since we have not been notified that the University has 
dedicated fiscal year 1998 funding to the endowment as required 
in the report, we assume that you have not done so at this 
point. The operating plan did not indicate any departure from 
the justification or your testimony. Do you still intend to 
dedicate $3.5 million of the fiscal year appropriation to 
endowment, and if not, why not?
    Mr. Swygert. Mr. Chairman, we're nine months into the year, 
and we've not done so to date. And we've not done so to date, 
Mr. Chairman, because we have not seen a specific need in order 
to do so. But should the need arise, obviously, we would do so.
    Mr. Chairman, if I may, I would respectfully request an 
opportunity to respond more fully in writing to your question, 
and to give you a more full explanation of our intent.
    [The information follows:]

                               Endowment

    The University intends to dedicate $3.5 million of the 
fiscal year 1998 appropriation to the endowment by the end of 
the Federal fiscal year.

    Mr. Porter. Do I assume that the need is reflected in your 
earlier comments that the investments of the endowment fund 
have appreciated quite a bit, by reason of good market?
    Mr. Swygert. Yes, sir. And management as well.
    Mr. Porter. I would also say to you, though, that if you 
put $3.5 million into the endowment now, with the growth in the 
market, they may prove to be very good investments for the 
future of Howard. We would encourage you to consider that as 
well in making your judgment.
    Mr. Swygert. Thank you, sir.
    Mr. Porter. Thank you, President Swygert.
    Mr. Hoyer.

                      kudos for president swygert

    Mr. Hoyer. Mr. Chairman, I don't have any questions. I've 
been listening to the President's answers. But I wanted to come 
over and show my support to President Swygert, who's done an 
outstanding job stabilizing and expanding upon the promise of 
Howard. I have, along with this Committee, been pleased to 
support him in many of his objectives, and wanted him to know 
that I look forward to doing that in the future.
    Mr. Swygert. Thank you.
    Mr. Hoyer. Quite obviously, President Swygert came in and 
had some problems confronting him that had to be addressed. I 
think he's addressed them forthrightly and effectively. That's 
why I'm here. I've looked at your statement and I'm pleased 
with the progress that's being made.
    Mr. Swygert. Congressman Hoyer, if I may, I want to thank 
you for your outstanding support and advocacy and articulation 
of Howard's needs and issues over the years. As you know, many 
of my faculty and staff, who are proud to call themselves 
members of your Congressional district, very much appreciate 
your support as well.
    Mr. Hoyer. Thank you. We are very blessed at this point in 
time to have you leading Howard and President Jordan leading 
Gallaudet, two outstanding institutions of higher learning, 
unique, really, in many respects, in the country, appropriate 
for our Nation's capital. I'm just very pleased that we have 
such high quality leadership in both of those institutions.

                 kudos for gallaudet's president jordan

    Mr. Swygert. Well, we're truly blessed to have Dr. King 
Jordan, that's for sure.
    Mr. Hoyer. He's an extraordinary fellow. We just had, I 
don't know whether you know about that, but we just had a very 
significant program on the west front of the Capitol of the 
United States recognizing the ten years that have transpired 
since students and others said to the board and to the country, 
it was time to have a President at Gallaudet who was in fact 
deaf and understood first-hand the challenges of the deaf 
community, and had shown and was such a shining example of 
success in the face of what otherwise some Americans would 
think was a disabling disability, which in fact, President 
Jordan and others there have shown as enabling factors.

                      kudos for president swygert

    But President Swygert, back to you, I want to reiterate how 
impressed I have been with your leadership and your willingness 
to look at education issues and make real solutions, in light 
of what is in any institution of higher education, a lot of 
conflicting politics, if you will. We talk about politics in 
the Congress, I don't know if there are any rougher politics 
than in the educational community, either higher education or 
the primary/secondary education level. And you have handled 
that well.
    I think as a result, you have engendered credibility for 
your own administration and confidence in the Congress that if 
we invest in Howard, that investment will be applied 
appropriately for an objective that is accomplishable and 
worthwhile.
    Mr. Chairman, again, I don't have any questions of the 
President. I look forward to working with you towards 
supporting this institution which has made such a contribution 
historically through this century, certainly. I look forward to 
its continuing growth and contribution.
    Mr. Swygert. Thank you, sir.
    Mr. Porter. Mr. Hoyer, I noticed when you said academic 
politics, there were a lot of knowing smiles in the audience. 
[Laughter.]
    Mr. Hoyer. There were a lot of people reaching for their 
ribs. [Laughter.]
    Mr. Porter. Thank you, Mr. Hoyer.
    Ms. Northup.
    Ms. Northup. Mr. Chairman, I also don't have any questions. 
But do want to welcome you and thank you for Howard University 
and what it has meant in the past, and in the future to this 
country.
    Mr. Swygert. Thank you so very much. Thank you.
    Mr. Hoyer. President Swygert, if I might, Mr. Chairman, Ms. 
Northup is one of the newest members of the Committee. I tell 
people, I sat in that chair for at least, I think seven or 
eight years. It was a long time I sat in that chair.
    The problem with that, however, is she is getting very hard 
to live with. Unlike Howard, the University of Kentucky is 
doing very well----
    [Laughter.]
    Mr. Hoyer. She very gently and in a very respectful fashion 
reminds us from time to time that Kentucky is still in there in 
the final four and is doing very well.
    Ms. Northup. That's right. It will be over soon, and 
hopefully we'll have a smile on our faces.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Northup, thank you, Mr. Hoyer.

                            graduation rates

    Fortunately or unfortunately, I do have questions. 
President Swygert, I want to take a moment. We've discussed how 
the Howard appropriation represents a very substantial $18,000 
investment per student per year. When students don't complete 
their degrees, obviously a good part of that investment is 
lost.
    We want to look at the graduation rates in the context of 
what you've identified as your peer schools. Last year, you 
testified that Howard's four year graduation rate is 23 percent 
compared to 83 percent at Georgetown, 81 percent at the 
University of Virginia, 74 percent at Vanderbilt and 31 percent 
at the University of Maryland. Howard's six year graduation 
rate is 46 percent, double the four year rate, but still lags 
behind the other schools. Georgetown is 90, Virginia is 91, and 
Maryland 61 and Vanderbilt 83.
    The budget justification indicates a goal of increasing the 
graduation by 3 percent over fiscal year 1998. What is the base 
on which the increase is predicated? Is that the four year or 
the six year rate, and what school year is the data taken from?
    Mr. Swygert. We're looking. The last data we have, I 
believe, Mr. Chairman, is 1996, the last data that's absolute 
data. But we will respond of course in writing to your question 
so that we can be absolutely precise.
    [The information follows:]

                            Graduation Rate

    The baseline data being used for the goal of increasing the 
graduation rate over fiscal year 1998 is the FTIC cohort group, 
which enteredd in Fall 1990. The four-year graduation rate for 
the 1990 cohort was 23.1 percent. The six-year graduation for 
this group, which graduated in 1996, was 45.6 percent.

    Mr. Swygert. Mr. Chairman, you raise a question that we did 
discuss at some length last year, and it continues to distress 
me. Indeed, our four-year graduation rate that we reported was 
22.9 percent, which was rounded up to 23 percent. It's not 
acceptable. We are, through better academic advisement, through 
better freshman orientation, through more resources for our 
students, through more financial advisement as well, doing 
everything we can and will continue to push this rate up.
    I come from a background, as you know, Mr. Chairman, where 
these numbers would be very different. I know what those 
institutions had as resources, both in terms of advisement, 
faculty and otherwise, to make those numbers different. We 
purposely identified these four peer institutions, Vanderbilt, 
Georgetown, University of Virginia and University of Maryland, 
because the bar was high. That's where we want to be. We did 
not compare ourselves to other institutions, but with 
institutions that have a special resonance with this committee 
and indeed with the Nation.
    I am committed to doing so, the Strategic Framework 
challenges me to do so, and we're on record with this 
committee. I realize that in terms of our institutional 
credibility and my own professional credibility, we've got to 
move these numbers.
    I will have a written response which will give you an 
answer to your first question, Mr. Chairman, namely, what 
baseline data are we looking at, and secondly, I will give you 
a more detailed response in terms of how we are tracking what 
we're guaranteeing to you will be an upward trajectory of these 
numbers.
    [The information follows:]


[Page 280--The official Committee record contains additional material here.]



    Mr. Porter. Is the 3 percent goal based on the four-year or 
the six-year rate?
    Mr. Swygert. I believe it's the four-year rate.
    Mr. Porter. Okay. I hear your strong commitment to raising 
that rate. And I also recognize the problems in achieving that.
    But do you have something like a goal that is out farther, 
five year goal as to where you hope to be in a period of time?

                strategies to increase graduation rates

    Mr. Swygert. I think it is not infeasible to consider 
doubling your four-year goal. That's going to sound quite 
extravagant. But I think if you work on your first year 
students in the first year, most retention strategies 
unfortunately tend to operate in a sense when the student is 
already in a deficit position. You've got to create an 
environment and an opportunity for a student to take what some 
of us in the old school still refer to as a full load.
    Now, students will say that if you look at all of the 
indicators, and if you look at the lexicon of higher education, 
full load today means 12 credit hours or more. When I was a 
student, Mr. Chairman, a full load meant 15 hours or more. 
Those three additional hours, more or less those six additional 
hours, for 18 hours, over eight semesters, were the difference 
between graduating or not graduating.
    We've got to do several things. If I could just take a 
moment, Mr. Chairman, and indicate what I think those things 
are, to increase this rate as dramatically as I've suggested. 
The first thing we have to do is make sure that we tailor 
financial aid to the real needs of our students, as opposed to 
tailoring financial aid to administrative ease. That is to say, 
you've got to boutique financial resources for the student to 
cut down the likelihood that the student will work during the 
normal, the typical, regular school day.
    Now, some work is going to be required. We understand that. 
But you've got to make sure you give the student the kind of 
hard and tough financial aid counseling so they understand the 
consequences and they understand the resources that are truly 
available to them.
    Secondly, you've got to have the tough, in-close academic 
advisement that indicates to the student, and indeed, directs 
the student to the kinds of course loads and sequencing that 
are necessary to graduate in four years. You say, well, if you 
have a thousand course offerings and you're dealing with very 
intelligent students--and we have some of the most intelligent 
students and brightest students in the Nation--students should 
be able to fend through this system.
    Well, indeed, that's simply not the case at Howard or 
anywhere else. Academic advisement and devoting resources to 
academic advisement is absolutely critical.
    The third step in this process is you've got to offer the 
courses at times convenient for the students. You've got to 
have more Saturday courses. As an undergraduate student at 
Howard for seven semesters, I had a course Tuesday, Thursday 
and Saturday, at 8:00 o'clock in the morning. I did that 
purposely, not because I wanted to be in a class 8:00 o'clock 
on a Saturday morning, but because indeed I did have certain 
work responsibilities. But I wanted to graduate from Howard 
during the lifetime of my family and friends. [Laughter.]
    So Mr. Chairman, I did that. But we've got to do more of 
that. We've got to have early evening, we've got to have 
twilight courses. We've got to have evening division courses.
    We've got to have courses at a time convenient for the 
students, so that no student can say, that is, a first time in 
college, undergraduate student, I followed the advisement 
regulations or suggestions, I had my financial resources 
reasonably in order, yet I couldn't graduate in four years from 
Howard University because the courses were unavailable.We've 
got to take that issue totally and completely off the table.
    The fourth thing we have to do is, if you will, we've got 
to change the paradigm in terms of expectations. Mr. Chairman, 
as you well know, and Congresswoman Northup and Congressman 
Hoyer, as you all know, it wasn't too long ago when the 
national expectation for graduating from college was four 
years. That was the expectation. Today it's six years.
    Have we benefitted from the elongation of this expectation? 
I would say no. I would say we must go back to four years, for 
two very good reasons. The first is, we have the capacity of 
doing so. And second, it's very expensive to keep a student in 
school for six years.
    So it's in our interest to do so. And through our deans, 
through our provost, through proselytizing on campus, through 
providing the administrative resources, advisement, financial 
and academic and otherwise, that's what I intend to do. It can 
be done. I've spent 23 years in institutions where it was done. 
There's nothing magical about it, but you just really have to 
get at it, and that's what I intend to do, sir.

                         increasing sat scores

    Mr. Porter. Can we look for a minute at SAT scores?
    Mr. Swygert. Yes, sir.
    Mr. Porter. Obviously, the goal is not only to graduate 
students, but to provide them a quality education. And in order 
to deliver high quality, you have to start with good students.
    The SAT scores of incoming Howard students are increasing, 
I believe you say that in your opening statement. But the 
average SAT score at Howard, according to your testimony last 
year, still lags the peer schools by about 300 points at the 
25th and 75th percentiles.
    Do you believe this gap can be eliminated, and if so over 
what time frame? And if not, what is a reasonable expectation 
over the long term?
    Mr. Swygert. Well, eliminating the gap I think is a worthy 
aspiration or goal. Can it be done? Yes, it can be done. Can it 
be done within a reasonable time frame? I would argue that in 
this context, it is not so much, at least from our perspective 
as academic administrators, eliminating the gap as to how you 
are moving in terms of your incoming first-year students. If 
your quality indicators continue to improve, and if they're 
improving in a reasonable way, a rational way, then I think you 
can feel and see substantive progress.
    A 300-point spread is a quite substantial spread to 
overcome within five years. Indeed, it's a real stretch. So 
closing the gap, what I would call reasonable, when I think of 
reasonable lengths of time, five years is what occurs to me.
    I would not want to commit to a five year closing of the 
gap, but I think at the end of five years, certainly we are 
going to see, and already seeing, some substantial progress.
    To recruit, of course, your 1200, 1300, 1400 student, is 
again, partly a resources question. And one has to find and 
allocate the resources necessary to do so.
    Mr. Porter. President Swygert, last year you testified that 
Howard's goal was to increase the average SAT score of 
enrolling freshmen for the 1997-1998 school year by five to ten 
points. Did you achieve this goal, and what is your goal for 
fiscal year 1999?
    Mr. Swygert. I believe we did achieve the goal, although I 
don't have the precise data from Dr. Janice Nicholson, our 
Associate Vice President for Enrollment Management. I think we 
are looking forward to doing much the same this coming year, 
this coming September. The early indicators are quite 
encouraging. We have approximately 300 more applications in 
hand this time this year than we did last year. And they look 
very strong and robust, and I feel relatively confident about 
that, Mr. Chairman.

                    sat scores as a measure for gpra

    Mr. Porter. Is this measure included in your GPRA plan?
    Mr. Swygert. Yes, sir. It's part of the benchmarking that 
we did with the Department of Education. And as I indicated, 
Mr. Chairman, we've had a very positive and cooperative 
relationship with our colleagues in the Department of 
Education. They've been true to task and they've been good 
colleagues. We've been meeting those targets.

                       alumni participation rate

    Mr. Porter. Can we talk a minute now about increasing 
Howard's independence of Federal funding? Last year, you 
testified you had set a goal of 10 percent of the alumni giving 
rate for 1997. At the time you testified, the rate had already 
increased by half, from 4 percent to 6 percent. Were you able 
to meet your 1997 goal, and what was the increase in giving in 
dollar terms?
    Mr. Swygert. The answer to your first question, Mr. 
Chairman, is that yes, we did increase our alumni giving. Our 
goal under the Strategic Framework for calendar year 1997 was 
10 percent. We are beyond 10 percent. I'll have the precise 
number. Of all the papers I have before me, Mr. Chairman, I 
don't have that number.
    Our target for 1998 under the Strategic Framework is 15 
percent alumni giving. And I'm very confident that we'll be 
able to do that. My confidence, Mr. Chairman, is grounded in 
the number of developments that have taken place. And I know 
we're running a little late, Mr. Chairman, but if I could, I'd 
just like to say a word about something we instituted since we 
last met with the Committee.

             alumni participation and the telefund program

    We have put together, Mr. Chairman, a telefund program at 
the University. Every evening, between Thursday evening and 
Sunday--I'm sorry, between Sunday evening and Thursday 
evening--we don't make phone calls on Friday and Saturday 
nights. But from Sunday evening to Thursday evening, we call 
all of our alumni. We're using categories of alumni.
    This telefund is operated by Howard University students. 
They are under professional direction and management. It has 
been absolutely spectacular, Mr. Chairman, in getting alumni 
engaged again with the University. From November to January 
30th, I believe, if my recollection is correct, more than 
$400,000 from alumni were pledged to the University.
    But in addition to the dollar amount, what was very 
important to us was the number of alumni pledges.
    As to your final question of what is the gross amount, Mr. 
Chairman, I'll get that number to you in my written response.
    [The information follows:]

                                              ALUMNI PARTICIPATION                                              
----------------------------------------------------------------------------------------------------------------
                                                                                      Alumni                    
                           Fiscal year                             Alumni donors   participation   Total alumni 
                                                                                  rate (percent)   contribution 
----------------------------------------------------------------------------------------------------------------
1997............................................................           4,694             9.1      $2,144,102
1996............................................................           3,389             5.1       1,106,000
1995............................................................           2,605             4.1       1,068,000
1994............................................................           2,454             4.0         973,000
1993............................................................           2,795             5.0       1,542,000
1992............................................................           2,967             6.4       1,188,000
----------------------------------------------------------------------------------------------------------------

    Mr. Porter. And for fiscal year 1999, you initially had a 
goal of 20 percent. Do you still have that goal and expect to 
meet it?
    Mr. Swygert. Yes, sir. I'm still pushing towards that 20 
percent.
    Mr. Porter. That would be wonderful, indeed.

                     increasing fiscal independence

    President Swygert, one of the measures we use to determine 
Howard's level of independence is the percentage of total 
revenues represented by the subcommittee's appropriation. As 
you've noted in the past, this figure dropped from 59 percent 
in 1988 to 45 percent in 1993.
    Mr. Swygert. Yes, sir.
    Mr. Porter. However, since then, according to the 
information on page 639 of last year's hearing volume, the 
figure has remained stable in the 44 to 45 percent range. 
Generally, do you expect this figure to drop in the coming 
years? What is your projection for this next fiscal year and 
what is your five year projection?
    Mr. Swygert. Under the Framework, Mr. Chairman, as you 
know, we indicate that declining dependence upon direct Federal 
support is one of our principal goals. We're working very, very 
hard to make that happen. We have adjusted tuition twice, once 
shortly before we testified last year and since, though our 
tuition adjustment this year was more modest than the year 
before, but it was an adjustment nevertheless.
    We've increased fees, and we have increased dorm rates. Our 
Board plans are still quite competitive. We've increased that 
as well, trying to self-fund more activities at the University.
    You're absolutely correct in that we've been flat at about 
45 to 46 percent. I hope that we can see at least some 
decrease. If I say a 1 percent decrease, Mr. Chairman, I have 
to be mindful that my Vice President for Business and Finance, 
that his head is beginning to whirl as he works out that 
number. But that's our goal, Mr. Chairman. We're going to do 
the best we can.
    Mr. Porter. President Swygert, thank you. You have answered 
all of our very tough questions. And your statement, as I 
mentioned before, was an excellent one.
    Mr. Swygert. Thank you, sir.
    Mr. Porter. We believe that you are doing a wonderful job 
there at Howard. We know it's not an easy job, and you're 
making all of us proud of the kind of work you're doing and the 
kind of work Howard is doing. We thank you for that.

                           distance learning

    Mr. Swygert. Mr. Chairman, thank you so much for your 
questions and your patience and your support, and Congresswoman 
Northup and of course, our dear friend, Congressman Hoyer, as 
well. And Mr. Chairman, I hope at some point I'll have the 
opportunity to visit you in chambers and speak to you about 
some of our ideas in terms of distance learning and some of the 
things we think are going to really be the hallmark of 
leadership in the 21st Century in our education, and Howard's 
role in distance learning, both as it relates to HBCUs and 
other institutions as well. We think there's a real role and 
opportunity for Howard in distance learning, and I hope I have 
an opportunity to present that to you.
    Mr. Porter. We certainly would be happy to do that.
    Mr. Swygert. Thank you, Mr. Chairman.
    Mr. Porter. There is a vote on. The subcommittee will stand 
in recess for the vote.
    [The following questions were submitted to be answered for 
the record:]


[Pages 286 - 297--The official Committee record contains additional material here.]



                                          Thursday, March 26, 1998.

           SPECIAL INSTITUTIONS FOR PERSONS WITH DISABILITIES

                               WITNESSES

JUDITH E. HEUMANN, ASSISTANT SECRETARY, SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
TUCK TINSLEY III, PRESIDENT, AMERICAN PRINTING HOUSE FOR THE BLIND
I. KING JORDAN, PRESIDENT, GALLAUDET UNIVERSITY
ROBERT R. DAVILA, VICE PRESIDENT, NATIONAL TECHNICAL INSTITUTE FOR THE 
    DEAF, ROCHESTER INSTITUTE OF TECHNOLOGY
WENDELL S. THOMPSON, ASSOCIATE DIRECTOR, NATIONAL TECHNICAL INSTITUTE 
    FOR THE DEAF
RAMON F. RODRIGUEZ, LIAISON OFFICER, OFFICE OF SPECIAL INSTITUTIONS, 
    OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE, OFFICE OF THE 
    UNDER SECRETARY

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We continue our hearings on the Special Institutions for 
the Disabled this afternoon, and we're pleased to welcome 
Judith Heumann, who will make a brief statement, because we 
understand you have another appointment.
    Let me welcome Robert Davila, the President of the National 
Technical Institute for the Deaf, and King Jordan, the 
President of Gallaudet University, and Tuck Tinsley, President 
of the American Printing House for the Blind.
    And I want to recognize our colleague, Ray LaHood, for a 
special introduction of King Jordan.

                  Remarks by Representative Ray LaHood

    Mr. LaHood. Mr. Chairman, I thank you very much for 
allowing me to begin your hearing by introducing the President 
of Gallaudet University.
    I have the good fortunate of being the Republican House 
member appointed by the Speaker to serve on the Gallaudet Board 
of Directors. And when Steve Gunderson left the Congress after 
the last session, I went to the Speaker, due in large measure 
to the fact that I have the only school for the deaf in 
Illinois in my district, in Jacksonville, Illinois. And I've 
taken a great deal of interest in the work that they do there.
    I have worked very closely with Dr. Jordan and the work 
that he does as President of Gallaudet. I just wanted to be 
here to introduce him. I know that you know him. I know you 
feel pretty strongly about the work that goes on over there, 
and he is very appreciative of the support that he has received 
from you and also the subcommittee.
    We just had a big rally on the west front of the Capitol 
recently to honor his tenth anniversary as President of 
Gallaudet. It was quite an extraordinary event. I think we are 
privileged as a board to have him as the President of 
Gallaudet, and I look forward to his continuing excellent work 
and to the support that he gets from you and your subcommittee.
    I thank you for the opportunity to be here to say a word or 
two about what really happens at Gallaudet, and the fine 
leadership that Dr. Jordan has provided. Thank you very much.
    Mr. Porter. Thank you, Ray.
    Congresswoman Northup also would like to make a special 
introduction.

                    Remarks by Hon. Anne M. Northup

    Mrs. Northup. Yes, thank you, Mr. Chairman.
    It gives me great pride to introduce this committee and the 
people in this room to Tuck Tinsley, who is with us here today. 
He is the President of the American Printing House for the 
Blind. With him is Gary Mudd, who is also with that 
institution. He's the Director of Public Affairs.
    In the State House, I had a really wonderful opportunity to 
work with the blind community in Louisville. My district is 
very close to the Kentucky School for the Blind and the 
American Printing House for the Blind. Many of the teachers and 
people connected to those two institutions live in my district.
    And as I became aware of what they contributed, what they 
mean, their services mean to the blind community, I'm so 
pleased they are with us today.
    I think it's important to remember that the American 
Printing House for the Blind provides literally all of the 
Braille materials that we use across this country. They are 
literally the link to those people that are blind, to all the 
printed materials, the textbooks, the periodicals.
    I had an opportunity to take a tour and visit with them. 
There is a very strong community spirit that works with them, a 
board that helps them. They are very connected to Toyota and 
well thought of, and are making really a tremendous impact for 
the blind community.
    So Tuck, welcome to the committee today, and Gary Mudd, 
welcome to the committee today. We're glad to have you here so 
you can share with us the work you do.

                  Remarks by Hon. Louise M. Slaughter

    Mr. Porter. Now, arriving exactly on cue----
    [Laughter.]
    Mr. Porter [continuing]. Please come up and join us, 
Congresswoman Louise Slaughter of New York, to make a special 
introduction of Bob Davila.
    Ms. Slaughter. Thank you very much.
    Good afternoon, Mr. Chairman. I appreciate this opportunity 
to address you again, and I'm delighted to be here this 
afternoon with two of my best constituents. They represent the 
National Technical Institute for the Deaf.
    And I want to express my profound thanks to you, Mr. 
Chairman, for your kindness over the years and for hearing us 
this afternoon. You've been wonderfully supportive over the 
years of NTID and we're very grateful.
    These gentlemen represent an institution that we know is 
very special, the National Technical Institute for the Deaf in 
Rochester. Dr. Davila is the Vice President and Mr. Wendell 
Thompson is the Associate Director, and has been visiting this 
committee as a member for many years.
    I'm especially pleased to introduce Dr. Robert Davila, now 
in his second year as Vice President of NTID. Many of you will 
remember Dr. Davila from his testimony before this committee as 
Assistant Secretary for the Office of Special Education and 
Rehabilitative Services from 1989 to 1993, or earlier, in the 
1980s as the Vice President of Gallaudet University.
    And I'm pleased to see President Jordan here as well today.
    NTID is very fortunate to have Dr. Davila at its helm. He 
has a background of nearly 40 years in education, as a high 
school math teacher, an assistant principal, a K-12 
superintendent, a college professor, a college administrator 
and a university vice president. These worthwhile experiences, 
as well as his four years as assistant secretary, have prepared 
him well for his current responsibilities.
    I'm very proud of NTID and want to make a few additional 
comments about the Institute. NTID has achieved tremendous 
success in preparing deaf people to enter society and the work 
place and compete on par with their hearing peers. NTID 
graduates earn 93 percent of what their hearing peers earn, 
which is significantly above the 70 percent national average 
for disabled individuals. And NTID grads pay back the Federal 
investment in their education at least three times in taxes 
alone.
    In addition, the employment rates among NTID graduates are 
exceptionally high, with 95 percent becoming employed shortly 
after graduation. These good jobs are commensurate with the 
education and training received. For example, more than 70 
percent of them are employed in business or industry, and 
clearly, NTID has an impressive record of success.
    In recent years NTID has responded to the same needs and 
requirements that all Government institutions are facing: the 
need to improve efficiency and to do more with less. They have 
restructured. They have streamlined the administration, 
reallocated their resources to direct more services to 
students.
    In addition, they have reduced their work force by nearly 
20 percent. All of this was done at a time when they were 
implementing their strategic plan, which is now in its final 
stages.
    Mr. Chairman, I am sure you are as impressed with NTID as I 
am, and hope you will look favorably upon them in this 
appropriations cycle. These gentlemen will give you all the 
details that you require, and I am pleased to turn it over to 
them.
    But I would like to say a special thanks to Dr. Heumann for 
her recent visit to Rochester. Thank you.
    And thank you, sir.
    Mr. Porter. Congresswoman Slaughter, thank you very much 
for your special introduction. And we thank all of our members 
of our panel for being here today.
    Ms. Heumann, we were going to say nice things about you, 
but you've got to wait until your own hearing for us to do 
that. [Laughter.]
    Ms. Heumann. I'm glad to hear that.
    Mr. Porter. I know that you have another place to go, so 
we're going to ask you to present your opening statement and 
then excuse you so you can make your other appointment.

                  opening statement--judith e. heumann

    Ms. Heumann. Thank you, sir.
    It's my pleasure to be here before you on behalf of the 
Special Institutions for Persons with Disabilities, which 
include the American Printing House for the Blind, the National 
Technical Institute for the Deaf, and Gallaudet University. 
These institutions, as you know, provide specialized programs 
and services to students with disabilities. The Department 
helps ensure that each institution provides services and 
programs in compliance with the requirements of its respective 
authorizing legislation, and that these activities meet the 
needs of the students for whom they are intended.
    I am pleased to present the Department's testimony on 
behalf of the President's fiscal year 1999 budget for the three 
institutions. I would like to take a few minutes to summarize 
the budget request and to comment on several key issues. Then 
representatives of each of the institutions will provide 
specific testimony in support of the budget request for their 
respective programs.

                    fiscal year 1999 budget request

    The total budget request for the Special Institutions is 
$136.5 million. This includes a request of $8.256 million for 
the American Printing House for the Blind; $44.791 million for 
the National Technical Institute for the Deaf;and $83.48 
million for Gallaudet University. The Department is pleased to be able 
to provide support for these important programs, and for the children 
and adults with disabilities who will benefit from their services.

                            endowment grant

    The Department has not included a separate request for the 
endowment grant programs for either NTID or Gallaudet. Instead, 
our request would provide Gallaudet and NTID the flexibility to 
use current-year program funds for their respective endowment 
grant programs. This provides each institution with the 
discretion to determine whether and how much of the 
appropriation to use for matching purposes. The Department 
believes that these funds help promote the financial 
independence of these institutions, and provide a permanent, 
increasing source of funds for special projects.

                          performance measures

    The Department has been working with all three of the 
Special Institutions to develop performance plans that meet the 
requirements of the Government Performance and Results Act 
(GPRA). The draft plans are based on the strategic planning 
documents developed by each of the three institutions and 
include strategic objectives and performance indicators that 
can be used to help measure the effectiveness of their 
respective programs.
    We are pleased with the collaborative process we 
established with each of the institutions and believe that the 
final plans will help provide concrete, measurable data on the 
progress of each institution in meeting the mandates of their 
respective authorizing legislation.

                       education of the deaf act

    The Education of the Deaf Act expired at the end of fiscal 
year 1997. However, the General Education Provisions Act (GEPA) 
provides for a one-year extension of the existing authority. 
The Department, Gallaudet University and the National Technical 
Institute for the Deaf have been working to assist the 
authorizing committees to develop legislation to reauthorize 
these important programs. We anticipate that this legislation 
will be enacted prior to the expiration of the GEPA extension.
    In another area, as we have reported in the past, the 
Department and Gallaudet University have worked closely to 
ensure effective implementation of the requirements of the 
Education of the Deaf Act and the incorporated provisions of 
the Individuals with Disabilities Education Act, as they relate 
to students who have been placed in Gallaudet's elementary and 
secondary education programs by their parents. During this past 
year, my staff have been working with the school's managers by 
providing a number of technical assistance sessions in order to 
apprise them of their responsibilities under the new provisions 
of IDEA.
    In fiscal year 1999, the Department plans to continue to 
work closely with all three Special Institutions for Persons 
with Disabilities to ensure that Federal funds are being used 
efficiently and effectively to expand educational opportunities 
for individuals who are deaf or hard of hearing and individuals 
who are blind.
    My colleagues and I will be happy to respond to any 
questions you may have.
    [The statement follows:]


[Pages 304 - 307--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Ms. Heumann.
    Let's proceed with the statements of each of the 
institutions, and we'll begin with King Jordan, the President 
of Gallaudet University.

                   Opening Statement--I. King Jordan

    Dr. Jordan. Thank you, Mr. Chairman.
    I appreciate very much the opportunity to appear before you 
again today. This is my eleventh appearance before the 
subcommittee.
    Recently, as you've heard from both Congressman Hoyer and 
Congressman LaHood, we've been celebrating the tenth 
anniversary of what we call DPN, which stands for Deaf 
President Now.
    I'd like to correct a little bit what Congressman LaHood 
said. He said we assembled on the west front of the Capitol to 
celebrate my ten years as President. That was not the intent of 
the assemblage on the west front of the Capitol. We assembled 
to celebrate ten years since the Deaf President Now revolution 
took place at Gallaudet University.
    Ten years ago, there was a march to the Capitol to protest 
the appointment of a hearing president and to demand the 
appointment of a president who was deaf. This year when we went 
back, again on March 11th, the intent was not to protest, but 
to celebrate the accomplishments of deaf people.
    I think the accomplishments of deaf people and the changes 
that have happened in the last ten years have been nothing 
short of phenomenal. The attitudes that people who can hear 
have about people who are deaf have changed. The aspirations of 
individuals who are deaf have changed.
    Often, people ask me, what do you think is the biggest 
change that's happened since Deaf President Now happened in 
1988? And I answer very quickly that the biggest change I see 
is the goals that the students at Gallaudet University have for 
themselves, the goals they have for their futures, for their 
academic years at Gallaudet, for their jobs, for their graduate 
study. They see no limits any more on what they can achieve if 
they work hard to do that.
    The changes that happened have not just been changes at 
Gallaudet University, but have been changes all over the United 
States and all over the world. Many of the changes relate to 
very specific and measurable and noticeable things, like 
captioning on every TV that's sold in the United States, relay 
service for telephones, interpreting at public events, and more 
deaf people who are into law school, medical school, dental 
school and other professional careers.
    All these things were just dreams short years ago, and 
today are a reality.

                technology and individuals who are deaf

    The one thing that may have helped more than any other 
single issue to make that happen is advances in technology. The 
changes in technology over the last ten years have really 
leveled the playing field for deaf people. Now things like e-
mail, World Wide Web, the captioning on television, the 
internet, teleconference capabilities, TV cameras that are very 
cheap and easy to use have really changed the way communication 
happens. And they've opened up new opportunities for deaf 
people.
    In fact, talking about teleconferences, like I said, we 
were celebrating DPN at Gallaudet University. We've had two 
very successful teleconferences recently. Those teleconferences 
were broadcast to 200 sites around the United States where many 
deaf, hard of hearing, and professional people who work with 
deaf people, watched and learned about the potential and the 
abilities of deaf people.
    I speak about technology. I can't avoid thanking you and 
the committee for your very generous help and support in 
enhancements in our technology at Gallaudet University. Last 
year, the $1.8 million gave us a very good start in upgrading 
and changing our e-mail system and installing new servers and 
workstations, and in enhancing the infrastructure at Gallaudet.
    This morning when I ran on campus, I had to jump over a 
trench they were digging to lay new fiber optic cable on the 
campus. We soon will have every building at Gallaudet 
University wired with the highest, fastest fiber optic 
capability that is available today.
    Finally, we're installing a brand new information 
management system that will integrate all of the different 
computer systems on campus. Those 1999 funds that are included 
in the budget will allow us to complete this job in the next 
year.
    We at Gallaudet really appreciate it, but probably the most 
sincere appreciation comes from the students themselves. This 
is because deaf students by definition are visual learners and 
using technology will really enhance the way we can provide 
information to deaf students in an interactive, visual sense.

                       gallaudet accomplishments

    Periodically at Gallaudet, we conduct surveys of everyone 
who attended Gallaudet University. The last one we did was in 
1993. We will do another one in 1998. Those surveys give us 
very good information about the success of our graduates, what 
they do, how they compare to the graduates of other colleges 
and universities.
    That's helped us measure what their jobs are, what their 
salaries are, what we need to do to help improve that even 
more. In that regard, we've been working very closely with the 
Department, as Ms. Heumann said. We have a very good 
collaborative working relationship. We have fine tuning the 
objectives, the indicators and the measures that we need to be 
able to document the successes at Gallaudet University. We'll 
talk specifically about things like the economic goals and 
achievements of our students. As I said before, more than half 
of the students that graduate with BAs at Gallaudet University 
go on to earn advanced degrees.
    I would like to say it again, and make sure it appears in 
the record, because the national average for people who receive 
BAs who go on for advanced degrees is only 19 percent. That 
really puts Gallaudet way out in front in that regard.
    Specifically, also related to employment of our students, 
two thirds work in very high level professional occupations and 
earn the same kinds of salaries that people who graduate from 
regular colleges and universities do.
    Last year, I told you that the northwest campus was on the 
market for sale. I'm very happy to report that it's now sold. 
We received $1 million up front and took back a loan of $2.9 
million. The $1 million we've already deposited in the 
endowment. When we receive additional money, we will also put 
that in the endowment.
    Pre-college programs at Gallaudet continue to focus on the 
three priority areas that we talked about before: literacy, 
family involvement, and transition to work or higher education. 
Pre-college programs have been working very hard to collaborate 
with other institutions and schools outside Gallaudet 
University.
    Last year, there were two very important conferences 
related to transition and to family involvement. Those 
collaborations are something that the Commission on Education 
of the Deaf called for 10 years ago, and are now very highly 
regarded in the education of deaf children.
    I want to update you a little bit on staff reduction as 
well. We continue to reduce staffing. Since I started a 
voluntary staff reduction program in 1989, we've reduced staff 
by more than 18 percent. At the same time, while we're reducing 
staff, we've been increasing the percentage of people on the 
staff who are deaf. We've gone from 25 percent deaf employees 
to 35 percent. That's a very good achievement, but it's not 
good enough.
    And one thing I announced recently during the DPN 
celebration was what I'm calling a President's Fellows program. 
That program will be designed to help young deaf people who 
aspire to achieve Ph.D. degrees do that. Then when they have 
their Ph.D.s in the appropriate discipline, they can come back 
and become faculty members at Gallaudet University.
    I know that in years to come, when the President sits here 
and testifies before the subcommittee, he or she will be able 
to talk about the continued increasing percentage of deaf 
faculty at Gallaudet.
    I keep using the word celebration. The Deaf President Now 
celebration sounds like looking back. We're not looking back, 
we're looking forward. The impact that DPN has had on 
Gallaudet, has had on the education of deaf people, continues 
to pay very positive dividends. In the next 10 years, we'll see 
a world that's transformed by new technology. We want to be 
sure that deaf people are right in the front and involved in 
this transformation and that the technology is accessible to 
us.
    We will see changes in the diversity of the students coming 
to Gallaudet. We will be ready to adapt to those changes.
    So I'm very encouraged by what's happened in the last 10 
years. But I'm even more encouraged by the future. And I very 
much look forward to working with the subcommittee to continue 
that work.
    Thank you, sir.
    [The statement follows:]


[Pages 311 - 315--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Mr. Jordan.
    Mr. Davila.

                  Opening Statement--Robert R. Davila

    Dr. Davila. Good afternoon, Mr. Chairman.
    Before I begin, I wish to inform you that we have two 
professionals and four students from our computer integrated 
machine technology program from NTID. They are here in the city 
on some other business, and were able to fit into their 
schedule an appearance this afternoon. This is the first time 
NTID students have been able to come. We are so far away from 
Washington. I wish to recognize them in the back of the room.
    Mr. Porter. We're happy to welcome you. Thank you for being 
with us.
    Dr. Davila. And thank you.
    Mr. Chairman, I am pleased to present the President's 
fiscal year 1999 budget request for the National Technical 
Institute for the Deaf. We support the President's request for 
$44.791 million. The fiscal year 1999 budget request includes 
$44,141,000 for operations, which is the same amount as fiscal 
year 1998.
    In addition, $650,000 is included for covering the cost of 
our detailed design for our dormitory renovation project. 
NTID's dormitories are approximately 25 years old. We are 
currently estimating that total renovation costs will be close 
to $11.5 million, spread over a three-year period beginning in 
fiscal year 2000.
    Funds received by NTID for tuition, room and board and fees 
are not expected to generate additional income in 1999, above 
the total expected in 1998, because NTID has decided not to 
increase tuition. Charges in the next academic year for room, 
board and fees will increase, but only to cover increased cost.
    We estimate that the Federal appropriation for NTID will 
constitute approximately 80 percent of that total funding in 
1999. We stand before this committee as a fiscally healthy and 
vibrant academic institution. We are well positioned for the 
year 2000 and beyond.
    We can do this in the face of a major change and limited 
resources, because we anticipated those condiditons and 
initiated significant reductions in a major way, while 
preserving our academic mission.
    Since 1993, we have reduced the number of administrative 
units from 13 to 6, eliminated 7 academic programs that were 
least marketable and cost effective, and downsized our employee 
base by 117 positions, or nearly 20 percent of the work force, 
for a total savings of over $6 million. Much of the money saved 
from these activities went to balance our budget, while the 
rest were reinvested in our strategic plan.
    A number of significant, strategic plan initiatives that 
have been or will be implemented by the end of 1998 aremoving 
along. These will include new programs to replace programs that have 
been eliminated, as well as new programs to assist students with their 
selection of a major, and to help them with the transition to college 
life.
    These are important elements of our retention program. Our 
graduation rate is improving. For NTID, our graduation rate is 
48 percent. For students at RIT, who are studying at the six 
other colleges of RIT, the graduation rate is 61 percent. We 
experience exactly the same graduation percentage as the rest 
of RIT.

                       ntid student achievements

    New admissions of students for the fall of 1997, meaning 
fiscal year 1998, totaled 366, approximately the same number as 
in fiscal year 1997, but 18 percent higher than in 1995.
    NTID enrolled 84 students in its educational interpreter 
training program and 16 students in its master of science in 
secondary education program for the fall of 1997. For the fall 
of 1998, which will be fiscal year 1999, NTID expects to admit 
approximately 375 new deaf students, which will increase the 
enrollment to almost 1,100 deaf students while enrollment in 
the educational interpreter programs and MSSE program is 
expected to grow to 100 and 25, respectively.
    As Mrs. Slaughter said in her introduction, over the past 
28 years, nearly 95 percent of NTID's 3,850 graduates have 
eventually been successfully placed in jobs commensurate with 
their training. Research conducted by NTID and the Internal 
Revenue Service shows that our deaf graduates with bachelor 
degrees earn 93 percent of what their hearing peers earn.
    A deaf NTID-RIT graduate with a bachelors degree in his or 
her lifetime will pay back over three times the cost of his or 
her education to the Federal Treasury in taxes alone.
    This year, approximately 39 percent of our students were 
fully matriculated into other colleges of RIT. These students 
received over 82,000 hours of interpreter service, 42,000 hours 
of note taking support and 15,000 hours of tutoring, as well as 
counseling, advising and other professional services.
    In total, nearly 700 of NTID's 1,085 students have ongoing 
contact with hearing peers through course work and 
extracurricular activities on the RIT campus.
    NTID's educational outreach efforts are designed to address 
the needs of our alumni and other deaf adults, professionals 
working with students in academic settings, employers, 
vocational rehabilitation personnel, deaf secondary school 
students and parents of deaf children. We are reaching out with 
programs such as the Explore Your Future program for high 
school juniors who are deaf. Last year, 225 students 
participated in this program.
    In addition, a summer institute was held for deaf adults, 
mainly our alumni, on various topics, such as computer skills, 
small business opportunities and networking for career 
mobility, and management. In addition, workshops and training 
sessions were offered to over 300 employer representatives and 
school personnel last year. Through these and other outreach 
efforts, we work to expand opportunities for deaf people in 
this country.
    No specific amount is requested for the endowment program. 
However, the budget request leaves us the flexibility to set 
aside operational dollars that could be used to match privately 
raised funds. Our priority is to develop ongoing revenue 
streams to supplement NTID's operating budget. Over the past 
five years, commitments totaling $9.5 million have been 
received to date towards our current $10 million campaign. The 
current market value of NTID's total endowment now stands at 
over $16 million.
    In summary, the 1999 request would allow NTID to continue 
the mission of preparing deaf people to enter the workplace and 
society and compete on equal terms with their hearing peers. In 
the institute's brief history, our alumni have demonstrated 
that they can be fully independent and contributing members of 
society. And they can experience an exceptional quality of life 
as a result of education they received.
    Mr. Chairman, my colleague and I will be pleased to answer 
any questions you may have.
    [The statement follows:]


[Pages 319 - 324--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Dr. Davila.
    Now, Mr. Tinsley.

                  Opening Statement--Tuck Tinsley III

    Dr. Tinsley. Thank you, Mr. Chairman.
    I'd like to also thank Congresswoman Northup for the 
wonderful introduction, and let you know, Mr. Chairman, how 
fortunate we feel in Kentucky to have her representing the 
Commonwealth in Washington.
    I've submitted an opening statement for the record, and I'd 
like to briefly summarize it for the committee.
    It's a pleasure for me to present the President's fiscal 
year 1999 budget request for the American Printing House for 
the Blind. In 1879, Congress passed the Act to Promote the 
Education of the Blind, which mandates that APH, a non-profit 
agency, produce and distribute specially designed and adapted 
educational materials necessary for pre-college level blind 
students to have an equal opportunity to participate in their 
educational programs.
    The Act designates a board of ex officio trustees, 
currently 158 professionals, to assure that funding for the Act 
is used to produce and distribute specially designed 
educational materials which are not otherwise available.
    By approving the expenditure of appropriated funds only for 
unique educational materials designed for blind students, the 
ex officio trustees ensure that this program does not duplicate 
other programs.
    The total request for funding for the Act to Promote the 
Education of the Blind for 1999 is $8.256 million, an increase 
of $70,000 over the fiscal year 1998 appropriation level. This 
appropriation is segmented into three categories: educational 
materials, advisory services, and educational and technical 
research.
    The request for fiscal year 1999 includes $7.191 million to 
supply special educational materials to an estimated 58,205 
legally blind students. This is an increase of $141,000 over 
the 1998 appropriation level for funding for educational 
materials. The number of students represents an increase of 2.7 
percent over those registered in 1998.

                            aph initiatives

    The request for advisory services also includes funding for 
four initiatives: $145,000 for an initiative to create an 
electronic file repository; $61,000 for a student use 
initiative for the Carl Et Al. data base; $100,000 for 
continuation of the expert data base service begun this year; 
and $50,000 for continuation of a videotape technology project.
    The request for $145,000 for an initiative to create an 
electronic file repository supports a current national effort 
to expedite the provision of publishers' files to producers of 
alternative media. The national effort has recently gained 
momentum due to improvements in computer technology, braille 
translation software, and the passing of severalState braille 
laws, which require publishers to provide electronic files.
    Under this initiative, APH would create a repository of 
electronic files that will meet the needs of both reproduction 
agencies and print textbook publishers.
    The request for $61,000 for the Carl Et Al. student use 
initiative will allow students, who are the ultimate consumers 
of materials, to access the data base. Carl Et Al. has recently 
been renamed the Louis data base, in recognition of the work of 
Louis Braille, and to mark the significant changes that will 
make this data base easily accessible to the vision impaired 
population.
    Using the Louis data base, students will be empowered to 
identify, locate and access their educational materials as 
needed. Louis will become more navigable in speech access mode 
and will be Internet accessible. The initiative will fund the 
design and presentation of workshops for visually impaired 
students to teach them to independently use and interact with 
resources available through the APH web site and the Louis data 
base.
    The $100,000 requested for the continuation of the expert 
data base service begun this year involves the development of 
an on-line data base of facts, references and resources, and 
will provide a user-friendly, accessible means of providing 
technical assistance. The 1999 request also includes $50,000 
for continuation of the video tape technology project.
    The educational research, educational technical research 
request is $464,000. It includes $70,000 for a new project to 
develop guidelines for the administration of computer assisted 
tests for visually impaired students. As computers have become 
an essential tool in education, research is currently being 
conducted on computer administered tests for the sighted 
population. We need to make sure that guidelines are developed 
for the testing, through this medium, of the blind population.
    The American Printing House for the Blind continues to be 
committed to meeting the needs of blind students through the 
research, development and provision of unique educational 
materials necessary for them to have an equal opportunity to 
benefit from their educational programs.
    The Act to Promote the Education of the Blind is a program 
that works. The key is the continuous commitment of direct 
service providers at the State and local levels, with all the 
obvious benefits of grass roots involvement.
    Mr. Chairman, I'll be glad to answer any questions you may 
have regarding the 1999 budget request.
    [The statement follows:]


[Pages 327 - 331--The official Committee record contains additional material here.]



                           budget constraints

    Mr. Porter. Thank you, Dr. Tinsley.
    Let me thank each of our witnesses for their good 
statements.
    I have to give my sermonette to start with, because I've 
given it to most of the witnesses who have appeared here. It's 
brief, but the President's budget included a great deal of new 
revenues that are very unlikely to be adopted in this fiscal 
year, or this year, prior to the beginning of the fiscal year, 
including $65 billion over five years from a comprehensive 
tobacco settlement and $35 billion from user fees and taxes on 
businesses, that I don't think will be enacted.
    That means that those $100 billion in new revenues, about 
$16 billion of which was in the fiscal year 1999 budget offered 
by the President, are not there to support the spending that he 
has indicated. And obviously, that's going to make it a great 
deal more difficult for all the subcommittees, including this 
one, to provide the kinds of increases that the President has 
suggested in his budget.
    And I simply want to state that for the record and for your 
understanding.

                          mechanics of signing

    I'd like to ask a couple of curiosity questions. And let me 
ask the first of Dr. Davila. That is, when you are signing, do 
you have to think about that at all any more, or do you simply 
sign without having to think? Do you have to use a mental 
process at all?
    Dr. Davila. Let me put it this way. I learned to speak 
English after I lost my hearing. But I learned sign language 
first. So I have the habit of signing at the same time in order 
to control my rate of speech. When I try speaking alone, I lose 
it and speak too fast. [Laughter.]
    Mr. Porter. Aha. Obviously there's a mental process when 
you're reading someone else signing, but I wondered if you are 
so used to doing this that you even have to think about it at 
all, or whether it's just second nature, as part of your 
ability to communicate.
    Dr. Davila. By now, it is almost second nature, yes, by 
now. I don't have to work at it as much.
    Mr. Porter. I've got a similar curiosity question for Dr. 
Jordan. And this relates to a period some time ago, but it used 
to be for a while politically incorrect to use the word 
``deaf.'' For a while, one was to use, I think, the words 
``hearing impaired'' instead of ``deaf.'' That then got 
dropped. And I imagine there was some kind of a debate within 
the deaf community about which was the proper term to use, am I 
correct?
    Dr. Jordan. That's right. The words that are used today in 
different communities and different cultures are very powerful 
things. I think it's safe to say that in the deaf community, 
the word deaf is very highly regarded now. We would prefer, in 
fact, for you to call us deaf, not to call us hearing impaired.
    The word impaired suggests something that we don't think we 
have. Our hearing doesn't work, but everything else is fine. So 
deaf defines what we are, and we're very happy to use that 
word.
    Mr. Porter. Why was there a time when people didn't want to 
use that word? In other words, why did the words hearing 
impaired come into the lexicon at all?
    Dr. Jordan. I would speculate that it probably had 
something to do with the fact that deaf was always paired with 
dumb, people didn't just say deaf, they often said deaf and 
dumb. And dumb, while the original meaning of that word meant 
doesn't speak, it has come to mean instead not very 
intelligent.
    So sometimes you still hear that used, and you still see it 
in print. I can tell you that in the deaf community, there's a 
great deal of resentment to that term. We don't like to see or 
hear deaf and dumb.

         government performance and results act (gpra) targets

    Mr. Porter. Those were the easy questions.
    Now, Dr. Davila, I asked NTID why you hadn't chosen targets 
for several of your GPRA measurements. And you indicated that 
you had. But the Department provided us a comprehensive GPRA 
report at the end of February, and the targets were missing for 
NTID.
    Apparently, the Department had taken them out. Do you 
happen to know why this has happened?
    Dr. Davila. Well, you are correct, we did include the 
targets. But the Department said that they didn't think they 
were necessary the first year, so we let go of them. I don't 
know the reason.
    Mr. Porter. You don't know why they thought they were 
unnecessary in the first year?
    Dr. Davila. I know I thought that we were really moving 
into a new process for evaluating outcomes. During the next 
year, we will be working at institutionalizing that process. So 
I assume there was a reason.
    Ms. Cichowski. Mr. Chairman, may I comment on behalf of the 
Department?
    Mr. Porter. Absolutely, Ms. Cichowski.
    Ms. Cichowski. We agree wholeheartedly with your comment 
that targets are important and necessary. We have focused 
primarily during the last year on trying to get agreement on 
appropriate objectives and indicators. It was a complicated and 
involved process to articulate what we want to measure and how 
to measure it.
    We did include targets where NTID in particular had 
suggested them, and where we thought they were reasonable and 
challenging. However, it's difficult to establish targets, 
particularly where we haven't had experience with either 
collecting data on these issues or watching the data over time. 
I think we want to be thoughtful about that, and that is the 
next step, to establish targets for all our objectives.
    Mr. Porter. So are you saying that the targets that NTID 
submitted were not thought to be proper targets, and you wanted 
to have them submit new ones, or what?
    Ms. Cichowski. I think we just didn't know, and wanted to 
talk about them more, to determine the basis of their targets. 
I think we're finding for all our programs, it's very hard, 
where we haven't historically either collected or monitored 
data in these areas, to know what's achievable and what's a 
high enough standard. I think it's just something we have to 
keep working on. But we absolutely agree that we need to have 
specific targets.
    In many cases, I think we're comfortable where we have 
baseline data in saying that improvement over this baseline is 
an accomplishment. I don't want to appear to be overly 
defensive about the way we have framed our indicators. However, 
where we can be specific, that would be ideal.
    Mr. Porter. I frankly do not understand why, if NTID worked 
this through and submitted targets, and you're simply providing 
us with a comprehensive GPRA report, why you wouldn't include 
your targets. You could always work with them, if you think 
they're inappropriate, to change them, I would think.
    Ms. Cichowski. In some cases, the indicator itself changed 
along the way. NTID did provide specific targets for a number 
of indicators. But, over the months we've been working on this, 
we restated indicators or objective in such a way that we're 
not sure whether the original numerical target is appropriate. 
So I think we need to just go back and work through this with 
NTID, and of course we need to engage Gallaudet in the same 
conversation.
    Mr. Porter. I do, too. But I think if you're going to 
submit a comprehensive report and you simply leave out the 
targets that the agency has provided without any indication why 
they're not there, that makes the agency look like they're not 
doing their job. And they certainly have tried to do it, 
apparently.
    Ms. Cichowski. One thing that's important to understand, is 
the distinction between the Department of Education's plan and 
NTID's own plan and targets. The annual plan that was submitted 
to Congress represents the Department's objectives for the 
programs for which it's requesting money, and targets that it 
feels comfortable with. There's a distinction to be made 
between an institution's suggestion for an appropriate target, 
and the target that the Department might think is more 
appropriate. There's room for disagreement between the 
institution and the Department. These plans should represent 
our targets what we think is achievable for that institution.
    Mr. Porter. Thank you.
    I have to be in the Capitol at 4:30 to chair another 
meeting. And I'm going to call on Mrs. Northup for her 
questions at this point, and if she wishes to use the remainder 
of the time, I'll submit my questions for the record.

                  BUDGET REQUESTS FOR FISCAL YEAR 1999

    Mrs. Northup. Thank you, Mr. Chairman.
    I also have a meeting at 4:30, so I'll be submitting other 
questions.
    First of all, I would like all of you, for each 
institution, for the record, since we're probably going to be a 
little short of time, to provide for the committee what your 
submissions were originally to the Department of Education, and 
obviously, there may have been reductions. If so, what sort of 
reduction in services will be required in order to meet what 
the Department has proposed?
    I would like to say, Mr. Chairman, while you're here, it's 
clear to us now that Government can't do everything. There has 
to be some prioritization and some identifying of essential 
responsibilities.
    And in some cases, families can do things, communities can 
do things, States can do things. But when we have a national 
institution that supports the disabled community that only the 
Federal Government can have a national resource like the 
American Printing House for the Blind, National Technical 
Institute for the Deaf, and Gallaudet University. As we 
prioritize and spend money, for those people who depend only on 
these institutions, then I want to advocate as strongly as I 
can that we provide for them.
    In particular, I'd like to point out that two of them at 
least received less than an increase based on inflation. I'll 
go through each one briefly. The blind community, the American 
Printing House for the Blind, got a $70,000 increase. But that 
is specified for use for an improvement.
    So essentially, you're flat funded, even though I presume 
that inflation costs have hit you all, too. Is that correct, 
Tuck?
    Dr. Tinsley. Yes, ma'am.
    Mrs. Northup. Have you found that there's been a decrease, 
per student decrease in the demand for your services for the 
periodicals or the textbooks?
    Dr. Tinsley. Definitely not. It's rising.
    Mrs. Northup. Now that we have the new data base of 
periodicals that will be available and the new technologies to 
convert to Braille, I assume we could expect that there might 
be quite a large expansion of people that would use, 
effectively use that data base and the demands they would make.
    Dr. Tinsley. That's right.
    Mrs. Northup. Also, the National Technical Institute for 
the Deaf, your increase was 1.5 percent, less than the rate of 
inflation. Is that, I cannot remember, but is that designated 
for a particular project?
    Dr. Davila. The increase included in the 1999 budget 
includes $650,000 for dormitory renovations, but no increase 
for operations.
    Mrs. Northup. So there's no real increase, real dollar 
increase?
    Mr. Davila. Correct.
    Mrs. Northup. And Gallaudet, do I remember, Doctor, that 
your increase is also specified for increased technology?
    Dr. Jordan. Yes, the entire increase is specified for 
technology enhancement, yes, ma'am.
    Mrs. Northup. So in operational expenses, you're really 
flat funded?
    Dr. Jordan. Yes.
    Mrs. Northup. Would the Department of Education like to 
comment on that?
    Ms. Cichowski. I would, Mrs. Northup. In all three cases, 
these institutions received over a million dollar increase in 
1998. I believe it was $1.5 million for the American Printing 
House, $1.1 million for NTID and $1.8 million for Gallaudet. In 
the case of the Printing House, we estimate that $424,000 of 
that $1.5 million increase was for non-recurring costs, 
projects that were completed in that year. So, from our 
perspective, at least that amount is available. It's in the 
base of our 1999 request, is available for new activities, and, 
in fact, we believe will provide sufficient funding to support 
all of the initiatives that the Printing House has proposed in 
the area of advisory services. There also are sufficient funds 
to provide for an inflationary increase for the educational 
materials activity.
    In the case of the other institutions, again, the increases 
provided in 1998 are retained in the base. One option for us 
could have been to eliminate nonrecurring costs and then 
reestimate our requests for 1999. Instead, we simply retained 
those increases in the base, and then tried to accommodate new 
activities that we thought were worth supporting in 1999.
    Of course, in all three cases, we added additional funds 
for new initiatives.
    Mrs. Northup. Well, if I could just point out, since 
there's one institution I'm particularly knowledgeable about, 
what we did in 1998, since the American Printing House had been 
flat funded, was, we restored the per student expenditure to 
$122. In actual dollars.
    So of course, in 1984, that would have purchased a lot more 
material per student that uses it than about $50, I believe, in 
real dollars we restored the appropriation. So to me, it's very 
important that we not let that slip. We're not actually, Mr. 
Chairman, increasing it in terms of per student allocation, in 
terms of real dollars. All we're doing is keeping it at a rate 
that, you know, I think we should provide the inflationary rate 
at least.
    Ms. Cichowski. There is enough money in our 1999 request to 
accommodate a 2 percent increase for the educational materials 
activity. That's our estimated inflation rate for next year.
    Mrs. Northup. Two percent?
    Ms. Cichowski. Yes.
    Mrs. Northup. Well, thank you. I'll follow up on that, but 
I appreciate it.

                           BUDGET CONSTRAINTS

    Mr. Porter. If the gentlelady would yield, again your 
budget is supported by revenues that aren't going to 
materialize, or are very unlikely to materialize at least. So 
it makes it more difficult for us.
    Let me apologize to each of our witnesses, because I think 
we have unfortunately run into a time problem. Last year, our 
hearings went until June 11th. Most of my subcommittee members 
thought that was way too long, and I think they were correct. 
We have tried to compact our hearings into a shorter time frame 
and finish by May 1st.
    I think this has created some problems for us in terms of 
our getting enough time with our witnesses. For that, we 
apologize very greatly. Maybe it makes our witnesses happy, I 
don't know.
    But we do apologize. I'd like to spend a great deal more 
time, and we simply don't have it.
    Let me close by saying that we should have these baselines 
and targets. The law was passed in August of 1993, the 
Department has had plenty of time to get this done. Obviously, 
we expected it to be done, and we think it doesn't make a lot 
of sense for the Department to tell agencies that they're going 
too fast on this. This should be provided, and the agencies 
have provided it, and yet it hasn't been worked out yet, and we 
think it ought to be worked out.
    Again, let me apologize to each of our witnesses. We do 
have extensive questions for the record for each of you to 
answer. We ask that you do that.
    Mr. Porter. We thank you for your excellent statements and 
for the fine jobs each one of you is doing in your 
institutions. Thank you very much for coming.
    The subcommittee will stand in recess until 10:00 a.m. 
tomorrow.
    [The following questions were submitted to be answered for 
the record:]


[Pages 338 - 383--The official Committee record contains additional material here.]



                                           Tuesday, March 31, 1998.

 SPECIAL EDUCATION AND REHABILITATION SERVICES AND DISABILITY RESEARCH

                               WITNESSES

JUDITH E. HEUMANN, ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
THOMAS F. HEHIR, DIRECTOR, OFFICE OF SPECIAL EDUCATION PROGRAMS
KATHERINE D. SEELMAN, DIRECTOR, NATIONAL INSTITUTE ON DISABILITY AND 
    REHABILITATION RESEARCH
FREDRIC K. SCHROEDER, COMMISSIONER, REHABILITATION SERVICES 
    ADMINISTRATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order. We 
continue our hearings on the budget of the Department of 
Education and are pleased to welcome once again Judith E. 
Heumann, the Assistant Secretary for Special Education and 
Rehabilitative Services.
    Ms. Heumann, if you will introduce the people that you have 
brought with you, and then make your statement, please.
    Ms. Heumann. To my far right is Tom Skelly, the Director of 
the Budget Service and Carol Cichowski also from the Budget 
Service. To my left is Fred Schroeder, who is the Commissioner 
for the Rehabilitation Services Administration; Kate Seelman, 
who is the Director of the National Institute on Disability and 
Rehabilitation Research; and Tom Hehir, the Director of the 
Office of Special Education Programs.
    Mr. Porter. Thank you.
    Ms. Heumann. Thank you.

                      background of budget request

    The budget I am about to discuss with you today will affect 
how millions of Americans live their lives, whether they become 
self-supporting and independent, whether they do well in school 
and graduate, whether they find fulfilling careers, whether 
they become responsible members of their communities.
    While budgets are about numbers, we must never lose sight 
of the human lives they affect. And so, Mr. Chairman, thank you 
for this opportunity to discuss the President's fiscal year 
1999 budget request for the Office of Special Education and 
Rehabilitative Services.
    Our work in the Department of Education greatly affects the 
lives of so many Americans, children and adults. As you know, 
our three major areas are special education, rehabilitation, 
and disability research.
    This budget reflects the Administration's strong commitment 
to furnish a free and appropriate public and quality education, 
advance needed disability-related research, and provide job 
skills and improve employment outcomes. We continue to work 
hard to assure equal opportunity for disabled people in the 
classroom, in the workplace, and in the community.
    As all of us here know, education and work are key elements 
to success in our society. No one should be denied the chance 
to acquire and use these keys. Those of us with disabilities 
want and deserve a place in the mainstream of our society 
alongside our nondisabled peers. This is a goal that unites all 
of us.
    We have worked very hard with Members of Congress to 
improve the Individuals with Disabilities Education Act and are 
currently striving to improve and reauthorize the 
Rehabilitation Act.
    Additionally, authorization of the Education of the Deaf 
Act and the Technology-Related Assistance for Individuals with 
Disabilities Act, both of which are up this year, will also 
enhance vital services for disabled Americans.
    This strong continuing effort on the part of this 
Administration to better the lives of our Nation's disabled 
citizens and their families has been guided by a bipartisan 
commitment for which I am sincerely grateful. There are certain 
issues in life which should unite our Government, and I believe 
the right to an education and the right to employment head the 
list.

                       special education request

    I would like to begin by discussing the President's budget 
proposal for special education. Our fiscal year 1999 proposal 
will help the Department to effectively implement the new 
directions set forth in the IDEA amendments of last year. The 
elementary ABC's of IDEA are advancing educational excellence, 
being focused on results, and continuing to support and produce 
quality teachers.
    Our $4.8 billion request for special education represents 
an increase of $35 million over fiscal year 1998 and includes 
increases for Grants to States studies, Grants for Infants and 
Families, State Improvement, and Parent Information Centers.
    We are requesting $3.8 billion for the Grants to States 
formula program to assist the States in covering the excess 
costs associated with providing special education and related 
services to children with disabilities. During the past 2 
years, Congress has increased funding in this area by almost 
$1.5 billion or 64 percent. These funds will help States carry 
out the 1997 IDEA amendments and our budget proposal is to 
maintain that.
    Our request of $374 million for Preschool grants is level 
with the 1998 appropriations. Since students served under the 
Preschool grants program also are included under the Grants to 
States program, they will benefit from the significant funding 
increases the program received in 1997 and 1998. The budget 
proposes an increase in funding for our youngest children.
    We are asking for $370 million for Grants for Infants and 
Families, the only Federal program focused on servicing infants 
and toddlers with disabilities ages birth through 2. This is an 
increase of $20 million. This will allow States to expand the 
number of children served and improve the scope and quality of 
services. This is essential to improve outcomes for these young 
children, especially when it comes to being ready for school.
    The total request for National Activities is $291 million--
$12 million more than the amount appropriated in 1998. Funded 
for the first time last year, these activities consolidated 14 
separate programs into 6 programs.
    Within National Activities, we are requesting $45.2 million 
for State Improvement Grants--$10 million over the 1998 level. 
These flexible resources will assist State educational 
agencies, in partnership with others, to reform and improve 
their systems of providing educational, early intervention, and 
transitional services.
    The special education budget request is very positive and 
will help States successfully implement the new IDEA.

      request for rehabilitation services and disability research

    At OSERS, we also have a great commitment to making sure 
that Americans with disabilities get the necessary skills to 
secure a job, retain that job, and advance through a career. By 
way of coordinated and comprehensive vocational rehabilitation 
and independent living programs, our consumers become self-
supporting, taxpaying citizens who live independently in their 
communities.
    The $2.6 billion request for the rehabilitation account, 
which is in excess of $54 million over the 1998 level, will 
enhance efforts to meet the Department's strategic plan goal of 
ensuring access to postsecondary education and lifelong 
learning by assisting individuals with disabilities in 
acquiring or strengthening their skills and improving their 
earning power.
    For the Vocational Rehabilitation State Grants program, the 
Administration requests a $57.5 million or 2.6 percent, 
increase over the 1998 level, which includes the statutory 
cost-of-living adjustment. It also includes $5.9 million to 
support the training of State agency personnel previously 
funded under the Training program.
    I am very proud of the fact that each year the Vocational 
Rehabilitation program successfully rehabilitates over 200,000 
individuals with disabilities, about 78 percent of whom have 
significant disabilities. However, we would all like to 
increase that success rate. We are all too painfully aware that 
approximately 67 percent of people with disabilities are still 
unemployed.
    If we look at the most recent 1996 data, 87 percent of 
people who had a successful employment outcome were employed in 
the competitive labor market or were self-employed; 86 percent 
of these people earned at or above minimum wage, and 71 percent 
reported that their own income was their primary source of 
support as opposed to their family or public and private 
assistance and public entitlement program.
    We can all appreciate just by looking at these success 
rates how important it is to fund vocational rehabilitation 
services, which can be the bridge to independent, productive 
lives.
    Under Special Demonstration projects, we are requesting 
$18.9 million in fiscal year 1999, which includes funding for a 
major employment initiative that begins this year under the 
Program Improvement authority. Awards will be made for model 
systems-change projects that will identify and reduce systemic 
barriers to the employment of individuals with disabilities 
participating in public support programs. These projects are 
part of a larger, very exciting Administration effort launched 
under a recently signed Executive Order promoting a coordinated 
and aggressive national endeavor to decrease the dismal 
unemployment rate of adults with disabilities.

      national institute on disability and rehabilitation research

    Turning now to our research program, we are requesting $81 
million for NIDRR, the National Institute on Disability and 
Rehabilitation Research. This represents a $4.2 million 
increase over the 1998 appropriations. The Institute's focus on 
applied research means that we significantly improve the lives 
of people with disabilities at work, in the family, and in the 
community, with practical, meaningful results.
    The request for NIDRR would provide approximately $64 
million for continuation grants, including 51 research centers. 
These funds will facilitate collaborative research activities, 
interdisciplinary and longitudinal studies, and the transfer of 
technology into manufacturing and distribution, and research on 
emerging issues and new technological developments based on 
NIDRR's long-range planning efforts. Another $13 million would 
be used to support new activities, including 8 new research 
centers and 30 new field-initiated research projects.
    NIDRR also manages the Assistive Technology program, which 
helps States improve access of disabled individuals to 
assistive technology devices and services. Assistive technology 
has been identified by disability advocates, State vocational 
rehabilitation directors, and others as vital for successful 
employment outcomes. Our $30 million investment will enable the 
Department to support Assistive Technology programs in 43 
States and 4 outlying areas.
    Thank you, Mr. Chairman, and we are ready for your 
questions.
    [The information follows:]


[Pages 389 - 394--The official Committee record contains additional material here.]



                        GRANTS TO STATES REQUEST

    Mr. Porter. Thank you, Ms. Heumann.
    Let me ask regarding IDEA what your request was to OMB for 
the next fiscal year.
    Mr. Skelly. Mr. Chairman, I cannot even remember that. We 
asked for an increase, and we could provide that for the 
record. But I do not recall.
    [The information follows:]


[Page 396--The official Committee record contains additional material here.]



    Mr. Porter. You do not have any idea of what range it was 
in?
    Mr. Skelly. I do not recall. I think it was at least 
inflation plus an amount that would cover the increase in the 
number of children with disabilities.
    Mr. Porter. Well, all right. We will aim this criticism not 
at Ms. Heumann or the Department. We will aim it at the 
administration and their budget.
    The requirements imposed under IDEA are some of the most 
difficult and expensive to implement. It is one of the clearest 
examples of an unfunded or, in this case, underfunded mandate. 
We have been able to raise the funding substantially over the 
last few years, without, I might add, any help from the 
administration whatsoever.
    Today, I believe we are providing about 9 percent of the 
additional costs mandated on State and local educational 
agencies. The requirements, however, are so clear that the 
underlying statute requires that the Federal Government pay 40 
percent of the additional costs imposed under IDEA.
    The proposal by the administration is for, the way I 
calculate it, about a seven-tenths of 1 percent increase for 
the next fiscal year over the last fiscal year. Why does the 
administration continue to propose funding that falls so short 
of these goals? And why is this number so small in the budget?
    Ms. Heumann. Mr. Chairman, I think that the budget that we 
have submitted to the Congress is one which, in fact, is 
responsive to the need of assuring that the IDEA can 
effectively be implemented. As you know, there was a 64 percent 
increase in the IDEA over the last 2 years. We believe that is 
a substantial increase. It is a $1.5 billion increase, and we 
believe also that the reauthorization does not, in fact, 
require significant additional responsibilities for States.
    There were many provisions that were placed into the 
statute which had previously been required by regulations or 
previously were considered to be good practice. And we also 
believe that a number of the changes that we have made in the 
reauthorization, such as mediation, while resulting in an 
initial cost, will reduce costs overall because it will reduce 
due-process complaints.
    I also would like to address the issue of IDEA as an 
unfunded mandate. The Administration does not believe that IDEA 
is an unfunded mandate. We believe the Congress, in fact, has 
specifically stipulated that IDEA is not an unfunded mandate. 
IDEA is a civil rights piece of legislation, and I would be 
very glad to submit for the record some review that we have 
done of comments that were made by members on the House and 
Senate side when the IDEA was passed in 1975, reiterating the 
fact that it is not a commitment to achieve the 40 percent 
excess cost but, rather, a goal.

                       SPECIAL EDUCATION MANDATES

    Mr. Porter. Well, if it is not a commitment but, rather, a 
goal, nevertheless the costs were imposed by Federal law. So it 
either is an underfunded mandate or an unfunded mandate, one or 
the other.
    Ms. Heumann. If I could read a comment that was made by 
then-Congressman Grassley: ``So today we are trying to fill 
this void at the Federal level of Government. The Government in 
Washington, regardless of how good our intentions, will never 
fill this need. But it could have the end result of harming the 
cause because the situation of educating handicapped children 
is so demanding that the answer is not just to get the State or 
the Federal Government to fill the void, but the situation will 
only come when handicapped children get their fair share of 
money now being spent on all educational programs. To think 
that the Federal Government, with a gigantic national debt''--
that is 1975--``can really make up for decades of neglect is 
really wishful thinking.The handicapped child is not only 
entitled to help from the Federal Government, but is entitled to a 
larger share of the local and State budgetary pie. When local and State 
governments are drawing up their education budgets, the handicapped 
child should not get the crumbs from the table, but should be entitled 
to the same considerations as the chemistry student or the football 
player.''
    I think, Mr. Porter, that in addition to the submission 
that we have specifically proposed for the IDEA, the 
Administration's proposals--which focus on reduced class size 
and professional development as two of the items--can have a 
very significant impact in the area of special education. We 
believe, for example, that the focus on early identification 
and the focus on professionally trained teachers who can 
identify children who are having difficulty learning to read 
early on will reduce the number of children that need to be 
referred to special education. And a reduced class size will 
also help to assure that students who are being integrated in 
ever larger numbers are able to be appropriately served in 
those classes.

                   SPECIAL EDUCATION BUDGET POLITICS

    Mr. Porter. Well, Ms. Heumann, again, this is not a 
criticism of you or your stewardship. It is a criticism of the 
White House in a budget that anyone looking at it has to say is 
purely a political budget.
    The fact is that this is a very high priority in our 
country. The fact is we have imposed on the States and the LEAs 
a great deal of responsibility that has cost them huge amounts 
of money at the local level. And we have never given them the 
kind of support with Federal resources that they deserve. The 
President well knows that this is an important priority, and 
yet while he is ramping up suggested spending in all kinds of 
other educational accounts, he gives this account seven-tenths 
of 1 percent. Why? Because he knows it is a high priority with 
Congress and that we are going to do better than that by far, 
hopefully, and he does the same thing, I might add, until this 
year with biomedical research. In fact, he told me straight to 
my face, he said, ``Oh, I know you are going to take care of 
that.'' Well, that allows him to then propose a budget with 
huge spending that plays to all kinds of special interest 
groups, and everybody thinks he is wonderful, and at the same 
time we are taking the responsibility to do what he should do, 
and that is, provide some leadership and put some resources 
where they really are important.
    So I think the budget is a phony as it can be. It has been 
phony from the beginning. And I cannot tell you how 
disappointed I have been with the kind of leadership that this 
administration has provided throughout, in all kinds of areas, 
where the documents, the whole message is a political message 
and lacks any kind of real substance--and he knows it, I might 
add.
    Ms. Heumann. Mr. Chairman, I would like to take exception 
to some of your comments and say that I think the 
Administration, in fact, has provided strong leadership on 
issues in the area of IDEA. I think the work that we have done 
on the reauthorization really was a robust review. I think it 
really was the Administration that led on the work with the 
reauthorization--focused on improving results for disabled 
children, which I think previously had not been done in an 
appropriate way. The approach that we have been taking has not 
been just looking at an individual account. I think we have 
been very much looking at how to assure that issues affecting 
disabled children in the case of education are really addressed 
across components within the Department. So I think one budget 
line item standing independently is not the only way to look at 
this.
    I do sincerely believe that other efforts that are being 
undertaken will benefit disabled children.
    Mr. Porter. Well, Ms. Heumann, again, I think you are doing 
a fine job. I think you are right on all the things you just 
said; they are important efforts. I am simply saying I think 
that the President's budget is not an honest or fair or real 
budget and does not deserve a great deal of attention from any 
of us, in any particular, I might add.

                            PRESCHOOL GRANTS

    In your budget justification you indicate that the 
Department believes that the Preschool Grants program helps 
reduce the number of children needing special education or the 
extent of children needed when they enter school and helps to 
ensure that young children with disabilities enter school ready 
to learn.
    Yet, a table in the justification indicates the funding 
level on a per pupil basis is the lowest since 1987, when the 
current statutory framework was enacted. This administration 
speaks often of investments, yet, this investment is being cut 
by the administration. What is the policy justification for 
this reduction in per pupil expenditure?
    Ms. Heumann. The 3-through-5 program receives funding both 
through Part B section 619 and through Part B section 611. 
Again, my response is that the $1.5 billion increase, the 64 
percent increase over the last 2 years, we believe will help to 
assure that children of this age range are receiving 
appropriate services.

                    GRANTS FOR INFANTS AND FAMILIES

    And, if you will note, and I am sure you know this, we have 
put our focus on the youngest of children, the 0-through-2 
population, where we have a $20 million increase, which is a 
5.7 percent increase for that population.
    We focused our attention on those children because they are 
the youngest, because this program is unique for this 
population, and because we believe it is critically important 
that, through coordinated services, which is what Part H and 
now Part C, is supposed to be focusing on, we can assure that 
families and children can be identified early and provided 
appropriate services to allow those children to be more 
successful.

                           BUDGET PRIORITIES

    Mr. Porter. Well, this is what we are saying, why take a 
program that has a direct impact on achievement that we think 
is very important and cut the investment in that area while 
bussing up programs like Goals 2000 and national testing that 
we think do not do much at all for students?
    So, this is not a question for you except to the extent 
that you are a representative of the administration but we 
simply think that the budget does not reflect what the real 
priorities are or ought to be for our country.
    I notice in your justification--I want to skip this 
question for a moment.

                       CLIENT ASSISTANCE PROGRAM

    As best as I can tell, we have been funding the client 
assistance program since at least 1983, for about 15 years. In 
discussing the performance measures for this program, your 
budget justification indicates the Department has very little 
information on the performance of this program.
    Honesty counts and I am thankful for the frankness of your 
admission. However, in your 1993 biennial evaluation report, 
issued by Secretary Riley, you state that the Rehabilitation 
Services Administration has developed uniformprogram monitoring 
instruments for use by RSA in evaluating performance and activity of 
the Client Assistance Program designated agencies.
    This sounds like a pretty comprehensive data collection 
effort publicly discussed in 1993. What happened to this data 
and why does it not provide at least some of the performance 
data required by the Results Act? Why was this reference 
dropped in the 1995 version of the report?
    Ms. Heumann. Mr. Chairman, I am going to have Commissioner 
Schroeder respond to that.
    Mr. Schroeder. Thank you, Mr. Chairman.
    The Client Assistance program CAP as you rightfully point 
out has been in existence now for 15 or more years. We do 
collect a good deal of data on the number of complaints and 
some of the particular activities in which the CAP programs are 
engaged. Translating those, however, beyond just a statistical 
or mathematical tabulation of activities and turning them into 
a truly quality measure of program success has been the 
difficulty. That is the area in which we are striving for 
additional data collection so that we can establish baseline 
information really on the effectiveness of those services, not 
just on the number of clients who access the CAP program for 
individual advocacy.
    Mr. Porter. And, from the data available, do you think you 
are going to be able to establish the guidelines?
    Mr. Schroeder. Mr. Chairman, yes, we do. And, in fact, we 
are undertaking a preliminary evaluation of CAP programs this 
year to be followed next year by a more comprehensive 
evaluation. But it is our full intent to establish measurable 
performance goals for this and all of our programs.

                           preschool children

    Mr. Porter. I notice in your justification that you have 
several objectives relating to preschool children receiving 
appropriate services, ensuring their participation in 
accountability programs and assuring they are educated in the 
least restrictive environment. There are also measures related 
to professional development.
    It seems to me the single most important measure, if not 
the only measure, is whether the children in the program are 
academically and socially better off for having been in it. Why 
do you not have as your primary objective that children reach a 
certain academic level or are prepared to enter elementary 
school or some other measurement of academic achievement along 
with a clear measure of how this data will be collected?
    Ms. Heumann. I think, Mr. Chairman, it certainly has been 
our intent, and I think the reauthorization certainly focused 
on that. One of our major premises in the reauthorization was 
the importance of early identification of children, and helping 
to assure that those children were prepared for school. I 
believe that, in the goals and indicators that we have 
established for IDEA, while not stipulating the levels of 
achievement, we certainly have been aiming towards allowing 
children to achieve goals comparable to their non disabled 
peers.
    Dr. Hehir. Yes. Mr. Chairman, our GPRA indicators cover 
students from ages 3-to-21. Assistant Secretary Heumann 
mentioned, before, the reauthorization of IDEA. Under the 
reauthorization, States must establish performance goals for 
their special education programs. This has not been a previous 
requirement.
    At a minimum, those performance goals must look at how well 
children with disabilities perform in the assessments that 
States provide on both academic readiness as well as academic 
performance for children State-wide.
    In the past, students with disabilities have largely been 
excluded from those assessment accountability systems. They 
must now be included. We do not have--and again this goes to 
the issue of GPRA--we do not have good baseline data on that 
information now, but we certainly hope to have that as States 
are now required to include those kids in their assessment 
systems for 3-to-21 year old students.

                    grants for infants and families

    Mr. Porter. Tell me if your answer covers this as well 
then. Your measures for technical assistance in the infant and 
toddlers program also focuses too much on inputs. The basic 
measure, in my view, is whether the technical assistance is 
used by anyone, whether the information is integrated into a 
program and, when included, whether it improves programmatic 
performance.
    Why do you not have these kinds of measures included in 
your technical assistance performance measures and what kind of 
measures along this line to you feel might be appropriate?
    Dr. Hehir. You are right, Mr. Chairman, in terms of how we 
should be viewing technical assistance. I think that is implied 
in our measures here. But, again, the issue of performance 
levels and baseline data for children with disabilities is 
something that we do not presently, have but we expect to have 
within a couple of years.

                      parent and client assistance

    Mr. Porter. All right. Secretary Heumann, what, in your 
view, are the roles of Parent Information Centers, Protection 
and Advocacy programs, Client Assistant programs, Equity 
Assistance Centers and the Office of Civil Rights in protecting 
the rights of disabled children and adults?
    What formal mechanisms exist to assure that information 
given by one of these programs is consistent with information 
given or legal requirements imposed by the other offices?
    Ms. Heumann. I cannot speak specifically for the Office of 
Civil Rights or the equity program, which I believe are 
administered through one of the other offices in the 
Department, but I can speak for the programs that we have 
specific responsibility for--the Parent Training programs, the 
Client Assistance projects, and Protection and Advocacy. While 
Protection and Advocacy also is administered out of the 
Administration on Developmental Disabilities over at HHS, we 
have a small part of that program through the Protection and 
Advocacy of Individual Rights (PAIR) project. But we work very 
collaboratively, for example, with the Parent Training 
programs.
    I can use as an example the work that we have been doing 
with the reauthorization of the IDEA. We have had 
representatives from the Parent Training programs come to 
Washington to be specifically trained on the IDEA and as 
materials are being developed by the Parent Training and 
Information (PTIs) projects and other programs, we have been 
reviewing materials that they, in fact, have been utilizing. We 
work with these programs on a regular basis to assure that they 
are getting adequate information.
    Their primary responsibility is to assist particular 
constituencies--in the case of the PTIs, parents who have 
children with disabilities, and in the case of the Client 
Assistance projects, individuals who have complaints against 
the State rehabilitation agencies. But these types of programs, 
I think, have been very important because they have been 
providing vital services and technical assistance to assure 
that otherwise unmet needs are more effectively addressed.

                  office of civil rights coordination

    Mr. Porter. We want to know what kind of coordination you 
have with the Office of Civil Rights, for example, because they 
apparently handle a great deal of disability matters.
    Ms. Heumann. We work with the Office of Civil Rights very 
carefully. Our monitoring office, particularly the Office of 
Special Education where they get a substantial number of 
complaints under section 504 of the Rehabilitation Act, meets 
regularly with their staff. When we go in to monitor States we, 
in fact, look at the data that OCR has been gathering. We have 
been developing a close relationship with OCR, at least in the 
4 years that I have been at the Department.

                           casey martin case

    Mr. Porter. What input, if any, did you have in the 
reference to the Casey Martin case?
    Was there anything that----
    Ms. Heumann. Aside from the fact that I learned more about 
golf----
    [Laughter.]
    Mr. Porter. Yes, but I mean did they have any contact with 
the Department or ask you for any information that they might 
have used?
    Ms. Heumann. They did not ask us directly for any 
information, but we were aware of other members on the Hill and 
their staffs that were working on this, and organizations that 
were working on this, and we certainly would have been 
available to provide them with any information.
    Mr. Porter. Like Senator Harkin or others that have shown a 
direct interest, obviously, from the very beginning in the ADA.
    Ms. Heumann. Exactly, yes.

                 special education national activities

    Mr. Porter. All right. As you know the recent 
reauthorization of IDEA consolidated a number of small 
discretionary programs into 4 larger programs. As you phase out 
the continuation grants under the former statutory framework, 
how are you administering these programs to assure that you 
have 4 integrated programs rather than simply an aggregation of 
smaller programs funded under 4 appropriations headings?
    Ms. Heumann. Actually there are 6 and I will have Tom 
answer that.
    Mr. Porter. Six?
    Ms. Heumann. Yes.
    Dr. Hehir. Mr. Chairman, one of the things we have done in 
the context of GPRA is we have basically looked at how these 
discretionary programs support the implementation of the 
formula grant programs. So, for instance, in the area of 
teacher preparation, which is one of our grant programs, one of 
the things that we think is critical about the teacher 
preparation programs throughout the country is they integrate 
within their teacher preparation programs what we know about 
reading research.
    So we established this year, for instance, a center that is 
at the University of Kansas that is looking at ways in which to 
integrate the best knowledge that we have in research both at 
Education and at NIH in teacher preparation programs. Because 
these programs do not exist in a vacuum, they need to be much 
more integrated than they have in the past.
    And, so we really view GPRA in the way in which we develop 
performance indicators as a way to drive our priority 
development as well as our implementation activities with the 
Act.
    We have also, within the Office of Special Education 
programs, placed most of our technical assistance efforts more 
closely with our monitoring of the States and in implementation 
by the States. And in making sure that those technical 
assistance efforts are-- 
when we go out to monitor the program--not looking just at 
crossing ``T's'' and dotting ``I's'' We are looking at the 
degree to which the program is integrating, for instance, the 
best information we have on research and innovations in 
technology, for instance.
    Mr. Porter. Thank you.

                special education personnel perparation

    Ms. Heumann, you indicate in the justification for your 
request for Personnel Preparation that the IDEA amendments in 
this request, which I note is frozen, reflect a growing 
appreciation of the complexity of the causes of the shortage 
and the need to address shortages through a variety of 
coordinated strategies. Can you discuss in detail the causes 
you see for the shortage, the coordinated strategies needed and 
why you feel that additional funding is not needed for this 
program?
    Ms. Heumann. Let me first start off by saying that as you 
know we have a $10 million increase in the State Improvement 
grants and 75 percent of the dollars for the State Improvement 
grants actually goes into professional development. So, in 
fact, we are addressing the issues of professional development 
through the State Improvement grants.
    Do you want to talk about that?
    Dr. Hehir. There are a number of factors in the shortage 
and again, our strategies here have several dimensions.
    One is recognizing that in order to address this issue 
there have to be stronger State and Federal partnerships--that 
the responsibility to staff classrooms is primarily a State one 
but that the Federal Government has an increased role with IDEA 
of assisting in that process.
    One, as Assistant Secretary Heumann mentioned, is the State 
Improvement program, which is a new program that we are just 
starting this year under the reauthorization of IDEA. And, 
again, in that program, 75 percent of that money under the 
statute must be used for personnel preparation activities.
    States vary tremendously in the degree to which they have 
shortages. Some of those shortages are, for instance, created 
by restrictive policies at the State level in relationship to 
the ability of certified people to move from one State to 
another.
    I worked in Illinois, as you know, in Chicago, and we had 
tremendous barriers in hiring people from Michigan and Indiana 
and Iowa and Wisconsin to work in the Chicago public schools 
because virtually all people had to get recertified in 
Illinois.
    And those are things that we hope States will start 
addressing in terms of things like reciprocity agreements.

                targeting personnel preparation funding

    Mr. Porter. Can I ask, if $7.5 million of the $10 million 
increase goes into personnel preparation to the States.
    Dr. Hehir. That is correct.
    Mr. Porter. And did you not just say that the States have 
very great differences in their need for personnel preparation, 
for example?
    Why would you not put this $7.5 million into the personnel 
preparation account and have the Federal Government direct itto 
where it is mostly needed?
    Ms. Heumann. I think there are two separate issues here.
    Mr. Porter. Yes. I do not quite understand why, what are 
the differences between spending the money one way and spending 
it another way?
    Dr. Hehir. There are several of them. One is that we have 
concentrated our priorities at the Federal level to where the 
shortages have been the greatest and where we believe that 
there is an enhanced Federal role.
    Number one is in the area of low-incidence disabilities--
teachers of the blind, teachers of the deaf, teachers of kids 
with multiple disabilities. In most States except the largest 
States there is not sufficient demand at the State level to 
have programs to train these teachers.
    So we have encouraged through our priority development and 
through the allocation of resources the development of regional 
programs to serve regions of the country to promote the 
development of a sufficient supply of teachers of low-incidence 
disabled students.
    In what is called the high-incidence disability area, we 
have focused our priorities on where we know the shortages are 
the greatest. Those tend to be in rural areas and in urban 
areas. There are many areas of the country where there are not 
shortages, where there are plenty of applications for 
vacancies. And, again, we do not see that the Federal role is 
as great there as where those shortages exist.
    In the State Improvement program, even though some States 
vary in terms of the number of shortages they have of personnel 
to teach kids with disabilities, virtually every State has 
identified a need to also work in the area of in-service 
training with the teachers that they have now--particularly 
with general education teachers--on being able to better serve 
kids with disabilities. And States will be able to use the 
money for that purpose.
    Mr. Porter. Thank you very much.
    All right, those were the easy questions. Now, Mr. Dickey?
    Mr. Dickey. I have one.
    Thank you, Mr. Chairman.

                 vocational rehabilitation state grants

    This has to do with Special Education and Rehabilitative 
Services and I do not really know who I should direct this to.
    Ms. Heumann. Here I am.
    Mr. Dickey. All right, there you are, You are Ms. Heumann?
    Ms. Heumann. Yes.
    Mr. Dickey. I have visited our State rehabilitation center 
in Hot Springs, Arkansas, on several occasions and am 
thoroughly impressed with the work that Bobby Simpson is doing 
there with their efforts to get the disabled citizens of 
Arkansas into good stable jobs.
    I am wondering if the State rehabilitation agencies can 
utilize more Section 110 monies to rehabilitate persons with 
disabilities into employment?
    Ms. Heumann. I think, Mr. Dickey, that the budget that we 
have submitted provides increased funding for the 
Rehabilitation Services program and will allow the State of 
Arkansas to be able to provide some additional services. But 
let me say that our Office, under the leadership of 
Commissioner Schroeder, who is the Commissioner for RSA--there 
he is down there--has been working very closely with the State 
agencies to help the States look at how they have been 
providing services to enable them to streamline the way that 
they have been providing services so that they can maximize the 
dollars that they currently have.
    We have been working in a number of other areas to help 
improve employment outcomes for disabled individuals. One of 
those is the new Executive Order that the President signed a 
couple of weeks ago which is going to be establishing a task 
force pulling together 8 agencies from across the Federal 
Government to look at ways that we can be working more 
aggressively to help support improved employment for disabled 
individuals.
    I think all of that together will help the State of 
Arkansas provide better services.
    Mr. Dickey. I know how the bureaucracy works. If you want 
me to come get the money and take it down there, I will do it. 
[Laughter.]
    I am going to submit the rest of my questions for the 
record.
    Thank you very much.

                            closing remarks

    Mr. Porter. Thank you, Mr. Dickey.
    Ms. Heumann. Thank you.
    Mr. Porter. Ms. Heumann, you have answered all of our 
questions very well. And you have listened to our diatribe 
about the President's budget and we appreciate that and we 
thank you for the excellent job that you are doing.
    Ms. Heumann. Thank you.
    I appreciate it.
    Mr. Porter. Thank you for being here today.
    The subcommittee will stand in recess until 2 p.m.
    [The following questions were submitted to be answered for 
the record:]


[Pages 407 - 435--The official Committee record contains additional material here.]



                                           Tuesday, March 31, 1998.

           VOCATIONAL AND ADULT EDUCATION AND SCHOOL-TO-WORK

                               WITNESSES

PATRICIA W. McNEIL, ASSISTANT SECRETARY FOR VOCATIONAL AND ADULT 
    EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
THOMAS M. CORWIN, DIRECTOR, DIVISION OF ELEMENTARY, SECONDARY, AND 
    VOCATIONAL ANALYSIS DIVISION, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We continue our hearings on the fiscal year 1999 budget for 
the Department of Education, and we are pleased to welcome 
Patricia McNeil, the Assistant Secretary for Vocational and 
Adult Education, along with Mr. Corwin.
    Mr. Corwin. Good morning.

                          results act measures

    Mr. Porter. Ms. McNeil, we want to begin. The staff has 
informed me that you deserve congratulations for some of your 
Results Act measures. For Adult Education State Grants, you win 
the Oscar, they tell me.
    Ms. McNeil. Thank you.
    Mr. Porter. You are one of the only programs to provide 
both a baseline and a specific numerical goal for your 
activities. For example, you indicate that by the year 2000, 40 
percent of adults enrolled in secondary-level programs will 
earn a diploma or GED. You also indicate that currently 32 
percent achieve this goal. These are exactly the kinds of 
standards we expected from each program in the bill and in the 
Department of Education. They are measurable, they deal 
directly with student achievement, and they set a future goal 
that we can hold you and them accountable for.
    The subcommittee takes the Results Act obviously very 
seriously, and in many cases, the Department of Education has 
been unable to meet the kind of measurable standards we expect. 
In your case, however, it is important to highlight a very 
credible effort and to congratulate you on it.
    Now, if you would proceed with your statement, then we will 
have questions.
    Ms. McNeil. Thank you very much. I think I should quit 
while I am ahead. [Laughter.]

                           Opening Statement

    Mr. Chairman, thank you so much for the opportunity to 
discuss our 1999 budget request for Vocational Education, Adult 
Education, and School-to-Work. You have my written statement, 
which I would ask to be entered into the record in its 
entirety. And I would like to just briefly summarize it.
    In my remarks, I want to highlight three issues: how the 
grants programs we administer help young people and adults meet 
the challenges of a high-tech society; what we are doing to 
build systems of accountability for results; and how we use 
national activity resources to achieve our Government 
Performance and Results Act objectives and provide national 
leadership.
    Today, all of our education institutions face critical 
challenges. At every level, schools and adult education 
programs are being asked to raise academic standards and impart 
a new set of technical and information skills. They must now 
strive to ensure that every student meets these standards. 
International comparisons of skill levels between our country 
and other countries, such as the Third International Math and 
Science Study of our youth math and science skills, and the 
OECD study of adult literacy levels, all tell us that we are 
facing major challenges to keep our international 
competitiveness.
    School-to-work, vocational education, and adult education 
are three components of the solution. School-to-work stresses 
academic achievement, preparation for college, and exposure to 
a wide range of career options. More than 1 million students 
and 200,000 employers are participating in school-to-work 
activities as of the end of 1996, and we know that number has 
increased.

                             school-to-work

    Schools that have adopted school-to-work principles have 
increased attendance, reduced dropout rates, and increased 
college going among students. The request for school-to-work, 
including funds requested by the Department of Labor, totals 
$250 million. This is a decrease from the 1998 level, but it 
reflects the planned phaseout originally envisioned by the 
school-to-work legislation.

                          vocational education

    For vocational education at the high school level, a 
combination of skills is important preparation for both college 
and a career. From agriculture to business, to emerging 
information technology careers, vocational education in high 
schools is becoming a strategy for the acquisition of both 
strong academic skills and computer and other technical skills. 
These skills are needed both for entry into post-secondary 
professional and technical degree programs as well as for entry 
into the workforce.
    Colleges and technical institutes serve both recent high 
school graduates and college graduates returning to get some 
technical skills and adults trying to leave welfare. My 
daughter actually has gone to community college. She is now in 
graduate school, but she is taking a few technical courses at 
community college.
    Community colleges and technical institutes are a primary 
source of technical education for a high-tech workplace. 
Vocational Education State Grants help States, school 
districts, and colleges retrain teachers, acquire new 
technology, and introduce new instructional practice. Tech-Prep 
has stimulated employer involvement, increased math and science 
content of technical classes, and forged stronger relationships 
between secondary and post-secondary institutions. The request 
for vocational education and Tech-Prep is $1.015 million.

                            adult education

    The Adult Education Act and the adult education providers 
funded by our grants, and, thankfully, supplemented by 
volunteer staff and volunteer organizations, ensure that adults 
have the opportunity to acquire basic skills they need to make 
the transition to work and higher education. They also give 
parents the education skills to be more involved in their 
children's education. Addressing the needs of our limited 
English proficient adults is an increasingly important 
component of adult education. Therefore, our request includes 
funds for new model English as a second language programs that 
will serve an additional 40,000 students and demonstrate what 
ESL instruction methods are most effective. Our request for 
adult education is $394 million.

                 government performance and results act

    Now, you said you take GPRA, the Government Performance and 
Results Act, seriously. We have, too, and we have set program 
goals in four main areas in all three of our investment areas: 
one around improving student achievement and outcomes; the 
second, improving program quality and accountability; the 
third, in building partnerships for school improvement and 
program improvement; and, fourth, making our own management 
more effective and efficient.
    We are working very closely with the State directors of 
vocational education, school-to-work, and adult education to 
establish uniform performance measures with common definitions. 
As you noted, we have established baseline information on some 
of our performance indicators, and we intend to use our 
national activities resources in all three programs--to 
continue to collect information and set baseline data for all 
of our programs, and to invest in technical assistance to help 
achieve our GPRA results.
    These new investments that we are making in research, data 
development, and assistance to States to implement GPRA are 
some of the most important uses of our national activities 
funds. Let me just give you a couple of other examples of 
national program investment.

                     national programs investments

    We are studying a group of high schools to learn how 
vocational and academic instruction is changing in order to 
ensure all students are prepared for post-secondary education 
and our high-tech society. In fact, two of those schools are 
located in Chicago.
    These schools have set challenging academic standards, 
increased the academic rigor of their vocational courses, and 
used workplace and community experiences to enhance classroom 
learning.
    We are also investing resources in the use of technology to 
improve access to and the quality of adult education. We have 
just launched an effort to identify innovative ways to use 
technology for distance learning, classroom instruction, and 
assessment in adult education.
    National program funds also support research in technical 
assistance, including the National Center for Research and 
Vocational Education and the National Institute for Literacy, 
whose work includes an Internet-based information network and 
an awareness campaign to help the public understand the 
dimensions of the literacy challenge in the U.S.
    Mr. Chairman, if we are to prepare our citizens for our 
changing economy, we need a major transformation in schools in 
adult education programs. More education needs to take place 
outside of formal classrooms. We have to make better use of 
technology, and we must be innovative. The Federal Government 
has long been a catalyst in providing resources to spur such 
reforms, and we believe that the investments that we are 
proposing will continue those efforts.
    My colleagues and I will be happy to respond to any 
questions that you may have.
    [The information follows:]


[Pages 441 - 446--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Ms. McNeil.

           government performance and results act indicators

    Let me ask about the four measurable standards first. Do 
these simply represent an extension, the goals that you set, do 
they simply represent an extension of what your data shows for 
the past? Or are they set with a goal to doing better than the 
past has shown?
    Ms. McNeil. Well, they are absolutely set for doing better 
than in the past, and they are also set to do, I think, 
something different than the programs have traditionally done 
in the past. The Administration has proposed new legislation 
for vocational and adult education, and a version of that 
legislation has passed the House and is now pending in the 
Senate. This bill stresses different outcomes for students. It 
really recognizes the changes that are taking place in the 
economy and in society, and so recognizes that the purposes of 
those programs have to change and the skill levels that 
students have to have are going to change. So we have 
incorporated those outcomes into our performance systems.
    Most definitely, particularly in terms of academic 
achievement and basic skills achievement in adult education, as 
well as the kinds of technical skills that students need, we 
have set higher standards than we have had before.
    Mr. Porter. Why were you able to craft such effective goals 
when the rest of the Department seems unable to produce them?
    Ms. McNeil. Well, I was not involved in the setting of 
standards for the rest of the Department. I think that we have 
all been trying really hard. This is not easy work to be able 
to measure the outcomes from our programs. We are far away from 
the students that we want to see be successful in our programs. 
And so trying to figure out how to set measurable standards, 
get that baseline data, and then conduct the activities from a 
national level and through our State grant programs to ensure 
that the results are achieved, is really complex work.
    I think we have made great strides at the Department. We 
may be a little farther ahead than others, but basically I know 
we are all working hard at it.
    Mr. Porter. Well, let me ask Mr. Skelly and Mr. Corwin. How 
come Ms. McNeil is doing so well and the rest of the Department 
does not seem to be doing anywhere near as well?
    Mr. Skelly. Vocational and adult education has done a good 
job, but I would take issue with your statement, Mr. Chairman. 
The Department does have extensive numerical quantitative 
indicators for dozens of its programs. They are included in the 
documents we have prepared for the Government Performance and 
Results Act, and we are quite proud of what we have done.
    I guess it was Congress--Congressman Armey, and the General 
Accounting Office who have looked at our document and have 
informed us that we have done exceptionally well. In fact, we 
were rated second highest in the entire Government. We have, 
again, numerous quantitative and numerical indicators 
throughout the document. We are quite proud of what we have 
done.
    Mr. Porter. I think you need to talk to my staff because 
they do not think you are doing quite so well.
    Mr. Corwin. If I could add a little bit more, you will 
notice in some of the programs that there is not a quantitative 
goal because we do not have the baseline yet. And it is very 
hard to say you are going to reach 300,000 people if you do not 
know how many you are getting to now.
    What we have done, though, is made a plan for obtaining the 
baseline data, and we have put that in the document. It is 
going to be available in one year or in two years, maybe, at 
the most, so that we can come back to you in another year and 
say this is the quantitative goal. But, frankly, it would have 
been unrealistic to do that without the baseline.
    Mr. Porter. Obviously. All right.

          national center for research in vocational education

    Mr. Porter. Ms. McNeil, I note that in your budget you are 
proposing to spend $4.5 million for the National Center for 
Research in Vocational Education. I notice that in other areas 
single grantees have multiple grants from the Department. The 
regional laboratories may also be the grantees for 
comprehensive regional assistance centers, equity assistance 
centers, and so on. How many of the grants for the National 
Center for Research in Vocational Education are going to 
grantees that also administer other education center grants?
    Ms. McNeil. I do not know the answer to that question. It 
is a good one, and we will check on that. We have tried to do a 
couple of things this past year to make sure that there is not 
duplication across centers.
    We held a conference of all of our technical assistance 
providers last fall to bring them together to focus on the 
objectives of the Department, including our GPRA objectives, 
and to get them to have a sense of what each center and lab is 
specializing in. Now, our center on vocational education does 
specialize in improvements in technical education. But we also 
know we can learn from some of the work that the other centers 
are doing. There is the center at Johns Hopkins, the lab at 
Johns Hopkins that works on at-risk youth. We can learn a lot 
from the work that they are doing, so we want to be informed 
about what they are doing so we do not duplicate that work.
    It is possible that some of our grantees may get funding 
from one or more centers, but that would be to complement the 
research that they are doing. I have been very concerned, ever 
since I came to the Department, about trying to avoid the level 
of duplication of investments both in our national activities 
money and in our center money. And so we are doing an awful lot 
to try to make sure that that does not happen and that the 
whole investment contributes to school improvement.
    Mr. Porter. Could you expand on that for the record?
    Ms. McNeil. Certainly.
    [The information follows:]
          National Center for Research in Vocational Education
    Although the Perkins Act allows the Department to fund one or more 
National Centers for Vocational Education (NCRVE), the Department is 
currently funding only one Center--at the University of California at 
Berkeley. The Department does not have any other research and 
development centers at Berkeley other than NCRVE.

                       mission of school-to-work

    Mr. Porter. The subcommittee has received testimony from 
Lynne Cheney, who is a well-respected scholar at the American 
Enterprise Institute. She expressed a strong opposition to 
school-to-work based on the fact that rather than focusing on 
vocational education students, it ``by law includes all 
students.'' She gave several anecdotal examples of students 
with high career aspirations being told to lower their goals 
based on the lowest grade of group grading and on trying to 
change student attitudes toward non-traditional jobs.
    Her two most telling arguments from my point of view were: 
first, employers are far less concerned with familiarity with a 
particular job than they are with a lack of students' basic 
skills; and school-to-work, by focusing so much attention on 
vocational measures, undermines the teaching of history, 
literature, and the liberal arts.
    Ms. McNeil, are we focusing too much on short-term current 
occupational needs and too little on the need for well-rounded 
educational programs that will give the students the tools to 
change careers three or four times during their working lives 
as experts tell us they are going to have to do? What is the 
Department doing to assure that the kinds of excesses Ms. 
Cheney and others have identified do not continue?
    Ms. McNeil. Well, first of all, I have known Lynne and Dick 
Cheney for about 20 years, and I was really surprised when I 
saw her article in the Wall Street Journal. I wrote her a 
personal letter just telling her that this certainly was not 
reflective of the experience that I have had with school-to-
work; that I see quite different things happening out in the 
States with regard to the School-to-Work Act.
    As I mentioned in my statement, I see it as really turning 
students on to learning, and not just technical skills learning 
but history and literature and math and science.
    When you give students a context for why things are 
important, when you give them a relevance for what they are 
doing in the classroom, it begins to excite them and open them 
up and let them see the possibilities, let them see that they 
can do something. And then it opens them up to a wide variety 
of interests. I mean, I have actually seen internships in 
history that have helped students really explore a wide variety 
of career opportunities if you have an interest in history.
    So, I would just say that my experience with school-to-work 
does not reflect what Lynne wrote about in that article.

                        goals of school-to-work

    In vocational education and in school-to-work, we are 
trying to stress three things: first, academic achievement--
that students who are in vocational education, all students, 
are prepared to meet the challenging academic standards set by 
States and by local communities; second, that they are all 
prepared for post-secondary education, because we know that at 
some point in their life students are probably going to have to 
go back to school in some way to get more skills, because the 
skills requirements are changing so rapidly; and, third, that 
students get a wide exposure to careers and a variety of 
careers and a variety of career experiences.

                      technical skills attainment

    In vocational education, we do want students to get some 
technical skills. It is important. If you are going to be an 
electrical engineer, you need to have a knowledge of 
electricity, and you can get that in physics, in a physics lab, 
and you can get that in an electronics lab in high school.
    If you are going to go to work for Bell South, you are 
going to need to have knowledge of electricity. That is an 
entry-level requirement for them.
    So we do stress some specific technical skills, but what we 
are trying to show students is that those skills can cut across 
a wide variety of jobs and that they need to be prepared for 
lifelong learning and also for being able to change jobs many 
times throughout their lifetime.
    We have got a project now where we are looking at how 
States are redoing their vocational education clusters, 
broadening them out so that students see the relationships 
between a whole variety of occupations.

                  lifelong learning and school-to-work

    Mr. Porter. Ms. McNeil, I think the emphasis on lifelong 
learning is terribly important because there is such a huge 
body of knowledge out there that did not exist in the past, and 
it is growing incrementally, and it is very difficult for 
people to know a lot, and they have to keep working at it.
    The reason that this argument that Lynne Cheney brought up 
resonated so much with me is that I grew up in a time when 
young people were expected to choose career paths before they 
knew what career paths even meant. And we narrowed our 
education so much that one of the great regrets of my life is 
that I spent a lot of time learning narrow things that I have 
never used and missing, I think, the broad skills of languages, 
philosophy, literature--the kinds of things that I think 
prepare you for much of life one way or the other, including 
whatever occupation you may choose.
    So let me ask you, did Lynne Cheney write back and say 
anything in response?
    Ms. McNeil. I have not heard from her yet, but I know I 
will.
    Mr. Porter. Well, I think it is important that we attempt 
to address all of this, and I think you are probably both 
thinking along the same lines, but you differ on what is out 
there and happening. And I think she raises a very serious 
concern, though, that I am sure you take very seriously as 
well.
    Ms. McNeil. I have five children, and I want my kids to 
have a broad exposure to lots of things in education. My 
children have chosen very different pathways, and so I 
understand that no parent wants their child to be narrowly 
trapped in one area that they cannot get out of.
    This is one reason why I think, that we have got to stress 
academics, we have got to stress preparation for post-secondary 
education, and we have got to give kids a broad exposure to the 
arts and literature and everything else in high school.
    I also think it is good for them to have an opportunity to 
explore careers because then they can see whether they are 
truly interested in that field. One of the great things is when 
a child says I wanted to be a doctor but when I went into the 
hospital I found out I could not stand the sight of blood. 
Well, fortunately, the parent did not spend $80,000 sending his 
child off to school only to discover that later on.
    So I think we can learn what we do not like as well as what 
we might like.

             coordination of vocational education research

    Mr. Porter. What research is being done in OERI related to 
vocational education? And how is the research in the two parts 
of the Department coordinated?
    Ms. McNeil. Well, we have been working closely with OERI on 
establishing baseline data for GPRA. They do a number of 
surveys on vocational education. They had a publication early 
in the decade on vocational education in the 1990s, and they 
are working on their late decade publication of the same name.
    We have been working very closely with them to make sure 
that we can use the statistics and the information that they 
develop, either for baselines or for giving us additional 
information about what we are doing in terms of achieving our 
GPRA objectives.
    Soon they will launch another national assessment of 
vocational education. We will work very closely with them on 
developing it. We have worked extremely closely with them on 
the International Adult Literacy Survey, the first one--and now 
the second one has just been released--and on the second 
edition of the National Adult Literacy Survey. They also fund 
an adult literacy center, and we have now coordinated our 
research agenda in our office with OERI's National Adult 
Literacy Center.
    So we use their research. We work with them to coordinate 
agendas, and we do not believe that we are duplicating work 
that they are doing. In fact, right now we are managing one of 
their Star Schools grants to put the GED on line.

                      tech-prep and school-to-work

    Mr. Porter. Your budget justification indicates thatTech-
Prep has laid the foundation for the development of school-to-work 
opportunity systems. How are localities integrating school-to-work 
programs with Tech-Prep? How will localities fund the current School-
to-Work activities as Federal funding ceases?
    Ms. McNeil. Those are two good questions.
    In many cases, where Tech-Prep was well established, it has 
many of the same elements of School-to-Work. It stresses 
academic standards. It stresses preparation for high-tech 
careers. But, particularly, it stresses that link between 
secondary course work and post-secondary course work. So it 
serves as a very strong foundation for school-to-work in many 
places.
    In terms of sustaining funding for school-to-work, this is 
sort of a fact of life that the first original eight States 
that got School-to-Work grants are now facing. They are in 
their last year of funding, and so as the Act anticipated, that 
funding will go away, and they will have to sustain that with 
other sources of funding.
    We are doing some resource mapping right now of States to 
see what resources they have available to sustain school-to-
work. Most of them intend to use Tech-Prep, Voc Ed, and some 
Title I money that is used at the secondary level. Our 
intention was to really have them use their own local and State 
resources differently, not add onto but use them differently. 
An important part of sustainability is maintaining those strong 
connections with employers, because employers both provide 
resources and offer the opportunities for young people to do 
internships.
    It takes effort, it takes strong partnerships to continue 
those kinds of investments.
    We are right now going to do a review of those first eight 
States whose grants are running out, to do an assessment of 
where they are, and where they may need some additional 
assistance in order to keep their school-to-work efforts going.
    Mr. Porter. Thank you, Ms. McNeil.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much, Mr. Chairman. And I want 
to apologize for coming late. As you know, we are called in 
different directions, but I do appreciate your appearing before 
us.
    I wanted to pursue the school-to-work question because I 
understand that the chairman referred to a statement made by 
Lynne Cheney. I have always been a strong advocate of the voc 
ed programs in the schools, but I am as disappointed, shall we 
say, as many of our colleagues, in that many of them just do 
not work. And I was very enthusiastic about the President's 
school-to-work initiative, and I am hoping that we can actually 
do both: we can make sure the youngsters do get the three R's, 
but some of them may just not be ready or may not choose to go 
on to college, and I think we have a responsibility to be sure 
they are trained for a vocation.
    And so I am going to watch this personally very closely 
because I think voc ed at its best could be very constructive 
and very important. But we have all seen the mediocrity in many 
of the programs.
    I appreciate the fact you are going to be doing a review 
and evaluating the School-to-Work program. Could you discuss 
with us some of the programs at the State and local level that 
you think show real promise? And what are the ingredients of 
those programs? What have we really learned in the last year 
about the school-to-work programs? And is there any evidence 
that they do improve the career prospects of the youngsters?
    Ms. McNeil. Well, first of all, Westchester County has a 
very strong school-to-work initiative, and I think one of the 
things that makes that so strong is the fact that they have 
established really good partnerships, really actively working 
partnerships between the business community, elected officials, 
colleges, the schools. They have parents involved. It is a 
community effort, and it is a community effort that is not just 
focused on instituting a program. It is really focused on 
changing the educational experience of students in school.
    I think the emphasis on strong academic skills is very 
important. We do our students a disservice if we do not place a 
strong emphasis on that, an emphasis on getting students out of 
school and into workplaces or community service experiences 
where they can really see the relevance of what they are doing 
in school. An emphasis on trying to make connections between 
math and science and between English and science or history and 
math is very important. They do lend relevance.
    Getting out of the classroom gives students motivation. 
Providing students with mentors gives them a lot of extra 
support to keep going through difficult times, sometimes, to 
help them with their homework, to help them with a whole array 
of things, including thinking about college, thinking about 
career choices after high school.
    So, to me, school-to-work--and I think it is really 
exemplified in Westchester--really gets us thinking about a 
different way of preparing our students for the future. 
Technical skills are important. Employability and life-coping 
skills are important. And academic skills are important. All of 
those things have to be present.
    We do not want to track students narrowly into careers. We 
want to open up career opportunities--in fact, opportunities 
for further education for all students. And I think school-to-
work has been critically important in helping us think 
differently about schools and helping us think differently 
about vocational education and what it should be in the future.

                    CAREER CHOICE AND SCHOOL-TO-WORK

    Mrs. Lowey. I know that you are just embarking upon the 
evaluation, but have you seen movement into certain careers 
that have been successful?
    Ms. McNeil. You are absolutely right. Most of the students 
that have started since--well, the School-to-Work Act was 
passed in 1994, so many of the students have now gone on to 
post-secondary education. I think when School-to-Work really 
started, the thinking of a lot of people was, okay, this will 
be sort of an alternative; this will be a pathway into the 
workplace after high school for students. But, indeed, one of 
the most interesting things that we have seen happen is that 
students now begin to understand that the level of skills 
required for work at least requires one or two years after high 
school of post-secondary education, so many more have gone on 
to school.
    Some students actually know in high school what they want 
to do. I was with two students last week who were national 
science winners out of a transportation academy that we have 
funded with our national activities monies in Los Angeles. The 
transportation academy focused on aerospace engineering, and 
one of the students was going to be a pilot. This is something 
that he had wanted to do since he was young, and so he was 
going on to college in engineering and hoping to become a 
pilot.
    The other student was in this same academy. She wanted to 
be a teacher. She went to the academy because of some of the 
things that the academies offer, which are small supportive 
learning environments and an emphasis on math, and access to 
computers, which many students in her school did not have. But 
she wanted to be a teacher.
    Do I consider that a failure? No. I think it is a success. 
I mean, she is getting the skills that she needs. She is not 
going to go into the career that the transportation academy 
broadly exposed her to, but that does not really matter in high 
school. What matters is that she has got a good foundation and 
she has learned some things about what she does and does not 
want to do.
    Mrs. Lowey. That is interesting. I await the evaluation, 
because if there is a transportation academy, I would wonder 
what percentage of the youngsters are actually moving into 
careers in that area.
    Ms. McNeil. Well, some will and some will not. And I think 
at the high school level, a real question we have to ask 
ourselves is how concerned are we when students graduate from 
high school, if they are going on to post-secondary education 
and they have some idea of what they want to pursue. Are we 
concerned that, because they went through a transportation 
academy, now they do not want to pursuesomething in 
transportation?
    My own daughter wanted to be an architect. She has wanted 
to do that her entire life. She took mechanical drafting in 
high school. She went to UVA. She spent two years in the 
undergraduate architecture school, and she said, hey, I do not 
want to spend my 4 years in the architecture school nights and 
weekends, so she switched to foreign affairs. And she graduated 
from UVA with a foreign affairs major.
    Mrs. Lowey. I went to the Bronx High School of Science, and 
I took calculus and advanced calculus and bacteriology and 
advanced bacteriology, and I went on to college, and I don't 
think I took another one of those courses again.
    Ms. McNeil. Well, you know, my daughter is now back in 
architecture. She is in graduate school in architecture, but 
she has been on this odyssey of really trying to find out what 
she wants to do, and the important thing is that she had the 
foundation skills to do a lot of things and to try a lot of 
things. And I think that is what we really want for students 
today in their high school years.
    If kids do not want to go on to post-secondary education 
right away, they ought to have some skills that they can take 
to the marketplace to get a job and actually advance with. But 
we also ought to give them a level of skills so they can go on 
to post-secondary education if they want to. And so I think 
that is what we are really trying to achieve today.

                      EXEMPLARY TECH-PREP PROGRAMS

    Mrs. Lowey. I do not know if I have other time, but if I 
do--okay, Mr. Chairman. I will ask a question about the Tech 
Prep program. The administration's budget request includes $106 
million for Tech Prep, which is a slight increase over the 
current level. In fact, in Yonkers, New York, we have a Tech 
Prep consortium, and it is actually working rather well.
    In a 1997 study, it was found that students who 
participated in the program had better attendance records and 
higher GPAs at their high school graduation than those who did 
not. Moreover, those who went on to college are performing 
better than their college peers who did not participate in Tech 
Prep, which is actually validating your point.
    We are very pleased with this program in Yonkers, and I 
just wondered whether there are other Tech Prep programs that 
are equally successful and whether these programs and the 
successes are being shared with other communities. Because what 
I have often found in Government is that you can have 
successful programs and then if you try and replicate them, you 
do not succeed.
    Ms. McNeil. Right.
    Mrs. Lowey. But we do not really share the successes, or in 
some situations, if the person running the program may be 
exceptional, that may develop a particular relationship with 
the youngsters, and it is very difficult to replicate that.
    Could you discuss the Tech Prep program?
    Ms. McNeil. Yes, we do have good examples of where Tech-
Prep has been very effective, and I think technology is great. 
Our goal is to get more and more of these examples on our 
Website, because I think that is one of the best ways of 
getting people to be able to access information about 
innovative practice without having to find the right person on 
the telephone or being on the right mailing list. So that is 
one of the things that we are really focusing on.
    Tech-Prep has taken two forms. One is to promote the 
development of very broad course work in high-tech areas that 
creates a pathway for students from secondary to post-
secondary. And the other form that it has taken is that schools 
have used Tech-Prep resources to improve the whole quality of 
education in the school. We have just completed an evaluation 
about a year ago of Tech-Prep, and I would be happy to share 
some of those results with you. We think it is an important 
education reform strategy.
    Right now we are working with a group of ten high schools 
across the country, which we call new American high schools. A 
couple of them have dropped the general track and now just have 
College Prep and Tech-Prep. The same academic standards are 
used across the two and an opportunity for students in College 
Prep to take trigonometry, for example, in an applied setting 
as opposed to in just a straight lecture setting.
    We are now studying what makes those programs effective. 
What is it about what is happening in those high schools? Does 
it go beyond personalities? And are there techniques and things 
that other schools can actually use? Schools do not have to 
take the whole model. But they can take the techniques and 
learn from them. How do they change their professional 
development? How do they change their guidance and counseling? 
How do they use time in schools? How do they organize schools 
differently? Do they group students in smaller class situations 
and keep them together throughout the entire time that they are 
in school?
    We are trying to get insights into whether there are 
certain practices that pay off in terms of improved student 
achievement that go beyond the personalities that you 
mentioned, and that go beyond a specific program model, because 
there is a lot of reluctance to take something from here and 
put it over here. People like to experiment and adapt things to 
their own situations.
    Mrs. Lowey. Thank you, Mr. Chairman. Thank you, Ms. McNeil.
    Mr. Porter. Thank you, Mrs. Lowey.
    Mrs. Northup.

                       EDUCATION FOR ALL STUDENTS

    Mrs. Northup. Mr. Chairman, I will tell you, the minute my 
buzzer goes off, I have to stop in mid-sentence and leave, so I 
hope you will bear with me. I am sort of trying to be in two 
places at once. But I did want to come back and ask some 
questions because I am very interested in this.
    Notwithstanding the chairman's questions and some of the 
perspectives that Mrs. Cheney shared with us, I am very 
concerned that everybody that puts together post-secondary 
programs and school-to-work programs are in the 125 IQ range, 
and think they understand what kids who are average or below-
average intelligence need. And I sort of think it would be nice 
if everyone sort of adopted a child that struggles very hard in 
school to find out what it is really like. It would be like 
putting me in music classes to sing for 12 solid years. I would 
probably get better at singing, but it would be agony every 
single step of the way.
    I feel that we do not do anything for those kids who 
valiantly work for 12 years to get through school, and in a 
sense come out able to go work at the mall or in a job that is 
very unexciting and very unchallenging, even though they are 
eager to work to their highest potential.
    You know, I have to say, while we talk about post-secondary 
and we do not use the word ``college'' anymore, when I look at 
the new programs that are funded by this Administration, almost 
all of them are dedicated to helping people who are able to 
reach for college and maybe financially struggle or who maybe 
are not reaching for college and ought to. But we are not 
creatively addressing the problems for those kids who are going 
to struggle.
    As I see State after State being encouraged to set higher 
graduation standards, it is like some people refuse to believe 
there are some children that are not going to pass Algebra II, 
unless the schools fake it, unless the schools water it down so 
much. And what they really need to know is how to balance a 
checkbook, how to read an insurance form, how to fill out 
applications. And I am very discouraged at the rate we are 
going in this country because we are talking about challenging 
kids that maybe have not been challenged enough, but we are 
failing to really address those students that are below 
average.
    I appreciate what you said about engaging them in the 
workplace earlier. You are right. If you had me in singing 
lessons all the time, at least going to see an opera might be a 
better introduction into music than trying to pull out of me a 
talent that simply does not exist. I think that to reassure 
these students that there is an important place for them in 
this world is just a job that we do monstrously, and I do not 
see the budgetin this direction addressing that in any way.

        vocational education and school-to-work for all students

    Ms. McNeil. I do not know if you remember, but you and I 
had a little bit of this conversation last year, because I have 
five kids, two of whom are adopted, and two kids who dropped 
out of school and did not finish high school, and really 
struggled hard. One of my daughters now is living in Newport 
News and she is married, and she is interested in cosmetology. 
And we sometimes make fun of cosmetology, but she is really 
interested in it and she wants to pursue it. And I want to 
encourage my kids to do whatever they want to do. So I 
understand what you are saying.
    There are a couple things I want to say. First of all, I 
think that one of the really exciting things I see in 
vocational education and in our school-to-work initiative is 
that some kids now understand how they can do some of this math 
and science that they did not think they could do before 
because it is presented to them in a different way. So I think 
we have to continue to think about new ways of instructing 
children, think about how they learn and what they are 
interested in learning, and try to play to those strengths 
rather than hammering home their weaknesses to them all the 
time.
    So I think that some of our new instructional practices are 
really helping students see that sometimes, though they thought 
they were stupid, they really can learn this stuff. It is just 
they could not learn it in the way they were being taught it 
before. So that is, I think, positive.
    We do stress post-secondary education. We do stress having 
the strong foundation skills, such as being able to read by the 
end of third grade. I do not think one of my daughters ever 
really got reading by the end of third grade. She certainly did 
not get a lot of math by the end of eighth grade. By that time, 
her teachers had given up on her in many cases. And so she was 
just sort of pushed on through. So I think those basic skills 
and the emphasis on them is very important.
    I think it is important to help students think about 
getting post-secondary training. My daughter, who dropped out 
of school, now has to get a GED before she can get into a 
school and get some additional training. And even if you are 
going into cosmetology today, you have to know a little bit 
about the science of it, the math of it. So she is going to 
need that kind of help.
    But having said that, there are plenty of students--I see 
them every day when I go visit high schools--who have no 
interest in going on to post-secondary, but they are getting 
very good preparation in some vocational courses for the future 
and to be able to go out and start earning when they leave high 
school.
    I do not see us as neglecting that group of students. I see 
us as trying to lay a good foundation, provide opportunities 
for all students who want to go on to post-secondary, provide 
kids with support to do better in school, and change the 
instruction in school in a way that helps more of them to be 
able to achieve the kinds of things that they are interested 
in.
    Mrs. Northup. Well, I agree that that is important. I think 
that anything you could do to help me sing better would be 
great. But the fact is that we are still trying to find a way 
for them to fit into our model. And all those things are 
important--to be able to write a letter, to be able to do those 
things--but I do not believe that this budget reflects--nor do 
we really understand what about a third to half--maybe a third 
to a fourth of our students, what school means to them. And the 
important thing is that they are productive, constructive 
members of our society, and that they believe they can have 
constructive lives the rest of their life. And I guess I do not 
think that in the majority of high schools today the bottom 
third or fourth of our kids, in terms of academic talent, 
believe that, nor do we structure a school that inspires and 
excites them for their unique place in our society.
    Ms. McNeil. Well, having been in a lot of high schools, I 
have to agree with you right now. There are kids that fall 
through the cracks. I think some of the innovative things that 
we are doing in vocational education and school-to-work are 
turning that around, not that everybody has to go on to get a 
doctorate, but that kids can have opportunities to do a wide 
variety of things and school can be interesting and challenging 
and a positive experience for them.
    That is what I see coming out of our school-to-work 
initiative and out of our vocational education program.
    Mrs. Northup. Well, part of it is a rethinking of some 
things. I do not know whether it is a difference in degree or 
what we do. But we keep putting pressure on more math classes, 
more foreign language classes. We have some really good models 
and some really good school-to-work programs, and some high 
schools that are magnet schools. But when no kid can graduate 
without having an increasing number--and I know I raised this 
with you last year--an increasing number of math credits and 
foreign language credits and everything, they end up not having 
any time to go spend in the vocational schools because they 
have to take two years to pass Algebra I.

            integrating vocational and academic course work

    Ms. McNeil. One thing we are trying to do in vocational 
education now is to integrate some of the academics into the 
vocational course work. I was in a classroom the other day 
where kids were fixing a VCR, which I thought was impressive 
since I cannot even program mine, but they were doing this. 
They are using physics, they are using trig, and they are using 
some calculus. They hardly even know it, but they knew it when 
they went back to math class. But it is put in a setting for 
them and presented to them in a way that it is part of 
something that they are interested in.
    So I think trying to integrate some of those academics into 
the technical course work does get at that issue of time to do 
things.
    One thing I would like to do is share with you information 
on some of these high schools that we have in our new American 
high schools initiative, because their whole focus is to not 
cream kids. Their whole focus is to help all students in those 
schools be successful, and they have done some really 
innovative things. I have visited a lot of them, and they have 
just average kids like my kids or your kids--well, I guess none 
of our kids are average, but basically they are doing some 
really remarkable things with kids, and the students love to 
come to school. Attendance goes up very quickly when they start 
doing things differently.
    These are the kinds of schools I would like to send my own 
children to. The students are excited about going there. And 
they are not elite schools. They are in rural areas, in inner 
cities, but they are doing something different for students 
that makes them feel valued and make them feel that they can be 
successful.

                     hispanic education initiative

    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mrs. Northup. You made it through 
the whole 10 minutes.
    Just a brief few additional questions, Ms. McNeil. Why does 
the Department propose a new $20 million adult education 
program for Hispanics? Over 40 percent of new entrants into 
adult education programs are seeking English as a second 
language services. Aren't Hispanics being adequately served 
under the Adult Education State Grant program? And if not, why 
not? What will this new program do that existing programs are 
not doing? And why can't we incorporate the elements of success 
into existing programs rather than creating new programs?
    Ms. McNeil. Well, that is a good question. Right now we are 
serving about 1.5 million adults in English as a second 
language programs. The 1990 census estimated that there were 
about 12 million adults for whom English was not their first 
language. And we actually estimate that by the year 2000 there 
may be as many as 17 million such adults in the country.
    So we touch a very small percentage of adults who need our 
services. In fact, in the States that have the highest 
concentrations of adults for whom English is not their first 
language, we have long waiting lines to get into our programs. 
So there is a demand out there that we have not been able to 
meet.
    There is a second issue around English as a second language 
programs for adults, and that is that, although there are good 
programs out there--and, as a matter of fact, we right now are 
funding a research project trying to examine what does make a 
good program--there is not a lot of research that has been done 
systematically that helps us understand how adults come to gain 
a second language. There has been a lot of research done on 
brain development, and we know that a lot of those language 
functions are developed very early. So when you get to be an 
adult, how do you learn a second language? What is the most 
efficient and effective way? We cannot keep adults in classes 
for 2, 3, and 4 years. They have family responsibilities. They 
have jobs.
    We have got to figure out how to do this more effectively 
and efficiently, and we do not actually know a lot about how to 
do that.
    We think by funding a new demonstration program which has 
an evaluation component, which focuses on 10 or 15 sites, that 
we can study how they are doing this. We can experiment with a 
variety of new techniques. We can use technology, which we 
think is a very promising practice both to increase access to 
services and effectiveness of services, and we can learn more 
that will make our major investment more fulfilling.
    That is what we are trying to do here. Before we ever 
propose spending more money on something, we really try to look 
to see whether there is a good, strong reason for it. And I 
think that in this case, there is, both in terms of the demand 
for services and in terms of what we need to know in order to 
provide better services. This investment is going to really 
help us do that.
    Mr. Porter. Will this new program require authorization?
    Ms. McNeil. We can do it out of our national activities 
authorization in the current Adult Education Act, so, no, it 
will not.
    Mr. Porter. Thank you, Ms. McNeil.
    Mr. Stokes.

                          proprietary schools

    Mr. Stokes. Thank you, Mr. Chairman.
    Secretary McNeil, nice to see you.
    Ms. McNeil. Good morning.
    Mr. Stokes. Regarding the role of proprietary schools in 
providing students with access to quality vocational education, 
and the highly technical skills that will be required in the 
21st century, has the Department conducted any studies to 
assess the impact of these institutions in helping students 
make this transition, say, from welfare to work?
    Ms. McNeil. Not that I know of, but, Tom?
    Mr. Corwin. Certainly not under vocational education, 
because up to this point, proprietary schools really have not 
participated in our vocational education programs. It is an 
issue before the Congress now as part of the pending 
reauthorization. I do not know, Tom, on higher ed if there have 
been studies of proprietary schools.
    Mr. Skelly. Not on helping in the transition from welfare 
to work that I am aware of. There was a change made in the 
appropriations bill last year that would allow independent 
students without dependents to get additional Pell grant funds 
and all campus-based student financial aid program 
participation. But I am not aware of an answer to your specific 
question.

                       tech-prep funding request

    Mr. Stokes. Okay. I note that under State grants your 
Department's fiscal year 1999 budget request provides a $3 
million increase in funding for voc ed programs. Is that 
correct?
    Ms. McNeil. For Tech-Prep, yes.
    Mr. Stokes. Is this funding sufficient for ensuring that 
all youth have access to quality vocational education?
    Ms. McNeil. Yes.
    Mr. Stokes. It is? Okay. Let me ask you about under your 
Tech-Prep, your budget request includes a $3 million increase 
for Tech-Prep. How will these funds enable States to extend the 
Tech-Prep programs to more schools and students?
    Ms. McNeil. Well, of course, $3 million on top of $103 
million is not a huge increase. We do not have an estimate of 
how many new students will be served with the $3 million, 
although I think we could make an estimate for you. But what I 
see is that States are going to use this to expand Tech-Prep 
programs to other schools.
    Tech-Prep is run by consortia of community colleges and 
high schools. Often more than one community college and more 
than one high school participate in a consortia. This funding 
increase will enable schools to increase the number of 
consortia and increase the number of schools participating and 
expand the kinds of technical courses that are offered in 
schools.

                    welfare reform and basic skills

    Mr. Stokes. I want to go back to welfare reform for a 
moment. One result of welfare reform has been an increasing 
emphasis on work first. As such, the amount of resources 
available to help people on welfare get basic job skills 
training prior to entering the job market has been reduced.
    During last year's hearing, you indicated that the 
Department has been considering how to help adult education 
providers and employers conduct more work-based literacy 
training.
    Ms. McNeil. Yes.
    Mr. Stokes. What has the Department done to increase adult 
literacy training?
    Ms. McNeil. Well, we have done several things. We have 
jointly funded with the Department of Health and Human Services 
and the Department of Labor a series of seminars for community 
colleges on how they can help provide both adult basic 
education and vocational training to welfare recipients, 
especially in situations where work first is the requirement 
that States have.
    There are a lot of welfare recipients who were 
participating in post-secondary education or in adult education 
programs, only to find out that they might not be able to 
complete their degree because of the competing demands of 
working and trying to learn at the same time.
    The first seminar we had was in Huntsville, Alabama, with 
the States of Tennessee and Alabama. They brought teams of 
community college, Labor Department, and HHS people together to 
try to come up with strategies in a work-first environment of 
helping adults continue their post-secondary training. So we 
are trying to work on this in that case on a very individual 
State-by-State, city-by-city basis.
    We have also let State directors of both welfare and adult 
education know that they can use some of their adult education 
funds that the State provides as part of the match to gain 
resources for the $3 billion welfare job training program that 
the Department of Labor administers. That forges stronger 
partnerships between adult education and the welfare people 
because they are being able to use some adult education money 
to meet that match.
    We have been working with community college presidents in 
general, trying to help them come up with some strategies for 
how to keep adults in post-secondary programs. We are going to 
fund, using our 1997 national activities money, a study of 10 
to 15 sites in which vocational education training is being 
provided effectively to welfare recipients.
    So we have got a number of activities underway to try to 
help States grapple with this issue of how to provide education 
and training to welfare recipients who are juggling lots of 
different demands. I think that the feedback that we are 
getting from our adult education providers is that there are a 
number of States in which they have really been successful now 
in working together with the welfare agencies and the labor 
departments to come up with some good strategies. And I would 
be happy to share with you some of the examples of States where 
they have been doing this, which we think represents promising 
practice. We have been trying to put those examples up on our 
Websites so other States can learn about them and emulate them.
    Mr. Stokes. Well, I am pleased that you are up on this 
particular important facet of this critical situation.

               resources for assisting welfare recipients

    Is this part of your budget adequate to address it?
    Ms. McNeil. I did not plant that question. [Laughter].
    Well, we are going to work hard to use these resources that 
we have requested to do what we can to promote this. You know, 
everybody could use more resources, but one of the things we 
try to do is use the resources that we have in an effective 
way.
    Mr. Stokes. Well, I appreciate your answer. I asked this 
question because what you are doing in this area to help the 
States with what is a very thorny problem is very important.
    Ms. McNeil. It is.
    Mr. Stokes. And I think it is critical.
    Ms. McNeil. It is true we have seen a drop-off in some 
States of participation in adult education, and we have seen a 
drop-off in some States of participation in community college 
training. But we are trying to come up with some creative 
solutions to that and help States see how they can help welfare 
recipients balance both.

                          adult literacy rates

    Mr. Stokes. Lastly, regarding adult literacy, which some 
years ago on this subcommittee we talked about was a very real 
problem--adult illiteracy, I suppose I should really say, What 
is the cureent overall situation?
    Ms. McNeil. Well, it is still really serious, and it is a 
large problem. It is not so much illiteracy. There are only 
about 7 million adults, we estimate, in the country that 
absolutely cannot read and write. So that is, relatively 
speaking, a small number.
    Mr. Stokes. Sure.
    Ms. McNeil. But the bigger problem is the number of low-
level literate adults. Just between the ages of 16 and 64, 
there are about 26 million adults who are at the very lowest 
level of literacy.
    Now, we do not like to use grade numbers, but they 
sometimes help paint a picture. This is at or below the fifth 
grade level in reading, writing, and computing, 26 million 
adults. Then there are another 40 or so million adults who are 
at the second level of literacy.
    The problem is compounded by the fact that, in order to 
work and be successful in our society today, you have to have a 
much higher level of literacy than you ever had to have before. 
So the bar is being raised at the same time that we have large 
numbers of people who did not make the first cut, and that is 
compounding the challenge. And I think it is that second 
challenge of having the bar being raised now that is making it 
difficult for employers to find people that can do jobs, for 
people to get jobs and keep jobs, for people who have jobs to 
be able to move up the career ladder. Because they may have 
some basic skills, but they do not have skills at a high enough 
level to be successful.
    Mr. Stokes. And the situation continues to get worse as we 
enter into this new millennium.
    Ms. McNeil. It does, absolutely. Because now, in addition 
to just reading, writing, and computing, you need to have the 
technical skills, the computer skills. So we are putting a 
strong emphasis on technology in our adult education programs 
because we think technology can help adults learn faster, and 
we also think it is obviously an important tool for them to be 
comfortable with so that they can go and get jobs.
    Mr. Stokes. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. McNeil. We very much appreciate 
your good answers to all of our questions. We have kept you a 
little over time. We apologize for that, and thank you for the 
find job that you are doing there.
    Ms. McNeil. Thank you.
    Mr. Porter. The subcommittee will stand briefly in recess.
    [The following questions were submitted to be answered for 
the record:]


[Pages 464 - 475--The official Committee record contains additional material here.]



                                            Tuesday, March 31, 1998

        EDUCATION RESEARCH, STATISTICS, AND IMPROVEMENT PROGRAMS

                               WITNESSES

RICKY T. TAKAI, ACTING ASSISTANT SECRETARY FOR EDUCATIONAL RESEARCH AND 
    IMPROVEMENT
PASCAL D. FORGIONE, JR., COMMISSIONER, NATIONAL CENTER FOR EDUCATION 
    STATISTICS, OFFICE OF EDUCATIONAL RESEARCH AND IMPROVEMENT
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE, OFFICE OF THE UNDER 
    SECRETARY
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, BUDGET SERVICE, OFFICE OF 
    THE UNDER SECRETARY

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order. We 
continue our hearings this afternoon on the fiscal year 1999 
budget for the Department of Education and we are pleased to 
welcome Dr. Ricky T. Takai, Acting Assistant Secretary for 
Educational Research and Improvement. Welcome.
    Mr. Takai. Thank you.
    Mr. Porter. If you would introduce the people who are with 
you and then proceed with your statement, please.

                           Opening Statement

    Mr. Takai. Mr. Chairman, on my left is Dr. Pat Forgione, 
the Commissioner of Education Statistics. To my far right is 
Tom Skelly, Director of Budget Service. And to my near right is 
Carol Cichowski, also from the Budget Service.
    Mr. Chairman, I am pleased to be here to discuss the 
President's budget request for the Office of Educational 
Research and Improvement (OERI). We are requesting a total of 
$935 million for OERI programs in 1999. Having a knowledge base 
from research and statistics to support education reform and 
equity is one of the key objectives of the Department's 
strategic plan, but, in fact, the activities of OERI support 
all of the strategic goals and objectives of the Department.

                      increases requested for oeri

    We are requesting increases in 1999 for a few selected OERI 
activities. For the others, we are requesting continued funding 
at the 1998 levels.
    For research, we are requesting an increase of $50 million. 
Last year, the President's Committee of Advisors on Science and 
Technology issued a report that decried the dramatic 
underfunding of education research and recommended that the 
Federal investment be increased over the next few years to an 
annual investment of $1.5 billion. Currently, less than one-
tenth of one percent of the total amount spent on K to 12 
education each year is spent to determine what educational 
techniques really work and to find ways to improve them.
    The $50 million we have requested would support a research 
effort undertaken in partnership with the National Science 
Foundation (NSF) and the National Institute of Child Health and 
Human Development (NICHD) and other appropriate agencies, 
because research from other disciplines offers great promise in 
addressing major problems in education. A detailed plan for the 
use of these funds will be developed over the next several 
months in collaboration with NSF and NICHD, and we plan to 
consult with scientists and scholars from a wide variety of 
fields, such as cognitive psychology, computer science, as well 
as researchers and practitioners from the education community.
    NICHD-funded researchers have demonstrated success with 
various strategies for teaching reading in early grades, 
implemented in controlled experimental situations, but we need 
to explore how those strategies might be implemented in regular 
classroom settings. We need to uncover the best approaches for 
training and helping teachers use research-based knowledge and 
strategies in their teaching. Or taking from the 
recommendations of the recent National Research Council report 
on reading, we need to study how successful methods for 
teaching primary language literacy might be adjusted to 
facilitate the transition to successful English literacy.
    In the area of mathematics, we need to know why U.S. 
students seem to fall further and further behind students in 
other countries as they advance through grades K to 12. We need 
to determine how to organize mathematics teaching and learning 
so that talented students are not discouraged from taking more 
and more advanced courses in mathematics, and we need to know 
what approaches will ensure that teachers have the content 
knowledge and teaching strategies they need.
    In the area of learning technologies, we need to develop 
new instructional strategies that are possible because of 
technology, and we need empirical studies to determine which 
ways of using technology are, in fact, most effective.
    In the area of statistics and assessment, we are requesting 
an increase of $13.5 million. The statistics increase would 
support a birth cohort in the early childhood longitudinal 
study so that we have information about the development of 
children in the earliest preschool years. Our request would 
also allow us to make the eighth grade math test from the Third 
International Mathematics and Science Study (TIMSS) available 
in 1999 to those States and districts that want to use it to 
benchmark the performance of their students with the 
performance of students around the world.
    The assessment increase would be used to implement a set of 
enhancements incorporated in the redesign plan approved by the 
National Assessment Governing Board (NAGB). Funds for NAGB 
would support its duties related to both the National 
Assessment of Educational Progress and the voluntary national 
tests of fourth grade reading and eighth grade mathematics.
    For Eisenhower Professional Development Federal Activities, 
we are requesting an increase of $27 million. Following the 
release of the eighth grade results from TIMSS, the President 
directed the Department of Education and the National Science 
Foundation to develop an action strategy for improving 
mathematics and science achievement. The increase in funding 
would support our efforts to implement the action strategy and 
accelerate a national effort to improve mathematics instruction 
in elementary and middle schools.
    We are requesting an increase of $87 million for 
educational technology programs, primarily to support 
professional development for teachers. With the recent gains in 
the number of classrooms with access to the Internet and in 
students' access to classroom computers, professional 
development has been recognized as a critical need.
    The 1999 competition for Technology Innovation Challenge 
Grants would focus on strategies for in-service professional 
development in the effective use of educational technology. A 
separate competition for which we are requesting $75 million 
would focus on preparing new teachers to use technology 
effectively. Given the number of new teachers who will be 
needed over the next decade, we must begin now to develop the 
strategies that will ensure that new teachers come to 
classrooms prepared to help students learn with technology.
    Our request also includes $10 million for grants to 
establish computer learning centers in low-income communities. 
Equitable access to technology is critical as computers and 
connectivity rapidly become a central part of education and the 
workplace.
    We are requesting $200 million for 21st Century Community 
Learning Centers. These funds would support almost 4,000 
centers and would enable public schools in high-need areas to 
stay open before and after school to provide extended learning 
opportunities and related services for children in safe and 
constructive environments under the supervision of adults. We 
received nearly 2,000 applications for this year's competition, 
which just closed yesterday, but we will be able to fund only 
300 of them. The funds we are requesting for fiscal year 1999 
can help provide these programs for parents and students who 
need them most.
    Mr. Chairman, these are the highlights of our request for 
1999. My colleagues and I will be happy to respond to any 
questions you and members of the committee might have.
    [The information follows:]


[Pages 480 - 487--The official Committee record contains additional material here.]



                  assessment and technical assistance

    Mr. Porter. Dr. Takai, thank you for that excellent opening 
statement.
    A recent survey of State education officials concerning the 
implementation of education reform indicated that there was a 
need for ``a great deal more assistance in the areas of 
assessment and accountability, as well as in how to provide 
effective technical assistance to districts and schools not 
making adequate progress in student performance.''
    This committee has, under both Democratic and Republican 
leadership, provided substantial sums of money for assessment 
and technical assistance activity and expressed our concern 
over the effectiveness of the Department in providing this 
assistance. In spite of protestations by Secretary Riley and 
others to the contrary, this report makes clear that we still 
have a long way to go in providing the necessary assistance to 
States and localities to implement comprehensive reform of our 
public education system.
    What are you doing to address this perceived need by school 
administrators? What provisions exist within the President's 
budget request to address this need? And what kinds of outcome 
measures have you proposed or are you contemplating to focus 
attention on this failure of your technical assistance efforts?
    Mr. Takai. Mr. Chairman, I think there are a couple of 
things which I am prepared to talk about with regards to OERI, 
but let me first talk about a few things that the Department 
has done with regard to technical assistance.
    OERI labs provide technical assistance as do other 
providers that address needs in math and science and 
technology. Technical assistance is also provided through the 
comprehensive assistance centers administered by the Office of 
Elementary and Secondary Education. I agree that there is sort 
of a patchwork of different kinds of technical assistance 
provided through Department programs, and there has not in the 
past been enough communication among those technical assistance 
providers.
    Assistant Secretary Tirozzi last fall convened for the 
first time a summit of technical assistance providers. It was 
intended to bring together comprehensive assistance centers, 
the labs, as well as the ERIC clearinghouses and some of the 
research centers, to discuss topics such as comprehensive 
reform and reading, what they were doing, and what they could 
do in the future to better coordinate their activities.
    We plan to follow up on a series of recommendations or 
suggestions that were raised during that summit, and we are 
planning to have another summit this summer. So that is one 
thing we are doing Department-wide.
    The second thing is that the labs are required to convene 
meetings of technical assistance providers on a periodic 
basis--technical assistance providers in their region--with the 
purpose of developing technical assistance plans for each 
State. So each one of the labs is required by contract to do 
that.
    In addition, with the new comprehensive School Reform 
Demonstration program that you are well aware of, $4 million 
was provided in the 1998 appropriations bill to provide 
additional assistance to States and local districts to 
implement that demonstration program. We have requested the 
labs to provide in their applications for that money a plan on 
how they are going to coordinate their activities with the 
comprehensive assistance centers and with other technical 
assistance providers. We think we have made a good first step. 
We recognize that there is a lot more that needs to be done, 
but we think we are moving in the right direction.
    Mr. Porter. What about outcome measures?
    Mr. Takai. I can speak about outcome measures as it relates 
to the laboratories. The laboratories' primary focus is on 
comprehensive school reform, and there are a series of measures 
that the labs, in collaboration with OERI, have developed for 
which they are currently collecting baseline data. Some of 
those things are customer satisfaction surveys with end users 
of the products and services that the labs are providing.
    We will be collecting data through annual quarterly reports 
as well as customer surveys, and are in the process of 
collecting the first year of that data.
    Mr. Porter. Dr. Takai, several years ago, the Department 
provided this subcommittee with a list of research, 
demonstration, and technical assistance activities that I 
believe totaled approximately $500 million. For the record, 
will you please update that list for us?
    Mr. Takai. I would be glad to.
    [The information follows:]
       Research Demonstration and Technical Assistance Activities
    The material is too lengthy to be inserted in the record, but it 
will be provided to the committee as requested.

       evaluating the effectiveness of educational reform models

    Mr. Porter. One of my concerns, in addition to the lack of 
Departmental focus or control on many of these accounts, is 
that when we need information critical to policy development, 
it is often not available. Let me quote from your draft 
guidance for comprehensive school reform.

    Ideally, effective evidence exists that would demonstrate 
theory-based models have been evaluated using classic 
experimental control group designs in multiple sites for 
different groups of children, using before and after third 
party assessment. For a variety of reasons, such data is not 
available for most educational models.

    What is the Department doing with the substantial money we 
appropriate for demonstrations, technical assistance, and 
research that results in a statement that you do not have a 
research base for determining the effectiveness of a series of 
widely-recognized models of education reform? What can you do 
to assure that these obvious gaps in research do not continue 
to exist?
    Mr. Takai. Many of the models that are listed in the 
Comprehensive School Reform program were not funded by OERI. 
Those that were, most prominently, the Success For All program, 
do have evaluation evidence. For those other models that have 
not been funded by OERI, there have been very few independent 
third party evaluations done. We have, through the Northwest 
Lab, developed a compendium of models that simply provides a 
directory of what we know and what kind of data is available. 
Most of the evaluation data is collected by the developers 
themselves.
    We can do a couple of things in the future and there is 
something we are doing now. Last year, we had a field-initiated 
studies competition and one of the large grants awarded was for 
a study of comprehensive reform models being tried and tested 
in the Memphis Public Schools. A researcher is going to go in 
and follow about 10 to 12 of those different kinds of models. 
That evaluation is funded by OERI, and it is going to look at 
effectiveness.
    The other thing we will do is make effectiveness, and the 
impacts of these reform models on students, the central focus 
of the evaluation the Department will be conducting of the 
comprehensive reform program.
    Mr. Porter. How long will it take us to do that?
    Mr. Takai. Well, evaluating the end results, the bottom 
line impact on student achievement, will take at least three or 
four years. The thing that people will have to understand is 
that implementation of these models does take time. First, you 
have to establish some baselines for where students are 
currently in those schools, and as these reform models become 
fully implemented, then you begin to understand the impacts of 
these reform models on student achievement.
    Mr. Porter. Is there any way to take the data that the 
developers of the programs themselves have developed and 
analyze that data and see whether it is, in fact, objective and 
useful?
    Mr. Takai. We have discussed that. We have no firm plans, 
but have considered having an independent panel of research 
experts take a look at the data. A lot of the data that has 
been collected by the model developers has focused on 
implementation issues.
    Mr. Porter. And not on outcomes?
    Mr. Takai. Not a lot on outcomes. Again, the developers are 
establishing baselines for where students are and then are 
tracking them over time to see how student achievement 
increases or changes as a result of the model.
    Mr. Porter. I can say that our interest in the end is how 
well it affects students and how they do. All the other 
measures are secondary to that one, obviously.

            role of nces in evaluating program effectiveness

    As I have indicated in other hearings, I have a number of 
concerns with the failure of the Department to provide specific 
measurable indices of student achievement in Individual Program 
Results Act measures. What can the National Center for 
Educational Statistics do to provide meaningful data to measure 
whether individual programs are or are not achieving their 
goals of improving student outcomes?
    Mr. Takai. Mr. Chairman, I would like to turn to my 
colleague, Mr. Forgione.
    Mr. Forgione. Thank you. Mr. Porter, the statute that 
authorizes the National Center for Education Statistics (NCES) 
calls for us to give leadership in the collecting, analyzing, 
reporting, and disseminating of information on the condition of 
education. It is not our mission to evaluate specific programs.
    Our data are useful for addressing important questions that 
arise so that the country knows how we are doing. For example, 
with TIMSS, not only did we give the Nation a benchmark on U.S. 
performance at fourth, eighth and 12th grades versus the rest 
of the world, but we have given people serious guidance about 
the need to look at curriculum, the rigor of teaching, and 
textbooks.
    The difference, though, is that to answer the kind of 
question you just raised, you need a tightly-designed research 
study. You need to identify the question and collect evaluative 
information about it, such as NICHD does with its control 
groups and experimental models. Our mission is to provide a 
profile of the condition of education, but our data are often 
valuable in setting a context for program evaluations.
    So from our data America cannot determine why our fourth 
graders did so well. We do not know what program did that. We 
can tell you the Nation's health at fourth grade compared to 
that of our international competitors is stronger than at 
eighth or 12th grade, but we cannot identify the cause. Those 
kinds of studies would have to be done by evaluation units, and 
the Department has those components. We are an independent 
statistical one that wants to give you information that will 
help you with the long term.
    Mr. Takai. Mr. Porter, if I could just add on to Mr. 
Forgione's comments. In my job in the Planning and Evaluation 
Service, doing program evaluations as well as being involved in 
the development of the performance indicators plan that was 
sent up to you, I found that there are a variety of data that 
NCES collects that really do provide the context for assessing 
many of the Department's programs.
    The National Assessment of Educational Progress provides a 
barometer for student achievement among different groups. The 
National Postsecondary Student Aid Survey and the Beginning 
Postsecondary Survey provide very valuable information in terms 
of the effects of student aid on access and completion and 
selection of university.
    So I think that it is true, as Pat said, that in order to 
look at program impacts, you do need tightly-designed 
evaluations, but NCES does provide very valuable data that 
several offices, the Office of Elementary and Secondary 
Education, the Office of Postsecondary Education, and the 
Office of Vocational and Adult Education, rely on, in some ways 
to provide performance indicators for the systems that the 
Federal government is investing in.

                            nces peer review

    Mr. Porter. All right. You indicate in your justification 
that the National Center for Education Statistics includes a 
review panel to monitor the technical and programmatic aspects 
of data collection activities. How would you compare the rigor 
and independence of this method with the concept of peer review 
as practiced by the science agencies such as NIH?
    Mr. Forgione. I would say, Mr. Chairman, that our review 
panels are comparable in their scientific orientation. We have 
two mechanisms that we use to look at the rigor of our work. We 
have what we call technical review panels for each of our 
programs. We also have an internal adjudication process--I call 
it the eye of the needle--where our chief statistician will not 
let any report out if it has not been thoroughly reviewed.
    Looking at the first one, the technical review panels, for 
each of our major surveys, we bring in independent experts from 
outside to give us critiques on design, development, and 
implementation. They stay with the whole survey so that we can 
be assured and I, as Commissioner, can be assured that we are, 
in fact, asking the right questions, answering them with 
appropriate methodologies, and having integrity about the data 
process.
    So with that part of it, we get both internal and external 
expertise. I think it is comparable to the peer reviews I have 
seen and, in fact, have served on in my previous capacities. 
When I was Commissioner in Delaware, I often was invited in to 
have that lens, both as a policy maker and as a person who has 
a little bit of evaluation expertise.
    The second area is the adjudication process. We have a 
multi-faceted process of reviews before any document can be 
released. In fact, often the Department is a little 
disappointed that we cannot be quicker in our releases, but the 
nature of a statistical agency is to assure you that when the 
Commissioner releases the school violence data, as we did a 
week ago, or the TIMSS data, that you can be assured that these 
are comparable national or relative statistics. So I believe we 
try to emulate those science agencies and we really want that 
independent integrity. We also value the timely advice of 
constituents because we do not have enough funds and we want to 
make sure any data we collect are really needed.

                after-school community learning centers

    Mr. Porter. Thank you.
    Dr. Takai, your request for after-school learning centers, 
we are concerned that you may be requesting funds for a new 
program, a relatively new program, far in excess of your 
ability to spend the money and we want to be assured that that 
is not the case. We increased this program from $1 million to 
$40 million and the administration now proposes to increase it 
to $200 million.
    You said in your opening statement that we had just 
determined the allocation of the $40 million, is that correct?
    Mr. Takai. No, sir. I said that the competition had just 
closed.
    Mr. Porter. Just closed?
    Mr. Takai. Just closed, in terms of reviewing the 
applications.
    Mr. Porter. This program is a currently funded program. How 
much of the money have you obligated so far? None, I would----
    Mr. Takai. None, because we have just finished reviewing 
the applications. There were approximately 2,000 applications 
that were reviewed at five sites around the country, with the 
assistance of the labs who helped us set up the logistics for 
these reviews.
    But we expect to make the awards by the beginning of June. 
So the money will be obligated, we are fairly confident, by the 
beginning of June.
    Mr. Porter. All right. So you are going to obligate all $40 
million this fiscal year?
    Mr. Takai. Yes, sir.
    Mr. Porter. OMB scoring indicates that you will actually 
spend $10 million on projects that are up and running in fiscal 
year 1998. Will the projects you approve actually spend $10 
million, and if not, how much of the $40 million will be 
expended in fiscal year 1998 and how much in fiscal year 1999? 
I guess you are saying none of it would be expended in fiscal 
year 1998.
    Mr. Takai. I think some of it would----
    Mr. Porter. Some of it may be?
    Mr. Takai [continuing]. In terms of hiring and getting 
things up and running for the school year. But I believe that 
the large majority of the $40 million will be spent in fiscal 
year 1999.
    Mr. Porter. And how are you going to spend the $200 million 
then?
    Mr. Takai. Based on the number of applications received 
this year, the demand far outstrips the amount of money that we 
currently have. We would run another competition, and we are 
fairly confident that the applicants who are not going to win 
for this round would come in again. A very large number of 
applications came in from rural and urban sites, and it was 
clear from the number of applications, and after talking to 
some of the staff, that the demand was great, but some of the 
applicants needed some technical assistance in how to put 
together the application.

                    interagency research initiative

    Mr. Porter. You have indicated the very high importance 
that the administration places on your interagency research 
initiative. According to the justification, ``It will be a 
critical component of the Department's strategy for providing 
an up-to-date knowledge base to support education reform and 
equity.'' If this activity is so critical, why cannot the 
Department shift funds from lesser priorities to this critical 
component?
    Mr. Takai. Well, the $50 million was never intended to rob 
Peter to pay Paul. The $54 million that we were requesting that 
would be spent through the institutes, we believe is still a 
very worthwhile investment, both in terms of the centers that 
are being funded as well as the field-initiated studies 
competition.
    However, it is clear that there are advances from 
scientific disciplines outside of education, such as 
developmental psychology, cognitive science, advances in 
learning technologies that provide an opportunity for 
addressing persistent major problems in education in new ways. 
It is our belief that additional money, on top of the current 
investment, is needed at this point in time, given those 
advances.
    Our plan is to bring together interdisciplinary teams of 
scientists from those different areas to focus on these 
problems. So that is why we have asked for this money for a 
collaboration with NSF and NICHD. As you know, they fund and 
have funded researchers who are beginning to provide evidence 
that has direct applications for improving education.
    I think that the recent National Research Council report is 
a good example of how you can draw together research from 
different disciplines to address major problems in education. 
We think that there is a lot of opportunity, given recent 
findings in these other disciplines, to focus on these problems 
in a new way, but we never intended to imply that the current 
investment was not worthwhile.
    Mr. Porter. Would you shift funds if we waived the 
statutory allocations, as requested in your budget?
    Mr. Takai. The request to waive the statutory allocations 
was intended only to apply to the $50 million, not to the $54 
million. Again, by regulation, we are committed to continuing 
the funding for the centers, and even if we did not have that 
regulation, I believe that OERI would do that anyway. So that 
if you waived the statutory allocations for the institute 
money, we would not shift the money around because that was not 
our intent.
    Our intent was only to waive those statutory allocations 
for the $50 million because our feeling was that the approach 
on this $50 million should be first you bring together a cross-
disciplinary set of researchers to figure out what the problems 
are that could be solved by research, what the designs and the 
methods would be, and then you think about how you would go 
about funding it.
    Our expectation is that the institutes would be heavily 
involved in this work. However, we did not want to start with 
those constraints about how the money would be spent; that is, 
that one-third of the money has to go to centers, one-fourth 
has to be spent on field-initiated studies, and ten percent of 
an institute's budget could only be spent on cross-institute 
projects.

                    interagency research initiative

    It is clear our ability to focus on key problems would be 
greatly hampered if the initiative were limited by those 
statutory allocations and we could only spend a certain 
perentage of the money from the At-Risk Institute and from the 
Achievement Institute, for example, to focus on a problem.
    Mr. Porter. Was the request for waiver included in OERI's 
original request to the Secretary and was it included in the 
Department's submission to OMB?
    Mr. Takai. The Department did request $50 million for 
research that brought together a variety of different types of 
scientists from different disciplines.
    Mr. Porter. In your budget justification, you state, 
``Careful research could help us explore the relationships 
among brain research, cognitive science, and educational 
practice. It could help us grapple with whole language and 
phonetics and examine where and when mixed strategies are 
appropriate or not. It could help us assess the effectiveness 
and cost effectiveness of specific educational approaches and 
techniques that make use of technology.'' Why are we not doing 
this now, and if we are, why do we need a separate program for 
it?
    Mr. Takai. We are not thinking of this $50 million as a 
separate program. Again, we asked for the money outside of the 
institute structure, simply for the flexibility. But once the 
plans are set and are developed in collaboration with NSF and 
NICHD and other appropriate agencies, we expect the institutes 
to be heavily involved.
    With regard to the first part of the question about why are 
we not doing it now, I would say that a lot of work has been 
done, particularly in the area of reading and technology. If I 
could take early reading as an example, there was a very 
important report that provided for the first time a consensus 
about what a group of distinguished scientists believed the 
research was saying in terms of how to prevent reading 
difficulties in young children.
    However, one of the final chapters in that report listed 
almost 30 recommendations for research. Neither NICHD nor OERI 
is currently funding that research or has funded that research, 
which is not to say that the past investment has been wasted. 
In fact, I would say that OERI's investment in reading has been 
fairly significant with NICHD building on that earlier work.
    The bottom line is that there is a wide set of research 
questions that the National Research Council report identified, 
and I think that set is a very good start to begin thinking 
about how to spend the $50 million.

                  federally-funded education research

    Mr. Porter. You state that

    Federal support for education research flows through a 
number of offices in the Department and other Federal agencies. 
The organization with the broadest mandate in education 
research is the Office of Educational Research and Improvement.

Given this role, can you tell me how much money the Federal 
Government spends on education research, what role your office 
plays in assuring the research, particularly in the other 
offices of the Department and other Federal agencies is of high 
quality and is not duplicative?
    Mr. Takai. I do not believe that there are very good 
figures on the total Federal investment in education research. 
The President's Committee of Advisors on Science and Technology 
quotes a figure of the research investment at one-tenth of one 
percent of the total investment in K-12 education. That would 
work out to about $300 million. The Department's investment in 
research, including the NIDRR, is about $200 million. So if you 
were to take money that is spent in NSF, in HHS, it would 
probably total about $300 million.
    In terms of the issue of quality, OERI, in collaboration 
with the National Education Research Policy and Priorities 
Board, has just recently published in the Federal Register what 
we call Phase III standards, which are standards to review the 
performance and quality of contracts, cooperative agreements, 
and grants that OERI funds. These are designed to provide 
guidance, particularly for our peer review process, to assess 
the quality of different research studies, as well as different 
grants administered outside of the research institutes.
    We are currently using those draft standards as we are 
beginning to do the interim reviews of the research centers. We 
have made that guidance widely available to the rest of the 
Department, particularly OSERS and OVAE, which oversee the 
other parts of the Department's educational research activity, 
and it is my understanding that they are looking at that 
closely to see how that applies to their review of their 
research projects.

                       improving math achievement

    Mr. Porter. After reading your justification, I am still 
unclear as to exactly what specific activities will be 
undertaken in your national campaign to improve math 
achievement. What specific activities will this entail? Exactly 
what measurable outcomes do you propose and how will the 
subcommittee know in fiscal year 2000 whether you are making 
progress toward them or not?
    Mr. Takai. I think that there are three or four components, 
and let me just list them. One is planning, capacity building 
grant program in collaboration with the National Science 
Foundation. There would be approximately $17 million that would 
be spent in competitive grants to districts to help them plan 
and assess their professional development activities and their 
curriculum for mathematics education.
    I would say that, clearly, the key performance indicator 
for that program would be a review of the plans for coherent 
strategic ways of leveraging the variety of different funds 
that they get--from Eisenhower State grants, from Title I, from 
State and local funds--of which there is a significant amount, 
to provide high-quality professional development and curriculum 
that is benchmarked to world class standards.
    The second area is directly related to providing 
professional development. Some time ago, after the eighth grade 
TIMSS results came out, the President issued a directive to NSF 
and the Department of Education to develop an action strategy. 
Just recently, NSF and the Department published that strategy. 
Part of that strategy was to develop trainers of trainers, in 
some ways along the lines of the National Writing Project, 
where you begin to develop teachers and curriculum developers 
who can then develop programs in their own districts and other 
areas. Clearly, the performance indicator for that would be a 
review of the kinds of professional development they are 
currently providing.
    The third area is technical assistance. We are asking for a 
small increase in the Eisenhower National Clearinghouse for 
Mathematics and Science Education and the Eisenhower National 
Regional Mathematics and Science Education Consortia, basically 
to, one, develop model materials, curriculum materials in 
mathematics education, and two, to disseminate and provide 
technical assistance to States and local districts.
    Mr. Porter. Thank you, Dr. Takai.
    Mrs. Northup.

                            oeri peer review

    Mrs. Northup. Yes, thank you. I have a number of questions.
    First of all, can you tell me a little bit about your peer 
review program and how it is established, how it works. Is it a 
new emphasis on peer review?
    Mr. Takai. Yes, ma'am. This was something that we are 
following as a result of the reauthorization of OERI, which 
called for developing a peer review process, not only for the 
review of the performance of the grants but also the review of 
applications. So the Department, OERI, has issued final 
regulations for the peer review process for the review of 
applications. Those came out, I think, a couple of years ago.
    We currently have in draft a notice in the Federal Register 
for the criteria of how we would conduct peer review for the 
performance of any grant, cooperative agreement, or contract 
that OERI----
    Mrs. Northup. When will you finalize that?
    Mr. Takai. We are hoping to get comments from the public on 
the draft standards at the end of April.
    Mrs. Northup. So when will you publish the rule?
    Mr. Takai. We are hoping maybe two months after receiving 
public comment. It depends on the number of comments we get and 
the seriousness of the comments. If they are not very serious 
or there are not very many, then it could be even sooner. It 
could be a month after that.
    Mrs. Northup. How does your peer review process compare to 
the NIH peer review process?
    Mr. Takai. I think we are trying to model our peer review 
process after NIH, particularly with regard to the peer review 
process that we are applying to the OERI-funded research 
centers. We are bringing together teams of experts to do 
intensive reviews on site with the research investigators. We 
are planning to do two reviews in most cases. One review would 
probably be at the end of the second year, where we would ask 
the peer reviewers to recommend and make suggestions about mid-
course corrections to the center.

                   collaboration with other agencies

    Mrs. Northup. I guess my concern is why we would add $50 
million to research how kids learn to read, how kids learn to 
do math, when we already have the National Science Foundation 
and the NICHD doing that research and that seems to be an area 
that they are very comfortable with. They have peer review for 
that. I do think what you have described is important and a 
good process for sort of the applied evaluation of peer review, 
but the learning concerns me, I mean, how kids learn, sort of 
the scientific basis research. That is a concern to me.
    Mr. Takai. I would say that we have had extensive 
discussions with NICHD staff who are doing research on reading, 
and, although the discussions are in the preliminary stages, 
there is a general agreement that in many ways was echoed by 
the National Research Council's (NRC) report that just came out 
on reading, that there would be a lot of benefit to having a 
collaborative effort between NICHD, NSF, and the Education 
Department.
    The NICHD work, as important as it is, was done in a fairly 
well designed, experimentally controlled setting. I think the 
one issue that was noted in the NRC report is, can you take 
those findings that were developed out of these very tightly 
controlled experiments and put them in a real classroom 
setting. That is something that a collaboration between the 
Education Department, who knows a lot about schools and in some 
ways has entre to the schools, in collaboration with NICHD 
could do. Another example is bilingual research.
    Mrs. Northup. Let me just, because I know my time will run 
out and I have got a lot of questions, let me just interrupt 
you with that and say I agree with the collaboration. I noticed 
that I think you have a collaboration, how much set-aside for 
the new panel that would be established between NICHD, do you 
not?
    Mr. Takai. Do you mean the $50 million, ma'am?
    Mrs. Northup. I am sorry. I am really--oh, it includes $50 
million for a new interagency research initiative, is that 
right? I just wondered what the difference was with the one 
that we established in the budget bill last year. Senator 
Cochran and I collaborated on establishing this panel----
    Mr. Takai. Yes, ma'am.
    Mrs. Northup [continuing]. And I wondered why you were 
proposing another one that seemed almost identical.
    Mr. Takai. Well, we are not proposing a panel. The panel 
that has just been formed is a panel more along the lines of 
the National Research Council panel. It is to build on the 
recommendations and the findings of the NRC report as well as 
to review the available evidence on early reading, and that 
activity is very different from the $50 million that we have 
requested. One is a panel to review research. Our $50 million 
is actually to conduct research.
    Mrs. Northup. I guess what I thought is that the panel 
would be a starting point for NICHD to say, this is what we 
have learned, and for the Department of Education to say, these 
are the questions we need to ask, and that collaboratively, you 
would establish sort of what the next questions are and what 
the next grants would be. It seems to me that that would be the 
way to sort of collaborate in the direction that the research 
takes.
    Mr. Takai. It is my understanding that the timing of the 
panel's final recommendations, the panel that you and Mr. 
Cochran worked to establish, would in some ways coincide with 
the need for additional money in fiscal year 1999. There is a 
set of very detailed recommendations in the NRC report thatI 
believe this new panel will want to review and consider. We are, at the 
same time, reviewing those recommendations along with NICHD to see what 
the early directions might be. I know that in the charge to this NICHD 
consensus panel, there is also a charge to develop a research agenda, 
as well.
    I believe that both of those, the results of the panel that 
just concluded from the National Research Council as well as 
the upcoming December report to Congress from the panel that 
you helped to create, basically will provide a very good start.
    We are not planning to do something separately from the 
work of either the NRC or the NICHD panel. My guess, though is 
that there will be a fairly long list of recommendations that 
will require a lot of further discussion, both with the 
research community as well as between Education and NICHD.

               evaluation of comprehensive school reform

    Mrs. Northup. Could you tell me what sort of evaluation 
assessment you are going to do for the comprehensive school 
reform?
    Mr. Takai. That evaluation is not going to be conducted in 
OERI. It is going to be conducted in the Planning and 
Evaluation Service.
    Mrs. Northup. In the what?
    Mr. Takai. The Planning and Evaluation Service, which is in 
the Office of the Under Secretary. They are just beginning to 
make plans for that. I would be glad to send up to you what the 
current thinking is on it, but right now, I am not quite sure 
how far along they have gotten.
    Mrs. Northup. We were told that the regional laboratories 
were actually going to do the assessment.
    Mr. Takai. The regional laboratories are going to provide 
evaluation assistance to individual States and districts as 
they implement their own models. However, I think there was a 
requirement in the Appropriations Act to do a national 
evaluation. That is what I thought you were talking about.
    Clearly, the national evaluation should not duplicate or 
overlap with the work that is being done with the labs. But 
often in those cases, the national evaluation relies on the 
work that is being done through the labs or through independent 
evaluators, that States and local districts contract with them 
separately in order to collect the data that they want for the 
national evaluation.
    Mr. Porter. Thank you, Ms. Northup.
    Mr. Wicker.
    Mr. Wicker. Mr. Chairman, I do not have any questions for 
this witness and I would yield my time to Mrs. Northup.
    Mr. Porter. Fine. Mrs. Northup?

                   evaluating education reform models

    Mrs. Northup. Thank you very much. I am sure it will go the 
other way some day, Mr. Chairman. Thank you, Mr. Wicker.
    Let me just ask you, there are certain models, I believe, 
that are to be evaluated. That was sort of part of the bill. 
How would a new model go about getting evaluated? Let us say 
that somebody puts together or is implementing a model that 
they believe works. How would they go about becoming one of the 
sort of model models?
    Mr. Takai. Well, first, they have to meet those nine 
elements that are specified in the statute. The first thing you 
would look at is what is the research basis for it if it is a 
home-grown model. From that research basis, there are a series 
of assumptions that need to be tested in terms of its effects 
on teachers and its effects on students and its effects in 
terms of student behavior, in terms of discipline and 
attendance, in terms of teachers, in terms of teaching 
instruction, use of time----
    Mrs. Northup. I guess my question is, will you all be doing 
that or will they have to produce the essential data and then 
you will determine whether or not it is a recommendation?
    Mr. Takai. I think it can come in a variety of different 
ways. It could come through the national evaluation, because my 
feeling is that on the national evaluation, you could not 
evaluate every program that is being funded through the 3,000 
schools. You would have to be selected and you would have to 
pick certain different types of models. So you would not only 
just pick the most popular brand-name kinds of models but also 
models that have been built from scratch or built from 
different components, and you would pick some of those models 
and evaluate them. One of the things--
    Mrs. Northup. Do you mean in addition to the ones that were 
named in the bill?
    Mr. Takai. Right. Right.
    Mrs. Northup. Okay.
    Mr. Takai. The labs are very good at providing assistance 
on how you set up a credible evaluation design that provides 
evidence whether the reform model is an effective one that 
could be used and widely disseminated through other labs.

                dissemination of effective reform models

    Mrs. Northup. And how would you disseminate that, through 
the LEAs or SEAs?
    Mr. Takai. From OERI, you can disseminate through the lab 
network. You could disseminate it through our ERIC system. 
There are a variety of ways you would want to disseminate that 
kind of approach. You could also disseminate it through the 
Blue Ribbon Schools, which in some ways is not really a 
dissemination avenue, but it actually has a very powerful 
effect because that kind of recognition gets a lot of attention 
by other States and local districts.

                after-school community learning centers

    Mrs. Northup. And the before- and after-school program, I 
am very interested in that. I am from an urban area and in the 
last couple of years, a number of our faith-based communities 
that have large minority populations have actually built some 
centers and provide after-school tutoring and learning and 
opportunities and have really the confidence of the 
communities.
    This is particularly important in Louisville, because we 
have busing, and so the children are often far away at school 
during the day, and I am interested in knowing whether those 
faith-based communities will be able to fully participate as an 
after-school learning center.
    Mr. Takai. Under the current competition, in accordance 
with the statute, the money is to go to school districts, but 
those school districts can run before- and after-school 
programs in collaboration with community-based organizations.
    Mrs. Northup. And faith-based organizations? Are you aware 
of how often that occurs?
    Mr. Takai. I am not. I do not know.
    Mrs. Northup. Is the legislation, is it passed?
    Mr. Takai. We are operating under current legislation. We 
are planning and would like to amend the current statute to 
provide a ten percent set-aside for community-based 
organizations, but I do not know about faith-based--
    Mrs. Northup. Have we seen that language yet?
    Mr. Takai. We are not planning to send up separate 
language. We are hoping to look for opportunities for bills as 
they are moving through the process.
    Mrs. Northup. So currently, right now, you are not aware of 
any after-school programs that include faith-based communities?
    Mr. Takai. No.
    Mrs. Northup. So all of these wonderful opportunities that 
have the support of our community for kids that are bused so 
far from their school but now come back to their neighborhoods 
and these new buildings, possibly these funds would attract the 
same kids and, in a sense, leave them without resources or with 
a student base anymore.
    Mr. Takai. Yes. We will definitely check and get back to 
you. I do not know whether or not you had heard, but the 
competition for the 21st Century Community Learning Center just 
closed on Monday. We received over 2,000 applications. We can 
go through those applications and do a quick screen and see 
whether or not faith-based organizations were in partnership 
with local school districts. With regard to whether or not they 
are eligible, we will have to check on that.
    Mrs. Northup. I would not be surprised if a school system 
would not, for example, include them, because there is almost a 
competition out there, to be very honest. But it does not mean 
that the people they are serving would not like to keep their 
child where they currently are.
    It concerns me that what we are going to do is create a 
system that competes with that nonprofit community that is 
really the heart and soul and inspiration of many of the kids 
that are in the program. I have visited these programs. They 
are very impressive and they certainly could use some Federal 
funds. But if that is not where we are going, I would really 
like that information before we get into the appropriations 
process so we know whether or not we will undo the successful 
programs that exist.
    Mr. Takai. Okay.
    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mrs. Northup.
    Dr. Takai, thank you for answering all of our questions. We 
have lots of additional questions for the record that we would 
also ask that you answer.
    Mr. Porter. Thank you for appearing here today.
    Mr. Takai. Thank you, Mr. Chairman.
    Mr. Porter. The subcommittee will stand briefly in recess.
    [The following questions were submitted to be answered for 
the record:]


[Pages 502 - 519--The official Committee record contains additional material here.]



                                           Tuesday, March 31, 1998.

                      OFFICE OF INSPECTOR GENERAL

                               WITNESSES

STEVEN A. McNAMARA, ACTING INSPECTOR GENERAL
ROBERT G. SEABROOKS, ACTING ASSISTANT INSPECTOR GENERAL FOR AUDIT
DIANNE G. VAN RIPER, ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
    Mr. Porter. The subcommittee will come to order.
    We continue our hearing on the Department of Education's 
Fiscal Year 1999 budget with the Office of the Inspector 
General and we are pleased to welcome Steven A. McNamara, the 
Acting Inspector General.
    Mr. McNamara, why do you not proceed with your statement 
and introduce the people here with you?
    Mr. McNamara. Thank you, Mr. Chairman.

                       Introduction of Witnesses

    With me today are my two colleagues. On my left is Dianne 
Van Riper. Diane is our Assistant Inspector General for 
Investigations. On the far right, as you know, is Tom Skelly, 
who is the Director of our Budget Service. And on my immediate 
right is Mr. Robert Seabrooks, who is the Acting Assistant 
Inspector General for Audits.
    Mr. Chairman, and members of the committee, I am pleased to 
have the opportunity this afternoon to discuss the Fiscal Year 
1999 budget request for the Department of Education Office of 
Inspector General.
    With your permission, Mr. Chairman, I would like to submit 
my statement for the record and present a brief summary of it 
for the subcommittee.

                           Opening Statement

    Mr. Chairman, members of the subcommittee, we are 
requesting a budget of $31.2 million for 1999. This is an 
increase of about $1 million from 1998, about half of which is 
going to be used to take care of pay raises and other things 
and the balance of which is going to cover small items for rent 
and contracts and pencils and papers and that sort of thing. 
So, it is essentially what we got last year adjusted for 
inflation.
    But we believe that with our goal to add significant value 
by helping the Congress and the Secretary improve education 
program delivery, effectiveness and integrity we can use this 
money effectively.
    We will do this through a program of high-impact audits and 
investigations focused on high-risk areas and critical issues 
within the Department. Our emphasis is on major systemic 
program and operations issues that are larger in scope than a 
traditional single entity focus.
    This type of work on the front end will lead to more 
effective programs with built-in controls rather than relying 
solely or principally on resource-intensive after-the-fact 
detection. For example, a number of our investigations have 
uncovered fraudulent receipt of millions of dollars of SFA 
funds by students who have misrepresented their family's 
resources and fraudulent activity by consultants who have 
advised them in doing so.
    Resulting cases have led to large cumulative recoveries. 
This work has led to major efforts in our investigative area to 
look at these marketing companies that are providing this type 
of advice to students and their families.
    At the same time, OIG auditors conducted an audit which 
matched student aid applications with IRS data and concluded 
that Education was awarding over $100 million annually in Pell 
Grants to persons who were ineligible. I might add that this 
audit made the front page of the Wall Street Journal when it 
was issued.
    The OIG used the results of both these investigations and 
the audit to recommend a front-end control that is a mandatory 
match with IRS data and this recommendation is now under 
serious consideration here in the Congress in connection with 
HEA reauthorization and elsewhere.

                          oig accomplishments

    Other examples for our accomplishments include the HEA 
reauthorization proposals that we submitted to Congress, which 
were designed to greatly improve the integrity of SFA programs 
and save hundreds of millions of dollars; audits of the 
Department's oversight of the direct loan program, its 
implementation of the Government Performance and Results Act, 
and Year 2000 Initiatives; and finally investigations of trade 
schools as well as major lenders and servicers, SFA marketing 
companies and foreign medical schools.

           oig fiscal year 1999 focus on systemic improvement

    We will continue our focus in Fiscal Year 1999 on the 
student aid programs, the Department's information systems, 
GPRA and Year 2000 Initiatives and reauthorization of the 
Elementary and Secondary Education Act.
    With our emphasis on systemic improvement in these high-
risk or critical areas we believe we will be able to help 
Congress and the Secretary improve education in the United 
States.

                financial statement audit not yet issued

    Mr. Chairman, before I invite any questions I would like to 
correct some misinformation that appeared in the Washington 
Post today and in the Wall Street Journal. There was a 
reference that the Department had received a clean opinion on 
its financial statement audit. That is premature. That audit is 
not yet completed and probably will not be issued until May. I 
think they mixed us up with the Department of Energy. Somebody 
told them DOE and they got the initials mixed up. So, that was 
an error that appeared in both of those publications.
    Would that it were true, but that completes my comments, 
Mr. Chairman, and we would be glad to answer any questions.
    [The information follows:]


[Pages 524 - 532--The official Committee record contains additional material here.]



    Mr. Skelly. Before you get into that, Mr. Chairman, I read 
the articles, too, and I talked to Steve about it a little. I 
think that there is another report coming out from the General 
Accounting Office tomorrow and the articles did not mean to say 
that our independent audit had given us a clean audited opinion 
yet. But it appears that there is some other audit report that 
these stories were talking about.
    Mr. McNamara. Well, the GAO report is on the Government-
wide audit and to give that opinion they are relying on the 
individual audits, of the agencies and they commented in the 
Post article on about 7 or 8 Departments that they said had 
passed muster and we were in that list.
    Mr. Skelly. So, we do expect to get a much better opinion 
than we have had in the past. In the past, the Department could 
not have an opinion done. Auditors found that the data were not 
reliable enough. We have done a lot of work with auditors in 
providing them, particularly, estimates on our student loan 
losses. And they have indicated to us that as recently as 
yesterday morning there was no deal-breaking issue or any major 
problem they had as of yesterday morning.
    So, we are looking forward to their opinion, whatever it 
is.
    Mr. Porter. Thank you, Mr. McNamara.
    Mr. Wicker.
    Mr. Wicker. Thank you, Mr. Chairman.

         accounting for early childhood development grant funds

    First of all, Mr. McNamara, I have a question that you may 
have to get back to me about. But it involves some information 
that was provided to our delegation, specifically to Senator 
Cochran from Judith E. Heumann, Assistant Secretary, Office of 
Special Education and Rehabilitative Services.
    Our delegation had requested some additional funding for an 
early childhood development project in the Mississippi Delta. 
The response on behalf of the Secretary was that Mississippi 
was having trouble spending the money that we had and stated 
specifically that Mississippi allowed $556,000 or 21.2 percent 
of its 1995 award to lapse which, of course, sounds awful and 
that we have in our State 85 percent of our funding remaining.
    The problem is that our own State director of special 
education disputes these numbers. As a matter of fact she told 
my staff that only about $30,000 of the 1995 funding was not 
spent and more than 90 percent of the 1996 funds had already 
been obligated. I just want you to check on that.
    It is my understanding that this subcommittee has had 
trouble getting this sort of information from the Department of 
Education and yet some erroneous numbers were provided at least 
according to our own State officials who administer the 
program.
    And, so, I wish you would look into that. Possibly youcould 
comment now but I doubt if you could.
    Mr. McNamara. I do not know anything about it. We will look 
into it and if it would be all right we would probably like to 
be in touch with your staff to get all the pertinent details.
    Mr. Wicker. Please.
    [The information follows:]

                  Mississippi Special Education Funds

    At the time of Assistant Secretary Heumann's letter to 
Senator Cochran, the Department of Education had not received 
Mississippi's expenditure report for $556,000 in Fiscal Year 
1995 funds. Department staff visited Mississippi on November 
13, 1998, to work with State staff reviewing expenditure 
documentation. On February 6, 1998, the Department received 
Mississippi's expenditure report showing expenditures of 
$510,102. Therefore, the correct amount of Fiscal Year 1995 
funds that lapsed is $45,898.

    Very good. We do have a concern that the Department should 
be able to keep track of funding in an efficient way and answer 
requests that the committee has. But I will move on.
    Mr. Skelly. Mr. Wicker, I might add that we have requested 
funding in another account called Program Administration to 
implement a new financial management system. And it would track 
payments against grants to States in a much more efficient and 
effective manner.
    That system is scheduled to go on line in May of this year. 
We have been a couple of years in getting it up and running. We 
agree that we have had a problem in getting good data on some 
of these spending patterns and that is why we have invested 
money in development of this new system and we hope it will 
give us the better information faster.
    Mr. Wicker. I thank you for that answer.

    assessment of safe and drug-free schools and communities program

    The area that I would like to touch on during my time 
concerns drug programs. The Speaker just appointed me recently 
to a task force on a Drug-Free America. And, so, I have had an 
opportunity to look into this more deeply than I had 
previously.
    Can you tell me in addition to the Safe and Drug-Free 
Schools and Communities program, how many other programs do we 
have in your Department that deal with drug prevention, drug-
abuse prevention and that sort of area?
    Mr. McNamara. Mr. Skelly might be in a better position to 
answer that than I. I am not sure of any others.
    Mr. Skelly. Mr. Wicker, the Safe and Drug-Free School 
program is our primary vehicle for dealing with school violence 
and use of drugs and alcohol. We do not have other programs 
that support that kind of activity.
    Mr. Wicker. So, it is not only the primary, it is the sole 
program?
    Mr. Skelly. It is the sole program that has that purpose, 
you are correct.
    Mr. Wicker. Okay, fine.
    Well, let me just ask you, I note that in the Department's 
justification and estimates on page D-34, it talks about the 
flexible framework of the Act and the Department's concern that 
these funds be spent in the most effective manner possible. And 
then it says this, and I quote, ``The authorizing statute 
currently is so flexible that recipients of these funds may be 
using them to support activities that are the most popular or 
the easiest to implement but not necessarily the most effective 
at reducing drug use and violence among youth.''
    That is certainly a concern that I have. And it is a 
concern of the people who so far have met with the task force. 
And I noticed that the Department lists particular goals, but 
what are we doing within the Department to ascertain that the 
funds are being used by the States, by the State departments 
and by the governors as they are intended at this point in the 
Act and that they are being used effectively?
    Mr. McNamara. Mr. Wicker, we have an ongoing audit right 
now of the Safe and Drug-Free Schools and Communities Program. 
We have completed a survey in the State of New Jersey. We 
currently are looking at Alabama and Texas, and we are going to 
go to 2 additional States.
    As you stated, the Act is very broad and it allows a good 
degree of latitude. Part of our audit approach is looking at 
the plans submitted by the State to evaluate them and then 
going out to the State and looking to see how they had rolled 
up the results from their LEAs in terms of how they were going 
to use the funds and see if it seems to make sense and if it 
flows all the way down.
    As you no doubt are aware, those grants are divided into a 
governor's portion, which I believe is about 20 percent.
    Mr. Wicker. Twenty percent.
    Mr. McNamara. And the rest goes out to the school 
districts. We are in the process also of looking at the 
measures for these plans to try and get a sense of how 
effective the program is. In the survey work we did a couple of 
years ago, we were impressed by the fact that you could do 
anything and there was concern at that time that people were 
sodding football fields and other stuff. We never did find any 
of that and we have not found anything like that at this point, 
but we are in the process right now of auditing this program 
and we hope to have a report in late summer.
    Mr. Wicker. Do you advocate changes in the statute?
    Do you think you might be coming forward with that?
    Mr. McNamara. There may be some coming out of the results 
of our audit but that would be premature right now for us.
    Mr. Skelly. The administration has proposed a change in the 
statute and instead of having the State grant program we would 
propose an earmarking of $125 million that would go out on a 
competitive basis rather than a State formula basis. The funds 
would be awarded for projects that had demonstrated their 
effectiveness based on previous research findings.

               audit work on federal school drug programs

    Mr. Wicker. Well, I think based on just the overall data 
about drug use among teens, we would have to conclude that what 
we are trying to do Government-wide right now is not working.
    And I expect that what we are being told by some of the 
experts is true in that a lot of this money amounts to nothing 
more than revenue sharing from the Federal Government to the 
schools to use in a variety of ways. Something is not working 
in the schools.
    What have your audits shown, these 4 audits, I believe?
    Mr. McNamara. Well, we completed our survey work in New 
Jersey and they look pretty good from the preliminary results 
that we have gotten. We are just in Alabama and Texas now and I 
do not have any results on them yet.
    Mr. Wicker. They look good from the standpoint of following 
the plan that they submitted?
    Mr. McNamara. Yes, and that the plan was rolled up from the 
local level and that it seemed to be focused on going to what 
was perceived by the community to be what they needed.
    Mr. Wicker. Do you have----
    Mr. McNamara. I can get back to you with more information 
on that but that was the initial survey that we did to get 
ready to visit the other States, sort of to get a sense for how 
things were working, and we did not find significant problems 
there.
    I am aware of your other comment though that I think the 
DARE program is one that some of the governors are using fairly 
heavily to put money into and I think that has been the subject 
of some research in terms of how well that worksor does not 
work.
    Mr. Wicker. To your knowledge, has any recipient of these 
funds ever been sanctioned for improper use?
    Mr. McNamara. Not to my knowledge. But at this point we 
started just recently on the audit and we can follow-up on that 
and find out.
    Mr. Wicker. I would appreciate that.
    [The information follows:]
           Safe and Drug Free Schools and Communities Program
    Grantees receiving at least $300,000 in Federal funds are required 
to have a Single Audit performed. The Department of Education prepared 
a Compliance Supplement, for Elementary and Secondary Education Act 
programs which is intended to direct auditors' attention to those 
issues that are most suited to review by an auditor. The Compliance 
Supplement includes audit steps designed to detect violations of 
program requirements and includes a separate section on the Safe and 
Drug Free Schools and Communities (SDFSC) program.
    In addition to the Single Audits, States' and the Department's 
program offices monitor grantees for compliance with the SDFSC program 
requirements. Audits and program office compliance reviews have 
identified a number of violations of the SDFSC program requirements and 
corrective action has been required in many instances. During the audit 
resolution process, the program office has been very successful in 
negotiating a voluntary repayment of misexpended or lapsed funds from 
States. However, noncompliance with SDFSC program requirements, 
identified during Single Audits and monitoring reviews, does not appear 
to be more widespread than in other Department programs.
    We currently are performing an audit of the SDFSC funds going to 
State and local education agencies. Our objectives are to determine the 
flow and use of funds at the Federal, State and local levels and to 
assess the process used for developing measurable goals and objectives. 
We plan to visit five States and six local education agencies in each 
State.

    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Wicker.

             audit of year 2000 computer systems readiness

    Mr. McNamara, can you give the committee an update on how 
the Department is progressing and preparing for the Year 2000 
and its impact on the various computer systems?
    I understand that a number of Department systems were 
certified by vendors or contractors as Year 2000 compliant that 
have proven not to be.
    Is this a problem and, if so, what can be done about it? 
Given that the Department is experiencing substantial systems 
deficiencies independent of the Year 2000 program, especially 
in the student financial assistance programs, what specific 
steps should this subcommittee and the Department take to 
ensure a smooth transition to the new millennium at the 
Department?
    Mr. McNamara. Mr. Chairman, I brought with me a copy of an 
audit report that actually we have issued today entitled, ``The 
Status of the U.S. Department of Education's Readiness for the 
Year 2000.''
    In answer to your question, yes, it is a concern. Yes, 
there are several systems that initially were thought to be 
compliant that are not. In a nutshell, the Department is 
behind. It has moved up rapidly in the last several months but 
there is still a formidable task. It needs to accelerate its 
efforts. It needs to complete its Department-wide systems 
inventory. It needs to develop an estimate of the costs. We had 
estimated that an industry standard of about $1.00 a line of 
code it would cost about $30 million. The Department has 
recently come up with an estimate of about $23 million that 
they thought it would cost to fix our systems.
    We need to continue and expand our coordination with 
external providers because it is not just whether we internally 
in the Department can get our systems in order. We interface 
with guaranty agencies and a wide range of other people and it 
is important that our trading partners also be compliant.
    We need to enhance our plan for contractor oversight, as 
you mentioned. There was an indication initially that they were 
compliant and now we are finding they are not. We have been 
requested by the Department to look at this. And we will be, in 
addition to the independent validation and verification 
contractor that is going out to look at this. The Inspector 
General is going to be doing work helping validate that these 
systems truly are compliant.
    And finally, our recommendation was that the Department 
needed a contingency plan if, for example, a large guaranty 
agency cannot come up on January 3rd of 2000. So, we have 
issued this report to the Department. Management substantially 
agreed. I might add that they have a very top level effort led 
by the Deputy Secretary, and I think they have a meeting about 
every two weeks on this. They were making up ground fast but 
there is a lot of ground to cover.
    Most recently, the chairperson of this project has left to 
go and take an important post at another agency. So, that is a 
little bit of a drawback but the Deputy Secretary has appointed 
a new project director and we are hopeful that we will not lose 
too much steam on that.

              subcommittee hearing on the year 2000 issue

    Mr. Porter. Well, Mr. Skelly, let me give you a heads-up 
because this is not just for you, it is for each of the 
Departments and agencies under the subcommittee's jurisdiction. 
But we are very concerned that we are going to get down to the 
year 2000 and have substantial problems somewhere in the 
Departments and agencies under our jurisdiction. I do not want 
that to happen, obviously.
    We are going to hold a special hearing later after our 
regular hearings have been completed and we are going to invite 
the GAO that has reviewed each of our three Departments, and 
the Inspectors General of each of the Departments to sit at the 
table, the three departments and the agencies where the problem 
might be most critical, and then in the audience all the other 
agencies under or jurisdiction.
    Because I want to make certain that this does not turn up 
after the year 2000 rolls around as a problem anywhere. I think 
it is a serious matter that people have not gotten serious 
enough about early enough and I want to put some serious 
pressure on all of you to make certain we do not have the kind 
of problems that we could have if we do not address this.
    I know you are working on it. You just said that you were.
    Mr. Skelly. We are and we would welcome your support and 
appreciate your continuing support over the years. We have 
requested additional funds in our 1999 budget for year 2000 
compliance efforts. And those are based on estimates even 
before we have done all of our reviews.
    We have retained Booz, Allen, Hamilton to help us work with 
our systems and people are spending a lot of time on this, 
particularly the folks in the student financial aid areas where 
the head of our Program Systems Service, I know, has spent 
every day last week on the road going to the various 
contractors in Iowa, Connecticut, Texas, and other places where 
we have big systems contracts, spending a whole lot of time on 
it.
    Mr. Porter. I am not very computer literate but it seems to 
me that it is sort of amazing that along the line nobody 
contemplated this problem. I mean somebody did but a lot of 
people did not obviously and we have a problem like this that 
is going to cost hundreds and hundreds of millions of dollars 
throughout the Government, maybe billions of dollars throughout 
the Government, to address.

                year 2000 compliance of outside entities

    Mr. Skelly. Well, we have a different problem. It's not 
just the Department's own systems. Another problem is the 
systems of schools and colleges that work with us. They are not 
necessarily compliant. We have tried to publicize the problem 
quite a bit in the last few months to get their attention. We 
have information up on the Department's Web page, and we are 
sending out guidance to all the schools to remind them to get 
up to speed. It is not just our----
    Mr. Porter. Mr. McNamara raised that, too, with the 
contractors and we have the same problem with Social Security. 
The State agencies may not be in compliance even though the 
Federal agency is. And how do we ensure that the whole system 
does not back up because of that.
    So, I think it is a serious problem and while we have given 
it a lot of attention, throughout our hearings, I think a 
special hearing on this whole question is probably 
wellwarranted and I want people to understand how seriously we view the 
problem in the subcommittee and how much we want to ensure that it does 
not end up being a practical problem when we reach the year 2000.
    Thank you.

               ASSESSMENT OF GPRA COMPLIANCE BY EDUCATION

    On page 6 of your most recent report to Congress indicates 
that you began an audit to assess the Department's system for 
implementing GPRA and for the collection and recording of 
performance data. Many, but not all, of the programs within the 
Department of Education have not provided specific measurable 
standards by which to measure their results and determine how 
they contribute to the Department's overall performance 
objectives.
    How does your office interact with the rest of the 
Department to identify and measure such programmatic standards? 
What is the status of your audit process and what future audit 
activities are you planning?
    Mr. McNamara. The status of the audit is that we expect to 
have an audit report issued in early summer looking at 
basically the Department's implementation of GPRA and the 
systems that it is setting up to track the measures.
    After that we will be moving into looking at specific 
systems and the accuracy of the information that is being 
reported. So, we envision years of work in this area, cascading 
from where we are right now. We have worked with the Department 
in an advisory capacity during the preparation of the strategic 
plan and subsequently its performance plan.
    The Department got fairly high marks from Congress on the 
strategic plan. I do not think anybody has given out grades on 
the performance plan yet. Our role is going to be one of 
assuring that the information will flow through systems that 
can be considered to be reliable and that data will be valid 
and verifiable, and that we will not be using data, say, NCES 
data, for purposes that they were never intended. We need to 
ensure that the data that is coming in can be relied on.
    One of the recommendations we made to the Department that 
they did accept was that they would hold their managers 
responsible for making an assertion that either their systems 
were capable of providing accurate and reliable data or, if 
they could not make that assertion, that they would put 
together some type of a corrective action plan to get it to the 
point where they could be.
    And I am aware that not all of the programs have provided 
specific measures. I think, just as an observation, you know, 
you cannot throw a rock and not hit an advertisement for a 
conference on GPRA any more. I mean they are all over the 
Internet and everybody is having them.
    One of the common threads that has gone through what we 
have heard is that you have got the beginning of GPRA, which is 
all the paperwork stuff, the plan and the performance plan and 
that sort of thing. And one of the speakers at a conference 
asked this audience full of people to raise their hand if they 
were actually using GPRA to make management decisions or 
allocate resources. Not one hand went up.
    So, I think we are at the beginning now, sort of climbing 
the mountain, and I think we have got the paperwork down and 
the Department has made a good start at getting its tracking 
system established. And now, the real effort is going to be in 
inculcating this into the culture to where we really start 
working on results-oriented management techniques.
    Mr. Porter. Do not worry, we will work on it very hard 
here.
    Mr. McNamara. I trust you will, Mr. Chairman. [Laughter.]

           REPORT ON COLLECTIONS AND FUNDS PUT TO BETTER USE

    Mr. Porter. Two years ago, the subcommittee asked each of 
the Inspectors General to report to it on the funds actually 
paid to the Federal Government as a result of fines or 
forfeitures or the actual use made of funds put to better use 
as reported by the IGs.
    Your office and the Department of Labor office are having 
some trouble compiling these reports. Can you discuss these 
problems and how you feel they impact on the overall Federal 
governmental financial management systems?
    I understand that the HHS-IG is not having similar 
problems. Do you know why? When will you be able to provide the 
information we are requesting.
    Mr. McNamara. Let me take a start at the beginning of that 
question and then perhaps ask Ms. Van Riper to help me with the 
particulars on the Department of Justice.
    I do not know why HHS is not having problems. I think our 
sense of the problem is that the data that the Department of 
Justice reports to us on court ordered fines and restitution is 
much lower than what we think it is or ought to be. Some of the 
reasons for this could be we report them when they are ordered 
and we also report them when they are collected and those may 
be different periods.
    So, you may have some timing differences. In discussions 
with members of your staff, I jointly signed a letter with the 
IG from Labor and sent it to the IG at Justice pointing out 
that when we consulted with the people in the financial area at 
Justice, they indicated their systems would not provide us the 
information in the form that we needed to report to the 
subcommittee.
    This was a heads-up to him that the subcommittee might be 
talking to his oversight or budget subcommittee. I guess, 
Diane, can you answer what the specific problems are with 
Justice in terms of what we think we are not getting?
    Ms. Van Riper. I think Mr. McNamara has captured the 
essence of the problem and that is that what we get from the 
Department of Justice is going to be lower than the amount 
actually collected. What Justice gives us will be an amount 
that will not include the court ordered fines, or the damages 
that have been assessed in a civil complaint.
    The other problem is that in many cases the Department of 
Justice does not have the Department of Education identified as 
part of the investigative component that actually worked the 
case. And in those cases, rather than that monetary amount 
being reported to us, the money is just transferred into the 
victim protection program and we do not get credit for that 
amount.
    As an example, we have two cases that are currently in 
settlement negotiations and we expect settlements in the near 
future. Those settlements are going to result in excess of $36 
million in cash being paid by two entities. In one of those 
cases, I would expect that the collections that we will report 
will be half of the amount actually paid because the rest of it 
constitutes double damages that will go to the Department of 
Justice.

           EDUCATION PROGRESS ON COMPUTER SYSTEMS INTEGRATION

    Mr. Porter. All right. This is a lengthy question. The 
Higher Education Amendments of 1992 required the Department by 
January 1, 1994, to integrate its National Student Loan Data 
System--NSLDS--with other student financial assistance 
programs. Last July, three-and-a-half years after the statutory 
deadline for integrating these systems, the GAO and the IG 
testified before the Education and Workforce Committee 
regarding this matter. GAO stated that the Department had made 
only limited progress in integrating NSLDS with the other 
student financial aid systems. And that, as a result, the 
process is cumbersome, expensive, and unreliable.
    The GAO further testified the Department had not 
established common identifiers and standardized data reporting 
formats.
    Second, while the 1992 Amendments required common 
institutional identifiers by July 1, 1993, they testified that 
the Department's plans now call for their development and 
implementation for the 1999 to 2000 academic year.
    Third, despite a compelling need for assistance 
architecture that would enable the eventual integration of all 
Title IV systems, and despite two years of recommendations by 
the advisory committee on student financial assistance to move 
toward integration, the Department continues to acquire 
multiple stand-alone systems.
    The GAO made three recommendations. First the Chief 
Information Officer should develop and enforce a Department-
wide systems architecture by June 30th. All information 
technology investments made after that date must conform to the 
architecture. Funding for all projects must be predicated on 
such conformance, unless a thorough documented analysis 
supports an exception.
    The IG identified four problem areas regarding systems 
modernization. First, lack technical expertise in information 
technology to design and manage the large and complex contracts 
necessary to modernize. Second, poorly designed contracts and 
monitoring. Third, poor program information systems 
integration. And, fourth, data integrity problems in the loan 
system that will undermine the effectiveness of even the best 
integrated information system.
    In a related report the IG recommended that the Department 
appoint a chief operating officer who possesses experience in 
managing large computer-based financial services operations. 
What is the status of the NSLDS today? Do you agree with the 
GAO recommendations and has the Department adopted and 
implemented those recommendations?
    Mr. McNamara. We agree with GAO's recommendations. Also, 
today, we just issued a report on the status of the 
Department's implementation of the Clinger-Cohen Act, and some 
of the recommendations made by GAO have not yet been completely 
implemented, most notably the integrated information technology 
architecture.
    The Department has made one significant change and they 
have migrated the NSLDS system to what they call a common 
platform. It was costing us an awful lot of money to 
getinformation out of NSLDS because of the way the contract was set up 
every report we went for was sort of a special item, and we had to 
spend a lot on it. By moving it, we expect--or the Department has 
reported they expect--to save millions of dollars over the way they had 
done it in the past.
    Ultimately to integrate the systems, the Department is 
heading for something called EASI, which you have no doubt 
heard of, to bring all of the Department's systems together for 
sort of a seamless delivery system for student aid. That is in 
the systems development phase right now and that is one of the 
first systems development life-cycle audits that we plan to do.
    In a nutshell, the Department has not fully implemented 
GAO's recommendations. They are in the process right now of 
creating a performance-based organization in student aid and, 
in fact, they have hired a search firm to go out and look for a 
chief operating officer to head that organization. So, they are 
taking corrective action on that recommendation that we had 
made but a lot of work remains.
    Mr. Porter. Are they going to meet the June 30th deadline 
that the GAO proposed?
    Mr. Skelly. We now have plans to have a Department-wide 
systems architecture plan completed by June of 1998. That would 
grow out of the reengineering efforts that Mr. McNamara 
mentioned called EASI which is supposed to make all the student 
aid programs simpler, easier to use. So, that is still our 
goal.
    Mr. Porter. And how are these systems affected by the Year 
2000 problem and will the IG and the GAO recommendations 
mitigate or exacerbate the Year 2000 transition?
    Mr. Skelly. Most of our 14 critical systems are student 
financial aid systems. They are separate systems. They are not 
integrated, so, each of them will have problems.
    If we correct some of the problems in the individual 
systems for Year 2000, it probably will slow us down in getting 
to an integrated system but I think it has to be done. The 
systems have a long life cycle of development. You cannot just 
go out and buy a new system now and have it up and running for 
the school year that starts July 1, 1998. You have got to have 
some lead time. That is why the systems people, of which I am 
not one, will tell you that you have to have this grand 
architecture plan, systems architecture plan and base your 
decisions on that to try to integrate things. But, Year 2000 is 
tough for student aid systems.
    There are a couple of our systems which already are Year 
2000 compliant and both of those are in the student financial 
area, the student loan area actually.
    Mr. Porter. Thank you, Mr. Skelly.

              REAUTHORIZATION OF THE HIGHER EDUCATION ACT

    We expect Congress to reauthorize the Higher Education Act 
either this year or next year. The House committee has already 
reported out a bill. The IG made several recommendations 
regarding reauthorization including limiting the professional 
judgment of student financial aid administrators to adjust 
eligibility and eliminating advanced funding of the Pell Grant 
program.
    Pages 37 and 38 of your report list 17 general 
recommendations. Please, tell us which of the recommendations 
you regard as the most critical and whether they are included 
in the administration reauthorization proposal and the bill 
reported by the House committee.
    Mr. McNamara. In terms of the ones that we consider most 
important, I think the performance measures would be the most 
important and that was 70 percent graduation, 70 percent 
placement was the recommendation that we made.
    Mr. Chairman, we spend millions and millions of dollars on 
student aid every year, as you well know, and we think that the 
public deserves and should expect to have some measure of 
whether it is working or not. And that is why we believe very 
passionately in the need for performance measures for that 
program.
    I do not believe that that one made it through--I think the 
Department had put it in, for a short one-year program, and I 
do not believe that it made it. Do you know, Tom?
    Mr. Porter. Can you----
    Mr. Skelly. No, it did not.
    Mr. Porter. Can you take all 17 recommendations and, for 
the record, indicate whether they are included either 
substantially or partially in the administration 
reauthorization proposal and the House committee bill?
    Mr. McNamara. We certainly will.
    Mr. Porter. Why do you not do that for us.
    [The information follows:]


[Pages 544 - 546--The official Committee record contains additional material here.]



                EDUCATION'S AUDITED FINANCIAL STATEMENT

    Mr. Porter. The Chief Financial Officer's Act and the 
Government Management Reform Act require the Department to 
prepare consolidated financial statements. Page 19 of the 
report indicates that the Department finalized its 1996 
consolidated financial statements in July 1997 and independent 
auditors issued their reports the following month.
    The outside auditors indicated that they were not able to 
express an opinion on the statements due to difficulties 
estimating loan liabilities for loan guarantees, the allowance 
for uncollectible defaulted loans, the allowance for direct 
loan subsidiary costs, and the related guarantee and direct 
loan subsidy expenses.
    Two questions. First, why does it take the Department until 
the fourth quarter of the subsequent fiscal year to finalize 
its financial statements? And, is this a concern and what 
recommendations has the IG made to improve efficiency in that 
regard?
    And, second, in your opinion, how serious are the 
deficiencies identified by Price Waterhouse and when will these 
deficiencies be corrected so that the Department can receive a 
clean audit?
    Mr. McNamara. The first part of the question, Mr. Chairman, 
why so late? The Department relies on information it gets from 
external entities, most prominently would be the guaranty 
agencies, to develop the information that goes into its loan 
loss estimates.
    Generally, that information over the years has not been 
accurate, although the Department and the guaranty agencies 
have been working very hard in the last year or so to clean 
that up. That is the primary reason that it has been very 
difficult to get accurate information that will stand up to an 
audit.
    This year we will be late as well. The report was due on 
March 1 and, as I mentioned earlier, it will not be out until 
about May 30th. We have the information. We are currently 
auditing the model and the other departmental information and 
at this point until the audit is complete we really do not know 
whether the numbers are going to work out.
    One significant improvement will be the new accounting 
system once it is implemented. The current accounting is 
extremely cumbersome. It requires lots and lots of manual 
intervention and it is just absolutely horrendous to account 
for and to audit against. And, so, we are very hopeful that 
when the Department's new system is implemented some of these 
problems will go away.
    We still will rely on the external entities though for 
accurate information.
    Mr. Porter. Thank you.

                    AUDIT OF OFFICE FOR CIVIL RIGHTS

    This subcommittee funds a number of agencies that enforce 
or provide technical assistance regarding compliance with Civil 
Rights laws. We fund several protection and advocacy agencies, 
one in developmental disabilities, one in SAMSA and one in 
rehabilitation services. In addition, we fund offices of Civil 
Rights in both HHS and Education. We also fund client 
assistance centers, parental assistance centers, and equity 
assistance centers, all focusing on technical assistance or the 
legal enforcement of various Civil Rights laws. Overall, in 
Fiscal Year 1998, we will spend $176,000,000 on these programs.
    Of course, your agency is also one concerned with the 
enforcement of Federal laws. What role does your agency play in 
the enforcement of the various Civil Rights laws?
    Mr. McNamara. When you say, your agency, do you mean the 
Office of Inspector General? None. We do not enforce Civil 
Rights laws. We have occasionally done audits of certain OCR 
activities, but we do not have a role in that area.
    Mr. Porter. Yes, but you oversee the----
    Mr. McNamara. As with any departmental program, yes, we 
would. And we did an audit a couple of years ago in OCR and 
right now it escapes me what the particular issue was that we 
were looking at. We can respond on the record in terms of what 
it was we did and what we found.
    Mr. Porter. All right. Why do you not do that, thank you.
    [The information follows:]

                Oig Role in Enforcing Civil Rights Laws
    The OIG does not have a role in enforcing the civil rights law. 
However, in our role of ensuring program efficiency and effectiveness, 
we performed a review of the efficiency and effectiveness of the 
Department's Office for Civil Rights' (OCR) operations. The OIG report, 
issued November 22, 1995, disclosed the OCR had made many improvements 
in its operations. These improvements include employee empowerment, 
reduced levels of review, a new Complaint Resolution Manual, and a new 
organizational structure. By making these changes, OCR has improved the 
way it evaluates and resolves civil rights complaints. The OIG made a 
number of recommendations to further improve OCR operations in order to 
meet its mission.

      deficiencies in education's financial and accounting systems

    Mr. Porter. Recent conversations with the Department 
concerning the scoring of appropriations made by this 
subcommittee have made it clear that the Department's financial 
and accounting systems do not now provide accurate data on 
total outlays nor on the exact amount of outlays on a program-
by-program basis. Are you aware of the problem and how can it 
be resolved? Can the agency have a clean financial statement 
while this problem remains?
    Mr. McNamara. Yes. We are aware of the problem. I think it 
will be resolved by the new system. Under the current system 
there is something called the pooling concept where entities 
draw down the money without explaining which grant or program 
the money is drawn down against. And it may be anywhere from a 
month to a quarter to perhaps even longer before they come back 
in and the money can be specifically identified to which bucket 
it applies to.
    The new system will not permit that. You will have to 
identify when you draw down as to where the funds are going to 
be used. It has not been an issue in terms of financial 
statements. There have been other issues that prevented a clean 
opinion, but this has not been one of them.
    Ultimately, the information came in and was auditable. 
However, it does not provide for a very timely way to answer 
Congressional or other requests, and it requires a lot of 
manual intervention from what I hear.
    Mr. Porter. When will the new system be functional?
    Mr. McNamara. As Mr. Skelly mentioned earlier, it is 
supposed to be deployed mid-May.
    Mr. Skelly. But it might be some years before we would be 
able to look back at the data and say this is really much 
better than the old system. It is designed to provide grant-
specific information so that we know how much is used for each 
program in each fiscal year, such as the kind of information 
Mr. Wicker was asking about. But just based on past experience 
with systems, I think it is prudent to maybe give us at least a 
year or two years to look back and see how much better it 
really is. But it is designed to work a whole lot better.
    Mr. Porter. All right, thank you, Mr. Skelly.

                       supplement--supplant rules

    Mr. McNamara, about a year ago GAO issued a report on the 
substitution of Federal funds for local funds in spite of 
various maintenance-of-effort provisions. This report was 
Government-wide and did not focus solely on the Department of 
Education funding. Do you feel that the substitution of Federal 
funds for State and local elementary and secondary funding is a 
problem? And, if so, what is the magnitude of it?
    Mr. McNamara. Mr. Chairman, I am not aware right now. We 
have not done work in supplement-supplant in quite a few years. 
So, I do not think we really have any information on that. We 
would be glad to check and get back to you for the record to 
see if can find something.
    Mr. Porter. That would be fine.
    [The information follows:]
                     Substitution of Federal Funds
    The Office of Inspector General has not performed an audit recently 
that was specifically designed to detect whether grantees are 
supplanting funds. However, grantees receiving at least $300,000 in 
Federal funds are required to have a Single Audit performed. The 
Department of Education prepared a Compliance Supplement, for 
Elementary and Secondary Education Act programs, which is intended to 
direct auditors' attention to those issues that are most suited to 
review by an auditor. The Compliance Supplement includes audit steps 
designed to detect violations of maintenance of effort, supplement not 
supplant, and comparability requirements.
    In addition to the Single Audits, States and the Department's 
program offices monitor grantees for compliance with the maintenance of 
effort, supplement not supplant, and comparability requirements. 
Although the Single Audits and State and Federal monitoring have 
identified some instances of noncompliance with these requirements, the 
noncompliance does not appear to be widespread. We have no reason to 
believe it is a significant problem. However, the Department is about 
to issue new guidance covering supplanting and comparability.

                assessment of oig performance under gpra

    Mr. Porter. By what specific measurable GPRA standards 
should we judge the work of the Office of Inspector General?
    Mr. McNamara. How to get a value-added is tough with the 
IGs. We have had our own colloquia to try to figure this out. 
We have our own performance plan. Basically we have three 
goals. And we were going to judge our worth on how much the 
Department and Congress used our reports to make changes.
    And some of our measures were the number of significant 
recommendations that we made; the extent to which we are 
sustained in the recommendations that we make; whether it is 
procedural change or recovery of funds. Another key measure is 
that we would disclose significant fraud, waste and abuse 
through our investigative and compliance audit efforts.
    And some of the measures there were the extent to which our 
cases were accepted for prosecution, results of some of our 
prosecutorial efforts, collections of fines.
    We are a little bit leery, given all the problems the IRS 
has had recently and other IGs, of doing anything that smacks 
of a bounty system that the more you bring in the better type 
of thing. And what we are trying to do is find a way to 
determine how much change we can effect by our audits and 
investigations.
    And when I, in going through these measures, I first saw 
them I could find problems with all of them but I was hard-
pressed to really come up with better ideas. The outcome 
measures, particularly, we may not know for several years. We 
had one audit issued on IDEA in terms of changing the funding 
formula and it took about two or three years and then Congress 
got a hold of the report and it resulted in a significant 
change. And, in fact, the report was cited as the catalyst for 
bringing that about.
    Now, I do not know how we would capture that in the current 
system because it would be a couple of years down the line. It 
had a significant outcome though.
    So, some of these outcome measures may take years to figure 
out. As a general rule, we are focusing much more now on 
performance-based work and systemic work, say, Year 2000, you 
know, so that the Department will be ready. It is hard to 
quantify those types of results. It is easy to go out and chase 
proprietary schools and quantify some dollars and really have 
no systemic change.
    So, it is something we are wrestling with and all the other 
IGs are, as well.
    Mr. Porter. Mr. McNamara, thank you. You have actually 
answered every question I have.
    Mr. McNamara. Thank you.
    Mr. Porter. And that is very unusual because I never get 
through all my questions and I appreciate you doing that.
    We thank you for the fine job you are doing and for your 
appearance here today.
    Mr. McNamara. Thank you, Mr. Chairman.
    Mr. Porter. Thank you very much.
    The subcommittee will stand in recess until 10 a.m. 
tomorrow morning.
    [The following questions were submitted to be answered for 
the record:]


[Pages 551 - 554--The official Committee record contains additional material here.]



                                          Wednesday, April 1, 1998.

                    POSTSECONDARY EDUCATION PROGRAMS

                                WITNESSES

DAVID A. LONGANECKER, ASSISTANT SECRETARY FOR THE OFFICE OF 
    POSTSECONDARY EDUCATION
MAUREEN A. McLAUGHLIN, DEPUTY ASSISTANT SECRETARY FOR POLICY, PLANNING, 
    AND INNOVATION
CLAUDIO R. PRIETO, DEPUTY ASSISTANT SECRETARY FOR HIGHER EDUCATION 
    PROGRAMS
DIANE E. ROGERS, ACTING DEPUTY ASSISTANT SECRETARY FOR STUDENT 
    FINANCIAL ASSISTANCE PROGRAMS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
ROBERT H. DAVIDSON, DIRECTOR, POSTSECONDARY ANALYSIS DIVISION, BUDGET 
    SERVICE

                       Introduction of Witnesses

    Mr. Porter. The subcommittee will come to order.
    We continue our hearings on the appropriations for the 
Department of Education for fiscal year 1999 and are pleased to 
welcome this morning Dr. David Longanecker, the Assistant 
Secretary for Postsecondary Education. Welcome.
    Mr. Longanecker. Good morning.
    Mr. Porter. It is good to see you again. Would you 
introduce the people that you brought with you and then proceed 
with your statement, please?

                           Opening Statement

    Mr. Longanecker. I would be glad to. I think you know well 
Tom Skelly, who is our budget director. With Tom today is Bob 
Davidson, who works with him.
    On my immediate right, your left, is Claudio Prieto, who is 
the Deputy Assistant Secretary for Higher Education Programs. 
That is the non-student financial aid part of our shop. To my 
left, your right, is Maureen McLaughlin, who is my Deputy 
Assistant Secretary for Policy and Planning. And to her left is 
Diane Rogers, who is the Acting Deputy Assistant Secretary for 
Student Financial Assistance Programs.
    When I received this invitation for today, I wondered if 
there was any significance to the fact that this is April 
Fools' Day, but I presumed that it was just that we were lucky 
enough to come up on this day.
    I want to thank you for the opportunity to be here this 
morning, Mr. Chairman, to share with you the administration's 
postsecondary education budget proposals, which this year are 
dovetailed with our proposals for reauthorization of the Higher 
Education Act.
    I would ask that the full text of my prepared remarks be 
entered in the record, and I will present somewhat briefer 
remarks here this morning so that we can get to the dialogue as 
soon as possible, if that is okay with you.

         administration's budget and reauthorization proposals

    The budget and reauthorization proposals that we present to 
you today are intended to build on the strong postsecondary 
agenda that the Congress and President Clinton have fashioned 
together over the past 5 years, an agenda that has included 
development of the remarkably successful Direct Loan program, 
historical increases in the Pell Grant program, dramatic 
improvements in oversight and accountability, creation of the 
new national service program, expansion of the College-Work 
Study program combined with blending more of that program into 
service opportunities for the participants, including a 
substantial effort in the America Reads program, and last, but 
certainly not least, the comprehensive tax package of education 
benefits passed last year that will provide more than $35 
billion in tax relief for students and their families over the 
next 5 years.
    We can all be proud of these accomplishments. Not even 
counting the tax proposals, you and we have nearly doubledthe 
Federal student financial assistance benefits available since our 
partnership began in 1993.
    Now, despite those great accomplishments, however, we still 
have an unfinished agenda if we are to assure universal access 
to quality postsecondary education and lifelong learning. The 
proposals that we are placing before you today address that 
unfinished agenda. Furthermore, they do so within the framework 
of a balanced budget, which we continue to believe is very 
important.
    Now, it is that last constraint--the budget constraint--
that has led us to offer more modest proposals than you are 
seeing from some others, including your own authorizing 
committee. We are proposing an increase in the Pell Grant, for 
example, from a $3,000 maximum to a $3,100 maximum, which is 
fundable within the budget constraints that we have, unlike the 
proposal in the House bill to increase the maximum to $4,500, 
which would require an increase in Pell Grant funding of nearly 
$5 billion.
    Likewise, we have proposed substantial changes in the 
student loan program, changes that will increase access to 
loans in both the FFEL and the Direct Loan programs, but will 
do so without reckless increase in shift of costs from lenders 
to taxpayers of more than $1 billion which are included in the 
current House committee bill.
    In sum, our proposals are intended to be appropriate to the 
times--that is, they are intended to be responsive to the needs 
of students and their families, but also responsive to the 
needs of the taxpayers who we are going to be asking to pay for 
these programs.
    So let me go into our proposals.

                     college preparedness proposals

    Remember the national goal that we talked about a few years 
ago that we still have, that all students should come to school 
ready to learn? Well, one of our themes this year is to try and 
do a better job of assuring that all students come from high 
school to college ready to learn. While we have done much to 
make college affordable over the past few years, our research 
shows that many children and their parents, particularly at the 
critical middle-school years, really do not understand how 
important college or postsecondary vocational training will be 
to their future, so they are not preparing adequately, either 
financially or academically. We are proposing two new programs 
to replace the unfunded moribund programs in the current Higher 
Education Act to address this issue.

                         high hopes for college

    The first is the High Hopes for College program, a program 
similar to the well-known and highly regarded ``I Have A 
Dream'' program, and we have requested $140 million for that 
effort, which would create intentional partnerships between 
colleges, middle schools that serve disadvantaged students, 
community-based organizations, and businesses to begin working 
with students as they enter middle school and keep them on 
track for a positive educational future. We are pleased that 
the authorizing committee has supported this proposal in the 
bill that they are likely to be bringing forward.

                      early awareness information

    Second, we have proposed a modest $15,000,000 program to 
conduct an information campaign to raise the awareness of 
parents, students, teachers, and counselors about the 
importance of all youth keeping their educational options open.

                             trio increase

    To complement these new efforts, we have also requested a 
10 percent increase in the TRIO program to bolster its highly 
successful Upward Bound program, which focuses on assuring that 
high school students who are at risk stay in school and on a 
track toward college.
    Now, another way in which we can help students to be better 
prepared to come to college is to assure that they have 
excellent teachers while they are in elementary and secondary 
schools. And so we have proposed a two-pronged approach to new 
teacher development: requesting $37 million for a program to 
recruit new teachers for high-poverty urban and rural areas, 
and $30 million for what we refer to as Lighthouse 
Partnerships, which would support consortium of universities 
and colleges that support ``best in practice'' professional 
teacher development programs, programs that would include an 
integrated curriculum across the entire curriculum of college, 
not just in the school of education, that would have strong 
clinical relationships with elementary and secondary schools 
that provide an induction process for neophyte students after 
they have completed their academic training.

                          pell grant increases

    We also seek, in this set of proposals, to continue efforts 
to reduce the costs of college. I mentioned previously our 
proposal to increase Pell Grants by $100. We obviously would 
like to do more, but each $100 increase in the Pell Grant 
program requires an additional $300 million in appropriation, 
so budget considerations forced us to be relatively frugal in 
this request.

                         student loan proposals

    Perhaps the most substantial proposals we offered in this 
area were with regard to the student loan programs. To improve 
efficiency, we have proposed streamlining and simplifying the 
guaranty agency system in the Federal Family Educational Loan 
program. Ours is a common-sense business approach--reflecting 
what guaranty agencies actually provide and paying them on a 
fee-for-service and performance-based approach, rather than the 
current one-size-fits-all approach. We have also proposed to 
use the savings that accrue from this to reduce, and eventually 
eliminate for needy students, the origination fees currently 
charged to all borrowers. Obviously, achieving one of those 
requires achieving both.
    We have also offered a very reasonable solution to the much 
discussed interest rate issue. A recent Treasury report 
indicated that we can address lenders' legitimate concerns 
about assuring a reasonably profitable yield and still give 
students the promised interest rate cut, and that we can do so 
without further gouging the taxpayers. A study released by CBO 
just two days ago confirmed that the current profits of banks 
are excessive, suggesting that reductions in profits can be 
imposed without eroding access to student loans. We have 
proposed a solution consistent with those studies. Our proposal 
will assure a reasonable yield and profit to banks. If banks 
respond unreasonably to our reasonable proposal and withdraw 
from the program, we will replace any lost capital in the FFEL 
program with loans provided directly by guaranty agencies or 
Sallie Mae, both of which are required by law to act as lenders 
of last resort, and both of which have indicated a willingness 
to work with us to continue broad access to the FFEL program. 
We honestly believe that these proposals strengthen, not 
weaken, the FFEL program.

           administration's commitment to graduate education

    We also propose in our budget to sustain the Federal 
commitment to encouraging quality and innovation in American 
higher education through an enhanced consolidated effort to 
support graduate education; through a slight increase in the 
exceptionally fine FIPSE program; through substantial expansion 
of the Title III programs, particularly those that focus on 
minority serving institutions; through a proposed $30 million 
Learning Anytime Anywhere program to support development of 
innovative high-quality distance-learning technology programs; 
and through continued support for our efforts in international 
education.

                         modernization efforts

    We have proposed a number of other really great ideas in 
our reauthorization package, most of which have relatively 
modest appropriations impact, but are nonetheless very 
important. These include proposals to modernize the 
administration of Federal student financial assistance through 
the creation of a performance-based organization; to radically 
simplify the needs analysis and the Free Application for 
Federal Student Aid (FAFSA); to move to a differentiated system 
of institutional oversight that would allow us to reduce the 
administrative burden on high-performing institutions; to 
provide incentives for students and families to earn and save 
more, rather than penalize them as we do today; to remove 
barriers that artificially constrain colleges and universities 
in providing distance-learning programs under current law; and 
to alter the current campus-based student aid distribution 
formulas so that funds in the future go to where the emerging 
needs are now, rather than to where those needs were 25 years 
ago.
    All of these are important initiatives. Some are faring 
well in the reauthorization actions, others are not. But we 
believe all are worthy of our concern and yours as well.
    With that, I would like to conclude my remarks. What we 
place before you today is an ambitious but achievable agenda, 
and an affordable one. I look forward to receiving your advice 
and counsel and to working with you as we move this agenda 
forward.
    Thanks again for the opportunity to be here. We are at your 
service.
    [The information follows:]


[Pages 560 - 565--The official Committee record contains additional material here.]



                        pell grant authorization

    Mr. Porter. Thank you for your statement, Dr. Longanecker.
    I want to go back to something you said that I did not 
quite understand. You were talking about the authorizing of the 
Pell Grant program at $4,500.
    Mr. Longanecker. That is correct.
    Mr. Porter. And how long is that authorization to last?
    Mr. Longanecker. The authorization would be--they have a 
different authorization level for each year in the bill. The 
authorization for fiscal year 1999 that is in the bill is for 
$4,500.
    Mr. Porter. I see. So then it rises from that point?
    Mr. Longanecker. That is correct.
    Mr. Porter. Okay. Of course, that is an authorization and 
not an appropriation.
    Mr. Longanecker. Right.
    Mr. Porter. So it is a ceiling rather than a suggested 
funding level.
    Mr. Longanecker. Yes. The discipline we placed on ourselves 
did not allow us to sort of operate in that environment.
    Mr. Porter. Well, the discipline we are going to have to 
place on ourselves will not, either, I am sure.
    Mr. Longanecker. Absolutely.
    Mr. Porter. Although we will not know that for a while yet.
    What has been the historic rate of increase in tuition?

              support for seog and perkins loans programs

    Mr. Longanecker. There has been a substantial--it is 
difficult to say what the historic rate is. During the late, 
the mid--from about 1975 to about 1990, there were substantial 
increases in tuition.
    Mr. Porter. All right, since 1990 then.
    Mr. Longanecker. Since 1990 we have had increases in the 4 
to 6 percent range, about 1 to 2 percentage points above the 
CPI.
    Mr. Porter. So we are almost assured that if we spend 
another $100 in the Pell Grant it will be absorbed in higher 
costs and will not get us any greater access. Is that basically 
true?
    Mr. Longanecker. $100 in Pell about keeps us even. That is 
correct.
    Mr. Porter. We do not make any progress because they just 
jack up the prices.
    Mr. Longanecker. Well, I would not reflect it that way. I 
think there are legitimate forces that drive higher education 
prices up, just like they do any other business, and that it is 
really a maintenance of effort rather than a substantial 
increase.
    Mr. Porter. Well, it may be a cost push, too, where it 
simply rises to meet the additional available resources, and 
that has always bothered me.
    Mr. Longanecker. Yes.
    Mr. Porter. Let me talk about something else. The budget 
proposes a $5 million increase for the Supplemental Educational 
Opportunity Grant program, SEOG program.
    Mr. Longanecker. Yes.
    Mr. Porter. And $60 million for the Perkins Loan program.
    Mr. Longanecker. Yes.
    Mr. Porter. As we discussed last year, the President's 
budgets have variously recommended cutting the program, 
terminating it, restoring it, and now you are proposing a major 
reduction in it. An earlier draft of the President's budget 
indicated that he would propose a $65 million increase for 
SEOGs and terminate the Perkins program.
    Given all of the concern the administration has expressed 
over the dramatic shift in students' reliance on loans as 
opposed to grants, why did the administration decide to reduce 
proposed funding for a low-income grant program in order to 
fund a loan program which duplicates both FFEL and the Direct 
Loan program?
    Mr. Longanecker. There were a couple of reasons why we 
shifted from earlier discussions we were having. Let me 
indicate first, though, that our--we looked at the funding 
level we have proposed for Perkins somewhat differently. What 
we did is we looked at the overall package for Perkins, and 
what our proposal does is it keeps the level of funding 
constant that would be available to students. That required 
less appropriation this year, in part, because we have a fund 
that traditionally went to Treasury that comes back into the 
program $40 million, and because the combination of four 
different pockets of funds still brings that up to a little bit 
over $1 billion, which would be equivalent to what was 
available last year. That is on the side.
    But our rationale for changing from where we were was that, 
in part, what you are responding to was an idea that was coming 
out of the Department of Education. It was being shared with 
the community for response. The higher education community had 
a very negative response with respect to the proposal that we 
had taken forward, indicated that they would much prefer to 
maintain all three programs basically as they were, and this 
was an area where we felt that to provide leadership, we had to 
have some followers, and we had no followers. And so we 
basically found a position that the people we were trying to 
serve were more comfortable working with us on.

                           work-study program

    Mr. Porter. I do not think that is leadership, frankly. I 
think that is finger in the wind. But the Department has long 
talked about achieving a goal of serving 1 million students 
through the work-study program. We appreciate that the 
administration is now following the lead of Congress with 
regard to this program, but while Congress has provided large 
increases for the Work-Study program in the last 2 years, the 
administration has implemented a policy to waive the 
institutional matching requirement. This policy actually 
reduces the number of students which the program can serve.
    During last year's hearing, you testified that the new 
policy would result in the loss of between $16 million and $247 
million in work-study funding. You estimated that the lost 
dollars would require that between 15,000 and 231,000 students 
be eliminated from the program.
    As a result of that policy, how many students were actually 
eliminated from the work-study program in fiscal year 1997? And 
what are your estimates for fiscal years 1998 and 1999?
    Mr. Longanecker. Mr. Chairman, I do not have those 
statistics. I will pull those together and provide those to 
you. Keep in mind we are only proposing to eliminate the match 
for students who are involved in the America Reads program, 
which is the mentoring program.
    Mr. Porter. But your estimates were based on that, also.
    Mr. Longanecker. Yes, correct.
    Mr. Porter. So that we could have the same, we could have 
experienced a rather substantial loss in fiscal year 1997, 
and----
    Mr. Longanecker. It is conceivable, and what I would like 
to do is to get back to you with the specifics on those. And I 
apologize for not having that with me.
    Mr. Porter. When you answer this for the record, let me ask 
it, then, the way I would ask you to answer it. How many 
students were actually eliminated in fiscal year 1997? What are 
your estimates for fiscal year 1998 and fiscal year 1999? And 
do these estimates take account of the fact that the Department 
has a GPRA goal of increasing use of the institutional waiver, 
thereby decreasing the number of students who can participate 
in work-study?
    [The information follows:]
                     Federal Work-Study Recipients
    The Work-Study program is forward funded. The fiscal year 1997 
appropriation supports program activity for the academic year that 
began on July 1, 1997, and ends on June 30, 1998. Consequently, we do 
not yet have actual program information for fiscal year 1997. In other 
words, at this time the Department is only able to provide estimates of 
the effects of our waiver policy for fiscal years 1997 through 1999.
    For fiscal year 1997, we estimate that 945,000 college, university, 
and proprietary school students will be employed part-time under the 
Work-Study program. Absent our policy to waive the institutional match 
for Work-Study students employed as literacy tutors, about 960,000 
students would be aided in this program.
    For fiscal year 1998, we estimate that 942,000 students will 
benefit. This number is 18,750 less than would be aided if our policy 
were not in effect. For the Administration's fiscal year 1999 budget 
request, our estimates are 1,017,000 and 25,000, respectively.
    One of our goals under the Government Results and Performance Act 
(GPRA) for the Work Study program is to improve the level of 
participation in community service under the Work-Study program. One of 
our strategies for achieving this goal is to provide incentives to 
participating colleges and universities to encourage them to employ 
their students as reading tours. One such incentive is to waive the 
required institutional share of Work-Study wages for students employed 
as reading tutors. While this policy may reduce slightly the overall 
number of students participating in the Work-Study program, we believe 
it will increase the number of students employed in community services 
activities.

                          year 2000 compliance

    Mr. Porter. Dr. Longanecker, yesterday we discussed the 
year 2000 issue with the Inspector General. My greatest concern 
along with Social Security, is the student aid programs. 
Unfortunately, as we also discussed with the IG, the student 
aid information and financial management systems have dramatic, 
substantial deficiencies. Nevertheless, I want to ensure 
absolutely that the student aid systems, such as they are, will 
make a smooth transition to the year 2000. As I told the IG, 
this has got to be on the top of your priority list.
    I understand that several of your systems that were 
initially thought to be year 2000 compliant are, in fact, not. 
What actions have you taken to address this problem, and what 
steps will you take during the next 2 years to resolve problems 
and make it a smooth transition?
    Mr. Longanecker. I can assure you that this is a high 
priority. We consider this to be as important, I am sure, as 
you do. We have a Y2K committee that works regularly, that 
meets weekly to work on this issue. It is chaired by Mike 
Smith, the Under Secretary. We are working--we have contracted 
with KPMG to work with us to make sure that we are fully 
compliant.
    Our goal is to have our systems compliant, fully compliant 
and tested, by March of 1999, and we are on schedule to do 
that. We are doing everything we can before September 30th of 
1998. So we are moving as aggressively as we can.
    Some of our systems development precludes our being able to 
do that because new systems will come on during that period of 
time, but we are working very aggressively. The principal staff 
for this has been, up until just very recently, done by the 
Deputy CFO, who just recently took a job as a CFO in another 
agency. That has been replaced by another SES-level person.
    We see this as an extremely important area, not only for 
ourselves, but we are also trying to do a great deal in 
outreach to the community, to make sure that their systems are 
compatible and are Y2K compliant because it is not going to do 
much good for us to be in good shape and for our customers and 
our schools not to be. And so we are working very hard to try 
to make sure that their systems are Y2K compliant as well.
    Mr. Porter. Yes, and I think this is important not only for 
your areas but for a lot of different areas, at least in the 
departments under our jurisdiction. I will tell you how 
seriously we take this matter. We are going to hold a special 
hearing, have all three Departments come in, have the IGs of 
those Departments come in, have the GAO come in, and have all 
the agencies under our jurisdiction that could have that 
problem come in as well, and really try to address this thing 
and bring some pressure on all of you, which you are telling me 
you do not need. But we want to make sure that there are no 
problems come the year 2000.
    Mr. Longanecker. Well, whether we need it or not, I think 
it is appropriate. It is very important to us; I am sure it is 
very important to you.
    Mr. Porter. Absolutely.
    Mr. Hoyer?
    Mr. Hoyer. Thank you.
    Dr. Longanecker, I want to welcome you to the committee and 
I want to thank you for coming down to Charles County, 
Maryland, last weekend to explain to some of my constituents 
how they can better access the tax benefits that were afforded 
in 1997. That is assuming they can figure out the forms, which 
is, from all accounts, pretty difficult. But I wanted to thank 
you for that. I appreciate it very much.
    Mr. Longanecker. You are welcome.

                         high hopes for college

    Mr. Hoyer. Let me ask you about this High Hopes initiative. 
You refer to it in your statement on page 2. High Hopes, as I 
understand it from your statement, is to deal with middle 
schools.
    Mr. Longanecker. That is correct.
    Mr. Hoyer. Or junior high schools.
    Mr. Longanecker. Right.
    Mr. Hoyer. Do we have a similar program at the elementary 
school level?
    Mr. Longanecker. We do not at the elementary school level, 
and we could have begun there; but we felt for two reasons that 
it made sense to start at the middle school. One is that if you 
look at the test scores, the TIMSS scores and others, clearly 
where we are doing best in our elementary and secondary system 
is in the early elementary years. Where we are really starting 
to lose the students is in the middle schools. That is where 
American education is really starting to lose students, it 
would appear. Also, it was sort of an iterative process. We 
have the Upward Bound program for high school students; and 
students and their families are making such critical decisions 
about their future as they move into sixth and seventh grade. 
They are making decisions about whether they will take algebra 
or pre-algebra. They are making decisions about whether they 
are saving for college or not and what they are planning for. 
They are making decisions about whether they will take consumer 
math or real math or whether they will take science and physics 
and such.
    Furthermore, what we found in our research is that all the 
families and the students believe at that point that they 
should be going on to college. However, there are two 
disconnects. First is that the families and students do not 
understand what it takes to be prepared for college, so we have 
some lessons they need to learn there. Second,is, even though 
the families and the students believe that there should be some 
postsecondary education in their future, many of their teachers and 
counselors do not believe that.
    We therefore wanted a program that--unlike the TRIO 
program, which really works outside the schools, was an 
integral part inside the school, working with the faculty of 
that school and colleges to help provide a very positive image 
about this. We found some examples out in the community that 
have already developed along these lines and that are having 
remarkable success in enhancing the educational futures of 
their students.
    We have received information on some programs. I was on a 
town meeting with the Secretary a week ago with people from 
Southern California who have a program where they are working 
with these students; and the percentage increase in attendance 
at college is just remarkable, just phenomenal. Houston has a 
similar program.
    Mr. Hoyer. Does the program contemplate using college 
students?
    Mr. Longanecker. It contemplates using college students, 
college faculty, college administration, college resources and 
facilities--all of those things--to really take that 
institution, that university or college that is involved in the 
partnership as a total institution. The students would be 
mentors. The faculty would be working with the faculty of the 
middle school, all trying to find ways to make sure that the 
success of those middle school students is enhanced.
    Mr. Hoyer. I think one of the reasons that we have the 
finest higher education system in the world, is that our 
education system is not exclusive. There are other good 
systems, but our high schools and primary education is not 
competitive. It is my premise that if you have not reached a 
child from 0 to 8--and I use that for the third grade--you are 
in real trouble. You are not going to get to them in junior 
high. Essentially, you can, but the percentage of success would 
be small.
    I think there needs to be a greater coordination between 
colleges. In my own State, Towson State University is one of 
the outstanding so-called normal schools.
    We also got away from practicums, a semester of teaching 
with a master teacher or something of that nature, all of which 
I think can be very helpful.
    I think that junior high schools do need help. I am all for 
the 100,000 new teachers, but I really think that we ought to 
look at this because if you get really discrete education at 
pre-K through third grade you will do better. And while I think 
the junior high school level is a real challenge because of 
what you said in terms of where kids start to lose interest and 
underperform, I am not sure that if you are going to start a 
program like this, which I think is a critical program, that 
middle school is the place to start it.
    Mr. Longanecker. Obviously, this is our middle school 
initiative. It is not as though we are unmindful of the needs 
of other areas. We have the America Reads program which really 
is focused on trying to bring all students to a reading level 
by the end of the third grade. That is a major thrust of ours.
    We have an afterschool program that we have proposed which 
we think will substantially enhance learning--we have a number 
in the elementary and secondary area. My area is higher 
education so we were trying to focus there.
    This is really patterned to some extent after the ``I Have 
A Dream'' program which has been very successful and which 
shows very strongly that just providing the assistance, the 
financial assistance, is not enough. We have to provide the 
support.
    We also want to get into the school so that the school is 
changing. We do believe our colleges are the strength of our 
education system and that engaging those institutions, their 
faculty, their administration, their students in the reform of 
elementary and secondary schools will help achieve substantial 
gains.

                          year 2000 compliance

    Mr. Hoyer. Doctor, let me reiterate the chairman's concern 
about Y2K.
    I do not think there is a member of the Appropriations 
Committee, and certainly none who have served on the Treasury 
Appropriations Committee who have seen IRS struggling with its 
information systems, that is not concerned about the Y2K 
problem and does not believe that there are some optimistic 
projections being made as to when this is going to be done.
    So I just want to agree wholeheartedly with the chairman. 
Ms. Northup sits on the Treasury and Postal Committee with me 
so we have been through this a lot. It can be a high priority 
but you have got to make sure that you are in compliance. I 
think every department needs to talk about how it is going to 
test its progress.
    Mr. Longanecker. Diane Rogers is the person who is most 
responsible for this in our shop. We have a process of both 
assessing whether our systems are compliant, and then 
essentially remediating those programs. Then testing to make 
sure that they are compliant after we have assessed them, we 
bring them up and test them. We are very dedicated to this. We 
are putting in very substantial resources, that is hard to find 
these days. We have been pretty frugal in the last few years.
    Diane, would you like to address that?
    Ms. Rogers. Certainly. We are also checking those systems 
that we have been told by our contractors that are compliant. 
We are validating those results as well. So we are not just 
resting back and taking their word for it. It is a very high 
level effort being made, chaired by the Acting Deputy 
Secretary, Mike Smith, as David mentioned, with weekly meetings 
including myself and our Director of Program Systems Service. 
And then there is an entire Y2K steering committee team that 
has a more intensive effort throughout the week and the month, 
and different meetings with all the different principal offices 
throughout the Department.
    Mr. Hoyer. Could I ask you a question that I asked Mr. 
Rossotti? I would like to have your take on this as well. Mr. 
Rossotti is the director of the IRS.
    Why do you think we have computers that do not know 2000 is 
coming?
    Ms. Rogers. That is a good question. I would be curious how 
Mr. Rossotti answered.
    Mr. Hoyer. Let me put it in context for you. People look at 
the Government and say, you do not know how to do things. We 
have been sold an awful lot of computers by the private sector 
that are not going to work in 18 months. I do not understand 
that.
    Now I can tell you Mr. Rossotti explained it that to 
purchase the capacity to contemplate 2000 would have been more 
expensive than replacing that technology with Y2K 
compatibility. In other words he said, you bought a computer in 
1989 and you wanted it 2000 compatible. To add the extra memory 
on there or capacity on there that you would have needed would 
have been too expensive and not worth the investment because of 
the rapid rate of--
    Mr. Porter. Obsolescence. The gentleman's time has expired.
    Mr. Hoyer. So I will stop. I would like to at some point--
not now--hear your thoughts on that.
    Mr. Porter. We will have a second round.
    Mr. Hoyer. I will not be here unfortunately.
    Mr. Porter. The subcommittee is proceeding under the eight-
minute rule and we will have, as I said, a second round.
    Ms. Northup?

                             america reads

    Mrs. Northup. Thank you, Mr. Chairman. I would like to 
start with your discussion of your participation with the 
America Reads program. I am just a little confused about that. 
First of all, as I read from your statement it says, the 
Administration has encouraged institutions to use their work 
study funds to promote community service activities and the 
community has responded. Students at more than 900 colleges and 
universities will participate this year in the America Reads 
Challenge, earning money for college while they are helping 
ensure that all children can read well and independently by 
fourth grade.
    First of all, what we know from the research that we have 
been presented earlier, both the NIH research and elementary 
research, is that helping kids learn to read who are not in the 
60 percent that are going to learn to read easily requires 
highly trained teachers intervening at about five and-a-half 
years old, who know what they are doing and can divert that 
child's reading in the classroom to a different form of 
instruction. This does not help do that at all.
    Mr. Longanecker. What it does--and in fact we are providing 
substantial training for these students. What it does is it 
provides an additional assistance to the teacher who has that 
training, to have the resources to be able to sit with that 
individual and work with them independently one on one. We do 
not have the results obviously yet from this.
    Mrs. Northup. I guess my feeling is that you are trying to 
put two things that do not fit together in a jigsaw puzzle. 
First of all, most students that have been involvedin work 
study have a schedule that works around their studies. And as we know, 
one of the biggest complaints we have from students right on college 
campuses is that they have a tough enough time graduating in four years 
because getting the right class at the right time is a very difficult. 
So they have a 10:00 Monday, Wednesday, and Friday, they have 2:00 
Monday, Wednesday, and Friday, and they fit their work study in around 
that.
    To imagine that that would exactly coincide with what the 
elementary school first grade teacher needs is sort of a long 
stretch. Most work study that goes on between college students 
and schools traditionally has gone on after the school day. It 
is an extended program. So it is not when the student actually 
most needs it.
    The second thing is--I have so many questions about this. 
First of all, we have not authorized the America Reads program. 
We certainly have not authorized it as it was sent up here last 
year. If it is not authorized by the Senate the way the House 
passed it last year, it is all going to go to IDEA as of July 
1st. So I wonder where you are going to find this money for 
work study if in fact the money goes to the IDEA program.

                  work-study community service waiver

    Mr. Longanecker. There is a difference between the money 
that we have requested for America Reads and the waiver that 
was provided for students who do community service in America 
Reads through the Work Study program. Keep in mind, the Work 
Study program has always had a very strong thrust on community 
service. In fact, almost all of our colleges in this country 
have a strong tradition of community service.
    What we are trying to do is to embed that and to reengage 
more young people in community service, and in a particular 
area where there is an obvious need--in the tutoring of young 
people to be able to read better. We want to do that as 
effectively as possible and I am going to use this as an 
opportunity to come up and spend some more time with you, if 
you are willing, to both get your ideas and to share ours.
    But we do see this activity as very productive and 
consistent with the purposes of Work Study. There is already a 
requirement that colleges spend at least 5 percent of their 
funds in Work Study on community service. This is a voluntary 
program. Students do not have to do this. If they cannot fit it 
around their schedule, they do not need to. But if they can and 
they wish to, then we find this to be very productive.

                          teacher recruitment

    We also see it as potentially a very valuable way of 
attracting people into the field of teaching, which we 
certainly know we need to do. We are going to need 2 million 
teachers over the next decade. With regular rates, about 1 
million out of our colleges and universities. So we are going 
to have a substantial gap there.
    What we are finding is that many students who had not 
thought about teaching as a profession, when they get a chance 
to sit down and work as a mentor or a tutor, are finding that 
that is a very valuable experience to them personally and are 
thinking about teaching as a profession now that they did not 
before. So we see some serendipitous effects of what we thought 
was a good idea in the first place.
    Mrs. Northup. To follow up in a slight way. We know from 
the Bureau of Labor Statistics economists that there are not 
expected to be any teacher shortages any time in the near 
future. I realize the President stated that, but I just 
wondered if you could tell us where the statistics come from, 
understanding the Bureau of Labor Statistics said there will 
not be a shortage.
    Mr. Longanecker. I would sure like to meet the statistician 
who came up with that. I mean, it is pretty basic here. We know 
the demographics of the next 10 years. We know how many 
students there will be.
    Just using demographics alone and our current production, 
and presuming that half of the gap can be filled by people who 
are currently in the workforce who have some preparedness and 
could be able teachers, we will have a gap of over 500,000 
teachers. We will need 2 million, and we will produce 1 
million, and there are roughly 500,000 that we could 
conceivably bring into the field through alternative 
certification or who are currently certified and not teaching. 
Now that is just the national demographics.
    In addition to that, we have in California a proposal to 
reduce class size, and we have the President proposing a major 
initiative in that regard also. That is a good goal. Research 
shows that will help student learning. But to achieve that will 
require an additional 300,000 teachers. So we have substantial 
potential gap there.
    I can tell you today, in the school district of Oakland, 
California 87 percent of the teachers are teaching on 
provisional certifications. Over half the teachers in the Los 
Angeles School District are teaching on provisional 
certification. That does not sound like we have an excess or an 
adequate supply today of prepared teachers.

                    class size reduction initiative

    Mrs. Northup. It is interesting, there are just so many 
different ways to go. You said the President's proposal 
requires to have 350,000 new teachers? So if we reduce the 
class size----
    Mr. Longanecker. I do not actually know if that----
    Mr. Skelly. A hundred thousand.
    Mr. Longanecker. It is 100,000 for the President's. 
California is----
    Mrs. Northup. This is for 100,000, but what we will need to 
go to 18 is 350,000.
    Mr. Longanecker. I am not sure I can back that number up. I 
should not have used that one.
    Mrs. Northup. Actually, I figured it out and I think it is 
about 254,000 by my estimates. But whatever it is, it is not 
100,000.
    Mr. Longanecker. Yes.
    Mrs. Northup. I just think it is interesting that we would 
even propose something that would require States to move to 18 
students per classroom. We are not even funding the 100,000 at 
full cost; some at 50 percent of the cost. And now these States 
are going to have to divert even more resources into teachers 
in order to make up that difference.
    The conversation I had with the primary and secondary group 
is, what if, as we think in Louisville, Kentucky, that reducing 
class size is not the most essential thing we need to do. We 
think we need to move into an early childhood program. But what 
we are really doing at the Federal level is by dangling a 
little money out there and calling it 100,000 teachers, we are 
really requiring States to divert resources for 254,000 
teachers, and we are taking it away from what they think are 
the critical needs are in their community. I just had to 
respond to your 350,000. Whatever it is, it is not 100,000.
    Mr. Longanecker. Let me also caution you to beware of my 
lack of knowledge in this area. I am a postsecondary guy and I 
would encourage you to talk to Jerry Tirozzi when he is up 
here.
    Mrs. Northup. I do not mean to be overly aggressive about 
this, but when you say 350,000 and then it is not a fixed 
number, it invites the question of, is your 2 million a fixed 
number and do we know that? We do have a Bureau of Labor 
Statistics. They do say that there is no need for--that there 
will not be a shortage of teachers.
    Thank you.
    Mr. Porter. Thank you, Ms. Northup.
    Ms. DeLauro?
    Ms. DeLauro. Thank you very much, Mr. Chairman. Welcome to 
the committee.
    Mr. Longanecker. Good to see you.
    Ms. DeLauro. Very nice to see you. I think it is a laudable 
goal to think that we can have the opportunity to decrease our 
class sizes, not for the purpose of just numbers but the fact 
of the matter is we are creating an environment where we can 
allow for a better learning experience for our children, and 
the opportunity for discipline in our schools; something that 
Congress and we are all crying out for up here. I applaud that 
effort, and any opportunity that we can provide to youngsters 
by putting 100,000 teachers in the classroom, the same way we 
put 100,000 policemen on the beat, to make sure that our 
neighborhoods are safe and secure.

                   affordable child care for students

    Let me ask you a couple of questions, if I might. Lack of 
affordable child care is often a barrier which prevents young 
women from attending or succeeding in college. I was pleased 
that the Senate Higher Education Reauthorization Act includes a 
bill sponsored by the senior senator from my State, Senator 
Dodd, which would be to create a pool to fund campus-based 
child care for children of Pell Grant students.
    Let me ask you your position on this proposal. How could 
this complement the Administration's efforts to bring former 
welfare recipients into higher education by changing Pell 
Grants needs analysis to take dependents into consideration?
    Mr. Longanecker. Madam Congresswoman, we have not taken a 
position--the Administration has not taken a position. We did 
not have that as a part of our reauthorization proposal and we 
have not taken a position on that. Given the First Lady's 
strong interest in child care and the focus that we have placed 
on that, I think it would be very unlikely that we would oppose 
such efforts and I think we would be glad to work with folks 
who are interested in that area to see what we could propose 
ourselves, or work with.
    I mean, our proposals have been up there and we did not 
have that in the package that we put together. But we do not 
have a license on all the good ideas. Most of ours are 
prettygood ideas, but there are some other good ideas and we would like 
to work on those as well.
    Ms. DeLauro. It seems that if we are not taking into 
consideration some of these child care needs and all these 
kinds of issues, given what is happening, we cannot put our 
heads in the sand and say the problem does not exist. I think 
that if we can establish and allow these young women to pursue 
a career--establish campus-based child care--we can accomplish 
our goal, which is to make sure that we have an educated 
workforce that can get paying jobs and take care of themselves 
and their families ultimately.

                          Pell Grant Increase

    I applaud your proposal to raise Pell Grants for needy 
students. Recipients have an average of getting $12,000; $3,100 
per year. This would be, as I understand it, the highest ever 
grant in nominal terms.
    I want to get at the issue of, however, even with this 
increase we do not restore the grants to their 1980 purchasing 
power. Where do Pell Grants stand in real terms? What about the 
purchasing power of Pell Grants today? What is the impact of 
this funding level on students? What is the impact on their 
families?
    Mr. Longanecker. To return to the 1980 levels adjusted for 
inflation, particularly higher education inflation, would 
require a Pell Grant today of roughly $4,500. That would be 
consistent with the bill that just came out of the House, and 
that would cost roughly an additional $5 billion in Pell Grant 
expenses.
    We would like to be much more aggressive than we have been, 
but we live within a set of budget constraints that 
realistically limit how much we can do. So we are doing as much 
as we can within the existing world.
    The effect of that is that--and the research is fairly 
clear, particularly for students from lower income families, 
price makes a difference, and net price makes a difference. So 
there is some, depending on which analysis you use, but 
certainly $1,000 difference in net price would have a 
reasonably substantial effect on whether students from low 
income families attend college or not, and some effect on where 
they attend college as well.

                          Teacher Recruitment

    Ms. DeLauro. Let me ask about the minority teacher 
recruitment program. It is important to get more well-trained 
teachers into the classroom. I think everybody recognizes that. 
How are you going to reach out to students to recruit for the 
program? What kind of support will those teachers have in the 
first year in the classroom? Do you plan to work with existing 
non-governmental programs like Teach for America, which trains 
teachers and places them in under-served areas?
    Mr. Longanecker. We have actually two components in our 
teacher recruitment plan; one is maintaining the minority 
teacher development program which has been a modest program and 
would be substantially increased. Then the second is a new 
teacher recruitment program which would try to recruit students 
who would be willing to return to high poverty rural and urban 
areas.
    We expect that much of that will involve the recruitment of 
students from those areas as well, particularly 
paraprofessionals who have been working in the school, as 
teacher's aides or in other capacities, who have some college 
education but need some additional education to become 
certified teachers, and who have a commitment to that school, 
and that community, and would be logically associated with 
going back there.
    What we intend to do is to work with colleges, 
universities, and other teacher development organizations that 
have a history and success in both attracting students who come 
from those communities and are willing to return to those 
communities, to fund them, and to provide fellowships so that 
they can afford to go to college when they might not be able to 
otherwise.
    Ms. DeLauro. Is there financial incentive to go in to teach 
in under-served areas?
    Mr. Longanecker. Generally not, and we can only address via 
the Federal, via our programs and our rural missions, certain 
aspects. Unfortunately, many times those school districts pay 
less than the suburban districts, and that is certainly 
accounting for part of why the statistics that I mentioned 
earlier with respect to Oakland and Los Angeles are at issue. 
As California has tried to reduce its class size, the certified 
teachers are being hired by the suburban areas, and this is 
leaving the inner cities to rely on brand new, uncertified 
teachers, or provisionally certified teachers.
    That is a dilemma. We can address some of that at the 
Federal level. Some of it is our Federal responsibility. All of 
it is our Federal concern. But we are going to need a strong 
partnership with the States and local communities to address it 
totally effectively.
    Ms. DeLauro. I am not familiar with the particulars of the 
program, but when we ask medical professionals, doctors, et 
cetera, to go into these areas, I do not know what we do with 
regard to cost of education kinds of incentives, et cetera, in 
order to provide some sort of a carrot to do this kind of 
thing. Again, I am not familiar with what the----
    Mr. Longanecker. We used to have Federal programs. I am not 
sure if we still have those programs because they are in the 
Health and Human Services area. When I was in Minnesota we had 
a State program for doctors to go to rural areas. What we found 
is that unless they had an inclination to go, they were not 
likely to stay. They might go to get their loan forgiven, but 
then they would leave the community after three years.
    So what we are trying to do with this program is to find 
people who have a proclivity to be a part of that community; 
they have lived there, they have been there, that is their 
community. They are more likely to feel a longer term 
commitment to that community if we can draw them from the 
community.
    Ms. DeLauro. Thank you very, very much, Mr. Secretary.
    Mr. Longanecker. You are welcome. Thanks.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Porter. The gentlelady has 31 seconds for round two.
    Mr. Stokes?
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Secretary, nice to see you again.
    Mr. Longanecker. Good to see you.

                       Ronald E. Mc Nair Program

    Mr. Stokes. Thank you. The Ronald E. McNair post-
baccalaureate projects, which prepare low income students for 
doctoral study, are up for competition in fiscal year 1999.
    Mr. Longanecker. That is correct.
    Mr. Stokes. Can you tell us, Doctor, what the Department's 
plan is for increasing access to this program?
    Mr. Longanecker. We have proposed in the TRIO programs in 
general a 10 percent increase; about a $58 million proposed 
increase. That would go for basically three things: increases 
in the Upward Bound program which is scheduled for 
recompetition in 1999, the McNair program which is scheduled 
for competition, and inflationary increases in the other 
programs.
    But after one takes care of the inflationary increases, 
that would allow us about a 20 percent increase in the programs 
that are up for competition in 1999.

   Interaction of High Hopes for College Program and the TRIO Program

    Mr. Stokes. I notice that you have a this new program 
called High Hopes. Can you tell us how that program interacts 
with the TRIO program? Is it complementary to it, or 
supplementary to it?
    Mr. Longanecker. No, they are very complementary and they 
are not redundant. The TRIO program is basically a program that 
helps students with services outside the school to help provide 
support to keep them on a positive track toward education, the 
Upward Bound, the talent search, with the exception of the 
support services, which is sort of integral to the education in 
the college itself.
    What we are proposing in the High Hopes program is really a 
program that brings the college and the school together as 
integral partners in the education of that child. It is not an 
outside the school activity. It is an inside the school 
activity. It really blends those institutions, brings them into 
partnership. It gives the college and university, we hope and 
trust, a vested interest in the success of that student, or 
that class of students, I should say. We intend this to be 
available to all the students.
    TRIO is for, you identify a set of students in each of the 
programs who most need your help. Here we are trying to reach 
all the students in a class to change the ethic and the culture 
of the school in which they are a part so that there is an 
ethic of higher achievement. It is really more of a systemic 
reform effort inside elementary and secondary education focused 
on the school as well as on the students. Whereas TRIO is 
really focused on making sure those students who have been 
falling through the cracks, do not fall through the cracks 
anymore.
    We are trying to eliminate the cracks with High Hopes. So 
we do see those as very complementary programs, not redundant 
and not competitive.

                     Administration's Focus on TRIO

    Mr. Stokes. I appreciate your delineating the distinction 
between the two programs. In your written statement you mention 
that the Administration has proposed to expand the benefits of 
TRIO to a larger proportion of the disadvantaged population by 
adding priority points to applicants proposing projects in 
under-served geographic areas. In so doing, is it the 
Department's intent to change the focus of the TRIO programs 
from access programs that help low income, disadvantaged 
students to enter and succeed in college to high school 
retention programs?
    Mr. Longanecker. No, the purpose is really to have the 
monies of the future flow to where the growth in high need 
students are. As we look to the future, we see the demographics 
of the country changing, and we think that our Federal programs 
ought to proportionately go where the populations of greatest 
need are. As that population of greatest need changes, we think 
the funds should begin to flow appropriately in those 
directions.
    That would mean that some areas that traditionally had 
greater need but no longer have as substantial a need would not 
receive the percentage of funds that areas that were growing 
were. But we do not see it as a change in the thrust of the 
program.
    We are very interested in programs that enhance 
persistence. We think that is an important issue and we 
certainly believe that it is very important for students not 
only to stay in high school but to succeed in college when they 
get there. But that was not the purpose of changing the 
formula. The formula itself was simply changed to have the 
dollars flow to where the greatest needs are.

                            TRIO Evaluations

    Mr. Stokes. Good. Doctor, during last year's hearing you 
indicated that the Department was developing new performance 
reports that can be used to better measure TRIO program 
successes. What is the current status of this effort?
    Mr. Longanecker. We have underway performance evaluations 
of the TRIO programs, and they continue. We continue to fund 
those and they are coming to closure, and we are gaining some 
additional value. We also have developed strong performance 
measures for all of our programs. We have about 230 specific 
performance measures for the Office of Postsecondary Education. 
About 200 of those are in the financial aid area and about 30 
of those are in the programs that Claudio manages in the higher 
education programs that are including the TRIO program. So we 
have specific performance objectives in TRIO as we do in all of 
our programs now.

                         HBCU Funding Increase

    Mr. Stokes. I am encouraged by the increase in funding from 
$118.5 million to $134.5 million that the Administration has 
provided for the Nation's Historically Black Colleges and 
Universities. Tell us why this investment in HBCUs is 
important, and why we need to strengthen it.
    Mr. Longanecker. We think we need to do more to strengthen 
the support for all of the minority-serving institutions, the 
historically black colleges and universities, the Hispanic-
serving institutions, and the tribal colleges. The reason for 
that is not only the historic nature of the institutions in the 
case of the HBCUs, which is important to the country all by 
itself, but the fact that these institutions tend to serve a 
disproportionately large share of students of color, and they 
tend to do so more successfully than other institutions in 
terms of those students staying to completion of the term of 
their graduation.
    So we think it is a good investment, not only to sustain 
that historic mission of those institutions, but perhaps even 
more importantly, to provide quality education to students of 
color who are still not represented to the extent that they 
should be in American higher education.

            Funding for the Class Size Reduction Initiative

    Mr. Stokes. Mr. Secretary, the Administration's new 
education initiative to hire 100,000 new teachers over seven 
years has been well received by the education community. This 
initiative, however, is to be funded by the tobacco settlement. 
If a settlement agreement is not reached, does the 
Administration have any alternatives for funding this new 
initiative?
    Mr. Longanecker. I do not know the answer to that, but 
maybe Tom does. That is a tough question. Tom?
    Mr. Skelly. Mr. Stokes--it is a tough one--the 
Administration's position is that it will consider all 
alternatives offered by the Congress if the tobacco settlement 
does not result in funding that could be used for the class 
size reduction initiative.
    Mr. Stokes. Good. We will accept that.
    Mr. Longanecker. I am going to give more to Tom. 
[Laughter.]

            Teacher Recruitment and Professional Development

    Mr. Stokes. In light of the current clamor for better 
teaching for teachers themselves, tell us how quality training 
and education will be provided in order to prepare so many new 
teachers.
    Mr. Longanecker. I mentioned the recruitment side. But 
equally important to the recruitment is providing strong models 
of professional development programs in this country. 
Unfortunately, Title V of the Higher Education Act had 21 
programs--they were pretty nice ideas--only one of which was 
funded.
    What we want to do is reduce that to two components, a 
recruitment piece and a very strong piece that would take the 
strongest teacher development programs in this country, blend 
those with other institutions that want to partner with those 
programs, and develop a much stronger, what we call 
professional development model--we do not. That is what the 
community calls it--which really is a clinical experience 
similar to what we use in medical education where we--in 
medicine where we have professionals coming out, we would not 
think of sending them into the medical profession without some 
internship, some clinical experience. So we think that needs to 
be a very strong part of this.
    Furthermore, we think that it is very important that the 
education they are getting in the school of education or the 
college of education or the Department of Education be 
intentionally blended with the rest of the education they are 
receiving while they are in college, that the liberal arts 
college recognize its responsibility to develop teachers for 
the future, the liberal arts part. We are trying to blend all 
of that together, create a consortium of universities working 
with elementary and secondary schools, fund the best of those 
in the country so that we have some models out there of good 
practice, best practices, that can be expanded and shared with 
others so that there develops, as there did after the Flexner 
report and after significant Federal involvement in this in the 
medical education in the early 20th century, that we could 
provide similar energy and importance around teacher education 
that would change the nature of the delivery of that in our 
colleges and universities, improve it substantially so that we 
can prepare people better to be new teachers.
    Now, that does not deal with all of the teachers who are 
out there. We are trying to do that through the Eisenhower 
programs. Our unique handle on the Higher Education Act is with 
the new teachers.
    Mr. Stokes. Thank you very much, Doctor. Thank you, Mr. 
Chairman.
    Mr. Porter. Thank you, Mr. Stokes.
    In round two, we will operate under the 10-minute rule, 
with the exception that if any member who has not had questions 
in the first round arrives, we will recognize them at the 
completion of whoever is asking questions.

          GOVERNMENT PERFORMANCE AND RESULTS ACT BASELINE DATA

    Dr. Longanecker, the staff has considered your GPRA plans 
for postsecondary programs. While the Department has chosen 
some good indicators, in most cases it has not established 
baselines or targets. Given that GPRA was enacted over three 
and a half years ago, why haven't you been able to adopt 
baselines and targets for virtually all postsecondary programs?
    Mr. Longanecker. Well, I understand and appreciate your 
concern, and we are moving--we have moved what seems from our 
perspective to be quite aggressively toward the development of 
this. But I would tell you, developing a performance-based 
system in our agency, and I suspect in many others, has been a 
challenge and a difficult task. We are really changing the 
culture of the organization to look at things in this way.
    Part of the reason we haven't developed baselines in some 
of these areas is we just have not--we do not have them, and we 
have to develop them, our benchmarks. So we are working on 
trying to do that in all of the areas, and logic--I sure hear 
what you are saying, and it is hard to measure whether we are 
making success until we have something to measure against.
    But it is a much more time-consuming process than we ever 
anticipated, I think.
    Mr. Porter. I am certain that is true, but I think given 
the time that has passed and the time it will take once you 
even have the baselines and targets to get some results that 
are comparable, we are going to be, you know, in the year 2002 
before we are going to know what is actually working and what 
is not.
    Mr. Longanecker. In a number of areas, we have reasonable 
benchmarks so that we can start to look at progress at the 
present time. In some of the areas, you are absolutely right. 
Probably in my lifetime here I will not see the results of some 
of these activities, even though I have been here longer than 
anybody.
    Mr. Porter. Let's try to make that not come true.
    Mr. Longanecker. I hear what you are saying, and we are 
moving aggressively, and I would tell you that this is also a 
very high priority for Mr. Smith, who drives us as Assistant 
Secretaries very hard toward the development of these. It is 
not for lack of consistency and purpose with you or lack of 
interest. We have a very strong interest in a high performance 
system, and it is basically that we--I mean, I do not have a 
good excuse for that one, sir.
    Mr. Porter. I hope we are not talking about it the same way 
next year.
    Mr. Longanecker. I hear you.

           TARGETS NEEDED FOR SPECIFIC PERFORMANCE INDICATORS

    Mr. Porter. Dr. Longanecker, your office has established 
indicators that are general to the Office of Postsecondary 
Education rather than attached to specific programs. We have 
discussed with Howard, NTID, and Gallaudet the need to improve 
graduation rates to maximize the Federal investment in their 
students. Likewise, we discussed yesterday with the IG the 
importance of increasing graduation rates at institutions which 
benefit from Federal student aid.
    Your GPRA plan identifies a goal of increasing graduation 
rates at Title IV institutions and provides a baseline, but it 
does not indicate a target. When will you select your targets? 
And will you have one for fiscal year 1999?
    Mr. Longanecker. I am trying to remember, without 
specific--in many cases, where we have not established a 
target, our goal is continuous improvement, sort of the old 
total quality management principle that we should be--we may 
not know precisely what--and that is a good one, I think, in 
terms of saying I am not quite sure what precisely the right 
target would be in graduation rates, though I have worked on 
this at either the State or the Federal level for the last 20 
years. But I do know that the graduation rate today is too low 
and that we have a long way to go and that we ought to be 
looking for continuous improvement in that. We ought to be very 
concerned if it is not going up, and we ought to be continually 
trying to work to get it up.
    Mr. Porter. If you do not know, who does know?
    Mr. Longanecker. Well, I think it is difficult because it 
captures averages that--I am not sure you can find the right 
number, because the number for a community college that is 
serving students, many of whom may come for purposes other than 
graduation, is going to be substantially different than for an 
institution like an Ivy League college where virtually 
everybody is assured of graduation almost when they come in. So 
I think it is very difficult.
    On the other hand, virtually all of our institutions should 
be striving to do a better job than they are today.
    Mr. Porter. Are there any requirements for Title IV 
participation in the new authorizing bill?
    Mr. Longanecker. Requirements? Beyond what are current 
requirements?
    Mr. Porter. Yes.
    Mr. Longanecker. The one principal change in requirement 
has----
    Mr. Porter. Graduation rates.
    Mr. Longanecker. Oh, graduation rates.
    Mr. Porter. Yes.
    Mr. Longanecker. No, there are not.
    Mr. Porter. There are none. Should there be?
    Mr. Longanecker. Well, we had some--that was one of 
thecriteria that were in the famous SPREs that came out of the 1992 
legislation, was that institutions would have to indicate their 
graduation rate and achieve rates that would be established by the 
States. That was a very unpopular portion of the act, and basically 
this is no longer in existence.
    Mr. Porter. I suggest to you that responding to your 
constituency in this case is not always the best policy and is 
clearly not leadership. You are going to have to drive your 
constituency if you are going to achieve higher graduation 
rates.
    Mr. Longanecker. Well, in that case--and I am sure there 
are people behind me who could verify this--we did not really 
respond to the constituency. I have got lots of scars left over 
from trying to pursue that as vigorously as possible. It really 
was the current majority leader of the House that terminated 
that program.

      employment rates of student aid recipients and nonrecipients

    Mr. Porter. The Department also indicates a goal of 
ensuring that Title IV recipients are employed at rates at 
least equal to those of non-Title IV recipients. Why shouldn't 
we hope and expect that Title IV recipients would have an 
advantage in the workplace by virtue of their education? Why 
don't you set a goal of achieving higher rates of employment 
for Title IV recipients?
    Mr. Longanecker. Well, actually, that is a very interesting 
question, and I probably should have answered that. I think our 
thinking was that because most of them come from more 
disadvantaged backgrounds economically and educationally 
because of the correlation between income and education, that 
that was a fairly aggressive goal as we had established it, 
simply knowing American society. But you make a good point, and 
our goal should be to be serving our students as effectively as 
possible. I think that is a good point.

                           default rate goals

    Mr. Porter. The Department indicates in its GPRA plan that 
it will attempt to reduce default rates in the loan programs. 
The Department has now chosen a target of less than 10 percent 
by 2002. The most recent actual data shows a baseline of 10.4 
percent.
    Is reducing defaults by four-tenths of 1 percent over 5 
years an ambitious enough goal? Do you have interim goals for 
fiscal year 1999, 2000, and 2001? How are we going to check up 
on this before 2003 when the 2002 data will be available?
    Mr. Longanecker. We annually publish the default rates, and 
so you will be able to see whether we are moving toward that 
each year as we move. The 10 percent figure is one that we have 
been working on for some time. This is one that internally we 
had as a working goal for some period of time.
    It was established--you may remember we started a few years 
ago with a 22.4 percent default rate, and it seemed like a very 
ambitious goal when we were first talking about it. We did not 
actually start it at that point. We started it when we brought 
it down to 15 percent. It still seemed like a very ambitious 
goal.
    We are certainly approaching that, and one could ask 
whether that is as ambitious today. We also think that we may 
be reaching the point where we are not quite sure how much more 
we can bring it down.
    There is in the loan program, where students are accepted, 
whether they are creditworthy or not, some risk and there will 
be some default rates. And so I think we ought to continually 
try to find good ways to improve that, and if we reach that 10 
percent goal, then obviously we are going to have to re-
establish what our goal is because we would not want one----
    Mr. Porter. In this area, it seems to me that a lot of this 
depends upon the economic growth rate and the employment rate 
and the like.
    Mr. Longanecker. Yes.
    Mr. Porter. In other words, some economic indicators and 
maybe your goal should be tied to some kind of economic 
indicator.
    Mr. Longanecker. Well, this is a very simple, 
straightforward algorithm, as you can see, and it may make 
sense for us to try something that is tied to economic 
indicators. The reason we chose that is that it is the same 
metric that we use and impose on the institutions of higher 
education, and so we wanted to basically have something that 
was consistent.
    Many of those institutions have argued that we ought to 
have something that is indicative of the economic circumstances 
they face, and there is some merit to that. I think over time 
we will have to refine all of these--this is really a first 
generation of our work in the area of performance measures--and 
I suspect as we move along, as we learn more, we are going to 
get much more sophisticated, and that it will lead to much 
better public policy.

                    direct loan participation rates

    Mr. Porter. Thank you.
    Education Daily recently reported that satisfaction among 
schools participating in the Direct Loan program decreased by 
25 percent last year. What is the reason for this decline?
    Mr. Longanecker. Well, we believe, I personally believe, 
that the major reason for that was the timing of the study 
that--that was the result of our own internal evaluation which 
we do annually. And that study was in the field for testing 
about this time last year. This time last year we were having 
very significant problems with a new student loan servicing 
contractor that we had. They were having a very difficult time 
serving in the institutions.
    Now, the students were getting their awards, but the 
institutions were having a very difficult time reconciling 
their accounts, and so it does not surprise me. We were not 
giving them the quality of service they deserved at that period 
of time. And if I were them, I would have been dissatisfied as 
well.
    We expect that that was a blip and that this year you will 
see a very substantial increase in the satisfaction because 
that service has really come around, is providing very high 
quality. Just to give you an example, in the last 4 months, we 
delivered 99.7 percent of the student loans within 48 hours of 
receiving the promissory notes. And the schools are letting us 
know that they really are quite satisfied now with the nature 
of the service in that program.
    Mr. Porter. I will start out with that question----
    Mr. Longanecker. Next year?
    Mr. Porter [continuing]. On round three. This year.
    Mr. Longanecker. Okay.
    Mr. Porter. Mrs. Northup?
    Mrs. Northup. Thank you.

               administration's proposal for new programs

    I would like to go back to the question of some of the new 
programs. I am looking at page 2. You talked about High Hopes, 
College Awareness Information, recruiting new teachers for 
underserved areas. How many of the States have programs that 
mirror that, the emphasis on attracting minority teachers to 
serve where you have minority populations in particular for the 
sake of role models and opportunities?
    Mr. Longanecker. There are different programs. In terms of 
the teacher development programs, I do not know how many States 
have funded programs. In general, our approach would to the 
institutions--it is not a State-based program. It would be an 
institution-based program. So we are really trying to draw 
higher education more actively into changing the paradigm of 
the way in which they prepare teachers.
    With respect to the other programs, the High Hopes, there 
are a number of States that have fairly substantial programs to 
reach out to younger people. Not surprisingly, those are the 
States with the highest enrollment rates in postsecondary 
education. We will certainly want to have efforts that are 
consistent with those and that are blended and are 
complementary to rather than redundant with those.
    But we have many other sections of the country and, not 
surprisingly, this is where enrollment rates tend not to be as 
robust, where the States really have not done much in this 
regard. And so we feel there is a Federal concern and a 
legitimate Federal interest in providing for these models.
    Mrs. Northup. So is the Federal money going to be primarily 
diverted to those States that have not invested their own money 
in these programs?
    Mr. Longanecker. No, these are not State-based programs. 
They will----
    Mrs. Northup. They are institution-based programs.
    Mr. Longanecker. They are institution-based programs, and 
they will go to those areas that come in with the plans that 
demonstrate that they will serve the most needy students the 
most effectively.
    Mrs. Northup. First of all, I would like to see a printout 
of the States that have programs. I know in Kentucky we are 
always searching for programs. We know where we are 
underserved. We know what institutions can best meet those 
needs. We know, for example, we only have a 7 percent minority 
population, but a great number of that is in my district. And 
so we focus a lot of the minority recruiting for the teacher 
programs in my district.
    I am having a hard time figure out why the Federal 
Government would get into this and why we would duplicate State 
programs that are tailored to State needs and why we would 
invest in those States that have been the laggards, if there 
are, whether every State needs the same kind of program.
    You know, I think we do need some investment in higher 
education. I would like to go back and suggest that you go back 
and direct and re-think about directing these resources to the 
elementary education programs in our States and colleges. They 
are not turning out teachers that know how to teach math and 
reading in a way that students best learn, according to the 
latest research. If we are going to make investment in higher 
education, let's put it where the kids really--where we most 
need it and not duplicate the State efforts.

                        lighthouse partnerships

    Mr. Longanecker. Well, that is the focus of our teacher 
education development piece, the piece that is called 
Lighthouse Partnerships. It is to try and provide funding for 
the best practices in the preparation of people to be teachers 
in elementary and secondary education.
    Mrs. Northup. Well, you know, I would just like to point 
out that it looks to me like the Lighthouse Partners is the 
least funded of the new programs that I just suggested, so that 
is not very reassuring.
    One of the things that came up a minute ago about why 
teachers are not choosing to go to underserved areas--say, if 
we need more teachers in our most high-risk schools--one of the 
reasons is that our teachers unions insist on a level pay scale 
so that all first grade teachers get paid the same amount. And 
so what we find is that our experienced teachers, our best 
teachers, our teachers that are not on provisional certificate, 
they choose to go to the suburban schools in that district, and 
that leaves the most at-risk schools with the worst teachers.
    So I would be surprised if the dynamic in Kentucky is much 
different than the dynamic across this country where the real 
problem is that the schools are not given the flexibilities 
because of the union's contract.
    Mr. Longanecker. Good point.
    Mrs. Northup. Mr. Chairman, that is all. I have exhausted 
my questions--excuse me.
    Mr. Porter. Thank you----

                  financial responsibility regulations

    Mrs. Northup. I am sorry. Could I ask one more?
    I have an institution in my district that is one of the 
schools--it is a non-profit school in Jefferson County that is 
very focused on attracting students in the high-risk community 
and providing teachers and advanced degrees to teachers that 
serve that community. I talked to them recently, and you all 
have promulgated new regulations that require colleges to have 
a certain portion of their funds to be endowment funds or else 
they are going to be denied financial aid. That will almost 
shut this college down if you progress with that. Doesn't that 
seem to run counter to all of your other objectives?
    Mr. Longanecker. We have recently established some new 
financial responsibility regulations, and I will come and talk 
with you about the specific college to make sure how it affects 
them.
    We worked with KPMG Peat Marwick, to come up with a 
reasonable rule. The law requires that institutions be 
financially responsible to participate in the program. The 
regulation we have traditionally had was a one-size-fits-all, 
and it did not reflect, the diversity of institutions of higher 
education that may be responsible financially but that may not 
have been reflected in the one figure we previously used, which 
was an assets-to-liabilities ratio.
    Now we have worked with KPMG, which were the leaders in the 
country in assessing the financial health of higher education. 
They are the company that really has the established industry 
leaders, establishing financial health for institutions of 
higher education, and do much of the work that is done for 
bonding agencies and others to determine. Working with KPMG and 
with the higher education community, including the National 
Association of College and University Business Officers and all 
of the major organizations, we came up with a set of ratios 
that we think accurately reflects the financial health of an 
institution. And I would like to work with you on that because 
it has generally been very highly regarded, I am surprised that 
someone is complaining. It has been very highly regarded by the 
higher education community; been highly praised.
    Mrs. Northup. Well, let me just say that it is regarded by 
anybody that has an endowment of that level.
    Mr. Longanecker. You do not really have to have any 
endowment whatsoever in this to be financially responsible. You 
could have zero endowment and, if the rest of your finances 
were solid, you would be okay.
    Mrs. Northup. Well, I will be happy to talk to you about 
it. I will say this is an institution that was run by the 
Sisters of Nazareth for years. It is now a private college. It 
is in the middle of the downtown area of Louisville, Kentucky. 
It serves students--it gives students who might never have had 
an opportunity for higher education that opportunity.
    It is no surprise, considering the community it serves, 
that it does not have a big endowment, and many of our teachers 
receive their advanced degrees there, and I would just be 
shocked if your agency would want to promulgate regulations 
that would close an institution like this down.
    Mr. Longanecker. Well, I will come and chat with you 
personally some more about that.

                  student aid management improvements

    Mr. Porter. Thank you, Mrs. Northup.
    Dr. Longanecker, responding to the Department's response to 
its initial report, the IG report of yesterday indicates that 
it agrees

    That the Department needs to focus on business process 
improvement and ensuring that its technology investment 
facilitates that improvement.
    However, we disagree that the Department is now on track to 
make that happen. The Department still does not have the 
necessary capital planning and investment control processes in 
place to ensure that decision-makers get the right information.

    Given the disarray in the Title IV program's management 
systems, what confidence can we have that the dramatic 
increases we have provided in the last 3 years for student 
assistance are reaching the students they are intended for? As 
an example, the IG indicated that he identified in one audit 
alone $100 million in Pell Grants made to ineligible students.
    Mr. Longanecker. Well, as you might imagine, our 
perspective of our management is different than the Inspector 
General's. We think we are doing a fine job in improving. We 
have a major overhaul effort called Easy Access for Students 
and Institutions (EASI), which is intended to radically 
redesign our systems to provide a more modern approach. We also 
are encouraging the development of a performance-based 
organization which will allow us to move in those regards. And 
we have adopted a number of the recommendations of the 
Inspector General in moving toward management systems, and 
management information systems to provide better information.
    I suspect the specific reference that they are making with 
respect to $100 million in lost money was money that was 
associated with an audit they did of--I am trying to remember--
what was it?
    Mr. Skelly. Veterans. People who claimed veterans status.
    Mr. Longanecker. People who claimed veterans status. I was 
actually thinking it might have been students' misreporting of 
assets, which is roughly the same number in those areas.
    We currently do matches with Social Security--I mean, we 
are radically--we are trying to respond to all of the items 
that are brought to our attention and, in fact, are discovering 
most of those ourselves and moving toward changing our system.
    Just our National Student Loan Data System alone last year 
alerted us to not provide over $350 million to students for one 
form of student financial assistance or another because they 
were ineligible. That is a system that did not exist for us 4 
years ago and that we are using every day now to prevent that. 
We are using student status confirmation reports from that 
database to give us a better sense of whether the students are 
legitimately enrolled or not.
    There is a great deal we have done and will continue to do. 
In general, I think they are correct; we have a lot to do to 
improve. You can look at the glass as half empty or half full. 
We think we have done a great deal. We are committed to 
continuing to try to improve our delivery ofstudent financial 
aid. We have eliminated about 700 institutions from participation 
because they had poor records of participation in the program using one 
indice or another over the last few years. That did not come without 
some substantial angst from those institutions and the people who 
represented them, but we moved in that regard nonetheless.
    So we think we are on the same team as the IG with the same 
goals. We have a different perspective on how far we are along 
the continuum.

                   integration of student aid systems

    Mr. Porter. Let's talk for a moment, then, about the Higher 
Education Act amendments of 1992 which required the Department 
by January 1, 1994, to integrate its National Student Loan Data 
System with other student financial assistance programs.
    Last July, three and a half years after the statutory 
deadline for integrating these systems, the GAO and the IG 
testified before the Education and Workforce Committee 
regarding this matter. The GAO stated that the Department had 
made ``only limited progress in integrating NSLDS with the 
other student financial aid systems'' and that, as a result, 
``the process is cumbersome, expensive, and unreliable.''
    The GAO made three recommendations: the Chief Information 
Officer should develop and enforce a department-wide systems 
architecture by June 30th; all information technology 
investments made after that date must conform to the 
architecture; funding for all projects must be predicated on 
such conformance unless thorough documented analysis supports 
an exception.

                    integrated systems architecture

    The IG looked at this problem and concurs with the GAO 
recommendations, and he told us yesterday that the most 
important issue is the development of an integrated systems 
architecture. The Department's CIO apparently indicated in 
November that a preliminary plan for the integrated system 
would be developed in 100 days, compared to the IG's 
recommendation, I might add, of 30 days. That plan apparently 
still has not been completed. To further confuse the matter, 
the Department's GPRA plan indicates a goal of September 1998 
for the integrated systems architecture.
    What is the status of the NSLDS and the integrated systems 
plan today? And has the Department adopted and implemented the 
recommendations of both the IG and the GAO?
    Mr. Longanecker. We have not implemented and adopted all of 
those. We are in the process of doing so. We certainly agree 
with them. We have through the project EASI been working with 
Price Waterhouse to develop the architecture, the systems 
architecture, and the reason there are two dates--and there 
really are two dates--is that we will have received that 
architecture, the plan for that architecture, from Price 
Waterhouse in June of this year. That has been on the schedule 
for a long period of time. I do not know why there should have 
been confusion over that in the Inspector General's office or 
the CIO's office.
    That has been our long-scheduled completion of that 
project, and then it will be reviewed by what we call the EASI 
core team and others for a period of 2 to 3 months as we are 
working it through and will become essentially a fait accompli 
and amended and adjusted from the Price Waterhouse work by 
September of this year.
    I would tell you, though, that we have a general sense of 
where we have been heading for some time, and all of our 
procurements, all of our activities, are dedicated to moving 
toward a comprehensive, integrated system for some time. So it 
is not as though we have been not working toward this.
    We have been completing the development of the NSLDS, 
really moving that from a flat data file to a much more robust 
data system than it was ever originally anticipated to be 
because of the interest of Congress and our own interest in 
using that as a more substantial database. We have developed a 
new institutional database called the PEPS system, and that 
gives us the capacity to do a lot of risk management work that 
we were never able to do before.
    There has been very substantial progress in the area of 
systems. It is the area that Diane is currently in charge of. 
Both Diane's previous two predecessors worked very diligently 
on this. This is not a new-found religion for us. It is one 
that we have been working on aggressively over the last----
    Mr. Porter. So you are no longer acquiring stand-alone 
systems, but----
    Mr. Longanecker. We still are--we are moving away from the 
stand-alone systems. We still have some of those and we have a 
plan design as the contracts expire to move them into an 
integrated system. The most significant one of those is what we 
call the FFEL program, which will be the next one that we 
either compete as a contract or come up with a different plan 
for.
    Just this February, we moved to what we call band one 
strategy, which is to put all of our systems on the same 
hardware platform, which will save us a substantial amount 
financially, and allow us to manage those more efficiently than 
we have in the past. So we are very committed to the same goal.
    Our time line--I do not know why there should have been 
confusion over those because those have been our time lines 
established for the system architecture now for more than a 
year, and it involves the work of our contractor community.
    We are trying to do this so that it is consistent with the 
needs of the community we serve as well, all of whom provide 
financial aid in their own world, and all of the lenders. We 
are trying to move to a system that uses industry standards and 
establishes those. We are in an industry that did not have 
established standards, so we are having to work through a 
standards council to develop all of that. And we think we are 
moving as aggressively as we reasonably can in that regard.

             proposed termination of youth offender grants

    Mr. Porter. Thank you. Dr. Longanecker, the administration 
has proposed terminating the new youth offender grants program. 
As you know, the House did not provide funding for this program 
in our bill last year. What is the rationale for terminating 
the program? If the administration believes it ought to be 
terminated, why did you not recommend rescinding the fiscal 
year 1998 funding in the supplemental rather than initiating 
multi-year grants only to terminate them prior to the 
completion of the funding cycle?
    Mr. Longanecker. I do not know the answer to that question. 
I am going to ask Mr. Skelly if he does.
    Mr. Skelly. The administration did not propose any 
rescission. The administration feels that the supplemental 
request is based on emergency needs and would not require 
offsets, particularly offsets from domestic discretionary 
programs with a separate cap under the Balanced Budget Act for 
both domestic discretionary programs now and defense programs.
    Mr. Porter. What is the rationale for terminating this 
program?
    Mr. Longanecker. I might be able to help in that. As a 
general rule, in reauthorization of the Higher Education Act, 
we had a rule that if a program had not been funded and we were 
not going to propose it as an initiative, we would eliminate 
the program. I think we have proposed the termination of about 
four or six programs.
    Mr. Porter. Would it not make a lot of sense, though, to 
then--or I can ask this of Mr. Skelly--rescind rather than to 
begin a multi-year funding program if we were actually going to 
terminate?
    Mr. Skelly. Again, we did not have an exercise looking at 
rescissions that we could propose. It is a new program, and we 
have several new programs that the House or the Senate added to 
the bill. This is one that perhaps could be funded out of 
programs authorized under vocational and adult education. We 
think that is the better place to go. But the vocational adult 
education reauthorization has not yet passed the Senate. We are 
still waiting for a bill there, so we do not know quite how 
that is going to evolve. This program is not in our higher 
education reauthorization proposal, and we also expect 
legislation there. But in the meantime, we will carry out all 
the programs enacted into legislation.
    Mr. Porter. Thank you, Mr. Skelly.
    The administration is proposing three new programs to be 
funded collectively at $65 million: Early Awareness 
Information, Learning on Demand, and Access and Retention 
studies. Which of these programs is specifically authorized in 
law and which is specifically authorized in the bill which just 
passed the House Education and Workforce Committee, do you 
know?
    Mr. Skelly. The Early Awareness program we believe is 
authorized already under existing Title IV legislation. The 
other two programs, learning on demand or Learning Anytime 
Anywhere and the Access and Retention Innovations, are not 
authorized.
    Mr. Porter. And are they contained in the new bill?
    Mr. Skelly. I do not believe that the House included those.
    Mr. Longanecker. None of them are.
    Mr. Porter. None of them are?
    Mr. Longanecker. Right.
    Mr. Porter. But you think the Early Awareness Information 
program is authorized?
    Mr. Skelly. Under the current Higher Education Act, which 
would expire this year, it is authorized.
    Mr. Porter. And it would not be under the new proposal as 
it passed the House Education and Workforce Committee?
    Ms. McLaughlin. It is not in the House committee bill.
    Mr. Porter. Ms. Rogers, when you and Mr. Hoyer were talking 
about the year 2000 program, you seemed to indicate that the 
problem is all in the hardware. Isn't it also in software in 
some cases?
    Ms. Rogers. Oh, yes. It is in the software.
    Mr. Porter. It is in both; right?
    Ms. Rogers. And if I may, one other thing that we are doing 
to ensure that we are ready for the year 2000 is diverting any 
budget resources that we need to, to ensure that we are ready. 
So there will not be any budgetary concerns.
    Mr. Porter. I have additional questions on the year 2000 
problem that I am going to put into the record.
    Let me say, Dr. Longanecker, when you and I were talking 
about SPRE and you were talking about the reporting 
requirement, obviously you are correct that it was the Congress 
that killed that entire program, but on the other hand, it 
contained a great deal more than the reporting requirement.
    Mr. Longanecker. Yes.
    Mr. Porter. It had a very heavy regulatory hand that many 
Members of Congress, including this one, thought was 
inappropriate and counterproductive.
    Mr. Longanecker. I concur. I actually agree with that 
statement as well.
    Mr. Porter. So to the extent that you were talking about 
the reporting requirement and Congress killing it, certainly 
you were correct.

                consistency of administration proposals

    This is a statement more than a question, and you can 
respond to it in the record if you wish. Last year we talked 
about the inconsistent positions the administration has taken 
on higher education and student financial assistance programs 
over the last several years. I read a long list of those 
varying positions and asked whether there was any programmatic 
or substantive rationale for the flip-flopping, and the answer, 
generally speaking, was no.
    The administration seems to continue to do the flopping 
around. I am going to mention one example and ask you a couple 
of questions that, again, you can answer for the record.

                      school-college partnerships

    I want to read two excerpts from Department documents 
regarding the School-College Partnership. The first indicates 
that the ``program provides grants to institutions of higher 
education and secondary schools serving low-income students in 
order to encourage partnerships between these institutions. The 
grants support projects to improve the academic skills of 
students to increase their opportunity to continue a program of 
education after secondary school and to enhance their prospects 
for employment after secondary school.''
    The second excerpt states that the program ``would promote 
partnerships between colleges and schools in low-income 
communities to provide children with the support they need 
through high school graduation. The partnerships would provide 
information about what it takes to go to college as well as 
support services to keep children on track.''
    It sounds like the same program.
    The first excerpt is from the President's 1993 budget 
request regarding the school, college, and university 
partnership program, in which he proposed to eliminate the $4 
million program because it was administratively burdensome and 
duplicated the TRIO program.
    The second excerpt is from the Department's Web site 
describing the current proposal for a $140 million College-
School Partnership program. Five years ago, the program was not 
worth a separate line item funding of $4 million. Today it 
seems to be a higher $140 million priority. And you can comment 
on that for the record, if you would like, or you can comment 
on it now.
    Mr. Longanecker. Let me do a little bit of both. I would 
like to respond in more detail for the record, but let me 
respond now.
    The budget that we presented in 1993 was a fairly hastily 
constructed budget. We had just come to town. Some of us were 
not even a part of putting that budget together. That budget I 
do not think reflected our philosophy as much as the 1994 and 
subsequent budgets.
    The school-college-university partnership program is a very 
sound concept. It was a very good idea. We had a substantial 
amount of difficulty. It was the creation of the 1992 
amendments. As a State person who was involved in Federal 
policy, I was very supportive of that and really had hoped to 
see that program take off. I felt that there was a lot to be 
said for the idea of trying to bring schools, colleges, and 
universities together. Claudio Prieto, my Deputy for Higher 
Education Programs, put together such a series of programs in 
New York City with Lehman College and a series of schools 
around Lehman College. It is one of the model programs in the 
country. We believe very strongly that that concept makes 
sense.
    Out of that, over time evolved the idea of High Hopes, 
which we think is a really very sound idea, that it is time to 
do much more to reach down at earlier ages, and that the 
partnership between schools and colleges and universities is a 
strong way to do that. We were not able to generate the kind of 
energy and support for the SCUP program, as it was called, the 
School-College-University Partnership. Maybe it was because of 
the acronym. It is not a very attractive one. And so what we 
did in our own thinking was start to put together that idea 
with the urban community grants program that also was having 
difficulty. We thought those had the core of a set of good 
ideas, worthwhile public policy. And as the idea also evolved 
in the White House with energy around this, we were able to put 
together what we think is a much more sound, much more robust 
idea than the original law, but certainly consistent with that 
and building on it.
    So I would say that our language in 1993 was really crafted 
by--I do not want to blame folks who were sort of sitting 
around in seats at that time, but I certainly would have argued 
strongly for a much more aggressive position for the School-
College-University Partnership than is reflected in that 
language.
    Mr. Porter. Would you say that the administration now has 
developed a consistent higher education and student financial 
assistance philosophy that is reflected in your proposals 
currently?
    Mr. Longanecker. Yes, I would. And maybe at some point we 
can sit down together and talk about that. I think there are 
areas----
    Mr. Porter. No, no. I want you to talk about it now.
    Mr. Longanecker. Yes. I think there are areas you can find 
where there are----
    Mr. Porter. Can you give me kind of a--without going into 
programs, talk about what your basic philosophy is in these 
areas.

     administration's philosophy of postsecondary education policy

    Mr. Longanecker. Our basic philosophy is that the Federal 
Government has a responsibility to assure that individuals 
have--has a responsibility to assure that students have access 
to college and an interest in promoting that they go to 
college.
    Mr. Porter. And that is all students?
    Mr. Longanecker. All students. And so our responsibility 
suggests a very substantial financial commitment to those 
students who come from families without means.
    Our interest suggests a very substantial agenda in terms of 
encouraging college attendance, encouraging persistence in 
college attendance, and encouraging families to save for their 
children, and helping them move on beyond that. I think if you 
take Direct Lending and the increases in Pell and the tax 
package, the big ideas that we have put forward, you would find 
a generally consistent theme.
    You will find some inconsistencies, and some of those were 
for political and some were for practical reasons and some were 
lessons learned along the way. But I think generally we have a 
general theme of providing high-quality education to all 
students in this country and encouraging them to take advantage 
of it.
    Mr. Porter. Dr. Longanecker, thank you very much for your 
good opening statement, your candid answers to our questions. 
We may not agree on everything, but we agree on a lot.
    Mr. Longanecker. You bet.
    Mr. Porter. And we appreciate the fine job you are doing 
there and look forward to seeing you here next year with a lot 
of the matters that we have raised today cleared up 
substantially.
    Mr. Longanecker. You bet. I will look forward to it.
    Mr. Porter. Thank you very much.
    Mr. Longanecker. Thank you for your service.
    Mr. Porter. The subcommittee will stand in recess until 
2:00 p.m.
    [The following questions were submitted to be answered for 
the record:]


[Pages 596 - 645--The official Committee record contains additional material here.]



                                           Wednesday, April 1, 1998

                        OFFICE FOR CIVIL RIGHTS

                               WITNESSES

NORMA V. CANTU, ASSISTANT SECRETARY FOR CIVIL RIGHTS
    Mr. Porter. The subcommittee will come to order. We 
continue our hearings on the budget for the Department of 
Education for fiscal year 1999. We are pleased to welcome Norma 
V. Cantu, the Assistant Secretary for Civil Rights.
    If you would introduce the people that you have brought 
with you and then proceed with your statement, please?

                       Introduction of Witnesses

    Ms. Cantu. Good afternoon, Mr. Chairman, members of the 
committee. If I may introduce, on my far left, Tom Skelly with 
the Department. He needs no introduction. He has been at every 
hearing so far. If I may introduce, on my immediate right, Art 
Coleman, my deputy assistant secretary, originally from South 
Carolina. And on my left, Mr. Chairman, Raymond Pierce, a 
deputy assistant secretary as well. He hails from the great 
State of Ohio. And I am from the home State of Texas.

                           Opening Statement

    I am pleased to share with you today the 1999 budget 
request for the Office for Civil Rights in the U.S. Department 
of Education. I will summarize the opening statement in five 
minutes and ask that the entire statement be included in the 
record.
    I hope you will find it interesting to hear about our 
performance measures, what we are doing with the budget we 
currently have of $61 million, and why we need a modest 
increase in fiscal year 1999 that will bring us to $68 million. 
I want to thank you very much for the support you have given us 
in this year's budget, and I ask for your support for next 
year.
    As you are aware, our budget is funded on its own line item 
to ensure that the entire budget of the Department of 
Education, the $37 billion, is spent in a way that does not 
create discrimination in any classroom in this country. So we 
are one-fifth of 1 percent of the budget of the Department of 
Education.
    With that budget we seek to meet some very serious 
performance measures: to increase access for all 66 million 
students to high quality education, to increase the number of 
students impacted by our efforts, to increase the number of 
successful partnerships with educators to prevent 
discrimination, and to increase the involvement of parents and 
students as part of our compliance efforts. Those are 
performance measures we can count.
    We expect to examine how we do our job as well. And that is 
with professionalism, with fairness, with courtesy, and a 
minimum of disruption to educators. Those results cannot easily 
be measured, but they are just as important as the results that 
we can measure. As Albert Einstein has said, ``not everything 
that matters can be counted, and not everything that can be 
counted matters.''
    We are not waiting until 1999 when our performance 
indicators are due to expect accountability and results from 
ourselves. I am proud to report that we are using this budget 
already to produce results on behalf of real students and real 
parents.
    For example, we are using this budget to meet face-to-face 
with educators to solve real problems. As you can see from the 
chart, the top chart, the top two years have yellow lines that 
are shorter than the next two years. For the top two years, 
1997 and 1996 were years where our budget was cut and our 
productivity dropped. The yellow lines represent the cases that 
we resolved. So there is a direct relationship between the 
level of funding and our ability to serve customers and resolve 
real civil rights problems.
    Two quick examples I want to share with you about real 
results we have produced: In the New York public schools we 
reached a voluntary agreement with the entire district that 
committed the schools to involve parents in the task of 
identifying instances where African-American students were 
being inappropriately referred to special education services 
they did not need, and disproportionately placed in those 
services in a way that isolated them on the basis of race. That 
single agreement involves 1 million parent partners in the 
business of being involved in assuring that their schools are 
discrimination-free.
    The other quick example involves an individual student who 
complained to our office. As a 12th grader, she was ready to 
graduate, but she had been notified that the diploma would be 
mailed to her because she was in a wheelchair and the site for 
the graduation ceremony did not have a ramp. We were able to 
work very quickly and very cooperatively with the school 
district towards an inexpensive solution of putting up a 
temporary ramp; and, the good news is she graduated with her 
classmates.
    The sad news is she had been there 12 years and they knew 
that she had been in a wheelchair for 12 years. But it took our 
office to be able to work that through. And these are results 
that do matter.
    What will we do with next year's money? We ask for $68 
million for next year, which is a 10 percent increase, so we 
can continue to protect students from discrimination. If 
funded, we are going to be able to continue our current 
staffing levels for this year, and that is at 724 staff, to 
continue to provide one-on-one attention to educators to solve 
problems. It is staff-intensive. We get 500 calls from 
educators and parents every week who want to prevent 
discrimination. They are not calling to file a complaint. They 
are calling and requesting our office to provide assistance to 
them.
    We do get 100 formal complaints of discrimination every 
week. And the formal complaints, if you look at chart 2, are 
distributed in areas that involve disability, gender, and sex. 
The big yellow part of the circle is disability. That 
represents the largest amount of the work that we perform in 
our office.
    If funded, we will be able to continue to share best 
practices about how to avoid discrimination in several key 
areas, such as the ones I have mentioned, removing barriers to 
students with disabilities. We will be able to make significant 
progress toward meeting the ultimate performance measure, and 
that is providing access to high quality education for all 
students regardless of race, color, disability, gender, or age. 
That is why I am very, very proud of our staff and I am very, 
very proud of the work that our office is performing and will 
continue to perform.
    I would welcome any questions.
    [The information follows:]


[Pages 650 - 658--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Ms. Cantu.
    Mr. Bonilla.

                          bilingual education

    Mr. Bonilla. Thank you, Mr. Chairman.
    Thank you for your testimony today and for appearing before 
us. I have been concerned, frankly, about certain things that 
have been reportedly going on in the Office for Civil Rights 
and I hope that when we conclude the hearing that we have 
cleared some of these things up. Maybe they are not going on, 
maybe they are. But I want to ask some very direct questions 
about it.
    The mandate that you have at OCR is to ensure that there is 
no discrimination in educational programs receiving Federal 
funds, and that is acknowledged. The concern--and I will be 
very specific in some questions as I follow up here in a 
second--is that the Office for Civil Rights is overextending 
itself into areas, to advocacy perhaps, that the law does not 
intend you to be involved in.
    Certainly discrimination is something we are all opposed 
to. I know you were not born in my hometown but you know my 
hometown of San Antonio. And having been born on the west side 
and raised on the south side, I do not have to describe the 
demographics of that area. You can understand that all of us, 
myself especially, will do everything we can to fight 
discrimination in this country.
    Again, that issue aside, my questions will be along the 
lines of whether or not there is advocacy in trying to 
federalize or take away local control of school districts in 
spite of great opposition in some cases by parents and 
districts across the country. There is a difference between 
discrimination and incompetence. Incompetence is something that 
although we do not welcome that in any area, is not something 
that can be defined as purposefully and maliciously slighting 
students of different ethnic backgrounds.
    In my old school district, in South San Antonio High 
School, when I started school in 1968 there was tremendous 
incompetence that resulted in shortcomings of curriculums and 
teacher's staffs for students. All the teachers quit when I 
started high school. We had to go to school half-days because 
the school board was so incompetent, made up primarily of 
Mexican-Americans. Not discriminatory, but incompetent, that 
resulted in tremendous loss of opportunities for students in 
the school district I went to.
    I was never even required to read a single book in my four 
years of high school in South San Antonio High School. 
Unfortunately, the curriculum there has not improved greatly. 
The dropout rate remains at 50 percent, and the level of petty 
fighting among the locals there has not subsided to any 
significant degree, as you may have heard over the years. But 
again, incompetence is one thing and it has nothing to do with 
discrimination.
    My concern is that over the years that the OCR has a bias 
in favor of bilingual education in some cases where it has not 
been effective for local students and where a majority of the 
classes are taught in the students' native language and only a 
small--they only devote a small amount of time to learning 
English, in spite of, in some cases, protests from parents that 
feel that their students, their Spanish-speaking students 
should be mainstreamed more quickly.
    School districts are forcing children into bilingual 
education programs in order to protect themselves from facing 
accusations by your office that they are violating a student's 
civil rights.
    My first question is, are school districts free under 
Federal law to implement any program for minority language 
students as long as it is based on sound educational theory and 
gets results?
    Ms. Cantu. Yes. Absolutely, yes. Our office does not 
mandate any particular type of methodology for instructing 
children who are limited English proficient. That is a local 
choice. It has to be a methodology that educators vouch for, 
but our office does not second-guess that choice. So, 
absolutely, yes.

             ocr's definition of limited english proficient

    Mr. Bonilla. How does the Office for Civil Rights define 
LEP, limited English proficient?
    Ms. Cantu. We follow the Federal standard, and that has 
been articulated in a variety of cases. What we are told is a 
student is limited English proficient if the student cannot 
read, write, understand, and perform in his or her regular 
curriculum at the same level as their peers. So, it is a read, 
write, and perform.
    Mr. Bonilla. So they, in essence, could speak English, but 
be inefficient in these areas and then classified as limited 
English proficient; is that correct?
    Ms. Cantu. If it is an older child and his or her peers are 
reading and writing? A child could come into a system speaking 
English, but because there is a home language other than 
English and that child is not reading and writing and able to 
perform in English--
    Let me back up and tell you, I am an English teacher. I 
taught eighth grade English in San Antonio on the east side. So 
I totally value having all children learn English.
    But a student is identified as needing language assistance 
services if their peers are performing in English and these 
children needs support to keep up with their peers.

              primary or home language other than english

    Mr. Bonilla. If a child comes from a home where a language 
other than English is ever used, would that child be labeled 
limited English proficient?
    Ms. Cantu. No. The child would need to be evaluated to find 
out which language services the child needs. A child may come 
from a home language other than English, but be proficient 
enough in English that the child does not need any language 
support. That is my personal example. We spoke both English and 
Spanish at home. My grandmother looked after me. She was 
monolingual Spanish speaking. She would read to me every day 
from the Spanish newspaper.
    So I came from a home language, but when I was in school I 
would keep up in English, so I did not need any kind of 
language assistance services. So it is an individual 
determination based on the individual needs of the child.
    Mr. Bonilla. What about a child who speaks only English but 
his parents or grandparents speak Spanish in the home? You 
almost gave an example of yourself, but if you would like to 
elaborate.
    Ms. Cantu. The child needs an educational program that 
makes sense for that child, and the child needs to be able to 
have meaningful participation in the instruction. So the 
evaluation, if done well, will ask what happens at the end of 
the class day, and does the child have an adult to work with in 
English?
    But again, the evaluation will decide because the language 
that is spoken at home is not enough to determine that a child 
is limited English proficient. A child may, on their own, be 
communicating in English. I have a little brother who you would 
talk to in Spanish and he would answer you in English, and he 
grew up to be a broadcaster in Austin, Texas, in English.
    So each child is going to be different and the evaluation 
needs to be--we should not stereotype. The evaluation should be 
individualized to the student.

                determining limited english proficiency

    Mr. Bonilla. Does the OCR recommend or require school 
districts to use standardized English proficiency tests for 
determining LEP status?
    Ms. Cantu. I want to say yes, but it is not the only 
measure. The Office for Civil Rights requires objective 
criteria to be used to determine whether and when a student 
needs to be placed in a language services program, and part of 
that evaluation could include a standardized achievement test 
to find out how that student is performing compared to his or 
her peers.
    Mr. Bonilla. But it is only a recommendation?
    Ms. Cantu. That is right. We do not tell the campuses how 
to conduct their assessments. We require that there be an 
objective evaluation. Then they come back and they tell us what 
their evaluation systems look like. And if in their evaluation 
systems they are using standardized tests, they tell us, this 
is what our evaluation systems look like.
    Where we find a problem is if they do not evaluate at all. 
Just to give you some background, most of the times when we 
find a problem it is because the campus has not putinto place 
any system for assessing whether the kids need services; do not survey 
to find out which children are limited English proficient; do not 
evaluate the children to see what they need; and do not come up with an 
individualized program for the children. Those are the most frequent 
kinds of problems that our office finds.
    Mr. Bonilla. Before I move on to my next question, it seems 
like we are talking here about curriculum development, testing, 
evaluation, a lot of things that, again, go much beyond what I 
quoted earlier as to the original mission of the OCR which is 
to ensure that there is no discrimination in educational 
programs seeking Federal funds.
    I just find it interesting that we are getting into so many 
details beyond what some--I am not an attorney, but from 
someone who perceives it, where all these things we are talking 
about go way beyond just ensuring that people are not 
discriminated against. I would just make that observation 
before I would continue with the next question.
    Regarding the standardized English proficiency tests, I 
have a question now about cutoff scores. My understanding is 
that most of these tests are designed with 30th and 40th 
percentile cutoff scores. In other words, by design, 30 to 40 
percent of students who take these tests score below the cutoff 
score, even if they speak English fluently, they would score 
below the cutoff score. In other words, is there a quota 
involved here?
    Ms. Cantu. There is absolutely no quota. And if I can get 
back to your earlier point. Because I am a teacher I may have 
been focusing a lot on the educational aspects. Those are local 
decisions about education. Our office does not second-guess 
local decisions about which kind of program to offer or what 
kinds of evaluations. To provide a complete answer, we just 
ensure that there is a system to evaluate if the program is 
effective.
    As to your question about standardized test scores, there 
is absolutely no quota, no.
    Mr. Bonilla. What about the 30th or 40th percentile that I 
referenced?
    Ms. Cantu. The district may decide that to achieve high 
standards they may set some goals that they want to achieve. 
That is a local decision that a district may make. It may say, 
we are convinced that a student is proficient in English if the 
teacher says so and if the student is performing within a 
certain range on an achievement test. But that is a local 
decision made by a district.
    Mr. Bonilla. Do you encourage it?
    Ms. Cantu. We do not encourage that because we want the 
local districts to make their own local education decisions.
    Mr. Bonilla. Does the Office for Civil Rights issue any 
recommendations or requirements to schools directing which 
student should be placed in ESL programs versus a bilingual 
education program?
    Ms. Cantu. No, we do not. That is a local decision. They 
have that flexibility as to which type of program, assuming as 
you have described, that it was a program that is vouched for 
by educators as effective.
    Mr. Bonilla. What basis does the OCR use to justify placing 
a student in one program over the other?
    Ms. Cantu. We do not have a preference for one program over 
the other. We do not have a preference as to whether a district 
should choose an English as a second language program, or an 
English language development, or any of the other types of 
language assistance programs. Those are local decisions made by 
the school districts. So we do not even offer them some guides 
as to which would be more appropriate. They make that decision 
themselves.
    Just to offer some information. I went back and checked 
with our office on how many districts pick certain kinds of 
programs and found less than one-third of the districts chose 
bilingual education. They chose a wide array of programs.

                          Parental Involvement

    Mr. Bonilla. One of the things I talked about in hearings 
that we had with many of your colleagues in the Education 
Department is about the involvement of parents--parental 
involvement with children. And we have certainly been around 
long enough to know how significant that is. As I said to 
Secretary Riley the other day, I am just mind-boggled as to why 
more parents do not get it.
    One of the examples I gave him recently was, a school 
district not too far from where you were born had a seminar 
recently for parents in the evening. And a drug counselor was 
talking at parent's night at my daughter's school recently and 
told us how they had a seminar there for students. I think they 
had 5,000 students enrolled in this particular school district, 
and at 7:00 that night the seminar began, and at 8:15 that 
night they still just had the counselor and the principal and 
the assistant principal, which is a very sad indicator of 
parents' involvement in this day and age.
    On page Y9 in your budget justification and on page 2 of 
your testimony you discuss OCR standards to work with parents 
and educators to ensure that all children have equal access to 
high quality education. While I support this goal 
wholeheartedly, this is definitely not a story we are hearing 
about OCR. Could you comment on that, especially in light of 
the fact that we seem to be agreeing that parental involvement 
in education is the key.
    Ms. Cantu. We have offered as one of our performance 
measures how we work to be sure that parents are included, 
because all of the research shows that parental involvement is 
key to achieving high standards education. There are ways that 
we strive to do that. We include parents in local groups to 
find that out what they believe are the most serious problems 
in their local schools. We include parents in helping us 
monitor agreements, because it affects their children directly. 
So we want parents to know what the agreements are that the 
school districts voluntarily said they would do, and we want 
parents to have copies of those.
    We include parents in having information about best 
practices. How are other districts deciding which kids get 
referred to low ability, low track courses? How do other 
districts decide which kids get access to gifted courses? And 
we share that kind of information with parents. We believe that 
America's parents want the best for their children, and we 
believe that America's educators want to provide that. So our 
staff keep that philosophy in mind as they work with people to 
solve real civil rights problems.
    Mr. Bonilla. It is interesting to hear this because we seem 
to be in agreement on parental involvement and involvement of 
grandparents. The subcommittee has heard testimony from parents 
and grandparents who have been ostracized at school board 
meetings and seen their children separated from their peers 
because these parents spoke out about the unfairness of having 
their children placed in bilingual education that they do not 
need. And they were placed in bilingual education programs 
without the parents' knowledge.
    How is this encouraging parental involvement with the 
school district if in some cases the Office for Civil Rights, 
the reports we are hearing are that they are going against what 
the parents want when they want to be involved in the direction 
of their child's education?
    Ms. Cantu. I am not aware of the particulars of what you 
are describing. I do not have a sense of when that happened. 
Can you tell me a little more about that?
    Mr. Bonilla. Yes, what we will do is we will provide you 
with that.
    Ms. Cantu. Would you, please?
    Mr. Bonilla. It has been a few weeks now since we heard the 
testimony, but we will provide you with a copy of the testimony 
which was on the record. Everything we say here is all taken 
down and is kept on the record, so we will be happy to provide 
you with that. I would hope that you would take a good look at 
it to see if what you are saying here conflicts with what is 
actually happening out there.
    Ms. Cantu. It may be that there are just some First 
Amendment issues happening at a local school board meeting 
where people are using their First Amendment rights to express 
their opinions. And we would respect that, that they are using 
their First Amendment rights. But I am not aware that our 
office has been involved in any way in the kind of incident you 
are describing.
    Mr. Bonilla. If you saw a situation like that would you not 
be incensed when you hear of parents shut out of trying to get 
involved in determining the direction of the child's education?
    Ms. Cantu. I would hold to my original statement that those 
are local educational matters. Our office would look at the 
civil rights issues but not at a local educational decision. If 
what is happening is there is this really rich exchange going 
back and forth about what the local program should look like, 
that seems like an education conversation that should happen at 
the district level. My office would not try to play a role in 
guiding that conversation.
    If what you are describing is they cross a line and there 
is a civil rights violation--because of their race or because 
of their national origin people are being mistreated--then 
certainly our office would be interested in hearing that 
information, and I hope that you share it with us.
    Mr. Bonilla. I absolutely will. We all must keep in mind, 
of course, that discrimination does not just happen among 
whites against people of color. In some cases there are people 
of color discriminating against other groups, and I think that 
oftentimes people forget that discrimination insome cases does 
exist out there. You just want to make sure that it is not existing at 
any level at this time.
    The parents that I referenced that I will provide you the 
testimony of believe that separating Hispanic students from 
their non-Hispanic counterparts into bilingual education 
classes creates a separate and unequal situation. In fact, one 
grandparent who testified before the subcommittee clearly 
stated,

    OCR is failing to properly supervise the district's 
programs. OCR is not protecting the rights of Hispanic, Anglo, 
or limited English proficient students.

    This grandparent believes this, and I would ask, how would 
you respond to this? Because in a sense, again, it is 
discrimination against these parents that perhaps we should be 
looking at as well.
    Ms. Cantu. I do not have enough particulars to understand 
fully what the concerns are. I am very much interested in 
learning more about it and I would be happy to take a look at 
the situation you are describing.

                  Denver's Bilingual Education Program

    Mr. Bonilla. Okay. We will also have some questions for the 
record too that relate to this, so I will not continue to ask 
you about this testimony at this time because you have not seen 
it.
    I understand that the OCR has objected to the changes now 
being implemented in Denver school district's bilingual 
education program. Could you explain your objection to the 
changes now being implemented in the Denver school district's 
bilingual education program? I have the letter here where the 
objection is expressed to the superintendent, Mr. Irv 
Moskowitz, the letter dated roughly last July.
    Ms. Cantu. I will ask my deputy to answer that. Raymond 
Pierce will answer that. I have been recused from the Denver 
matter for quite a while and have no information that I can 
share because of my legal recusal from that case.
    Mr. Pierce. Mr. Bonilla, as you may be well aware, that 
case was recently referred to the U.S. Department of Justice, 
Civil Rights Division. It was originally a complaint that was 
filed by a group of parents from the Denver public schools with 
the Office for Civil Rights back in 1994, I believe, claiming 
that the Denver public schools were failing to properly educate 
students who were of limited English proficiency. The Denver 
public schools I think are about 63,000 students, of which half 
of those students are Hispanic students. And of the minority 
limited English proficient students, the majority of those are 
Hispanic students.
    After a thorough investigation, the Office for Civil Rights 
found that the Denver public schools were failing in two 
critical areas: to identify students who had limited English 
proficiency and then to properly assess them and provide them 
with the appropriate services.
    Again, as Ms. Cantu stated, it is not our intention that we 
mandate which type of language program the Denver public 
schools provide, but that it be one that is proven to be sound, 
that is effectively implemented, and that is continuously 
evaluated. The Denver public schools' evaluations were failing 
them in two critical areas, particularly in assessment, in that 
the format they were using to identify the students failed to 
capture two critical components.
    The four components, of course, are being able to read in 
English, being able to write in English, being able to speak in 
English, and being able to understand it, so that the student 
is actually receiving a curriculum that he or she can 
understand.
    And the assessment, the identification model that the 
Denver public schools were using was one that asked, what was 
the primary language that the student speaks? Does the student 
speak a language other than English? And does the student's 
parent or primary caregiver speak a language other than 
English? Well, that alone would not be able to net a student 
who might not be able to comprehend, or might not be able to 
write. In our conversations and in discussions with the Denver 
public schools, we failed to get a change in that.
    The Denver public schools insisted on measuring the 
students on a curve with students who themselves were also of 
limited English proficiency. So we were not able to get a true 
picture of the number of students who may have some need for 
some language services, whether it was bilingual, alternative 
language programs, English as a secondary language, whatever.
    Yes, I know the letter you are referring to, Dr. Moskowitz' 
letter. I did sign that. We met with them. Dr. Moskowitz came 
to Washington, D.C. We sat down and gave him audience. He 
brought a group of parents with him who expressed in some small 
degree some of what you talked about. But I think they went 
away understanding.
    We tried one more time and we referred the case to the 
Department of Justice, where I believe right now negotiations 
are underway to try to resolve that case.
    Mr. Bonilla. I am really kind of flabbergasted by the 
response that I am hearing on this particular case because, 
again, an education curriculum decided by local parents and 
educators where there may be what your office thinks is right 
or not, how does that affect a person's civil rights? If you 
are keeping with the original mission of the office, there is 
an incredible abstract area that your office is getting 
involved in here that is almost at a micromanagement level of 
education programs.
    I realize that there are arguments that can be made, and if 
I asked you to elaborate, you would. You would say, considering 
this criteria that I just outlined, that there probably could 
be some neglect for a child's education. So I realize what you 
probably would respond by saying, but I think that the Office 
for Civil Rights is getting into a tremendous gray area of 
dictating curriculum and way beyond what we lay people think is 
a civil rights violation where you are being excluded from a 
class or they are not treating you fairly based on your ethnic 
origin or your religious background or your gender or the 
things that are clearly against the law.
    As you have responded to my question, I am thinking, wow, I 
did not realize that the Office for Civil Rights was into such 
details of curriculums in districts around the country.
    One more question.
    Ms. Cantu. Yes.

                          Conflict of Interest

    Mr. Bonilla. You talked about being recused from the Denver 
case. You were originally involved in litigation against Denver 
to implement bilingual education when you were an attorney for 
MALDEF. Do you believe there is a conflict of interest between 
your current position and involvement with Denver on this issue 
and your previous involvement with Denver?
    Ms. Cantu. As soon as I noted that the same issues and the 
same parties were involved in the Denver case that I worked on, 
I voluntarily recused because I did not want even the 
appearance that there would be any kind of conflict of 
interest. I take that issue very seriously. I believe that 
those of us in public office need to avoid even the appearance 
of a conflict. So I was not involved in the decision to make a 
finding that Denver was not following the Supreme Court 
decision or that Denver was not following the appellate law 
that requires that students be afforded the chance to 
understand their education.
    I was not involved in the decision to refer it to 
Department of Justice when the negotiations did not work, and 
as a last resort, they sent it to Justice. I wanted to avoid 
even the appearance.
    Mr. Bonilla. I thank you for responding to my questions, 
and I apologize for going on so long, but I do have some 
concerns about this. Again, there is no doubt at all that 
anyone on this subcommittee supports strongly our civil rights 
laws in this country. Again, having grown up in a minority 
neighborhood, I understand what it is like to be discriminated 
against. I remember my father telling me stories about how they 
would not let him sit at a lunch table in some communities that 
I now represent. In the old days in south Texas, he was not 
even allowed to sit with the Anglos in certain classrooms in 
certain grades, and we are all against that. And we are glad we 
are past some of the atrocities that occurred back then, but, 
again, I am just concerned that we are not now involved in 
advocacy into gray areas that wind up micromanaging educational 
curriculums, and that is my concern. That is what I am asking 
you about today.
    I will have some more questions for the record as well, and 
I appreciate it if you would answer that.
    Ms. Cantu. You have been very courteous, and I do 
appreciate your wanting to understand this area. It is a very 
significant area because so many children are being held back 
in meeting their full potential because appropriate services 
are not available for them to learn English and not available 
to support them in learning all their other content areas. I 
would love to follow up with more information and to clarify 
our role that we do not make the educational decisions. We 
simply look at enforcing the civil rights laws.
    Mr. Bonilla. Thank you, and I thank you, Chairman.

                 background of the assistant secretary

    Mr. Porter. Thank you, Mr. Bonilla.
    Ms. Cantu, just as a matter of curiosity, you are a 
graduate of the Harvard Law School?
    Ms. Cantu. Yes, sir.
    Mr. Porter. And you were 22 years of age when you 
graduated?
    Ms. Cantu. Yes, sir.
    Mr. Porter. And you were 18 when you graduated from 
college?
    Ms. Cantu. Yes, sir. I was 19 when I was a high school 
teacher.
    Mr. Porter. My goodness.
    Did you go to public schools?
    Ms. Cantu. Yes, sir.
    Mr. Porter. In Brownsville?
    Ms. Cantu. Yes, sir.
    Mr. Porter. How come you moved so fast? Did you skip a lot 
of grades?
    Ms. Cantu. My family valued education very much, sir. My 
grandfather was completely illiterate and signed with an ``X,'' 
but he wanted all his children--he wanted my mother to get as 
much education as possible.
    When I speak about assessments and the importance of 
evaluation, I talk about my grandfather who could not read or 
write, but had a deal worked out with my mom's teacher that the 
report cards would be color-coded, and he understood 
assessments. Blue and black ink meant my mom was doing okay, 
but red ink meant that he had to have a real serious talk with 
her about how important education was. So, even my grandfather, 
a farm worker who was illiterate, understood the importance of 
education. He passed that on to us.
    I love to read. As I told the Congressman, I read in 
English and Spanish in elementary school. I love to read. I 
think that parent involvement, reading, everything the 
Department is doing to secure high standards of education is 
the right thing to do; and we are glad that our office can play 
a small role in providing access for everyone to that kind of 
high-standards education.

          coordination among civil rights enforcement agencies

    Mr. Porter. Thank you.
    There are a number of agencies that purport to provide 
technical assistance or enforce civil rights laws. The 
subcommittee includes within its jurisdiction several 
protection and advocacy agencies. We fund one in developmental 
disabilities, one in SAMHSA, and one in rehabilitation 
services. In addition, we fund the Offices for Civil Rights in 
both HHS and Education. We also fund client assistance centers, 
parent assistance centers, and equity assistance centers.
    Overall, in fiscal year 1998, we will spend $176 million on 
these programs. Many disabled individuals would be eligible for 
services by many, if not all, of these agencies.
    When one of these agencies and an employer, service 
provider, or other institution reach an agreement on a 
complaint, what guarantee is provided that another of these 
agencies will not disagree and bring new actions or another 
complaint? In other words, what coordination exists among these 
agencies to ensure that a resolution reached with one is, in 
effect, a resolution reached with all?
    Ms. Cantu. We share that interest in being sure that our 
tax dollars are not used in a way that creates unnecessary 
duplication.
    The coordination exists in a variety of ways. First of all, 
Mr. Chairman, our jurisdiction under Section 504 is different 
from the jurisdiction under IDEA. We look at barriers to 
discrimination, and that could include that young woman who 
wanted to graduate from high school. She was talking about a 
physical barrier. Well, IDEA talks about services to students, 
but it does not reach the issue of the physical barrier to 
students with disabilities. So the laws themselves have some 
distinctions, and there is a reason for different agencies to 
monitor and hold districts accountable to those laws, but more 
than that, we do coordinate very closely with our sister 
agencies.
    We have agreements between ourselves as to how cases are to 
be divided so that one does not file in both places and then 
get conflicting responses. Also, our staff in our offices have 
full discretion to stop--as soon as they learn that this person 
has filed somewhere else, to stop work and say,

    When you come back and tell us that that other avenue was 
exhausted, if you filed in court, come back and tell us that 
you could not get anything through court, and then we will see 
if we can do something, or if you filed with another agency, 
come back after that one is over, if you still do not believe 
you have been whole.

    But we do not simultaneously ever run two agencies on the 
same issue, and we do coordinate. We do talk with each other 
very, very closely.
    Department of Justice has a Coordination and Review 
Section. They bring our people together on the issue of Section 
504 to be sure that we are not duplicating, sir.
    If there are suggestions as to how we can do our jobs 
better, too, we are always open to hearing that.
    Mr. Porter. But you have a high degree of confidence that 
you are not being duplicative?
    Ms. Cantu. Yes, sir.

                      gifted and talented programs

    Mr. Porter. In your testimony, you indicate that your 
office was involved in the State of Georgia in expanding the 
definition of gifted and talented children beyond the simple 
I.Q. definition the State had used. Can you tell the 
subcommittee what other criteria were included as a part of 
your agreement? Do other offices within the Department, such as 
the research offices or the Office of the Assistant Secretary 
for Elementary and Secondary Education, Dr. Tirozzi, sign off 
on these expanded criteria as, in fact, a true measure of a 
gifted and talented child?
    Ms. Cantu. Sir, the decision by the State of Georgia to 
reexamine how they referred children for gifted programs was 
their decision. They looked at it. We did offer resources to 
them.
    We went to technical assistance centers that were funded by 
Dr. Tirozzi's office and brought them in free of charge to the 
State of Georgia as technical experts, educational experts.
    So, while Dr. Tirozzi was not personally involved, his 
coordination made it possible for the best educationally sound 
decision to be reached, but in the final analysis, it was 
Georgia's decision and one I highly applaud.
    They had a situation they were not really proud of. The 
white students were seven times more likely to be classified 
gifted in Georgia than in neighboring States, and I do not 
think it was the quality of the drinking water. I think they 
themselves recognized that they were doing things differently 
than other southern States, even their neighboring States. So 
they were ready to examine their practices when we showed up in 
a friendly, cooperative way, and said, ``We are not here to 
investigate. To the contrary, we are here to suggest some 
practices that other folk have accepted.'' They looked at a 
variety of practices. They selected the ones they were 
comfortable with. It involves some self-nomination. It involves 
some teacher recommendation. It involves other ways of 
expanding the pool from which to recruit gifted kids, but the 
bottom line is that they were maintaining the high quality of 
the program. They did not water down the definition of 
``gifted,'' and the students have to perform at the same core 
level and to the same strenuous level of work.
    Mr. Porter. What if they had said we have looked at all 
your evidence and we want to continue with our definition? What 
would have happened then?
    Ms. Cantu. If we had real information that confirmed the 
numbers, because we do not just go on statistics, even seven 
times more likely to be a disparity is an interesting statistic 
and it would draw our attention. If we had other information 
that confirmed there was a problem, we might initiate an 
investigation and go more formal. We do not like going that 
way. We prefer cooperative, friendly, technical assistance as 
an approach.
    Mr. Porter. But that always is an option, and that always 
is a lever when you are dealing in a cooperative and friendly 
way.
    Ms. Cantu. But----
    Mr. Porter. Surely, they realize that you could tie them up 
and go to court ultimately, perhaps.
    Ms. Cantu. I think they realize that we share an interest 
with them in having all students have access to high-quality 
programs. So I hope that they realize that we are more 
interested in being friendly and cooperative than in using a 
lever, but I want to say that in the time I have been here, we 
have resolved more than 20,000 cases, and as you saw in our 
testimony, only in six instances have we used the lever of 
going to a formal hearing. I think that is an excellent record. 
It shows that we are serious and committed.
    If, as a last resort, we do need to go to a more formal 
route, we will do that, but it is also an excellent record that 
we work through problems. We use tools such as early complaint 
resolution, mediation, a whole number of tools.
    Mr. Porter. If you went to a formal proceeding, would you 
have to prove that their category of ``gifted and talented,'' 
under their State definition, was arbitrary and capricious, or 
would they have to prove that it was not?
    Ms. Cantu. The court would look at the same standard for 
Title VI. It would be an administrative law judge.
    Mr. Porter. Yes, but who has the burden of going forward 
with the evidence, is what I mean.
    Ms. Cantu. If we are the ones proceeding to a fund 
termination, we would have to show that there is a basis for 
that, and the administrative law judge would have to be 
persuaded that there is a case there.
    That is right. I am looking at my lawyers on both sides.
    Mr. Porter. In other words, the burden of proof is on the 
agency bringing the complaint?
    Ms. Cantu. Right.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.
    Ms. Cantu. Good afternoon.

                               assessment

    Ms. Pelosi. Following up on the chairman's line of 
questioning, I just was interested in the other criteria apart 
from I.Q. that are acceptable criteria.
    Ms. Cantu. Each local district would use the criteria that 
it seeks to get accurate information to meet its educational 
purpose.
    So, in the Georgia instance, they were trying to identify 
children that would belong in a gifted, accelerated class. They 
chose to consider students' grades, their work performance, the 
teacher recommendations. They chose to look at a variety--an 
entire student portfolio.
    They did not water down the curriculum.
    Ms. Pelosi. Where are you talking about, now?
    Ms. Cantu. Gifted in Georgia.
    Ms. Pelosi. Oh, I thought Georgia was just I.Q.
    Ms. Cantu. They began by only using I.Q. tests, yes.
    Ms. Pelosi. And then what?
    Ms. Cantu. And then they chose to broaden the indicators of 
giftedness.
    Ms. Pelosi. Would those indicators be more typical of the 
other surrounding States--grades, teacher recommendation?
    Ms. Cantu. Yes. And the designer of the I.Q. test provides 
some very stern warnings that you may not use the test as a 
sole measure. They want you to use it with other indicators.
    So what Georgia was doing was bringing itself into more 
accepted practices of using the I.Q. test scores.

                        english-only initiative

    Ms. Pelosi. Thank you.
    I had one question, and that is, I wondered if you had 
reviewed the English-only California ballot measure. Do you 
think it violates the Supreme Court decision, Lau v. Nichols 
regarding bilingual education? And then I have a follow-up 
question to that, a separate question, but related to that.
    Ms. Cantu. We do not have an opinion about UNZ and its 
legality. We do not offer hypothetical legal opinions.
    We have been asked by school districts for what they must 
do, and we have told them that the Federal law would still 
require that they provide effective educational programs. As 
Mr. Pierce said, they must be educationally sound, fully 
implemented, and evaluated to be effective. That would not be 
changed.
    Ms. Pelosi. If it passes, it will pose an interesting 
challenge on how that is easier said than done.
    I asked the Secretary when he was here about it. I did not 
ask him--nor was I asking you if you support or oppose. I was 
just asking if you thought that it violated the Constitution 
and if you were aware of it.
    Ms. Cantu. I am not ready to offer a legal opinion about 
it. I have had my staff begin research on it. It has not been 
voted on yet. It would be premature for me to offer a legal 
opinion, and that is not our core business of our office. We 
try to hold people to the Federal standards and ask people to 
understand and follow the Federal standards.
    Ms. Pelosi. Well, in California, if you put anything on the 
ballot, that you have the signatures for--it could be blatantly 
unconstitutional, but the issue of constitutionality is never 
addressed until and unless it is passed.
    Ms. Cantu. That is good.

                      california's assessment test

    Ms. Pelosi. As I understand--I have been talking to my 
superintendent of public instruction--and in our school 
district in San Francisco, we have filed suit, Federal suit 
against the State Department of Education to prevent the 
Department from administering their State-wide Standard Testing 
and Recording. It is called the STAR assessment test; the suit 
was filed in part, because the test is potentially 
discriminatory against limited English-proficient students. So 
the San Francisco School District is saying that unless the 
students have x-amount of English language, they are not going 
to do well in this test, and we are not going to discriminate 
against them.
    What do you anticipate the role of the Office for Civil 
Rights will be in monitoring the impact that the STAR test has 
on California?
    Now, mind you, the STAR test was not included in the list 
of requirements when States and local school districts made 
their application for the Federal funding, nor was the STAR 
test included in the proposal that was made to the Department 
of Education here in Washington. So this is sort of an after-
the-fact ingredient that now the State is hinting--I am not 
going to use the word threatening, but there has been an 
exchange of views that maybe San Francisco would not be able to 
receive Federal funds because they did not accept the STAR. San 
Francisco is an area that does support testing, but not this 
particular testing which they believe is discriminatory against 
children who are not English-proficient.
    The question is: What do you anticipate the role of the 
Office for Civil Rights will be in monitoring the impact of the 
STAR test?
    Ms. Cantu. Our office received very recently a complaint 
regarding the statewide Testing and Assessment system. It would 
be inappropriate for me to comment about an open complaint. We 
are evaluating it now, and I just heard, as you did recently, 
about the lawsuit that has been filed. So I will have to 
consider both of those before I can give you an answer. I would 
be happy to follow up with you after this hearing.
    Ms. Pelosi. All right. Thank you very much.
    Ms. Cantu. Thank you.
    Ms. Pelosi. Thank you, Mr. Chairman.

                         performance indicators

    Mr. Porter. Thank you, Ms. Pelosi.
    Ms. Cantu, you have very few measurable standards of 
programmatic effectiveness or efficiency. As an example, under 
your first objective, maximize the impact of available 
resources on civil rights and education, you have included as 
an indicator the estimated number of students with access to 
high-quality education will increase. What is high-quality 
education, and what is the level of increase in access that we 
could expect?
    Ms. Cantu. Sir, we are holding ourselves to pretty 
stringent standards of measure. In fact, if I had known when I 
was taking the job that I was going to hold myself out to these 
standards, I would have some serious thoughts about it because 
they are very daunting performance measures.
    The high quality of education of students is measured in 
ways that the whole Department is going to be measuring them. 
So I would not set out and try to come up with a different 
definition from the Department's.
    By whatever measure the States adopt, we will recognize and 
defer to those, and just ensure that we will find partners to 
close gaps between minorities, boys and girls, students with 
disabilities and students without disabilities. Those measures 
already exist in many States, and so we already believe that we 
are making very good progress towards having some very concrete 
standards.
    In addition, there are some soft indicators. I will not 
dispute with you that not everything can be measured. Some soft 
indicators will be about how we are going to be doing our job. 
We are going to be considering feedback we get from you as a 
member of Congress, from the general public. That will not be 
quantifiable, but it will matter to us, and it will prompt us 
to do our job better.
    Mr. Porter. Well, the feedback you can get from us right 
now is that we expect that measurable standards will be 
developed; that we expect baselines to be developed and targets 
to be developed. We want to be able to determine, to the extent 
that standards do it, how well the office is doing its work 
from year to year, so we can see whether you are going in the 
right direction or the wrong one, just like everybody else.
    You were not here this morning, but Mr. Skelly was. We 
think we have a ways to go within the Department, and do not 
wait for them. I mean, you are going to have to wait for them, 
obviously, to some extent, but we think that you need to 
proceed in developing those standards, and the faster, the 
better.
    Ms. Cantu. Yes, sir.

                        organizational structure

    Mr. Porter. The justification indicates, Ms. Cantu, that 
OCR maintains 12 offices nationwide. We have discussed the 
value of a national field structure with several of our 
agencies, and, generally speaking, most of our agencies 
indicate they would need approximately 40 offices in order to 
have an effective field structure.
    Short of that, they have indicated that between 3 and 5 
offices is all that they need to run a national operation 
without a field service. They have told us generally--and I am 
thinking of both Republican and Democratic appointees--that 
anything between 5 and 40 does not seem to make a lot of sense. 
Are your offices all coordinated with other Department offices? 
Have you performed or contracted for an evaluation of your 
office structure, and what is the rationale for maintaining 12 
offices?
    Ms. Cantu. We do coordinate. As you may have heard, we have 
a Secretary's regional representative in each of our field 
offices that ensures that we pool our resources and that we are 
as efficient as we can be.
    We evaluated our structure, did an internal evaluation. We 
did not hire an expert, but we did an evaluation and 
reorganized in 1995, and came up with a division structure that 
pools 4 divisions composed of 3 offices each. So, when you say 
3 to 5, that is actually what we have now. We have 4 divisions 
that share resources across office lines.
    For example, if there is a need to hire a person with a 
specific educational expertise in the area of testing or 
assessments, that division will make a single hire as opposed 
to hiring one for each individual office within the division. 
So we believe we have a good amount of efficiencies from our 
divisional structure.
    We have also moved field staff from our headquarters into 
the field because we value having people be there very close, 
face to face, with the public, the educators that they work 
with. We do not require educators to travel to us. We incur the 
travel cost, which is one of the reasons why our appropriation 
request is larger. Air fares went up. So we travel to folk. We 
meet with them and try to prevent problems, try to resolve 
problems, and we believe we have a very efficient structure for 
making that happen.

                              travel costs

    Mr. Porter. Air fares went up 53 percent between FY 1997 
and the next fiscal year?
    Ms. Cantu. No, sir. No, sir. We have requested the travel 
to be able to do monitoring. Monitoring has gone up, probably 
close to that figure. By monitoring, that means that when a 
resolution has been reached, we hold ourselves accountable for 
going back and verifying that, in fact, what was committed to 
actually becomes a reality, and we do not take an audit 
statement, a piece of paper across our desks for that. We have 
heard from a couple of districts, ``Oh, yes, the bathrooms are 
accessible, and, yes, the library is wheelchair-accessible,'' 
and then when we actually have a person go down and check, no 
part is accessible.
    Mr. Porter. Don't you have a complainant in each of those 
cases that filed the complaint originally? Can't they tell you 
it is fine and they are satisfied?
    Ms. Cantu. Sir, yes, and they have, and to be fair, we 
confirm what we have heard.
    We also travel, face to face, to provide technical 
assistance so people understand the laws and can avoid a 
complaint from being filed in the first place.
    Mr. Porter. Yes, but you have been doing that continuously. 
This verification, is that new?
    Ms. Cantu. Sir, we have not been doing that. Unfortunately, 
as the chart will show, there are the years when we were not 
fully funded, and we have begun to develop some delays in 
keeping up with our work. So this year and next year, we hope 
to catch up. So the monitoring is not as current as I would 
like for it to be.
    Timing is very crucial in our office. Unlike Department of 
Labor, for example, where an employee complains and they can 
get back-pay and be made whole for lost wages, we are dealing 
with young people, and you cannot give asecond-grader back 
their second grade. So we must work as quickly as possible, and to do 
that often means jumping on an airplane or jumping on a train to meet 
face-to-face with people to resolve things as quickly as possible.

                     automated case tracking system

    Mr. Porter. All right. Page Y-16 of the justification 
indicates that you maintain a fully automated case tracking 
system. We have found across our bill, generally, that such 
systems can be a powerful tool for improving productivity and 
for measuring agency performance and improving agency 
management. The Federal Mediation and Conciliation Service in 
the Occupational Safety and Health Review Commission have had a 
particular success in this area. A fully automated case 
tracking system can be a powerful tool in complying with the 
GPRA requirements.
    Do you use the case tracking system to measure employee and 
agency productivity?
    Ms. Cantu. Yes, sir, we do, and I agree with all of your 
statements.
    Mr. Porter. What GPRA indicators have you chosen which can 
be served by the system?
    Ms. Cantu. The system we have in place right now does 
measure the indicators in terms of--not all of them, but the 
numbers of students that are directly impacted by our work. It 
measures how quickly we are able to respond to complaints. We 
will include in it a way of measuring how many partnerships we 
pull together that can have impact.
    We are not asking for partnerships just for the sake that 
we can have good relations with educators. We want to be able 
to measure whether we are creating some impact that brings us 
closer to civil rights compliance, which is our core work.

                          case processing time

    Mr. Porter. And you would be able to show from this case 
tracking system the cycling time for disposition of an average 
case, and wouldn't that be an important measure?
    Ms. Cantu. Yes, sir, we can. With the system we have in 
place now, we flag for our supervisors when a case is--what is 
it? 180 days? 180 days is one of the early flags. As I said, we 
try to work timely. For us, our goal is same semester. So, from 
the time we hear about a concern to the time that we have 
resolved it--and we are actually meeting our goal. Our average 
is closer to 125 days. About 125 days is our national average 
for resolving civil rights concerns.
    Mr. Porter. Is this a goal in your GPRA plan?
    Ms. Cantu. Our goal in our plan is to bring that down even 
more. Our goal, I think, is 180 right now, but we are actually 
meeting that goal now.
    Mr. Porter. How much is the target, then? How much are you 
going to bring that down?
    Ms. Cantu. We have already met that goal. We are at 125 
now. If we continue to be funded, we will be able to stay under 
the 180, same semester.
    Mr. Porter. And you are satisfied with 125, but don't you 
want to continue to reduce that if you can?
    Ms. Cantu. We would love to do that, sir.
    Mr. Porter. Shouldn't you set a target?
    Ms. Cantu. We could do that, sir.

                            printing budget

    Mr. Porter. On page Y-3 of the justification, you indicate 
that your printing budget will increase by over 150 percent in 
the next fiscal year. What is the purpose of this proposed 
increase?
    Ms. Cantu. The budget is a maintained budget. This is a 
year that we are sharing a good amount of information about 
complex issues, and we want to continue doing that in FY 1999. 
The kinds of information we have been sharing is information 
about how to comply with Title IX athletics, a user-friendly 
guide on how to avoid sexual harassment and race harassment 
problems. We hope to continue providing those kinds of user-
friendly publications.
    We are also using our web page to hold the costs down, but 
not everyone has access to the Internet, as you have heard 
testimony before. So there is still a need in our publications 
budget to reach out to prevent discrimination.
    Mr. Porter. What was the requested amount for fiscal year 
1999 that you made to the Department and that the Department 
made to the OMB?
    Ms. Cantu. We requested--it was the same, wasn't it? It was 
69 or 68?
    Mr. Skelly. Mr. Chairman, it was very close to the amount 
requested of Congress. It might have been $69--rather than $68 
million.
    Ms. Cantu. And I think the difference was we had to fine-
tune some overhead costs through the Department, and it 
actually brought the costs down when we fine-tuned it.
    Mr. Skelly. We get different assumptions about pay raises 
that are to be applied Government-wide, benefits costs, and 
things like that.
    Ms. Cantu. What we estimated that we would want to do, we 
included in our request. Our full request was approved by the 
Department. Our full request was approved by OMB.

                         productivity measures

    Mr. Porter. Do you use individual productivity measures 
that you develop from your case tracking system?
    Ms. Cantu. Yes. Yes, we do.
    Mr. Porter. And what would those be like?
    Ms. Cantu. Well, we have an evaluation system within our 
office where everyone goes through a 360-degree evaluation. In 
those, there are elements that involve not only how well they 
do their work, but how well they support, in a team structure, 
other people being able to do their work.
    We do not have quotas. We do not have bounties for the 
numbers of cases that you deliver. We understand that not all 
cases are the same, just like not all children are the same. So 
we avoid having strict numerical quotas in our personal 
evaluation system for our employees.

                           performance awards

    Mr. Porter. You quadrupled performance awards, however, 
from 1997 to 1998, and you are saying that those are going to 
remain level for 1999 at $400,000. What was the reason for the 
awards increasing so dramatically, and on what basis do you 
make these awards?
    Ms. Cantu. Sir, I am proud to say we had tremendous staff 
work in 1997 that merit those awards. 1997 was a very dismal 
budget year for our office. Every month, we would count how 
many staff had retired or resigned, in order to determine how 
much salary we would not have to pay them, so we could then 
figure out how much money we had to do our job.
    When someone would retire, we would miss them, but we would 
then divide up their salary so we could pay for our work. That 
included--we had a training budget of $5,000 for close to 700 
people. That is $7 per person for the entire year. We had zero 
for the publications budget. We had zero for the technical 
outreach and assistance budget. We had zero for so many line 
items. I did not know if we could get through the whole year. 
We did. The staff continued to respond to children in a timely 
way, however, they fell behind because there was not enough 
staff to do all the work. They continued to produce high-
quality work, and we acknowledged that in our award system.

                           technology budget

    Mr. Porter. You have got another pretty dramatic increase 
on page Y-3 of the justification. You indicate that the 
expenditures for ADP processing will increase by 50 percent, 
and the expenditures for ADP equipment and software will more 
than triple in fiscal year 1999. What is the reason for these 
dramatic increases?
    Ms. Cantu. The Department--this fiscal year--well, my part 
of the Department, because I am committed, will be year 2000 
compliant. So I have committed the funds to make that happen.
    Next year's budget is simply maintenance to keep in place 
what we will achieve this year. There is an increase in our 
budget that is dedicated to automated data processing to be 
sure that this year we are completely compliant.
    Also, in there is the charge for our elementary and 
secondary civil rights survey, which is a sizeable commitment. 
We are redesigning that and hoping some day to bring the cost 
down on that because we want to be much more efficient. So, we 
are working quickly on redesigning it.
    Part of the redesign is it is going to be user friendly. We 
are going to have it on CD-ROM so that people can see in this 
sample that we take how school districts are doing and how we 
are doing in helping school districts improve. We think that 
directly relates to performance measures and GPRA.
    Technology is vital. It has helped us be able to do our 
work with fewer staff. We were 850 staff when I started 4\1/2\ 
years ago. We are asking for a budget request that will let us 
do our work with more complaints than we had when we started 
and I think better results, but with lots fewer staff; and that 
is because technology is making it happen for us.
    Mr. Porter. Ms. Cantu, thank you for answering all of our 
questions so well. I think from what you have said, you are 
doing a fine job and paying good attention to the standards 
that we want you to set and meet, and we appreciate you being 
here today.
    Ms. Cantu. Thank you, sir.
    Mr. Porter. Thank you so much.
    Ms. Cantu. Thank you.
    Mr. Porter. The subcommittee will stand in recess for 5 
minutes.
    [The following questions were submitted to be answered for 
the record:]


[Pages 678 - 686--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                          YEAR 2000 COMPLIANCE

    Mr. Porter. The subcommittee will come to order.
    We have called this hearing today to determine how each of 
the departments and agencies under our jurisdiction is 
progressing in implementing Year 2000 compliant information 
systems. In addition to the 5 agencies that will testify today, 
we have asked all of the other agencies within our jurisdiction 
to have a representative here.
    I want to send the message to everyone that this 
subcommittee considers the Year 2000 matter to be a top 
priority, and we collectively expect every agency to be in full 
compliance so that we do not experience any interruptions in 
service or compromise the integrity of Federal information 
systems in the Year 2000.
    In the more than 3 years that I have been Chairman, we have 
had more than 200 annual agency budget hearings. On only 5 
occasions have we conducted hearings not directly related to 
agency budget requests. This is one of them. I believe the Year 
2000 problem transition merits such a hearing.
    I think people generally understand the risks we face of 
not being able to process Social Security checks or student aid 
payments if we have a failure in our information systems, but 
beyond the obvious, the public is at substantial risk unless 
every agency, every government partner, every vendor and every 
other organization with which the government exchanges data is 
fully Year 2000 compliant.
    We look forward to hearing your statements. Let me suggest 
that we proceed in the following order: the Inspectors General 
for Labor, HHS, Education, Railroad Retirement Board and Social 
Security Administration, followed by the managers from those 
agencies in the same order for our second panel. I would ask 
each of you to keep your statements to 5 minutes.
    With that, we would proceed with the Inspector General for 
Labor.
                              ----------                              

                                           Tuesday, April 21, 1998.

                        U.S. DEPARTMENT OF LABOR

                                WITNESS

CHARLES C. MASTEN, INSPECTOR GENERAL ON DEPARTMENT OF LABOR 2000 
    TRANSITION

                           Opening Statement

    Mr. Masten. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me to discuss the 
Department of Labor's status in resolving its Year 2000 
problem. Specifically, you have asked me to discuss the 
Department's progress in resolving its Year 2000 problems, the 
obstacles to achieving compliance, and whether systems will be 
ready for transition into the new millennium. I would like to 
emphasize, first of all, that the comments I make today will be 
as the Inspector General and they may not be the official 
position of the Department of Labor. I would like to summarize 
my statement and ask that it be entered in its entirety for the 
record.

                     CHALLENGES POSED BY YEAR 2000

    Mr. Chairman, the challenges posed by the Year 2000 
transition are great and failure to meet these challenges can 
have far-reaching consequences. DOL has identified 61 mission-
critical systems for which it must ensure Year 2000 compliance, 
or have adequate contingency plans in place. In February of 
this year, DOL reported that 13 of its 61 mission-critical 
systems were Year 2000 compliant. However, none have been 
independently verified or validated as compliant.

                     OIG MONITORING OF DOL PROGRESS

    Over the last year, my office has escalated its monitoring 
of the Department's progress in addressing the Year 2000 issue. 
We have reviewed reported information, raised a number of 
issues internally, and promoted the need for a strong 
management structure to address this significant problem.

                              OIG CONCERNS

    I am very concerned about the potential impact inadequate 
Year 2000 progress may have on the Department's ability to 
provide services beyond December 31, 1999. I am especially 
concerned about DOL benefit payment systems for Job Corps 
students, injured coal miners, longshore and harbor workers, 
and Federal employees and their families. Also important is the 
Department's responsibility to help the 53 State Employment 
Security Agencies to bring into compliance systems that 
interface with the important departmental programs.
    Finally, I am concerned that the Department's insufficient 
progress in testing and validating systems as Year 2000 
compliant may result in additional strain on the Department to 
ensure contingency plans exist for all mission-critical systems 
that will not be ready on time.

                     ENSURING YEAR 2000 COMPLIANCE

    Last week, we entered into an agreement with the CIO in 
which areas of priority were established to ensure Year 2000 
compliance. The agreement established that the CIO is 
responsible for addressing the 6 areas identified in addressing 
this problem, with the OIG providing audit oversight. 
Consistent with the agreement, the OIG is beginning an audit to 
assess the accuracy of the information being reported to the 
CIO by the agencies of the Department.

                       DOL'S YEAR 2000 READINESS

    Mr. Chairman, with respect to whether DOL's systems would 
be ready for transition into the new millennium, given the 
Department's performance thus far, I must say that I have 
serious concerns. Signing an agreement is only a small first 
step. In order for the agreement to have any impact, the 
Department needs to ensure that each step is accomplished 
effectively and in a timely fashion.

                     OBSTACLES THAT HINDER PROGRESS

    The Department also needs to address those obstacles under 
its direct control that have hindered progress in this area; 
namely, insufficient management and accountability inaddressing 
the Year 2000 problem, as well as difficulty in funding related 
activities. We support the Secretary's decision to hold the assistant 
secretaries personally accountable and responsible for ensuring their 
agency's compliance. However, we believe it is critical for the 
Department of Labor to: ensure that agencies follow a clear plan with 
specific milestones to address the areas identified in the agreement; 
ensure that funding needed to achieve Year 2000 compliance be more 
realistically estimated; monitor closely the replacement of systems to 
ensure systems will indeed be compliant and delivered on time, and if 
not, have appropriate contingency plans in place to guarantee 
continuity of operations; and, identify and address external factors 
beyond DOL's control that may impact on program agencies' compliance or 
interfaces with outside entities. Clearly, DOL has an arduous task 
ahead. Far more difficult, however, will be dealing with the problems 
DOL will face in January of 2000, if this problem is not adequately 
managed in the months ahead.

                               CONCLUSION

    Mr. Chairman, that concludes my summary, and I will be 
pleased to answer any questions you or any of the subcommittee 
Members may have. Thank you.
    Mr. Porter. Thank you, Mr. Masten, for your statement. 
Obviously, you were right on time.
    [The statement of Mr. Masten follows:]


[Pages 690 - 695--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

THOMAS D. ROSLEWICZ, DEPUTY INSPECTOR GENERAL FOR AUDIT SERVICES
    Mr. Porter. Mr. Roslewicz, representing the Inspector 
General of the Department of Health and Human Services.

                           Opening Statement

    Mr. Roslewicz. Good morning, Mr. Chairman. I am Tom 
Roslewicz, Deputy Inspector General for Audit Services at the 
Department of Health and Human Services, and I am pleased to be 
here to discuss the Department's readiness for the Year 2000.
    In brief, while the Department has developed an overall 
strategy to ensure its mission-critical systems are Year 2000 
ready, considerable obstacles still exist. I will detail these 
obstacles in my testimony.
    First, I would like to give you some background on the 
Department OIG's role in the Year 2000 effort. As you know, 
Health and Human Services is a diverse Department, one whose 
programs and services affect the health and well-being of 
virtually every citizen of our country. As such, its data 
systems software must be Year 2000 compliant, so that when the 
clock strikes 12:01 on New Year's morning of the year 2000, its 
systems continue to be able to perform critical functions such 
as generating payments for Medicare services and generating 
funds to cancer researchers.
    Further, we must be assured of the Year 2000 compliance by 
our external systems, by those systems that interface with 
those of our Department--for example, State systems that feed 
information to HHS, such as Medicaid recipients, service and 
payment data to the Health Care Financing Administration.
    Not only is the Year 2000 effort massive, its scheduling is 
ambitious. The Office of Management and Budget established a 
new target date for implementing fixes to all systems of March, 
1999. Recognizing the gravity of the Year 2000 challenge, we at 
the OIG are devoting significant resources to this effort: 50 
full-time equivalents for the next 2 years to determine whether 
HHS is taking all of the steps necessary to be compliant by the 
Year 2000.
    I want to emphasize that our work is continuing in this 
important area, so our findings and recommendations are 
necessarily evolving. For the sake of brevity I will focus my 
remarks on the accomplishments and the obstacles we have 
identified thus far in our review of HHS's Year 2000 effort.
    Mr. Chairman, HHS has made progress in its Year 2000 
effort, including the following significant accomplishments to 
date. HHS has established Year 2000 compliance as the 
Department's highest information technology priority, and it 
has established an organizational structure and reporting 
mechanism to deal with it. HHS has identified 491 mission 
critical systems that are targeted for change, and has reported 
that 40 percent are already compliant. Final refinements to the 
list of critical systems are underway.
    Agency heads, as of November 1997, are required to obtain 
independent validation and verification on all systems by 
contractors or separate qualified components within their own 
organizations. The Department has accelerated schedules for 
making all mission-critical systems compliant by December 31, 
1998. All HHS agencies are required to have a contingency plan 
to continue business operations in the event of the Year 2000 
computer failure. Finally, HHS has requested and received 
Department-wide authority to retain, reemploy and attract 
qualified information technology staff necessary to address 
these issues.
    We have also identified the following obstacles to timely 
completion of this major undertaking: 1. Delays on the part of 
our critical external partners and contractors. The Department 
relies heavily on data exchanges with States, health research 
organizations and contractors who process Medicare payments. 
HHS needs to ensure that these entities become Year 2000 
compliant, or have contingency plans established in the event 
that they do not; 2. The competition for resources, both 
dollars and skilled people; 3. The need to devise testing 
strategies for complex systems is an enormous technical and 
logistical challenge; 4. Certifying the many systems as Year 
2000 compliant, an effort requiring independent third party 
validation and verification of critical systems; and 5. The 
scheduling challenge of the December 31st, 1998 target date for 
completion.
    An example is the interdependence of the Medicare claims 
processing systems, where completion of remediation for about 
70 contractors is dependent on the delivery of shared systems 
modifications from a handful of software vendors and the Year 
2000 readiness 27 operation centers. We note that the 
Department has requested authority to increase HCFA's 
contracting flexibility, which would expand the pool of 
qualified contractors for procurement of high quality Year 2000 
remediation services.
    The Department has taken a systematic approach to this 
effort, but as I discussed, considerable obstacles must be 
overcome to achieve success. While I cannot predict the outcome 
at this time, we will be reporting quarterly to the HHS Chief 
Information Officer on the Department's progress. The first of 
these reports will be issued in May. The Subcommittee can be 
assured that we will continue our work in this important area.
    This concludes my remarks, Mr. Chairman. Thank you very 
much for this opportunity.
    Mr. Porter. Thank you very much for your good statement.
    [The statement of Mr. Roslewicz follows:]


[Pages 698 - 707--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      U.S. DEPARTMENT OF EDUCATION

                                WITNESS

JOHN P. HIGGINS, JR., ACTING INSPECTOR GENERAL
    Mr. Porter. Mr. Higgins, Department of Education Inspector 
General.

                           Opening Statement

    Mr. Higgins. Mr. Chairman, thank you for inviting me to 
testify today about the Department of Education's progress for 
ensuring that its computer systems are Year 2000 compliant. I 
would like to offer my written testimony for the record. I have 
also provided copies of 2 recently issued audit reports which I 
believe would be of interest to the subcommittee. The first one 
is on the Department of Education's Readiness for the Year 
2000, and the second one is about the Department's 
implementation of the Clinger-Cohen Act. In light of this 
recent audit work, I believe I am in a good position to address 
the subcommittee's 3 questions.
    First, how is the Department progressing in resolving its 
Year 2000 problems? Despite recent efforts and strides taken by 
the Department, our audit results reflected that the 
Department's overall progress has not kept pace with 
government-wide milestone dates developed by OMB and that it 
must continue to accelerate its effort. The Department has made 
significant progress in recent months, as OMB noted in its most 
recent quarterly report. The Department's Year 2000 project has 
been receiving senior managerial level attention from the 
Acting Deputy Secretary. He is very involved in the process. He 
holds weekly status meetings with senior management officials. 
He has designated a career executive to lead the Year 2000 
project and has assigned significant additional staff resources 
to the project.
    At the time of our audit, the Department had not developed 
a very comprehensive Year 2000 plan in the time frame provided 
for under the OMB schedule, and had not completed assessments 
or prepared renovation and testing plans for mission-critical 
systems. Since our audit, the Department has completed its 
systems inventory, made substantial progress in assessing its 
systems, and initiated renovation in all 14 mission-critical 
systems. Assessment activities will be continuing as the 
renovation process proceeds.
    The Department now estimates that it will complete its 
comprehensive management plan for Year 2000 this month; as a 
matter of fact, I think it is already completed. The Department 
has also begun the process of developing contingency plans for 
mission-critical systems.
    The second question: what obstacles stand in the way of 
completion? In my opinion, the greatest area of concern is with 
the external entities that interface with the Department 
systems, some of which are guarantee agencies, school 
districts, schools, secondary schools, lenders and guaranty 
agencies. If a large or a significant number of entities are 
not ready and do not have adequate contingency plans, then the 
Department may not be able to effectively administer its 
programs, regardless of its own state of readiness.
    The Department has initiated significant outreach 
activities, but lacks a strategy to encourage compliance of 
these outside data providers and a contingency plan for those 
who do not become compliant.
    Question number 3: will the Department's data systems be 
ready on January 1, 2000? I cannot say with certainty at this 
stage. Clearly the Department is behind schedule when measured 
against the OMB milestones, but in my opinion, the goal of 
implementation for its mission critical systems by March 31st, 
1999 is attainable. Reaching the goal will require continued 
quality leadership and a concerted effort from all involved. My 
office will continue to monitor the Department's progress and 
report our findings and recommendations to management in 
accordance with the Acting Deputy Secretary's request. We plan 
to target areas that are critical to achieving Year 2000 
compliance.
    Specifically, we will be reviewing testing of renovations 
to mission-critical systems, monitoring independent 
verification and validation processes, reviewing contingency 
plans, verifying the accuracy of quarterly reports to OMB, and 
providing technical assistance to the steering committee and 
the project management team.
    Mr. Chairman, that concludes my statement.
    Mr. Porter. Thank you, Mr. Higgins.
    [The statement of Mr. Higgins follows:]


[Pages 710 - 714--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                       RAILROAD RETIREMENT BOARD

                                WITNESS

MARTIN J. DICKMAN, INSPECTOR GENERAL
    Mr. Porter. Mr. Dickman.

                         Remarks By Mr. Dickman

    Mr. Dickman. Mr. Chairman and members of the subcommittee, 
the Office of Inspector General has established a special audit 
group to monitor the Railroad Retirement Board's Year 2000 
compliance. On January 30th, 1998, we issued a formal report on 
the status of the agency's Year 2000 project plan which I would 
be happy to provide to the committee. Our auditors concluded 
that project management is adequately directing the 
implementation of the project and that the current inventory 
rating of critical and noncritical systems is reasonable. The 
agency has identified 166 mainframe systems which must be 
converted and an additional 7 systems which will be replaced or 
retired.
    The Chief Information Officer has reported that conversion 
of 38 percent of the mission-critical systems has been 
completed. However, a breakdown of this percentage indicates a 
majority are personal computer systems. As of March 31st, 1998, 
the RRB had completed 24 percent of the mainframe systems which 
are mission-critical and 77 percent of the mission-critical 
personal computer systems. The remaining conversion activities 
for mission-critical systems are on schedule and are targeted 
for completion by December 1998.
    Because this date is before the OMB deadline of March 1999, 
the RRB has elected not to develop any contingency plans. 
However, if conversion activities fall behind schedule for any 
mission-critical systems, a contingency plan will be developed 
in January of 1999. We believe this is a reasonable plan of 
action.
    I would point out that the RRB will not complete conversion 
of 41 noncritical mainframe systems by March 1999. However, the 
majority of these systems are scheduled to be completed in 
September of 1999.
    We are also monitoring the RRB's development of bridge 
programs for data exchanges with outside parties and the 
compliance of systems software and building services. These 
activities are also progressing well.
    We plan to conduct independent verification of the agency's 
validating and testing of systems. We will review 18 of the 166 
mainframe systems which require conversion; 16 are mission-
critical. We certainly would prefer to review more systems, but 
our current resources do not permit this. We also plan to 
review the integration testing for all mission-critical 
systems, which are scheduled in the calendar year 1999.
    The OIG believes that the RRB has established an 
appropriate plan to ensure its systems are Year 2000-compliant. 
We will continue to work closely with Mr. Rose and his staff 
and will ensure that any problems are appropriately reported to 
OMB.
    Thank you. This concludes my remarks.
    Mr. Porter. Thank you, Mr. Dickman.
    [The statement of Mr. Dickman follows:]


[Pages 717 - 718--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                     SOCIAL SECURITY ADMINISTRATION

                                WITNESS

DAVID C. WILLIAMS, INSPECTOR GENERAL
    Mr. Porter. Mr. Williams, the IG of the Social Security 
Administration.
    Mr. Williams. Chairman Porter and Mr. Stokes, thank you for 
the opportunity to appear here today to discuss the Year 2000 
issue.
    The Year 2000 issue will affect all automated systems, such 
as personal computers, mainframes, and software that uses 2-
digit years. The Social Security Administration encountered its 
first problems with the Year 2000 issue in 1989 when a program 
that scheduled debt collection could not project dates into the 
21st century.
    At that time, it became apparent that if SSA did not update 
its systems to be Year 2000 compliant, on January 1, 2000, 
beneficiaries would not receive their checks; SSA would not be 
able to process new claims or issue new Social Security 
numbers; SSA internal communications would shut down and SSA's 
teleservice centers would not be able to operate.
    To address this situation, SSA developed a strategy to 
update data space bases for compliance during their scheduled 
rewrites and modify software as part of its scheduled 
maintenance.
    In 1997, the General Accounting Office reviewed SSA's 
progress on addressing the Year 2000 issue. GAO stated in a 
written report that there was still a risk 245 of SSA's 308 
mission-critical systems would not be corrected by January 1, 
2000. GAO cited 3 areas where SSA needed to improve its 
systems: Disability Determination Services interface, data 
exchanges, and contingency planning. SSA is required to provide 
the Office of Management and Budget a quarterly report on its 
progress in addressing these areas.
    SSA has stated that it is on schedule for addressing the 
three areas. First, SSA stated that the target date for full 
Year 2000 compliance in the DDSs is December 1998. The DDS year 
2000 Compliance Tracking Report for April 1998 showed that 21 
of the 55 DDS systems have been renovated, tested, and 
implemented. The remaining DDSs are on schedule for having 
their software conversion completed by December 1998.
    Second, SSA has inventoried all of the data exchanges with 
Federal agencies, States, and third parties and identified more 
than 2000 data exchanges. Of those, SSA has targeted the 13 
most critical and over 300 mission-critical data sets for 
priority attention. SSA reported that 65 percent of data 
exchanges have been made Year 2000 compliant. SSA is 
negotiating agreements with its exchange partners on how and 
when the conversion will be complete. SSA's target date for 
having all of its data exchanges compliant is December 1998.
    Finally, SSA's high level Agency Business Continuity and 
Contingency Plan was completed on March 31, 1998. This Plan 
will address the continuation of SSA's core business functions 
if there are disruptions in the conversion activities.
    In its most recent quarterly report, SSA appeared to be one 
of the Federal agencies that is making satisfactory progress in 
the Year 2000 conversion. SSA has reported that, of its 308 
mission-critical systems, 92 percent are Year 2000 compliant.
    Although SSA is leading all Federal agencies in its 
response to the Year 2000 issue, there are three areas that may 
present obstacles for the timely completion of the planned 
conversions.
    SSA's partners, which includes other Federal agencies, 
telephone companies, and banking institutions both in the 
United States and overseas, could fail to complete their 
conversions on time. This would make it impossible for SSA to 
exchange data with external entities.
    A recent audit of SSA's financial statements found that the 
facility where SSA tests software before it is put into 
production is not comparable to the actual operating 
environment. SSA has also designed a special Year 2000 test 
facility that it must ensure mirrors the operating environment.
    Twenty percent of SSA's systems analysts and programmers 
are eligible for retirement between 1997 and 2002. This 
situation is made worse by the fact that there is a high demand 
for COBOL programmers in the private sector as consultants. 
These positions are paying high salaries, which makes early 
retirement attractive to Federal employees.
    The OIG has followed GAO's work in this area. We have 
initiated the task orders of the FY 1998 Financial Audit, which 
will evaluate SSA's test facility. We also plan to review SSA's 
testing and compliance for completeness, accuracy and 
timeliness.
    In conclusion, I believe the significant progress SSA has 
made in addressing the Year 2000 issue will ensure that SSA is 
equipped to continue its tradition of exemplary public service 
into the next millennium. Thank you.
    [The statement of Mr. Williams follows:]


[Pages 721 - 725--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Mr. Williams.
    Mr. Dickman, you talked about systems. This is a software 
as well as a hardware problem, is it not?

             rrb data exchange with external organizations

    Mr. Dickman. Yes.
    Mr. Porter. And you are looking into both the software and 
the systems themselves?
    Mr. Dickman. Correct. And we will do independent 
verification. We will do verification of their verification.
    Mr. Porter. And I would imagine that there are less 
problems both with Railroad Retirement Board and Social 
Security Administration with external agencies, but you also 
have those problems too, do you not?
    Mr. Dickman. We do. We interface with States as far as wage 
matching; we interface with Social Security as far as the 
financial interchange, with HCFA, with the Department of 
Treasury, banks and railroads.
    Mr. Porter. And you are looking into all those systems to 
make certain that they are going to be compliant as well?
    Mr. Dickman. We are looking into that, and that is why I 
think the bridge systems, in speaking to Mr. Rose and as far as 
our oversight, are very important, because they allow us to 
have the exchange of data with the noncompliant side. If a 
State is not compliant, even though we are compliant, it allows 
us to exchange the data without disrupting the flow of 
information.
    Mr. Porter. Mr. Williams, if you took a poll of Members of 
Congress and asked them about their greatest Year 2000 fear, 
you might get a unanimous response: Social Security benefit 
payments. Since these payments are made both by check and 
electronic transfer, the agency will have to test its 
interaction with the Treasury, the Federal Reserve, and 
thousands of recipient financial institutions.
    My question has several parts. Can you tell us generally, 
are all SSA systems Year 2000 compliant, and if not, what is 
the schedule for certifying or replacing them?
    Mr. Williams. Presently 92 percent of the systems are 
compliant. The date for all of the systems to be compliant is 
December 1998, and to our knowledge, they are on track to meet 
that schedule.
    Mr. Porter. What is the schedule for testing interaction 
with Treasury and Federal Reserve?
    Mr. Williams. The testing for the Treasury began in March, 
and it is underway. For the Federal Reserve, it is set to begin 
this summer. Both of those are scheduled for completion in 
December of 1998.
    Mr. Porter. How many financial institutions receive 
electronic benefit payments and what is the schedule to begin 
and complete testing with these institutions?
    Mr. Williams. About 70 percent of all of our direct 
deposits go to 100 banking institutions. The remainder of our 
direct deposits could go to as many as 9,000 financial 
institutions. [Clerk's note.--Later Corrected to ``23,000''.] 
The testing for the financial institutions' payment contingency 
plan will begin this summer, and it also will be completed in 
December of 1998.
    Mr. Porter. Are you going to test all 9,000 of those 
institutions?
    Mr. Williams. The Treasury and the Social Security 
Administration are currently discussing another option, which 
would involve sampling. We don't know which of those they will 
select to evaluate sampling as an option. My office would want 
to hear Treasury's rationale for why sampling would be 
adequate. We would want to look at how the banking regulatory 
agencies are testing 2000 compliance in their own financial 
institutions, whether they are using sampling or 100 percent 
compliance. We would want to determine whether the number of 
financial institutions that exist, the 9,000, might be 
prohibitive to test, or whether that is a viable option. 
[Clerk's Note.--Later corrected to ``23,000''.]
    We would also want to assure that if we go with sampling, 
that all types of financial institutions are involved in the 
sampling test. That would involve international banking 
institutions and credit unions, savings and loans, and banks 
themselves. So if they elect that option, we still need to 
answer the questions as to its adequacy.
    Mr. Porter. This is a question for all of you, but isn't it 
in the great interest of external agencies to make certain they 
are in compliance? In other words, isn't there an incentive on 
their part to make certain that their systems will continue to 
interface properly with Federal systems, and can't we rely upon 
their self-interest, if you want to call it that, to make that 
happen and simply check to make certain that they are making 
progress?
    Mr. Masten. It is definitely in their interests to make 
sure that their systems are in compliance, but we still have to 
make sure that they are. We can't just take their word for it. 
So it behooves all of us to do a sample test, as Mr. Williams 
stated, to make sure that they are in compliance.
    Mr. Williams. I agree with Mr. Masten's cautionary note, 
but I think you have a very good point, that particularly in 
the corporate world, companies are going to be rapidly left 
behind and they know that in order to serve their own 
customers, they need to do exactly what you said. So we have 
that working for us, and that is a very strong motivation and 
source of investment.
    Mr. Porter. Mr. Williams, aside from retirement benefits, 
SSA maintains 2 major data exchanges for disability caseload 
processing and wage reporting. You indicated in your written 
testimony that 21 of the 55 State disability determination 
services are already Year 2000 complaint. What is the schedule 
for testing compliance of the DDSs and the wage reporting 
systems, what contingency plans have you recommended and what 
contingency plans has the agency adopted to deal with the 
possibility that some State systems will not be compliant, and 
are there any States that you currently believe will not or may 
not be compliant?
    Mr. Williams. We believe that both the DDS data exchanges 
and the wage reporting data exchanges are going along well. The 
testing is currently going on and is scheduled for completion 
in December 1998. We feel comfortable at this time, as I said, 
that that is going well.
    However, we have contingency plans. The one that exists 
today, and it will be updated, as I will explain in a moment, 
but the one that exists today calls for us to transfer 
workloads from any DDSs that are failing to those that are 
succeeding, and of course there are 21 compliant today, and we 
hope that they will all be ready by December 1998. If that 
fails, though, that is the contingency plan today. We are 
strengthening that by requiring each of the DDSs to develop 
their own contingency plans, which we will monitor.
    We believe that those contingency plans, which will be a 
better bridge and a better safety net, will be ready in 
September of 1998 which will give us a nice long time to 
examine them. That will also let us concentrate our efforts on 
any that are failing.
    The last question with regard to how the States are doing, 
we don't anticipate that any will fail and that they will all 
be compliant in December of 1998.
    Mr. Porter. And what about wage reporting?
    Mr. Williams. Wage reporting, we will primarily be 
dependent on the IRS for that. That is on the same schedule. 
For testing, it is already underway and it will be complete by 
December of 1998. I have a good level of confidence that that 
will work and the tests then supporting that will begin at that 
time as well. [Clerk's note.--Later corrected to ``The wage 
reporting data exchange will be coordinated with the IRS and 
testing will be completed on the same schedule''.]
    Mr. Porter. Thank you, Mr. Williams.
    Mr. Masten, let me make a comment on your testimony and 
then ask some questions.
    You stated in the first full paragraph on page 2 of your 
statement that your activities in this area have been limited 
by resource constraints. Since your most recent semiannual 
report does not mention Year 2000 activities, since the fiscal 
year 1998 appropriation differed from your request by only 1 
percent, and since we provided the Department its full request 
of $200 million in funding for the only Year 2000 initiative 
which you identified as a Year 2000 problem concern, I am not 
sure how either the IG or the Department can claim that they 
have been hampered by resource constraints. You are free to 
comment on that if you want.

                           oig budget request

    Mr. Masten. Mr. Chairman, in our initial budget request 
under information technology, along with the pension 
initiative, we had requested funds for information technology to 
address some of the major concerns we anticipated that the Department 
would have, and at the end of our submission that was not included in 
our budget.
    Mr. Porter. Well, let me make clear, the purpose of this 
hearing is not to play some kind of a blame game; we are here 
to determine what problems we face and how they are going to be 
resolved. There are many areas in which IG's, agencies, and the 
Congress are going to have adversarial relationships. This 
should not be one of them. It is not sufficient for the IGs to 
come here and tell us that the agencies are doing a poor job. 
We want to know how the IGs are going to contribute 
productively to solving the problems that the agencies face, 
and we will consider future appropriations, in part, on this 
basis.
    Having said all of that, Mr. Masten, I want to read you a 
statement from the written testimony that the Department sent 
to us. The Department, ``would like to assure the Committee 
that the Department is highly confident that it is on target to 
achieve its Year 2000 conversion goals.''
    Obviously, based on your written statement, you don't 
consider that to be credible. Would you tell us why you think 
the IG and the agency have such different opinions of the 
Department's Year 2000 effort, and then tell us what you are 
proposing in the way of cooperative activity between your 
office and the Department to ensure that all of the potential 
problems you identified are, in fact, averted?

                     reallocation of oig resources

    Mr. Masten. All right. Mr. Chairman, first of all, let me 
address the part about the resources. We are prepared, the 
Office of Inspector General is prepared to address this issue 
based on the resources we have. We are not saying that nothing 
will be done; we have the option of curtailing Audits of grants 
and contracts in order to get allocate resources to address 
this issue. That is exactly what we plan on doing, and we will 
maximize use of those resources in order to validate what the 
CIO is reporting.

                   dol progress in addressing problem

    We are of the opinion that the Department is not on 
schedule based on a number of factors. We have started 
monitoring very closely what has been done in the last year, 
and in addition to OMB's rating of the Department, at one point 
it had a higher rating as you recall, that rating was lowered 
when it was compared with the rest of the agencies. I believe 
Mr. Horn gave the Department an F. Based on all of those 
things, and what we see, we do not believe that the Department 
is on schedule.
    Having said that, I am aware that the Secretary has raised 
this to the level of the Deputy Secretary as the major concern, 
and she personally addressed this issue with the executive 
staff last Thursday, and she is holding the Assistant 
Secretaries accountable, both personally and in writing, to 
bring these agencies into compliance.
    But that is the reason we are of the opinion that we are--
that they are not on target based on those factors. However, as 
I said, they are addressing them.
    Mr. Porter. Well, let me say, Mr. Masten, that I believe, 
having heard from the Department and from your office on these 
matters, I think that of all of the agencies at the table, 
Labor is of greatest concern. It seems to me they have started 
more slowly and not made as much progress as others, and that 
concerns me very greatly. So we are going to have to stick with 
this and make certain that the Department meets its goals and 
is, in fact, compliant.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. I just have a couple 
of questions.

                  INTERNATIONAL COLLABORATIVE EFFORTS

    Research indicates that most of the rest of the world lags 
behind the United States in addressing this problem. Is this a 
matter of concern to any of the agencies here in terms of any 
international collaborative efforts?
    Mr. Williams. Mr. Stokes, we have--at Social Security we 
have direct deposit and of course we make other kinds of 
banking arrangements overseas to pay our beneficiaries who have 
retired overseas, or for whatever other reason receive benefits 
there. It is of concern to us, and part of our testing involves 
working through Treasury and the Federal Reserve to test 
whether our direct deposits will work well and to develop 
contingency plans should they not--should that not connect. So 
for us it is an issue, and that is how we are addressing it.
    Mr. Stokes. Do you have any information, Mr. Williams, in 
terms of their progress in addressing this matter?
    Mr. Williams. The testing for that will begin this summer, 
and knowing of your interest, we can make sure we stay in touch 
with you as to its outcome. But the testing has not yet begun. 
We know what we want to attempt, and the testing will tell us 
if it is successful.
    Mr. Stokes. Do any of the other agencies in such efforts to 
address concerns about international colloborative efforts have 
any input?
    Mr. Dickman. Mr. Stokes, the Railroad Retirement Board to a 
much, much lesser extent than Social Security also makes 
payments to retirees in foreign countries, but as I said, to a 
much lesser extent than Social Security. So we are concerned 
about it.
    Mr. Stokes. I know that this has been touched upon, as it 
relates to the degree of compliance of States, counties, and 
local governments, but isn't this really a major problem for 
each of these agencies in terms of their progress relative to 
compliance? Don't most of you interact with county and State 
governments and view it as a major problem?
    Mr. Roslewicz. Yes. The Department of Health and Human 
Services, one of the largest programs--Medicaid, for example. 
Under the Medicaid program, 50 State agencies are processing 
data and submitting it through HCFA. We also have the Office of 
Child Support Enforcement and parent locator systems, which 
locates parents for child support actions. All of those systems 
are currently being run under the mainframe at SSA, which once 
was a part of the HHS. These departments do intertwine and 
intermingle between the various State and local communities. 
There is a great deal of work that needs to be looked at in 
terms of the interaction between these systems.

                      states year 2000 compliance

    Mr. Masten. Mr. Stokes, you know, we interact with 53 
States with SESA involving unemployment benefits, and that is a 
real major problem for us. As you know, Congress appropriated, 
I believe, $200 million for this purpose to help these 53 SESAs 
to get into compliance, and I believe $160 million of that 
money has already been distributed to bring them up to 
compliance, and that is one of the areas that we will be 
working with the CIO to make sure that that is done.
    Mr. Stokes. I would imagine that welfare-to-work is one of 
the areas of specific concern relative to your agency?
    Mr. Masten. Yes, that is correct.
    Mr. Stokes. Mr. Higgins?
    Mr. Higgins. We also share this concern at the Department 
of Education. We are developing contingency plans, or the 
Department is in the process of developing contingency plans 
which hopefully would address some of these shortcomings.
    Mr. Stokes. I gather from this that there is no central 
coordinating agency that is working with the agencies and the 
State and local units of government?
    Mr. Williams. Actually, I am going to attempt to answer 
that. The one that comes to mind is the Office of Management 
and Budget, and Mr. John Koskinen has been brought back, he was 
an official there, to concentrate just on this issue, and he 
represents a coordinating force, and of course they have all of 
OMB to assist in that, but he is the figure that comes to mind 
as the central area where this is all being coordinated for the 
White House.

                 assisting states to achieve compliance

    Mr. Masten. Mr. Stokes, if I may add, there is a joint 
project set up between the U.S. Department of Labor, and 
Maryland's State Department of Labor, Licensing and Regulations 
to establish a center to support the needs of the 53 SESAs that 
I mentioned earlier to help them achieve compliance.
    Mr. Stokes. One of my concerns is about the budget 
submissions from each of the agencies. Is there sufficient 
funding in the fiscal year 1999 budget request for each of the 
agencies to do what is necessary to become compliant. Are you 
able to give us that kind of assurance?
    Mr. Dickman. Mr. Stokes, we will appear, the Railroad 
Retirement Board will appear this afternoon before this 
committee for the appropriation, and both the agency and the 
Inspector General are asking for some additional funds for that 
very purpose.
    Mr. Williams. Congress has been very supportive and they 
have been supportive for a long time, and our level of comfort 
is good that the appropriation process has worked to support us 
in a great way.
    Mr. Stokes. Do any of the others wish to comment?
    Mr. Higgins. I will defer to the panel that follows.
    Mr. Roslewicz. We have redirected 50 FTE from our routine 
audits and are comfortable with doing that. The Department has 
a problem which has been addressed to the Congress, as a matter 
of fact, to get some assistance with regards to giving them 
more clout with the Medicare contractors, and I am sure the 
CFOs--CIOs will be testifying about this later on.

                     re-allocation of oig resources

    Mr. Masten. Mr. Stokes, as I have stated, we are 
redirecting resources that we had for audits of grants and 
contracts to address this problem with the current resources we 
have now.
    Mr. Stokes. Does that meet the reprogramming request?
    Mr. Masten. It is a decision that I have to make and I have 
made that decision to redirect the resources we have in one 
area to address this other area that I consider a much higher 
priority.
    While I have the mike, I would like to address an issue 
from earlier--what the IG is doing with the CIO to address this 
matter. The IG has been instrumental in setting up a structure 
and an agreement identifying very clearly what the 
responsibilities are for the CIO and what would be done, I 
believe in 6 areas that were pointed out. And, in addition to 
that, the agreement pointed out exactly what our 
responsibilities would be. This is a collaborative effort, if 
you will, to address the issue.
    Mr. Stokes. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes.
    Let me tell you the way I see things, and this is not a 
message for the IGs necessarily, it is a message for the 
departments and agencies, and that is along about September of 
1999, or maybe October, the major news magazines, Time, 
Newsweek and U.S. News and others, are going to have a cover 
story on this issue, and good news is no news and bad news is 
news, and I don't want to have any agency or department under 
the jurisdiction of this subcommittee being any part of that 
story. That is my goal, and I think it is your goal as well. 
And we are all going to have to work together and we are going 
to have to provide you, obviously, the departments and 
agencies, the resources they need to overcome this. But let's 
hope that none of these departments or agencies are any part of 
this story of impending disaster which I am sure will be on the 
cover of our major news magazines.
    Mr. Roslewicz, a question for you.
    How in the world did a problem like this ever happen? There 
are so many imaginative people working in this way in designing 
hardware and software. How come they never anticipated the 
change of the millennium?
    Mr. Roslewicz. That is the very question I asked myself 
when this first came up. Why was this problem not anticipated 
when we were developing these systems 34 years ago? The answers 
I keep getting from most people I talk to in this field is 
that, back then, they were conscious about saving space in the 
computer programs, and it was cheaper to drop those two digits. 
You know, instead of putting the full digit 1997, they would 
just say, well, we will compact that into 2 digits. That seems 
to be the furthest I can get in coming up with a realistic 
answer. You know, secondhand, second thought. I would think 
that it was poor planning back then, in the years when people 
were first designing systems to not have looked ahead to the 
Year 2000. But it is easy to now say, as we approach the 
millennium, we have a problem.
    Mr. Porter. Does it all go back that far, or when did 
people start recognizing that this would be a problem and start 
designing hardware and software that wouldn't be?
    Mr. Roslewicz. The beginning--we can go back to some of the 
old systems I was referring to. But currently if there is a 
system that is being made that is not compliant, I, from my own 
personal point of view, would think it is almost deliberate.
    Mr. Porter. Yeah, now. But I mean how many years do we go 
back to find the systems that weren't designed to be compliant 
or weren't designed to take that, anticipate the need for 
compliance?
    Mr. Roslewicz. Some of the systems go back very far when 
the programs were first developed.
    Mr. Porter. I am trying to bring it forward, though.
    Mr. Roslewicz. And you know, we have our own systems in the 
IGs office that had to be updated in order to meet new 
Congressional requirements. Under Medicare, for example, 
different things are now allowable that weren't in the past, so 
the systems are constantly being modified and updated to handle 
changes. So there is no system that I am aware of that is the 
same as it was when it was first created. Still, somewhere 
along the line no one ever had the insight to deal with the 
millennium problem, and I can't honestly say how far back would 
have been an appropriate time to have started to consider it.

                              hcfa systems

    Mr. Porter. Mr. Roslewicz, your statement gives me a great 
deal of concern. You have outlined a process at HCFA that, 
despite what all parties may say, seems destined for major 
problems. You declined to provide an opinion as to whether the 
Department will be able to meet its obligations in this area. 
Your statement seems to indicate, though it does not directly 
say so, that work on Year 2000 started much too late, given the 
complexity of the work. You don't indicate what schedules you 
have recommended to complete the remaining work and to develop 
contingencies.
    The Social Security IG told us that 65 percent of that 
agency's systems are compliant. What percentage of systems and 
of mission critical systems at the Public Health Service and 
HCFA have already been certified as compliant? What is the 
status of contingency planning at HCFA, and what timetables 
have been recommended for development of contingency plans?
    Mr. Roslewicz. There are 491 mission critical systems that 
have been identified by the Department. Forty percent of those 
have been determined to be compliant. However, most of those 
have not had independent verification and validation performed, 
as of yet.
    We have not put forth any timetables. We will be reporting 
quarterly, working with the Chief Information Officers as to 
what is happening out there. That is to say, that as we come 
across issues that are critical or things that look to us like 
the Department is going down the wrong track, that we will 
issue what we refer to as an early alert as opposed to waiting 
until the audit is complete. So our process now is to work on 
line with the activities that are going on.
    We will be making recommendations; we will be reviewing how 
the testing and validation process is going; we will be 
pointing out any weak spots we see; we will do some of the 
look-behind work to make sure that the contingency plans are in 
place. We will be looking to see if they make sense, and are 
reasonable.
    We are currently--as we undertake this operation, we are 
out there looking at some of the contractor operations. We are 
looking at some of the software vendors to see what problems or 
what delays they are encountering. The HCFA cannot do their 
part in some of these cases until the software is developed and 
made Y2K compliant. Then you have the problem of the 75 
contractors who use these various shared systems. So there is a 
lot of work that needs to be done to get these systems into 
compliance.
    The Part A hospital side of the software package is in 
pretty good shape--it has been tested, it is now going through 
validation and verification. That system may very well be 
operable in a timely manner. Under Part B, there is a different 
problem. We don't have the shared system up and running yet, 
which then requires another 7 months for testing and 
validation. We are just now beginning to put all of this 
together into quarterly reports that we will be issuing. And we 
will also be, as I said, issuing early alerts in those cases 
where we see that there is not progress being made or there is 
something that needs to be done that we see from our work that 
we are doing.
    Mr. Porter. You have begun to touch on this, but let me ask 
the question specifically. The Medicare transaction system 
encountered tremendous difficulties. The House government 
management committee's financial management status report 
indicated that the committee downgraded the Department's effort 
in that area from an F to an incomplete.
    The Congress and the President agreed on 2 major pieces of 
legislation that may significantly increase HHS information 
technology workload. Is there any room for hope at this point 
that HCFA will be able to cope with the Year 2000 demands 
without a major failure? I don't want you to stand by and not 
offer an opinion if you believe that a major failure is 
imminent. At what point do you believe we ought to make the 
determination that we are not going to be Year 2000 compliant 
in certain major areas, and then throw all of our effort into 
contingency planning, and do you believe we are likely to be 
faced with such a decision?
    Mr. Roslewicz. Mr. Chairman, there are several ways to 
answer that. Let me start with, first of all, the resource 
issue. As a result the HIPAA legislation and the Balanced 
Budget Act of 1997, all of these things that have come into 
play have put new requirements on the Department, and they are 
competing for the same resources to develop new systems as well 
as to fix the existing systems. So there lies some of the 
problems.
    Now, I am a very hopeful person. I always have hope that 
maybe something, you know, real, if I can say, will occur so 
that we can get all of this accomplished.
    The Department is trying to get the clout it needs with the 
Medicare contractors by getting more authority over--control 
over them as to making sure that these systems that they use 
are in compliance. So the Department is taking action. They 
have a proposal before the Congress as to how this might be 
accomplished.
    Now, insofar as our work, our work right now is primarily 
oversight. We haven't really issued any audit reports as of 
yet, but we do have some coming down the line. These we will be 
sharing, of course, with the CIOs or the various agencies 
within the Department, and it is a major task to undertake.
    I cannot say with all honesty that the systems will or will 
not be Y2K compliant by 2000. There is a lot of work that needs 
to be done, there are a lot of obstacles that need to be 
addressed. I think the Department is moving in that direction 
and trying to cope with some of the obstacles. And we, in our 
organization, are trying to point out to them, you know, 
problems that we see as we get involved with the contractors in 
doing our audit work.
    As you know, the CFO financial statement audit is a major 
part of our workload where we actually look at the financial 
statements of the Department. The Y2K could certainly bring in 
some concerns there if the systems aren't ready from a 
financial statement position. We would have other things we 
would need to do.
    Mr. Porter. What is the decision point to abandon Year 2000 
and go exclusively to contingency planning?
    Mr. Roslewicz. At this point I don't have a specific date 
where that decision would have to be made. But certainly, you 
know, the contingency plan as such needs to be in place long 
before the system is actually--long before the January 1st, 
2000 date is there. I mean, you would put the contingency plan 
in place if, in fact, by that date, you are certain that it is 
not going to work, and then you would rely upon your 
contingency plan.
    The problem that one needs to look at is what will be in 
these contingency plans. This is what we will be looking at as 
we move along in our work that we are doing. What is the 
contingency plan--well, first of all, is there a contingency 
plan even in place? Secondly, does it make sense and do we 
think that it will be something that we will be able to put in 
place come January 1st, 2000?

                 compliance of the student aid systems

    Mr. Porter. Thank you, Mr. Roslewitz.
    Mr. Higgins, we recently discussed Year 2000 matters at the 
IG budget hearing. We have 2 great concerns: First, that 
student aid systems continue to operate efficiently so that 
students do not experience academic disruption due to financial 
mishaps caused by the government or schools, and second, we 
want to limit the potential for losses in the student aid 
programs due to fraud or inadequate tracking systems.
    What is the potential for fraud or other losses to the 
student aid systems posed by the Year 2000 failure, 
particularly in the Direct Loan program? Do we risk losses 
simply because we lose the ability to track who owes how much?
    Mr. Higgins. Certainly, if the data exchange partners are 
not compliant, there is more of an opportunity for fraud, if 
the contingency plans do not address accountability. I think 
the Department first would try to pay the recipients what they 
are entitled to, and then the second part of this comes in and 
that is how do we account for the money that we give to the 
recipients.
    In regard to the Direct Loan part of the question, the 
Direct Loan portion of this concern is probably less than the 
other programs because out of the 1,300 schools in the Direct 
Loan program, 1,000 of them use software that we will be 
providing them in January of 1999. So we know that the software 
they are going to be using is going to be compliant.
    There are another 300 schools in the Direct Loan program 
that are using mainframes, and we are not quite as confident 
there, although in November of 1997 we did provide them 
instructions on how to become compliant. I think that answers 
your question.
    Mr. Porter. Mr. Higgins, you indicated that since 1996, the 
Department has provided 4 widely varying cost estimates of the 
Year 2000 initiative. This variance indicates to me that the 
Department still may not have a good idea of exactly what needs 
to be done. You heard the testimony of the SSA IG regarding the 
Year 2000 tests with recipient financial institutions.
    Do you recommend that the Department test data exchange 
with all of its Title IV schools, and if not, what testing have 
you recommended and what do you believe is sufficient and 
achievable--is a sufficient and achievable timetable for such 
testing?
    Mr. Higgins. Well, I don't recommend 100 percent testing. 
Clearly, just the direct loan schools themselves that we are 
providing them software, we are confident that that software is 
going to be compliant and that it will not create any problems 
for us. We also will be monitoring the rest of the schools; we 
will be dealing with the financial communities of the country; 
and we also, like SSA, will be monitoring the success of that 
industry to see how they are doing. The issue here is how well 
the contingency plans of the Department and also of the data 
exchange partners address this problem. That is the key to 
this.
    Mr. Porter. Thank you, Mr. Higgins.
    Mr. Dickman, your statement was very short and very 
positive. We appreciate both aspects. You indicated that you 
will be independently reviewing 18 of the 166 mainframe systems 
which require conversion.
    Do you believe that there are other systems which are of 
such critical importance that you ought to independently review 
them? If so, what are they, and why do you believe they ought 
to be reviewed?

                          rrb systems testing

    Mr. Dickman. Well, I believe that we will try to expand the 
18 mission-critical systems, 16 of them, and expand it to 30. 
As far as a definite system, mission-critical systems as far as 
the Railroad Retirement Board will be defined as those systems which 
relate to the actual payment of benefits to the beneficiaries in 
various ways.
    By doing a sampling of, if we can expand it to 30, using 
our resources, none of these systems are what we call stand-
alone systems. They are all interrelated. You can get a good 
idea by doing just 30 or less of these systems, whether the 
rest of the systems will follow, will be compliant or not.
    Mr. Porter. Mr. Higgins, we had a long discussion with Dr. 
Longanecker regarding the development of an integrated systems 
architecture for Title IV programs. The Department ought to 
have completed this work about 4 years ago but has not done so. 
It currently plans to develop a comprehensive plan for this 
initiative by July. Presumably, implementation will begin 
shortly thereafter. Most agencies are facing the difficult task 
of bringing their existing systems through the Year 2000 
transition. Education not only has to weather the transition, 
it has to make substantial improvements in its information 
systems at the same time.
    What implications does Year 2000 have for roll-out of an 
integrated systems architecture and what implications does the 
new systems have for the overall Year 2000 initiative?
    Mr. Higgins. Well, of the 14 critical systems that we have, 
4 of them are compliant, 2 of them are being replaced, and the 
remaining 8 are being renovated. The renovation is being done, 
I assume, in compliance with the Federal Implementation 
Processing Standards, which is the bible for data processors in 
the community, and they clearly prescribe how the date field 
needs to be addressed. It tells you that it has to be 4 digits, 
it has to be a numeric field and that you have to be able to 
add and subtract on that field. So there is guidance out there.
    Clearly, if the Department had an overall architectural 
plan, it would address issues such as that, but I don't believe 
that the absence of this is going to hinder the Department's 
progress.
    Mr. Porter. Gentlemen, let me thank each one of you for 
appearing today. I hope I have impressed upon you the 
seriousness with which the subcommittee views the Year 2000 
problem, and that you will continue to work very closely with 
the departments and agencies to assure that we don't have a 
problem in any of the systems when we actually reach that year. 
Thank you all for appearing this morning.
    The subcommittee will be in recess briefly.
                              ----------                              --
--------

                                           Tuesday, April 21, 1998.

                        U.S. DEPARTMENT OF LABOR

                                WITNESS

PATRICIA W. LATTIMORE, ASSISTANT SECRETARY FOR ADMINISTRATION AND 
    MANAGEMENT
    Mr. Porter. The subcommittee will come to order.
    We will, for our second panel, keep the same order, and 
begin with Ms. Lattimore, the Assistant Secretary for 
Administration and Management of the Department of Labor.

                           opening statement

    Ms. Lattimore. Good morning, Mr. Chairman. I am pleased to 
appear before you today to talk about some of the challenges 
facing the Labor Department's Year 2000 effort. Last year when 
we appeared before you, we talked about the challenge of 
managing 58 mission-critical systems that we thought would 
require about $15.3 million to make Year 2000 compliant. We 
have worked diligently on those systems over the past year. We 
now have some more educated and better informed information. We 
are now managing a total of 61 mission-critical systems, and we 
have looked at our costs escalating by almost $10 million in 
terms of our projections to be able to make them compliant by 
January of 2000.
    Currently, 13 of our systems have been compliant, or we 
have deemed them compliant. They have not undergone independent 
verification and validation as yet, but they are scheduled to 
start through that process shortly. Seven additional systems 
are scheduled to be compliant by the time our May, 1998 report 
goes to OMB, and our plan calls for 2 more systems to become 
compliant in August of 1998, 14 more in November of 1998, with 
the remaining 25 to be compliant between November and March of 
1999.
    DOL did get off to a slow start. We did not report our 
acceleration plans and our progress plans as quickly as we 
should have when the date for our full implementation was moved 
from November to March. However, we believe that the management 
approach we are taking will allow us to achieve our Year 2000 
conversion goals.

                          secretarial priority

    One of the greatest challenges facing us was some of our 
competing program priorities within the Department, and as a 
management project, Year 2000 was initially competing with some 
other visible initiatives, such as Welfare-to-Work. This was 
complicated somewhat by having our systems compliant by March 
31 instead of November. The Secretary herself has made it 
emphatically clear to all of the agency heads and Assistant 
Secretaries that Year 2000 conversion is not taking a back seat 
to any project. She has been clear with executive staff both in 
person and in writing, that if we are not in compliance by 
January 1, 2000, we will have failed those that we are 
entrusted to serve. We are inherently clear about our various 
roles and responsibilities and the expectation for accountable 
performance.
    The management structure includes not only myself as its 
CIO, working in partnership with our Inspector General, but 
also working with the Deputy Secretary, who is involved 
actively with our Assistant Secretaries as part of the overall 
program management responsibility to ensure that our monthly 
progress is on target. We have intensified our internal 
oversight, which, as I said, involves the Deputy Secretary, and 
we have augmented that with a very detailed and intense 
monitoring and scrutinizing system that is structured to 
provide us with early warnings to reduce the risk of any future 
slippage.
    To accelerate our progress, the time line was shortened to 
March of 1999. We engaged in some active reallocation of 
resources to ensure that we could put the appropriate technical 
and support staff in place. We have moved almost $1.3 million 
to increase contractor assistance on site, to augment our 
internal IT staff and to ensure that not only are we going to 
be able to stay consistent with our revised time line for Year 
2000 implementation, but that we could engage an independent 
verification and validation, complete our inventory and get our 
architecture defined, as well as comport with our departmental 
IT security plan. All of these projects are on our plate as CIO 
responsibilities for this fiscal year.

                             state systems

    Because of the national scope of our program, our Year 2000 
efforts require significant coordination with our 53 State 
partners in addressing the awareness of the Year 2000 concerns 
with numerous other constituent groups. We have over 3,000 
electronic data exchanges with our State partners, of which 
almost 2,900 are related to the unemployment insurance program. 
The first step in dealing with this was when we came before 
this committee last year to develop the $200 million 
appropriation to assist the States with their systems. We thank 
the committee for its support in that effort. $160 million of 
that money has already been distributed to the States. An 
additional $40 million is available for State security 
employment agencies to complete their compliance work by next 
year. The Employment and Training Administration is currently 
engaged in a State-by-State assessment and will report to the 
Secretary by the end of May, 1998 where the States are in 
converting their systems.
    There has been a lot of technical assistance provided, and 
there has been a lot of on-hands work with the States. There 
were the original 11 States that were deemed to be at risk 
based on the State's own assessment when they came in to apply 
for the money. We will now go back to see whether or not the 
money we have given them over the past year has been able to 
help them improve their posture.

                           contingency plans

    Again, we are still attempting to think globally as we move 
forward to develop our contingency plans for how we will ensure 
that we will continue all of our benefit operations and crucial 
systems. The Secretary will be expected and will have 
contingency programs for all of the programmatic areas by July 
1. Those contingency plans will address how we keep ourcore 
business systems moving forward if our Year 2K compliance efforts are 
not as successful as we anticipate they will be and they also include 
dates by which we feel we will have to move to an alternative approach.
    We are moving forward with our facilities reviews. As you 
know, we have 114 job core facility reviews which will also be 
a part of that. We are a little over 50 percent of the way 
through that facility review. We are enhancing our outreach 
activities to our various other constituents and data exchange 
partners through the pension and welfare benefits area, the 
Bureau of Labor Statistics, and through some of our enforcement 
agencies with the businesses that they do work with. We think 
that we are properly focused on the whole issue of Year 2000 
compliance as it impacts the results of our programs. We think 
we are poised to manage this to a successful conclusion. I will 
be pleased to answer any questions you may have, sir.
    [The statement of Ms. Lattimore follows:]


[Pages 740 - 753--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Ms. Lattimore. John J. Callahan, 
Assistant Secretary for Management and Budget for the 
Department of Health and Human Services.
                              ----------                              

                                           Tuesday, April 21, 1998.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

JOHN CALLAHAN, ASSISTANT SECRETARY FOR MANAGEMENT AND BUDGET, CHIEF 
    FINANCIAL OFFICER AND CHIEF INFORMATION OFFICER
    Mr. Callahan. Good morning, Mr. Chairman. Thank you for 
allowing us to testify today. I would like to submit my full 
testimony for the record which details all of our management 
accomplishments and challenges for 1997. This takes the form of 
the accountability report which we will submit to you in about 
10 days, so we would commend that to the subcommittee.
    Let me turn to the issue that is of great concern to you 
and to the Department, the Year 2000 challenges. Simply put, 
Year 2000 compliance is job number 1 for the Health and Human 
Services Department. We have to meet this challenge in order to 
ensure that our Department's mission is not impaired.
    Let me note a few of the steps that we are taking to meet 
this challenge. First of all, we are requiring that all of our 
mission critical systems be Year 2000 compliant by December 31, 
1998. Second, all Year 2000 staff report directly to their 
agency chief information officer; all agency chief information 
officers report directly to their agency heads and to me, and I 
report directly to the Deputy Secretary and Secretary. There is 
a clear chain of command and accountability in our Year 2000 
effort.
    Third, we have taken steps with OPM to get permission to 
hire retired government Year 2000 computer expertise in our 
major departments. These personnel can be hired without loss of 
their government annuity. Fourth, we are also now, as other 
agencies are, requiring that our systems be subject to 
independent verification and validation procedures. Finally, 
and most importantly, we are encouraging all agencies to 
reallocate existing administrative funds in order to meet the 
Year 2000 challenge. This should prove helpful in most of our 
agencies, except in the case of financing Year 2000 efforts for 
Medicare contractors.
    [The information follows:]


[Pages 755 - 884--The official Committee record contains additional material here.]



    Let me turn to that issue briefly. As of February 1998, 40 
percent of our 491 mission-critical systems were Year 2000 
compliant. We have a full report in that regard and we will 
submit this for the committee's consideration. We feel that the 
most problematic, however, of all of our mission critical 
systems are our Medicare contractors. These contractors, 70 
external contractors, insurance agencies, process 900 million 
claims a year for 33 million Medicare beneficiaries. They are 
the link to all of the health care providers in this country 
that deal with Medicare fee-for-service claims. Under the 
leadership of HCFA Administrator Nancy-Ann Min Deparle, HCFA 
has been very proactive with its contractors and has proposed 
amendments to contracts that would require millennium 
compliance.
    However, Medicare claims processing contracts are different 
from standard Federal contracts. These contracts, the ones with 
providers, can only be negotiated with insurance companies, no 
other providers, and HCFA is required to reimburse these 
contractors for all allowable costs. HCFA currently has little, 
if any, leverage to terminate contracts if these contractors 
are not Year 2000 compliant. Consequently, we have sent 
contractor reform legislation to the Congress to remedy these 
problems. The legislation has been endorsed by John Koskinen, 
who is the special assistant to the President for the Year 2000 
effort, in testimony before the Senate Governmental Affairs 
Committee. We hope this legislation will be considered in 
timely fashion by the Congress.
    At the same time, and this is of most concern to this 
subcommittee, the Department is now reestimating the cost of 
assisting our Medicare contractors to become Year 2000 
compliant. We will be working closely with the subcommittee and 
are now working with OMB to fully identify the costs of making 
these Medicare contractors compliant and the sources of funds 
to meet these costs.
    Before closing, I would also like to draw attention to one 
other Year 2000 effort by the Department, one administered by 
the FDA. The FDA now maintains a public Internet web site to 
list information about the Year 2000 compliant biomedical 
devices. We have asked 16,000 biomedical equipment 
manufacturers to supply information to this web site. Thus far, 
about 1,500 replies have been forthcoming with many more in the 
future. The web site is most useful to hospitals, doctors and 
DOD, VA and IHS health facilities. It should be helpful in 
achieving Year 2000 compliance in this vital part of the health 
industry.
    In conclusion, we regard, as you do, Year 2000 compliance 
as our top information technology challenge. This is a matter 
that has the full backing of Secretary Shalala, Deputy 
Secretary Kevin Thurm and myself. We intend to meet this 
challenge head-on. This concludes my statement. I will be happy 
to answer any questions.
    Mr. Porter. Thank you, Dr. Callahan.
    [The statement of Mr. Callahan follows:]


[Pages 886 - 896--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                        DEPARTMENT OF EDUCATION

                                WITNESS

MARSHALL S. SMITH, ACTING DEPUTY SECRETARY
    Mr. Porter. Marshall Smith, the Acting Deputy Secretary of 
the Department of Education.

                           Opening Statement

    Mr. Smith. Thank you, Mr. Chairman. I thank you for this 
opportunity to discuss the Department of Education's efforts to 
address the Year 2000 problem.
    I want to make 2 key points up front. First, I believe the 
Department is doing much better than recent reports suggest; 
and second, we are taking very seriously the potential 
disruption that the Year 2000 problem could create, both for 
the Department and for our many partners and customers 
throughout the education system.
    We are well aware of the poor grade the Department received 
on the Year 2000 from the House Subcommittee on Government 
Information and Management Information Technology, as well as 
placement on OMB's watch list. The Department was among the 
first Federal agencies to begin addressing the Year 2000 
problem. We fell behind during the assessment process, in part 
because we discovered that 2 major systems initially believed 
to be Year 2000 compliant actually were not compliant. This 
discovery increased our assessment workload, both by adding to 
the number of systems requiring assessment and by highlighting 
the necessity of a more thorough approach to assessment. It 
also taught us to assume nothing when dealing with the Year 
2000 problem, which is one reason we are taking the extra step 
of verifying every mission-critical system, even our new 
systems that were designed and built to be Year 2000 compliant.

                   year 2000 project management plan

    The Department has developed a comprehensive Year 2000 
project management plan that includes clearly defined roles and 
responsibilities, and budget plans for the 5-phase strategy 
recommended by the GAO. We have completed the awareness and 
initial assessment phases and are moving rapidly through the 
renovation and validation phases for our mission-critical 
systems. The awareness phase included the creation of a high 
level Year 2000 steering committee, which I chair and which 
includes the chief financial and chief information officer, the 
Year 2000 project director, principal office coordinators, and 
contractor support from the outside management firm of Booz-
Allen & Hamilton. In addition, we regularly seek the advice of 
the Inspector General in key elements of our Year 2000 
strategy, including the development of a sufficiently 
independent validation process.
    The assessment process involved an agency-wide inventory, 
using methodology developed by Booz-Allen & Hamilton, which 
identified 14 mission-critical systems potentially affected by 
the Year 2000 problem. For your general information, 12 of 
those 14 are the student financial aid systems.
    We have established a careful and systematic schedule for 
the renovation and validation phases of the project and have 
contracts in place to support this work. Approximately 25 
percent of the renovation work and 15 percent of the validation 
work has been completed for the 14 mission-critical systems. We 
expect to complete the vast majority of the renovation work 
ahead of the September 1998 OMB milestone. That milestone is 9-
98. We expect to complete the other 2, the 2 remaining ones in 
11-98, so we are 2 months behind. We are behind in part because 
of the normal scheduling of renovation of the student aid 
systems. One of the particular systems process is the student 
financial aid application, and that application goes through 
changes, the system goes through changes every year as the 
application changes. So in the context of the changes to the 
application we will also change the system because of the 
application, and we will also be updating it for Year 2000. 
Those 2 things have to go together or we are not going to be 
sure that we have, in fact, a compliant system for the next 
school year.
    The Department has hired 2 contractors to perform the 
critical independent validation and verification tasks for our 
mission-critical systems. Our schedule calls for completion of 
validation and implementation by the end of January 1999, thus 
allowing us at least 11 months to ensure that all renovated 
systems are running smoothly prior to January 1, 2000. In 
addition, the Department is developing contingency plans for 
all 14 mission-critical systems that are determined to be at 
risk of noncompliance as a precaution against system failures 
that may occur despite the best efforts of the Department and 
its contractors. Draft plans will be completed by the end of 
May detailing alternative systems and their requirements.

                       year 2000 outreach efforts

    Finally, I agree with the Inspector General that our 
biggest problem is not inside the Department, it is outside. 
The Department is actively reaching out to its many data 
exchange partners, including 6,000 postsecondary institutions, 
15,000 local education agencies, and 50 State agencies, to 
raise their awareness of Year 2000 issues. For example, we have 
contacted, directly contacted, every Chief State School Officer 
in all of the 50 States and the 7 territories. We are working 
closely with all of the superintendents of all of the largest 
cities, many of them having mainframes and being in some danger 
of noncompliance, and we are working with the school boards 
organization to send out a letter from us and from the school 
boards organization to every school board chairperson in the 
country reminding them of their fiduciary responsibilities and 
of the responsibility they have for ensuring that their 
superintendent, who is their employee, in fact makes sure that 
their systems are compliant.
    In the student financial aid area, among other efforts we 
have sent out technical specifications to all Title IV 
institutions. We did that in November of 1997. We will provide 
Year 2000 compliant student financial aid assistance software 
to all postsecondary institutions by January of 1999. In 
addition, Department training sessions for student financial 
aid offices which will reach up to 6,000 participants now 
include a Year 2000 component.
    I would like to add, Mr. Chairman, that the members of the 
subcommittee, along with your colleagues in the House and 
Senate, can help with our Year 2000 outreach efforts by raising 
the issues whenever you visit school districts and 
postsecondary institutions back home. We know from anecdotal 
stories that many institutions are at risk of major disruption 
when January 1, 2000 arrives. It is critical to raise awareness 
of the Year 2000 problem across the Nation, and Members of 
Congress can do much to help in that effort.
    In conclusion, much work remains, but I believe the 
Department has established an achievable set of steps for 
addressing the Year 2000 problem. I hope the subcommittee will 
support us by approving the $4 million increase in program 
administration funds beyond the increase required by pay raises 
and other built-in costs needed to ensure that all Department 
systems are Year 2000 compliant.
    Thank you. I will be happy to answer any questions you may 
have.
    Mr. Porter. Thank you, Dr. Smith.
    [The statement of Mr. Smith follows:]


[Pages 900 - 907--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                       RAILROAD RETIREMENT BOARD

                                WITNESS

ROBERT T. ROSE, CHIEF INFORMATION OFFICER
    Mr. Porter. Robert Rose, the CIO of the Railroad Retirement 
Board.
    Mr. Rose. I am pleased to have this opportunity to testify 
about the status of our Year 2000 project. I was hired by the 
RRB just this past November. In that short time I have been 
impressed by the level of concern and awareness about the Year 
2000 issue throughout the agency.
    One of the first things I noticed when I was interviewing 
for the CIO position was that the organizational chart showed a 
Y2K project leader reporting directly to the CIO. That told me 
that the agency was taking this issue very seriously.
    The RRB has designated the Year 2000 effort as its highest 
priority project. During fiscal year 1996, our staff conducted 
a comprehensive assessment to determine what tools were needed, 
established an overall project schedule, and put various 
tracking and oversight mechanisms into place. For the most part 
we have used existing organizational structures and resources 
to manage this project. The primary responsibility for the 
project rests with my organization, the Bureau of Information 
Services. However, our internal customers and the agency's ADP 
Steering Committee, which I chair, which monitors all 
information technology projects and automation investments, 
both share in this responsibility.
    The RRB's primary goal for this project is to complete the 
implementation of 100 percent of our mission-critical systems 
by the end of this calendar year, 3 months earlier than the 
goal established this past February by the Office of Management 
and Budget. To demonstrate the strength of the agency's 
commitment to this project, this goal is included as one of our 
key objectives in the agency's strategic plan. We also have 
established a goal to complete the implementation of virtually 
all of our non-mission-critical systems by the end of fiscal 
year 1999.
    At this time, we believe we are making very good progress 
and we are on track for meeting these goals. The RRB has 124 
mission critical systems, of which 48, or 38 percent, are now 
Y2K compliant. Those 48 include 21 mainframe systems and 27 PC-
based systems. Work is currently underway on 56 of the 
remaining systems, and 20 of those are scheduled to be 
converted or retired later this year.
    In spite of this positive outlook, I want to emphasize that 
much work still remains between now and the end of the project. 
And although we are on track and confident of a successful 
completion, we are well aware that we cannot coast through the 
next 18 months.
    For our information systems, we are planning a series of 
major integration tests, even after the individual systems have 
been revised and put into the production environment. These 
tests will be geared towards ensuring that all interfaces, 
connections and links between the various systems remain in 
sync and fully functional. We plan to continue integration 
testing of the major systems throughout most of calendar year 
1999.
    We have also developed an inventory of external data 
exchanges for both mission-critical and non-mission-critical 
systems. These exchanges are generally conducted with other 
Federal and State agencies, railroads and financial 
institutions. In the event that any data received from external 
sources is not fully compliant before the year 2000, we plan to 
implement ``bridge'' programs which temporarily reformat the 
information as required.
    In addition to the application systems being revised, we 
have also identified 48 proprietary system software packages 
used in our data center. At this time, 27 of these products 
have been tested and are compliant. By the end of fiscal year 
1999, all will have been fully tested and certified compliant.
    In the area of desktop computing, we are testing the 
agency's entire inventory of personal computers for compliance. 
The goal is to equip every employee with a compliant desktop PC 
prior to the end of fiscal year 1999. Equipment funds have been 
identified in the President's budget for the next fiscal year 
specifically for this purpose.
    Other aspects of this project include office facilities 
such as telephones and elevators. We have identified all such 
systems during the assessment phase, and we are now taking 
follow-up actions on a small number found to be noncompliant. 
It appears at this time that this will involve a software 
upgrade to our telephone system, our electronic commerce system 
and possibly to our security alarm system.
    In summary, we are confident in our ability to achieve the 
agency's goals for the Year 2000 and that our transition to the 
next century will provide uninterrupted service and continuous 
high quality operations.
    That concludes my remarks. I thank you.
    Mr. Porter. Thank you, Mr. Rose.
    [Statement of Mr. Rose follows:]


[Pages 910 - 912--The official Committee record contains additional material here.]



                        Introduction of Witness

    John Dyer, the Principal Deputy Commissioner of the Social 
Security Administration. Mr. Dyer.
                              ----------                              

                                           Tuesday, April 21, 1998.

                     SOCIAL SECURITY ADMINISTRATION

                                WITNESS

JOHN R. DYER, PRINCIPAL DEPUTY COMMISSIONER OF SOCIAL SECURITY

                           Opening Statement

    Mr. Dyer. Chairman Porter, I am pleased to be here today to 
tell you about the Social Security Administration's efforts to 
prepare for the Year 2000. SSA became aware of the Year 2000 
problem and began planning for it in 1989 to make sure that the 
payments we make to more than 48 million beneficiaries will not 
be in jeopardy.
    For SSA, Year 2000 preparation has meant reviewing systems 
supported by more than 33 million lines of in-house application 
software, as well as hundreds of vendor products and 
coordinating efforts with State and Federal agencies and third 
parties. By the end of fiscal year 2000, we will have spent $42 
million on the Year 2000 effort for both in-house and 
contracted activities. We believe that our early start in 
addressing the issue has allowed us to manage the Year 2000 
effort without requesting additional resources.
    How are we progressing in resolving the Year 2000 problem? 
As of March 31, 1998, SSA has renovated more than 90 percent of 
the agency's mission-critical systems that support our business 
critical processes--enumeration, claims, postentitlement and 
informing the public. We are on schedule to complete testing of 
all systems by December 31, 1998, and have all systems 
implemented into production in January of 1999, providing a 
full year of post-implementation review. Beyond computer 
software, we have developed plans for Year 2000 problems in the 
areas of telecommunications, hardware infrastructure, and 
facilities infrastructure. We have plans in place to upgrade or 
replace all noncompliant equipment and are working with the 
vendor community, the General Services Administration and the 
CIO Council Committee of the Year 2000 to test vendor fixes.
    What obstacles stand in the way of us achieving and 
preparing for the Year 2000? In October of 1997 the General 
Accounting Office (GAO) issued a report entitled, ``Social 
Security Administration: Significant Progress Made in Year 2000 
Effort, But Key Risks Remain.'' The report was generally very 
complimentary of SSA's Year 2000 program; however, it 
identified three concerns: State Disability Determination 
Services' (DDS) [agency's] systems compliance, data exchanges 
and contingency planning which we were addressing at the time 
and continue to be addressed today.
    On the DDS software compliance, SSA has focused increased 
attention on ensuring that the State DDS systems, which are 
used in determining the immediate eligibility of disability 
medical applicants, are made compliant. Each State has 
developed a plan for DDS Year 2000 conversion, and SSA, working 
closely with the State, monitors the progress of each State 
against its project milestones. As of today, 21 of the 55 DDS 
systems have been renovated, tested and implemented.
    Data exchanges. We have been actively addressing this issue 
of the data exchanges that occur between SSA, Federal agencies, 
States and other parties. Thus far, 65 percent of our data 
exchanges have been made Year 2000 compliant and implemented; 
our target is to have all data exchanges implemented by 
December 1998.
    We are focusing particular attention on our exchanges that 
affect benefit payments. We are working very closely with the 
Treasury Department to ensure that Social Security and 
Supplemental Security Income checks and direct deposit payments 
for the Year 2000 will be on time. In addition to testing with 
Treasury, which is already under way, we have agreements to 
test from SSA, through Treasury and the Federal Reserve's 
Automated Clearing House for direct deposit payments.
    Contingency planning. On March 31, 1998, we issued SSA's 
Business Continuity and Contingency Plan. The plan addresses 
the core business functions, including disability claims 
processing functions supported by the DDSs, which must be 
supported if Year 2000 conversion activities experience unseen 
disruptions. The plan identifies potential risks to business 
processes, ways to mitigate each risk, and strategies for 
ensuring continuity of operations if planned corrections are 
not completed or if systems fail to operate as intended.
    We certainly hope there will be no need to activate the 
contingency plan. However, if there are unforeseen Year 2000 
induced disruptions, this contingency plan will be implemented 
to ensure continuation of SSA's vital service to the public.
    Will our systems be ready for transition into the new 
millennium? Because of the early attention to this challenge, 
we are confident that our systems will function on and after 
Year 2000 to ensure that our core business processes proceed 
smoothly and without disruption as we move into the 21st 
century. When we open our offices for business on January 1, 
2000, we expect to be prepared to provide our full complement 
of services to the American public with the accuracy and 
reliability they should expect from Social Security. [Clerk's 
note.--Later changed to ``January 3, 2000''.] If there are any 
unseen problems, we have a contingency plan in place to ensure 
continuity of our operations.
    I would be glad to answer any questions you might have.
    [The statement of Mr. Dyer follows:]


[Pages 915 - 921--The official Committee record contains additional material here.]



                 requests for new legislative authority

    Mr. Porter. Thank you, Mr. Dyer.
    Dr. Callahan, you sent up legislation that gives the 
Department authority to cancel contracts with Medicare 
contractors if they are not compliant by the Year 2000. Does 
that indicate that you have a serious concern that they won't 
be, and this reflects an earlier question that I asked of the 
first panel.
    Medicare contractors are all proprietary institutions, and 
while they use different software, at least, and maybe 
different hardware as well in their own businesses, obviously 
they have to address this problem in their own businesses as 
well, do they not, and why do you think they won't be 
compliant?
    Mr. Callahan. Well, I think, Mr. Chairman, they, like all 
organizations that are dealing with the Year 2000 problem, have 
begun over time to realize the scope and the complexity of it. 
I think it is fair to say--I know John Koskinen, the 
President's assistant, has indicated in some public forums that 
he does not believe that all businesses will be Year 2000 
compliant. So there is a chance of failure among some of the--
maybe the less efficient Medicare contractors and their 
proprietary side.
    I think what we tried to do in our legislation here is give 
HCFA the authority to be able to provide performance measures 
in the case of contracts and be able to contract with other 
than just insurance companies for processing Medicare claims.
    For example, you probably saw in the Post yesterday the 
MasterCard advertisement for the contracts that are now being 
competed for under the new contracts for purchase cards, travel 
expenses, et cetera. That legislation that we submitted to you 
would be able--would enable HCFA, for example, to be able to 
look at major corporations that do large volumes of financial 
transactions like MasterCard, like American Express, in case 
they wanted to go to those in terms of handling Year 2000 
processing. So that was the intent of the legislation that we 
have sent up for congressional consideration.
    Let me just say one thing. We want to and we will work very 
closely with our Medicare contractors to determine the nature 
of the Year 2000 compliance problem and work very closely and 
as cooperatively as we can to get them to meet this goal.
    Mr. Porter. Let me ask the other panelists whether they are 
considering or have a need for similar legislation in the 
agencies, the outside agencies that they deal with. Have any of 
you looked into this?
    Mr. Smith. We have looked into it a little bit and we are 
going to look into it a lot more in the context of 
ourcontingency plan. We have a series of exchanges with government 
organizations, government institutions and hopefully they will all be 
all right, but if they aren't, we will definitely need some sort of 
waiver authority in order to allow us to either not make the look-up, 
let's say for an INS, through the INS, for example, or have some other 
strategy for gathering that information. It is also possible that we 
will need some authority to go to third party servicers of some type or 
other originators or other ways where we can't now in order to ensure 
that student aid can be delivered to institutions that may not meet 
Year 2000 compliance on time.
    So there are a series of these, and we are keeping a list 
at some point and figuring out which ones are most important, 
and we will get back to you and to the Congress sometime 
shortly.
    Mr. Porter. Dr. Callahan, this legislation is only in 
reference to HCFA, is that correct?
    Mr. Callahan. Yes.
    Mr. Porter. It seems to me that the administration ought to 
look at all of the Departments and agencies and see whether 
there shouldn't be comprehensive legislation that ought to be 
adopted this year that would deal with any of the needs in 
respect to this problem, rather than doing it piecemeal. I hope 
you can suggest that to the administration and perhaps the 
comprehensive legislation can be even carried in one of the 
appropriation bills like our own to get it through the process.
    Mr. Callahan. We will be seeing Dr. Koskinen tomorrow, so 
we will pass on that sentiment immediately.
    Ms. Lattimore. Mr. Chairman, one of the things we have been 
talking about to Mr. Koskinen in that area is some type of 
potential relief for agencies in terms of data exchanges and 
partners that would be some relief from the information 
collection burden requirements which right now make it a little 
difficult for you to go out to the numerous data exchange 
partners. I know that his Council is pursuing whether or not 
that needs some statutory relief, and that would be one of the 
things that would be helpful for us with our States.

                     rrb electronic funds transfer

    Mr. Porter. Yes, again, I think it ought to be taken up by 
all of the agencies and OMB ought to coordinate whatever is 
needed.
    Mr. Rose, let me congratulate you on your statement and on 
the progress the Railroad Retirement Board is making in dealing 
with this matter. In many ways, your agency is very similar to 
the Social Security Administration. What percentage of your 
retirement, unemployment and disability payments are made 
electronically, and roughly how many financial institutions are 
recipients of these transactions? Do you intend to test 
exchange data with each of these institutions, and if not, what 
is your plan to ensure that beneficiaries continue to receive 
timely and accurate payments?
    Mr. Rose. Mr. Chairman, of our direct deposits, 69 percent 
of our retirement beneficiaries receive their annuity through 
electronic direct deposit. In the area of unemployment, it is 
an amount of 85 percent. We deal with primarily 4 financial 
institutions. Obviously, checks go to many, many banks, but we 
deal with the Federal Reserve, with the Mercantile Bank for tax 
deposits, with First Chicago for HCFA Medicare, and with the 
Department of Agriculture for our Thrift Savings Plan. So we do 
have testing that will be ongoing with those 4 to ensure that 
the Y2K compliance data transfers work.

                   rrb data exchanges with the states

    Mr. Porter. Mr. Rose, like many of our other agencies, you 
rely on electronic interaction with the States to function. Are 
you confident the States will be fully compliant, how many 
currently are compliant, are there any that you are concerned 
about, and what contingency planning have you done to deal with 
a potential State system failure?
    Mr. Rose. In the area of States, our interaction with the 
States is fairly minimal. It is for wage matching so that we 
don't overpay on disability and unemployment benefits. We sent 
a letter out in January of 1997 to all of the States on just 
this issue. We are going to conform to their Y2K structure. We 
are not dictating it to them. So far, we have heard back from 
very, very few. We are going out again for further 
communications with them. I can't say at this point that any of 
them are compliant. We know specifically of 4 or 5 that are 
close to finished.
    In the nature of our exchange, though, the Y2K compliance 
is minimal because of the matching for wage, but we have plans 
right now to initiate testing before the end--before the 
beginning of the summer on all 50 States. Part of it is getting 
them to respond.

                  state unemployment insurance systems

    Mr. Porter. All right. Thank you.
    Ms. Lattimore, this subcommittee provided $200 million in 
last year's appropriation act to bring State unemployment 
insurance and employment service systems into full Year 2000 
compliance. How many States today have been independently 
certified for Year 2000 compliance?
    Ms. Lattimore. None have been independently certified to 
date. ETA has engaged in a review and of all of the States, 41 
came in and indicated additional needs in backup. We gave $1 
million in terms of a base grant to each of the 53 States to 
help them. That was $53 million of the $200 million. Forty-one 
States came in and identified additional needs, went through a 
peer review process and were awarded various levels of funding 
to address the specific problems they find they were 
encountering.
    ETA is going back out now and is in the process of 
reviewing those 41 in addition to the others that did not 
indicate that they have need, so that we can have a baseline to 
look at in assessing where we will or will not have problems. 
We are anticipating that a number of those 11 at risk will no 
longer be at risk. They are receiving direct technical 
assistance through ETA's technical assistance technology 
service center along with the University of Maryland 
partnership we have. So we are expecting that the Employment 
Training Administration will find some significant progress at 
the State level, and the Inspector General, under our sort of 
newly arranged partnership, has agreed to work with ETA to 
verify that the money is producing the results we anticipated 
in the States.
    Mr. Porter. You speak rather quickly. Let me go back and--
you gave out 53 $1 million grants of the $200 million. What was 
the rest?
    Ms. Lattimore. Fifty-three $1 million grants went to each 
State. The States were then allowed to come in and identify 
what their needs were beyond that. Forty-one States came in. 
They gave varying proposals for money over a varied range of 
fixing different issues. We put together a technical review 
group that went through each State's proposal and each State 
was then awarded additional money, which took us up to $160 
million, and the $40 million is still sitting in reserve to be 
expended to get the last of the States' hopefully that need any 
assistance over the hump.

                independent validation and verification

    Mr. Porter. All right. I missed what you did with the other 
$107 million, but now I understand.
    What is the Department's schedule for achieving compliance 
by all States for independently certifying compliance and for 
testing?
    Ms. Lattimore. We are hoping that we can get all of the 
States. They have not all agreed to that level yet, but we are 
looking for all of the States by late 1998. The May review that 
is undergoing now will be able to give us that assessment and 
we will be glad to provide you some follow-up on that once we 
have completed that review.
    Mr. Porter. I think you said that--let me ask it again, 
though. Are there any States that you anticipate will not or 
may not be in compliance, and what contingency plans has the 
Department prepared for the possibility of a State failure?
    Ms. Lattimore. Eleven States, based on their self 
assessment of that State, we deemed to be at risk when the 
initial money was granted. The assessment we are going through 
now will determine whether or not the initial money has moved 
them any further along, whether they are at less risk or not at 
risk at all, which is why we are doing the Mayreview. We will 
be glad to provide you a State by State assessment of that when we 
complete that this May.
    Mr. Porter. And will there be an independent certification?
    Ms. Lattimore. Yes.

     concerns about year 2000 compliance of data exchange partners

    Mr. Porter. Mr. Smith, we obviously have real concerns 
about your ability to maintain the Title IV programs during the 
transition. We had long discussions on this and other 
information systems matters with the IG and with Dr. 
Longanecker.
    You interact with 15,000 local educational agencies and 
6,000 postsecondary institutions, according to your testimony. 
How many of these organizations are currently Year 2000 
compliant? How many of these will you test between now and the 
Year 2000? And how many do you anticipate will not be in fact 
Year 2000 compliant? What contingency plans have you developed 
to deal with the possible data transmission failures?
    Mr. Smith. Well, as of right now, I suspect that fewer than 
10 percent are compliant, so I think the really relevant 
question is the second one you asked, which is how many will be 
compliant by the Year 2000.
    There, we don't have a good fix on that yet. We are 
planning a survey, a fairly comprehensive survey, and with 
probes behind the survey to look at places that indicate that 
they are not compliant or that they are not sure that they are 
going to be compliant. We want to find out what the problem is. 
However, we have some good indication of where the problems are 
going to lie.
    At the school system level, some of the school systems in 
this country, as you know, are rural school systems--7,000, 
8,000 of them. They only have small computer systems and so on. 
We suspect that with sufficient information and a little 
guidance that most of them will come into compliance fairly 
easily. It is the larger school systems, the big city school 
systems with old mainframes, that haven't gotten to work at 
least by now; many of them are barely even planning work at 
this point. Those are the ones that are of most concern to us 
at the elementary and secondary level, and we have been working 
with the Council of Great City Schools. We are in contact with 
a number of the systems themselves; we are trying to work with 
them. This is a tedious process, as you can imagine.
    At the college level, there are a lot of mainframe 
colleges, but many of them are large State institutions with 
quite a lot of capacity to change, and so we think while they 
are behind a little bit right now, that they will catch up and 
be okay in the future. They want to make darn sure they can get 
their money and they will put their resources into it.
    Again, it is the poorer colleges in this case that need the 
most attention. We have some special work going with the HBCUs. 
We are going to take a good look at some of the proprietary 
schools to find out what the situation is there. So this is a 
problem, and you can't address it by just going across the 
board, I think, and sending out a letter to everybody. You have 
to really have tailored strategies for each of the different 
parts of the systems.
    There is no way I believe that there will be--that everyone 
will be in compliance by the Year 2000, and we will clearly 
need contingency plans for the States and the colleges that are 
the most important. The school systems we can work with on a 
one-by-one basis, but the States and the colleges, it is 
important that we have a serious contingency plan that will 
bring them into compliance.
    Mr. Porter. It seems to me there is a great potential of 
losing track of who owes what, and this would be in the 
billions and billions of dollars, would it not?
    Mr. Smith. Oh, yeah. We deliver--counting the federally 
financed student loan program, it is $35 billion a year, $40 
billion a year, yeah.
    Mr. Porter. So this is a very serious matter.
    Mr. Smith. This is a very serious matter.
    Mr. Porter. You testified that the Department may need 
certain statutory or regulatory waivers to implement certain 
contingency plans. Can you tell us generally, and answer for 
the record comprehensively, what programs may need waivers, 
specifically what requirements may be waived, and what is the 
implication of such waivers for program integrity? Please give 
us a full answer for the record. Generally speaking, we will be 
more receptive to waivers later on if we are notified of the 
possible need now.
    [The information follows:]


[Pages 927 - 928--The official Committee record contains additional material here.]



    Mr. Smith. I understand. We talked a little bit about that 
before. I think we have some concern about some of the data 
matching with other Federal Government agencies. We have about 
6 or 7 different agencies that we match data on our student aid 
financial application forms. We are also a little bit concerned 
about the capacity to deliver the student aid in situations 
where an institution cannot be compliant. Can we go to a third 
party servicer and so on? So we will definitely give you a full 
blown answer to that.
    Mr. Porter. Thank you.
    Dr. Callahan, your written statement says that, ``budgetary 
needs appear manageable, except in the case of HCFA's external 
Medicare contractors,'' and that you are currently assessing 
this budgetary question.
    Do you believe the administration will send us a budget 
amendment regarding this matter?
    Mr. Callahan. I can't give you a definitive answer on that 
at the moment, but let me divide my answer into 2 parts.
    With regard to our agencies and their internal systems 
requirements for the Year 2000, we feel that the committee has 
been most generous and most accurate in their appropriations to 
us for this purpose. We have instructed our agencies for those 
internal systems to, in essence, if they find themselves 
requiring more administrative money, to look within their own 
resources and to reallocate monies to the Year 2000 effort.
    Medicare contractors again are a larger problem. Given the 
complexity of what they have to do, the number of transactions 
they have to make, the complexity of their systems, it is 
pretty clear that the scale of their problem for getting to be 
Year 2000 compliant is greater than other parts of the 
Department.
    We are now estimating what those requirements will be in 
close contact with the Medicare contractors. We are looking at 
all of our internal resources to determine where we can 
reprogram money or reallocate money, and if there is, indeed, a 
need for additional money, as I said, we are working right now 
with the Office of Management and Budget and we will work with 
the committee forthwith in that regard. I can't give you a 
definitive number now, but we are working on that very closely.
    Mr. Porter. Thank you, Dr. Callahan.

           impact of year 2000 on disability case processing

    Mr. Dyer, the current cycle time for an adminstrative law 
judge (ALJ) decision in a disability case is about 600 days or 
nearly 2 years. The agency has not made much progress in 
decreasing cycle time in the last 5 years.
    How is the agency going to ensure that this cycle time does 
not increase as a result of the Year 2000 transition? Do you 
anticipate any scenario in which the cycle time could get 
worse?
    Mr. Dyer. Mr. Chairman, we don't see any problems with 
processing decisions from the system support perspective at 
all. The kind of software that we are developing to help with 
that is in place, it is working, and we will have it in Year 
2000 compliant. Some of the future initiatives we have really 
don't take effect until after the Year 2000, so we think that 
we are okay on that score.

                           contingency plans

    Mr. Porter. I understand that the agency is working to 
ensure that benefit payments will be accurate and on time, but 
given the sensitive nature of the task, have you established a 
plan to deal with media and public reaction in the event that 
payments are held up?
    Mr. Dyer. Yes. Part of our contingency plan would be that 
we would figure out how we would get them (or payments) out. 
We, as you know, now have contingency plans for such events 
when checks fail to go out or something goes wrong and we are 
going to be updating those and making sure that they are very 
current so that if we have to use them, we can put those plans 
into place.
    Mr. Porter. Well, again, if I can emphasize to all of you 
as I did with the first panel, we don't want any of you to be 
in the newspaper, or any of the other agencies who are not at 
the table but are represented in the room. Obviously, this is a 
serious problem. We take it seriously. We know that you do. We 
know the IGs are working with you to ensure that there aren't 
problems come the Year 2000, and hopefully, with a good deal of 
pressure to bear on the situation, not only the agencies and 
departments of the Federal Government, but also the external 
contractors and agencies that you deal with will also be 
compliant. Thank you all for appearing here today.
    [The following questions were submitted to be answered for 
the Record:]





[Pages 931 - 1980--The official Committee record contains additional material here.]















                           W I T N E S S E S

                              ----------                              
                                                                   Page
Callahan, John...................................................   754
Cantu, N.V.......................................................   647
Cichowski, C.A...................................................   299
Cichowski, C.A...................................................   385
Cichowski, C.A...................................................   477
Corwin, T.M......................................................   437
Corwin, Thomas...................................................   151
Davidson, R.H....................................................   555
Davidson, Robert.................................................   253
Davila, R.R......................................................   299
Dickman, M.J.....................................................   715
Dyer, J.R........................................................   913
Elzey, Thomas....................................................   253
Forgione, P.D., Jr...............................................   477
Garibaldi, Antoine...............................................   253
Hehir, T.F.......................................................   385
Heumann, J.E.....................................................   299
Heumann, J.E.....................................................   385
Higgins, J.P., Jr................................................   708
Jordan, I.K......................................................   299
Lattimore, P.W...................................................   737
Longanecker, D.A.................................................   555
Malveaux, Floyd..................................................   253
Masten, C.C......................................................   687
McLaughlin, M.A..................................................   555
McNamara, S.A....................................................   521
McNeil, P.W......................................................   437
Pompa, Delia.....................................................   151
Prieto, C.R......................................................   555
Riley, R.W.......................................................    15
Rodriguez, R.F...................................................   299
Rogers, D.E......................................................   555
Rose, R.T........................................................   908
Roslewicz, T.D...................................................   696
Schroeder, F.K...................................................   385
Seabrooks, R.G...................................................   521
Seelman, K.D.....................................................   385
Skelly, T.P......................................................    15
Skelly, T.P......................................................   151
Skelly, T.P......................................................   385
Skelly, T.P......................................................   437
Skelly, T.P......................................................   477
Skelly, T.P......................................................   521
Skelly, T.P......................................................   555
Smith, M.S.......................................................   897
Swygert, H.P.....................................................   253
Takai, R.T.......................................................   477
Thompson, W.S....................................................   299
Tinsley, Tuck, III...............................................   299
Tirozzi, G.N.....................................................   151
Van Riper, D.G...................................................   521
Williams, D.C....................................................   719













                               I N D E X

                              ----------                              

                        DEPARTMENT OF EDUCATION
                         Secretary of Education

                                                                   Page
Accountability for achieving performance goals...................   128
Adolescents' connection to school, family, and community.........   121
Adult education and lifelong learning............................   134
After-school programs............................................54, 56
After-school learning centers....................................    71
America reads challenge..........................................    78
American student performance on TIMSS............................    62
Anti-violence television messages................................    54
Application on NICHD research findings on reading................    94
Assessment of magnet schools.....................................   139
Bilingual education:
    Effectiveness of bilingual education.........................    60
    Funding increase.............................................    60
    Local choice in bilingual programs...........................    60
    Rescission...................................................    47
Biography of Richard W. Riley....................................    28
Block grants and accountability..................................    68
Changes to the strategic plan....................................   127
Charter schools and the District of Columbia.....................    95
Charter school and magnet school funding.........................   139
Charter schools and voucher systems..............................    63
Charter schools national activities funds........................    95
Class size initiative matching requirements......................    51
Class size reduction and teacher training initiative.............42, 50
Classroom size and improved teacher quality......................   134
Closing remarks..................................................    70
Comprehensive school reform program.................18, 43, 51, 69, 123
Construction regulations.........................................   120
Davis-Bacon Act..................................................   120
Decline in mathematics performance...............................    91
Direct Loans:
    Marketing....................................................   101
    Quick start program..........................................   102
    School participation by State................................   102
Disconnected youth...............................................    17
Divergent approaches to educational change.......................    49
Dollars to the classroom.........................................    79
Drug and violence prevention coordinators........................   105
Early childhood development--Mississippi Delta Region............    44
Early invention and special education competitions...............   108
Easter seal......................................................   107
Educational technology.....................................89, 100, 138
    Coordination of Federal technology activities................    88
    Data on technology programs..................................    90
    National leadership activities...............................    87
    Teacher training in technology...............................    86
    Technology ``Think Tank'' activities.........................    88
Education opportunity zones.....................................18, 141
Education reform GPRA indicators.................................    73
Education reform performance goals...............................    72
Education regulations--financial aid.............................   122
Educator professional development................................   146
Eisenhower programs..............................................   145
Electronic FAFSA.................................................    34
Eliminating program duplication and fragmentation................    84
Employee support for performance goals...........................    84
Employer support for parent involvement..........................    59
Estimated effect of FY 1999 Senate budget resolution.............    36
Excessive overhead in education programs.........................   130
Federal coordination of early childhood strategic plans..........    83
Federal targeting of education funds.............................    66
Federal TRIO programs...........................................46, 136
Federal TRIO program erosion.....................................   110
Federal investment in education..................................    64
Fiscal Year 1999 budget request..................................    17
Fiscal Year 1999 budget themes...................................    18
Flexibility in Federal funding...................................    67
Full-service community schools.................................142, 143
Funding new initiatives versus proven programs...................    59
GAO high risk list...............................................   133
GAO review of compliance with Congressional Review Act...........   149
Goals 2000.......................................................   106
Gun-Free Schools Act.............................................    16
Hate crime prevention grants.....................................   111
Healing the Hate, a national bias crime prevention curriculum for 
  middle schools.................................................   112
Higher expectations and standards needed.........................    65
Historically black colleges and universities.....................   137
Impact of budget resolution on education programs................    35
Impact aid budget proposal.......................................    71
Increasing the flow of funds to the classroom....................    80
Individuals with Disabilities Education Act--teacher training....   119
Innovative education strategies program..........................   107
Local flexibility of choice......................................    48
Magnet schools academic achievement..............................    82
Mott Foundation support for after-school programs................    57
Multiplicity of education programs...............................   128
NAEP score increases and performance indicators..................    92
National academy of sciences study...............................    61
National testing:
    Fiscal Year 1997 funds spent on the voluntary national tests.    93
    Fiscal Year 1998 funds spent on the voluntary national tests.    94
    National testing debate......................................   109
    Spending on the voluntary national tests....................93, 109
    Voluntary testing............................................    45
Need tougher courses earlier in school...........................    63
Opening remarks of ranking minority member.......................    35
Opening statement of Secretary Riley.............................    19
Parental responsibility and involvement..........................    58
Percentage of FFEL & FDLP volume by State in fiscal years FY94-
  FY97...........................................................   103
Performance goals................................................   124
Performance indicators for similar programs......................   129
Performance plan addresses GAO and OIG audit findings............   126
Performance plan timetable for Year 2000 issues..................   132
Procedural changes to rules development resulting from the 
  Congressional Review Act.......................................   149
Program effectiveness............................................    85
Proposed fiscal year 1999 program initiatives....................   115
Proposed initiatives respond to needs identified by States and 
  localities.....................................................   115
Reading and math achievement as measured by NAEP.................    73
Reading and math achievement goals for 1999-2000.................    73
Reading approaches used in America reads initiative..............    79
Reauthorization of NAEP and NAGB.................................    92
Regulations reduction............................................    33
Regulatory burden--impact of college costs.......................    33
Reliability of performance data..................................   125
Research initiative:
    Department of Education and National Science Foundation 
      partnership................................................    99
    Federal investment in research initiative....................    99
    Interagency research initiative..............................49, 97
    Research methodologies and management techniques.............    97
    Participants and potential research areas....................    98
Research on math and science learning............................   118
Resources expanded for the rules development process.............   148
Revisionist history..............................................   113
Role of expectations in student achievement......................    62
Safe and drug-free schools programs--effectiveness...............   104
Safe and drug-free schools programs--evaluation..................   105
Savings for school districts.....................................   120
School construction--prevailing wage rates.......................   119
School violence:
    Anti-violence television messages............................    54
    Finding lessons and remedies.................................    53
    Finding solutions............................................    55
    Gun-Free Schools Act.........................................    16
    Hate crime prevention grants.................................   111
    Healing the Hate, a national bias crime prevention curriculum 
      for middle schools.........................................   112
    Jonesboro, Arkansas shooting.............................15, 43, 47
    National statistics..........................................16, 30
    Preventing school violence...................................    16
    Preventing youth hate crime, a manual for school and 
      communities................................................   112
    Targeting funds to problem schools...........................    29
    Urban and rural problem......................................    55
    Violence prevention programs.................................    53
    Violence in schools..........................................    31
    Youth violence...............................................    29
School construction..............................................   140
School-to-work.................................................109, 143
School-to-work goals.............................................   144
Secretary Riley's opening remarks................................    15
Similarities between existing and proposed programs..............   117
Special education................................................    67
Star schools ``Think Tanks''.....................................    88
Student loan scam................................................   104
Student aid increases--impact on access and tuition..............    32
Survey of school principals......................................    16
Teacher training in reading......................................   117
Teacher preparation..............................................   147
Teachers teaching out of field...................................    63
Teaching tolerance...............................................   114
Teaching children with disabilities to read......................   147
The workforce....................................................   135
Third international math and science study......................61, 133
Top-down versus bottom-up education funding approach.............    65
UNZ initiative...................................................    48
Use of appropriations language and authorization process to 
  increase flow of funds to the classroom........................    81
White House conference on Hate crimes............................   111
Whole school reform demonstrations...............................    56
Witnesses........................................................    15
Violence prevention programs.....................................    53
Violence in schools..............................................    31
Year 2000 computer problem.......................................   131
Youth violence...................................................    29

    Elementary and Secondary Education and Bilingual and Immigrant 
                               Education

Achievement measures for native children.........................   214
African-American student population..............................   198
After-school programs............................................   186
America reads challenge.......................................225, 1239
Bilingual teacher shortage......................165, 179, 197, 206, 223
Bilingual rescission.............................................   178
Bilingual research...............................................   178
Bilingual performance standards..................................   174
Biographical sketch of Gerald N. Tirozzi.........................   162
Biographical sketch of Delia Pompa...............................   172
Block grant proposals............................................   243
California bilingual initiative..................................   173
Charter schools..................................................   250
Choice and accountability........................................   160
Class size reduction.................................156, 183, 225, 239
Clearinghouse for bilingual education............................   222
Congressional justifications:
    America reads challenge......................................  1239
    Bilingual and immigrant education............................  1273
    Education for the disadvantaged..............................  1024
    Education reform.............................................   955
    Impact aid...................................................  1090
    Indian education.............................................  1251
    School improvement programs..................................  1139
Core curriculum..................................................   157
Different bilingual methods......................................   164
Education opportunity zones..............................218, 240, 1230
Effectiveness of bilingual programs........166, 173, 179, 184, 194, 196
Eisenhower professional development state grants...............153, 159
Exemplary bilingual projects.....................................   166
Flexibility and accountability.................................154, 214
Full-service schools.............................................   191
Goals 2000 parental assistance...................................   976
Goals 2000.....................................................242, 971
Hmong and Laotian refugees.......................................   183
Improving classroom instruction..................................   159
Indian education.................................................   212
Individuals with disabilities education act--teacher training....   228
Interagency collaboration........................................   192
Interagency working group on math standards......................   251
Language minority students.......................................   199
Limited English proficient.....................................169, 224
Magnet schools.................................................210, 249
National academy of sciences..............................165, 196, 197
New immigrant students...........................................   224
Outlays for technology...........................................   215
Oversight of bilingual projects..................................   174
Overall budget request...........................................   152
Partnerships.....................................................   154
Poverty and achievement..........................................   199
Principles of the Improving America's Schools Act................   152
Prevailing wage..................................................   180
Reinventing government...........................................   193
Safe and drug-free schools program.............................160, 220
School construction........................156, 175, 179, 185, 203, 239
School-to-work opportunities.....................................   204
Standards and alignment..........................................   153
State and local reform...........................................   158
Statement by Delia Pompa.........................................   168
Statement by Gerald N. Tirozzi...................................   156
Targeting and equity.............................................   154
Teacher training in technology...................................   207
Teacher education................................................   201
Teachers' salaries...............................................   201
Teaching-learning................................................   153
Technology literacy challenge fund.............................248, 988
Technology innovation challenge grants...........................   994
Technology programs..............................................   233
Third international mathematics and science study (TIMSS).....151, 153, 
                                                          201, 227, 247
Title I, education for the disadvantaged:
    Comprehensive school reform demonstrations.................228, 230
    Even start...................................................   232
    New programs duplication.....................................   232
    Targeting to the poorest schools and communities.............   242
    Transition to school demonstrations...................217, 220, 232
    Training and equity..........................................   154
Two-way bilingual programs.....................................165, 199
Vouchers.......................................................200, 245
Whole mathematics instruction....................................   238

                           Howard University

Alumni participation.................................283, 284, 286, 289
Biographical sketch of H. Patrick Swygert........................   265
Budget request...................................................   295
Community service................................................   295
Congressional Justification......................................  1779
Coordination of GPRA plans with special institutions and service 
  academies......................................................   292
Direct student loan..............................................   288
Distance learning................................................   285
District of Columbia Public Schools..............................   270
Employment.......................................................   286
Endowment............................................268, 276, 292, 293
Enrollment.......................................................   287
Faculty salaries...............................................267, 293
Federal funding..................................................   290
Graduation rates...............................................278, 281
Howard University Hospital.....................................286, 288
Human Genome Research Project....................................   266
Increasing fiscal independence...................................   284
Kudos.....................................................271, 276, 277
LeDroit Park Initiative...................................268, 293, 294
Merit pay system.................................................   266
Opening statement................................................   253
Petition.........................................................   293
Request for dorms and salary compression.......................272, 274
Retention......................................................280, 291
SAT scores.....................................................282, 283
Strategic Framework for Action.................................269, 286
University research grants.......................................   271
Witnesses........................................................   253

           Special Institutions for Persons with Disabilities

American Printing House for the Blind:
    Advisory services............................................   328
    Educational and technical research...........................   329
    Funding priorities...........................................   378
    Initiatives..................................................   325
    Non-appropriated revenue.....................................   373
    Number of blind students served by APH.......................   373
    Process for brailling textbooks..............................   376
    Revenue table................................................   348
    Student use initiative.......................................   377
    Ten-year table of revenues by source.........................   372
Basis for the Department's budget request........................   382
Biographical Sketches:
    I. King Jordan...............................................   315
    Judith E. Heumann............................................   307
    Robert R. Davila.............................................   324
    Tuck Tinsley III.............................................   331
Budget constraints.............................................332, 336
Congressional Justifications:
    American Printing House for the Blind........................  1471
    National Technical Institute for the Deaf....................  1486
    Gallaudet University.........................................  1506
Department of Education Monitoring Activities....................   305
Education of the Deaf Act........................................   303
Endowment Grant program..........302, 305, 313, 322, 362, 369, 370, 371
Fiscal year 1999 budget request............302, 304, 314, 319, 334, 382
Gallaudet University:
    Accomplishments..............................................   309
    Funding priorities...........................................   381
    Increases in tuition and fees................................   370
    Precollege national mission program priorities.............312, 379
    Relationship with business groups............................   380
    Revenue tables...............................................   352
    Sale of Gallaudet's Northwest Campus.........................   370
    Technology and individuals who are deaf......................   308
    Ten-year history of Gallaudet's Endowment Grant program......   369
    Vision Implementation Plan...................................   368
Increasing financial independence..............................346, 349
Mechanics of sign language.......................................   332
National Technical Institute for the Deaf:
    Career development...........................................   312
    Cost savings from implementation of the NTID strategic plan..   361
    Dormitory chargeback arrangement with RIT....................   363
    Earnings parity and earnings growth of NTID Graduates........   339
    Enrollment.................................................321, 366
    First-year retention.........................................   360
    Funding priorities...........................................   382
    Fund raising costs and revenues..............................   358
    Fund raising agreement with RIT..............................   357
    Graduation rate............................................338, 364
    Outreach activities........................................322, 381
    Percentage of Federal support................................   366
    Placement rates............................................338, 365
    Research.....................................................   322
    Research conducted with the Social Security Administration...   359
    Retention....................................................   338
    RIT bond issue...............................................   368
    Strategic Plan...............................................   320
    Student achievements.......................................317, 312
    Tuition, room, and board revenues..........................364, 366
Opening Statements:
    I. King Jordan...............................................   308
    Judith E. Heumann............................................   302
    Robert R. Davila.............................................   316
    Tuck Tinsley III.............................................   325
Original budget requests from each institution...................   355
Performance measures:
    APH's performance plan.....................................341, 346
    Department involvement in developing targets.................   373
    Gallaudet's plan.............................................   340
    GPRA targets.................................................   333
    GPRA updates...............................................303, 355
Remarks by the Honorable Ray LaHood..............................   299
Remarks by the Honorable Anne M. Northup.........................   300
Remarks by the Honorable Louise M. Slaughter.....................   300
Witnesses........................................................   299

           Vocational and Adult Education and School-to-Work

Adult education..................................................   439
    Adult literacy rates.........................................   462
    Adult literacy and welfare reform............................   474
    National programs investments................................   439
Biographical sketch of Patricia W. McNeil........................   446
Career choice and school-to-work.................................   453
Challenge of educating students for a high-tech society..........   443
Challenge of literacy for the complex society and the new economy   444
Congressional Justifications:
    Education reform.............................................   955
    Vocational and adult education...............................  1524
Coordination of vocational education research....................   451
Education for all students.......................................   455
Government Performance and Results Act...........................   439
    Accountability for results...................................   441
    Indicators...................................................   447
    Ensuring employee understanding of Results Act goals.........   464
    Results Act measures.........................................   437
Hispanic education initiative....................................   458
Improving academic performance of high school students...........   470
Integrating vocational and academic course work..................   458
Life-long learning and school-to-work............................   450
Math and science and vocational education........................   465
National Center for Research in Vocational Education.............   448
Opening statement................................................   438
Peer review......................................................   464
Proprietary schools..............................................   460
Reauthorization of vocational education programs.................   464
Recommendations for Perkins Act Reauthorization..................   474
Resources for assisting welfare recipients.......................   462
School-to-Work...................................................   438
    Career choice and school-to-work.............................   453
    Goals........................................................   449
    Life-long learning and school-to-work........................   450
    Mission......................................................   449
    Tech-prep and school-to-work.................................   451
    Vocational education and school-to-work for all students.....   456
State grants.....................................................   472
Tech-prep education............................................466, 472
    Exemplary tech-prep programs.................................   454
    Funding request..............................................   460
    Tech-prep and school-to-work.................................   451
Technical skills attainment......................................   450
Vocational and adult education funding...........................   469
Vocational education.............................................   438
Vocational education and school-to-work for all students.........   456
Welfare reform and basic skills..................................   460
Witnesses........................................................   437

 Special Education and Rehabilitation Services and Disability Research

Biographical sketch of Judith E. Heumann.........................   389
Casey Martin case................................................   403
Congressional justifications:
    Rehabilitation services and disability research..............  1385
    Special education............................................  1302
Employment of persons with disabilities, Executive Order.........   433
Federal Interagency Coordinating Council (FICC)..................   432
Opening statement................................................   389
Parent and client assistance.....................................   402
Rehabilitation services and disability research:
    Budget request.............................................387, 389
    Client assistance program....................................   400
    National Institute on Disability and Rehabilitation Research. 
                                                               388, 428
    Protection and advocacy for individual rights................   435
    Special demonstrations performance measures..................   408
    Vocational rehabilitation State grants, funding............405, 424
    Vocational rehabilitation State grants, outcome measures.....   410
Special education:
    Access to education and litigation...........................   431
    Assessment of children with disabilities and accountability..   414
    Budget politics..............................................   398
    Budget priorities............................................   400
    Budget request.............................................386, 389
    Discipline, disruptions......................................   418
    Easter Seals.................................................   413
    Excess costs for children with disabilities, Federal share...   411
    Grants for infants and families............................399, 401
    Grants to States.............................................   395
    Mandates.....................................................   397
    Minority students in special education.......................   426
    National activities..........................................   403
    Office for Civil Rights, coordination........................   402
    Personnel preparation and professional development....404, 412, 415
    Phoneme research.............................................   421
    Preschool children...........................................   401
    Preschool grants......................................399, 420, 427
    Research and innovation, coordination........................   409
    State improvement program....................................   422
    Technical assistance and dissemination.......................   421
Technology services for the disabled...........................407, 434
Witnesses........................................................   385

             Office of Educational Research and Improvement

Assessing program performance:
    National dissemination activities............................   504
    National Board for Professional Teaching Standards...........   505
    National research centers....................................   502
    National research institutes.................................   510
    OERI.........................................................   480
    Regional educational laboratories............................   503
    Role of NCES in measuring performance........................   490
    Technical assistance programs................................   488
Before and after-school programs...........479, 485, 492, 500, 507, 516
Biographical sketch of Ricky T. Takai............................   487
Class size initiative............................................   519
Clearinghouse on school facilities (ERIC)........................   514
Community-based technology centers.............................479, 518
Comprehensive school reform...............................489, 498, 508
Congressional Justifications:
    Education Reform.............................................   955
    Education Research, Statistics, and Improvement..............  1811
Early childhood development research...........................511, 516
Educational reform models.................................489, 499, 509
Educational technology programs..................................   479
Eisenhower professional development Federal activities...........   479
Eisenhower regional mathematics and science consortia............   508
Field-initiated studies..........................................   515
Governing boards of regional educational laboratories............   506
Interagency research initiative.................478, 481, 493, 497, 507
Mathematics achievement..........................................   495
Mathematics instruction.........................479, 484, 496, 513, 517
National Educational Research Policy and Priorities Board......502, 507
National research institutes.....................................   510
National Assessment Governing Board and national testing.........   504
Opening statement................................................   477
Peer review:
    OERI.........................................................   496
    National Center for Education Statistics.....................   491
Professional development in technology.........................479, 484
Research and development:
    Block grant proposals........................................   506
    Budget request...............................................   481
    Early childhood development................................511, 516
    Federal investment in........................................   495
    Field-initiated studies......................................   515
    Interagency research initiative.............478, 481, 493, 497, 507
    National Educational Research Policy and Priorities Board......502, 
                                                                    507
    National research institutes.................................   510
    Teacher certification........................................   505
    Voucher programs.............................................   519
Statistics and Assessment......................................478, 483
Technology for disadvantaged students..........................479, 518
21st century community learning centers....479, 485, 492, 500, 507, 516
Voucher programs.................................................   519
Witnesses........................................................   477

                      Office of Inspector General

Accounting for Early Childhood Development Grant Funds...........   533
Assessing Multiple Overlapping Programs..........................   552
Assessment of GPRA Compliance by Education.......................   538
Assessment of OIG Performance Under GPRA.........................   549
Assessment of Safe and Drug Free Schools and Communities Program. 
                                                               534, 536
Audit of Office for Civil Rights.................................   547
Audit Work on Federal School Drug Programs.......................   535
Biographical Sketch of Steven A. McNamara........................   532
Congressional Justification......................................  1964
Consolidated Financial Statements................................   551
Deficiencies in Education's Financial and Accounting Systems.....   548
Education Progress on Computer Systems Integration...............   541
Education's Audited Financial Statement..........................   547
Financial Statement Audit Not Yet Issued.........................   522
FY 1999 Budget Request...........................................   524
FY 1999 Priorities...............................................   528
Higher Education Act Recommendations by OIG......................   544
Management Challenges............................................   553
Mississippi Special Education Funds..............................   534
OIG Accomplishments..............................................   522
OIG Fiscal Year 1999 Focus on Systemic Improvement...............   522
OIG Role in Enforcing Civil Rights Laws..........................   548
Opening Statement................................................   521
Purpose of Operations............................................   524
Reauthorization of the Higher Education Act......................   542
Report on Collections and Funds Put to Better Use................   540
Statistical Summary..............................................   531
Strategic Plan and Recent Accomplishments........................   525
Student Financial Aid............................................   552
Supplement-Supplant Rules........................................   549
Witnesses........................................................   521
Year 2000 Compliance:
    Audit of Year 2000 Computer Systems Readiness................   536
    Subcommittee Hearing on the Year 2000 Issue..................   537
    Year 2000 Compliance of Outside Entities.....................   538

                    Postsecondary Education Programs

Access and retention innovation..................................   640
Accountability...................................................   564
Administration's budget and reauthorization proposals............   556
Administration's commitment to graduate education................   558
Consistency of administration's proposals........................   593
Affordable child care for students...............................   576
America reads....................................................   573
Byrd honors scholarships.........................................   618
Class size reduction initiative................................575, 580
College preparedness proposals...................................   556
Congressional Justifications:
    College Housing and Academic Facilities Loans................  1792
    Federal Administration of Postsecondary Education............  1660
    Federal Family Education Loans...............................  1677
    Higher Education.............................................  1687
    Historically Black College and University Capital Financing..  1801
    Student Financial Assistance.................................  1577
    Student Loans Overview.......................................  1633
Default rate goals...............................................   584
Direct loans:
    List of year-4 and year-5 FDSL schools.......................   627
    Marketing....................................................   632
    Participation by State.......................................   632
    Participation costs..........................................   600
    Participation rates..........................................   585
    Quick start program..........................................   632
    Repayment and default data for FFEL and FDSL.................   616
Distance learners/lifelong learning............................564, 602
Early awareness Information......................................   557
Educational opportunity centers' effectiveness...................   606
Employment rates of recipient and nonrecipients..................   584
Exemption from audit requirements for small lenders..............   602
Financial responsibility regulations.............................   587
Foreign language and area studies fellowships--evaluation results   604
Government Performance and Results Act (GPRA) baseline data......   582
GPRA default rate targets........................................   599
GPRA targets needed for specific performance indicators..........   582
Graduate education...............................................   645
    Graduate assistance in areas of national need..............607, 608
    Graduate program awards......................................   602
    Percentage of minority participants in GAANN.................   607
HBCU funding increase............................................   580
HBCU's...........................................................   634
Help low income students prepare for and succeed in college......   560
High hopes for college.........................................557, 570
High hopes for college program and TRIO program interaction......   579
Improving teaching...............................................   635
Institute for International Public Policy......................617, 638
Integration of student aid systems.............................589, 590
Lighthouse Partnerships..........................................   587
Loan limit flexibility...........................................   643
Make college more affordable.....................................   562
Mathematics instruction..........................................   634
Minority teacher recruitment program.............................   603
Minority teacher recruitment grantees............................   617
Modernization efforts............................................   558
Opening statement................................................   555
Pell Grants......................................................   638
    Authorization................................................   566
    Cap on eligibility...........................................   644
    Increase...................................................557, 576
Perkins Loans....................................................   637
    Administrative authority to terminate eligibility............   616
    Schools with default rates of 25% or higher..................   608
    Schools that would be ineligible under FFEL criteria.........   616
    SEOG and Perkins Loans programs support......................   566
Philosophy of postsecondary education policy.....................   594
Postsecondary performance indicators.............................   601
Proposal for new programs........................................   585
Ronald E. McNair Program.........................................   578
School-college partnerships......................................   593
Student Loans:
    Default rate goals...........................................   584
    Interest rate................................................   639
    Loan scam....................................................   634
    Proposals....................................................   558
    Repayment and default data for FFEL and FDSL.................   616
Student aid management improvements..............................   588
Student aid management systems...................................   598
SEOG and Perkins loans programs support..........................   566
Teacher recruitment............................................574, 577
Teacher recruitment and professional development.................   581
Teaching pipeline................................................   637
Title III grantees...............................................   618
Title III program evaluation...................................601, 602
Title V reauthorization..........................................   642
TRIO:
    Administration's focus on TRIO...............................   579
    Evaluation.................................................580, 604
    High hopes for college program and TRIO program interaction..   579
    Increase.....................................................   557
Urban Community Service..........................................   617
Witnesses........................................................   555
Work-study program...............................................   567
    Community service waivers....................................   573
    Recipients...................................................   568
Year 2000 compliance......................................568, 571, 596
Youth offender grants proposed termination.......................   591

                        Office for Civil Rights

Accountability and results.......................................   652
Affirmative action in higher education...........................   684
Assessment.......................................................   670
Automated case tracking system...................................   674
    Case processing time.........................................   675
Background of the Assistant Secretary............................   667
Balanced enforcement program serving students....................   651
Bilingual education............................................659, 678
    Denver's bilingual education program.........................   665
    Determining limited English proficiency......................   661
    OCR's definition of limited English proficient...............   660
    Primary or home language other than English..................   660
Biographical sketch of Norma V. Cantu............................   658
California's assessment test.....................................   671
Complaint receipts by category...................................   657
Complaint receipts and resolutions...............................   656
Conflict of interest.............................................   666
Congressional justification......................................  1946
Coordination among civil rights enforcement agencies.............   668
Denver's bilingual education program.............................   665
English-only initiative..........................................   671
Gifted and talented programs.....................................   669
Higher education desegregation...................................   686
Looking to the future............................................   653
Minorities in special education/gifted and talented programs.....   679
OCR workload.....................................................   681
OCR hiring.......................................................   684
Opening statement................................................   647
Organizational structure.........................................   673
Parental involvement.............................................   663
Performance awards...............................................   676
Performance indicators...........................................   672
Printing budget..................................................   675
Productivity measures............................................   676
Technology budget................................................   677
Travel costs.....................................................   674
Witnesses........................................................   647

                          Year 2000 Compliance
                   (Department of Education Portion)

A Framework for Change...........................................   900
Assessment of the Department's Progress..........................   710
Audit Findings...................................................   711
Biographical Sketch of:
    John P. Higgins, Jr..........................................   714
    Marshall S. Smith............................................   907
Compliance of the Student Aid Systems............................   735
Concerns about Year 2000 Compliance of Data Exchange Partners....   925
Dealing with State and County Governments........................   945
Departmental Efforts to Address Year 2000 Concerns...............   944
Impact of Year 2000 Problem......................................   943
International Collaborative Efforts..............................   944
Media and Public Relations Plan..................................   943
Modernizing Student Aid Delivery Systems.........................   903
1999 Management Request..........................................   906
Obstacles to Completion..........................................   712
Opening Statement:
    John P. Higgins, Jr..........................................   708
    Marshall S. Smith............................................   897
Renovation Work..................................................   941
Requests for New Legislative Authority...........................   922
The Year 2000 Problem............................................   901
Using Technology to Improve Financial Management.................   905
Validation Schedule..............................................   941
Waivers for Legislative Requirements.............................   927
Will the Department be Ready?....................................   712
Outreach Efforts.................................................   898
Project Management Plan..........................................   897
Congressional Justifications:
    Salaries and Expenses Overview...............................  1908
    Program Administration.......................................  1930

                          DEPARTMENT OF LABOR
                      Office of Inspector General

Assisting States to Achieve Compliance...........................   731
Challenges Posed by Year 2000....................................   688
Conclusion.......................................................   689
DOL Progress in Addressing Problem...............................   730
DOL's Year 2000 Readiness........................................   689
Ensuring Year 2000 Compliance....................................   688
Obstacles that Hinder Progress...................................   689
OIG Concerns.....................................................   688
OIG Monitoring of DOL Progress...................................   688
Opening Statement................................................   687
Reallocation of OIG Resources..................................729, 731
Year 2000 Compliance by States...................................   931

         Assistant Secretary for Administration and Management

Concerns About Year 2000 Compliance of Data Exchange Partners....   925
Contingency Plans..............................................739, 933
FY 1999 Funding for Year 2000 Computer Issue.....................   934
Independent Validation and Verification..........................   925
International Data Exchanges.....................................   935
Opening Statement................................................   737
Progress in Meeting Year 2000 Computer Changes...................   934
Reprogramming Authority for Year 2000 Issue......................   935
Secretarial Priority.............................................   738
Seriousness of Year 2000 Computer Problem........................   933
State Systems....................................................   738
State Unemployment Insurance Systems.............................   924
Year 2000 Compliance by States...................................   935

 CONSOLIDATED MANAGEMENT--INSPECTOR GENERAL--DEPARTMENT OF HEALTH AND 
                             HUMAN SERVICES

Assisting States to Achieve Compliance...........................   731
Compliance of the Student Aid Systems............................   735
Concluding Statement.............................................   885
Consolidated Management Testimony..............................886, 892
    Accountability Report........................................   887
    Anti-Fraud Activities........................................   894
    Biomedical Equipment Outreach Activities.....................   890
    CFO Audit....................................................   894
    Debt Collection..............................................   895
    Government Performance and Results Act.......................   893
    Grants and Procurement.......................................   895
    HCFA Administration Challenges...............................   889
    Human Resources..............................................   895
February Quarterly Report:
    ACF..........................................................   776
    AHCPR........................................................   790
    AOA..........................................................   795
    CDC..........................................................   800
    FDA..........................................................   827
    HCFA.........................................................   832
    HHS..........................................................   735
    HRSA.........................................................   844
    IHS..........................................................   848
    NIH..........................................................   856
    OIG..........................................................   861
    OS...........................................................   863
    PSC..........................................................   867
    SAMHSA.......................................................   880
HCFA Systems.....................................................   733
New Legislative Authority........................................   922
Opening Statement..............................................696, 754
Re-Allocation of OIG Resources...................................   731
RRB Systems Testing..............................................   736
States Year 2000 Compliance......................................   730
Witness..........................................................   754
Written Testimony................................................   698
Year 2000:
    Conversion Costs for.........................................   938
    Date Compliance..............................................   772
    Data Exchanges for...........................................   940
    Efforts...............................................756, 888, 892
    Medicare Contractors Compliance Problem....................922, 929
    Outreach Efforts for.........................................   937
    Questions and Answers........................................   937

       INSPECTOR GENERAL--DEPARTMENT OF HEALTH AND HUMAN SERVICES

Assisting States to Achieve Compliance...........................   731
Compliance of the Student Aid Systems............................   735
HCFA Systems.....................................................   733
Opening Statement................................................   696
Re-Allocation of OIG Resources...................................   731
RRB Systems Testing..............................................   736
States Year 2000 Compliance......................................   730
Written Testimony................................................   698

                     SOCIAL SECURITY ADMINISTRATION

Biography of John R. Dyer, Principal Deputy Commissioner of the 
  Social Security Administration.................................   920
Contingency Plans................................................   930
Impact of Year 2000 on Disability Case Processing................   929
Internal Concerns of Year 2000...................................   951
Introduction of Witness..........................................   913
Opening Statement................................................   913
Plan to Deal with Year 2000 Disruptions..........................   949
Public Awareness of the Year 2000 Problem........................   950
State and County Governments and the Year 2000...................   952
Status of Year 2000 Systems Problem at SSA.......................   950
Year 2000:
    Contingency Plans............................................   930
    Impact on Disability Case Processing.........................   929
    International Concerns.......................................   951
    Plan to Deal with Disruptions................................   949
    Public Awareness.............................................   950
    State and County Governments.................................   952
    Status of Systems Problem at SSA.............................   950

                          YEAR 2000 TESTIMONY

Automated Systems................................................   722
Central Coordinating Agency......................................   731
Congressional Support............................................   731
Contingency Planning.............................................   723
    DDS Contingency Plan.........................................   728
    High-Level Business Continuity and Contingency Plan..........   724
    Testing Financial Institutions...............................   727
Corporate Compliance.............................................   727
Data Exchange....................................................   723
    Interaction With Treasury and Federal Reserve................   726
    Inventory of Data Exchanges..................................   723
    SSA's Partners...............................................   724
    Wage Reporting Data Exchange.................................   727
Direct Deposit...................................................   730
    Banking and Financial Institutions...........................   726
    Testing......................................................   730
DDS Interface....................................................   723
    DDS Data Exchanges...........................................   727
    DDS Full Compliance..........................................   723
First Problems...................................................   722
GAO Report.......................................................   722
Obstacles........................................................   724
    Analysts and Programmers.....................................   725
    SSA's Partners...............................................   724
    Test Facility................................................   724
States' Compliance...............................................   728
Strategy to Update Databases.....................................   722
System Compliance................................................   726
Wage Reporting...................................................   728

         RAILROAD RETIREMENT BOARD--YEAR 2000 COMPUTER PROBLEM

Compliance:
    Assisting States to Achieve..................................   731
Coordination:
    International..............................................730, 947
    State and Local Governments..................................   948
Data Exchange:
    External Organizations, with.................................   726
    States, with the.............................................   923
Electronic Funds Transfer........................................   923
Media Plan.......................................................   946
RRB Systems Testing..............................................   736
Remarks:
    Martin J. Dickman, Inspector General.........................   715
    Robert T. Rose, Chief Information Officer....................   908
Statement of:
    Martin J. Dickman, Inspector General.........................   717
    Robert T. Rose, Chief Information Officer....................   910
Year 2000 Problem:
    Addressing the...............................................   947
    Severity of..................................................   946

                                <all>
</pre></body></html>
